<html>
<title> - COMMITTEE ON APPROPRIATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                  HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                    ___________________________________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                     JOHN R. CARTER, Texas, Chairman

  JOHN ABNEY CULBERSON, Texas			LUCILLE ROYBAL-ALLARD, California
  RODNEY P. FRELINGHUYSEN, New Jersey		DAVID E. PRICE, North Carolina
  CHARLES J. FLEISCHMANN, Tennessee		HENRY CUELLAR, Texas
  ANDY HARRIS, Maryland				MARCY KAPTUR, Ohio
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa


NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               Valerie Baldwin, Kris Mallard, Laura Cylke,
                    Christopher Romig, and Anne Wake,
                             Staff Assistants

                      ___________________________________

                                  PART 2
                                  
                        DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
  U.S. Department of Homeland Security..
                                                                      1
  U.S. Customs and Border Protection....
                                                                    113
  Transportation Security Administration
                                                                    173
  U.S. Coast Guard......................
                                                                    219
  U.S. Secret Service...................
                                                                    257
  U.S. Immigration and Customs 
Enforcement.............................
                                                                    303

                                 
                                 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                 

                    ___________________________________
 
          Printed for the use of the Committee on Appropriations
                           
                           
                           
                               
    PART 2--DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2017


         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                    ___________________________________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                     JOHN R. CARTER, Texas, Chairman

  
  JOHN ABNEY CULBERSON, Texas			LUCILLE ROYBAL-ALLARD, California
  RODNEY P. FRELINGHUYSEN, New Jersey		DAVID E. PRICE, North Carolina
  CHARLES J. FLEISCHMANN, Tennessee		HENRY CUELLAR, Texas
  ANDY HARRIS, Maryland				MARCY KAPTUR, Ohio
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  
  
NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               Valerie Baldwin, Kris Mallard, Laura Cylke,
                    Christopher Romig, and Anne Wake,
                             Staff Assistants

                    ___________________________________

                                  PART 2
                                  
                     DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
  U.S. Department of Homeland Security..
                                                                      1
  U.S. Customs and Border Protection....
                                                                    113
  Transportation Security Administration
                                                                    173
  U.S. Coast Guard......................
                                                                    219
  U.S. Secret Service...................
                                                                    257
  U.S. Immigration and Customs 
Enforcement.............................
                                                                    303


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                 

                           ___________________________________

          Printed for the use of the Committee on Appropriations

                          ___________________________________

                    U.S. GOVERNMENT PUBLISHING OFFICE

20-679                      WASHINGTON : 2016

 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey		NITA M. LOWEY, New York	
  ROBERT B. ADERHOLT, Alabama			MARCY KAPTUR, Ohio	
  KAY GRANGER, Texas				PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho			JOSE E. SERRANO, New York		
  JOHN ABNEY CULBERSON, Texas			ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida			DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas				LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California			SAM FARR, California
  TOM COLE, Oklahoma				CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida		        SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania			BARBARA LEE, California		
  TOM GRAVES, Georgia				MICHAEL M. HONDA, California
  KEVIN YODER, Kansas				BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas			STEVE ISRAEL, New York		
  JEFF FORTENBERRY, Nebraska			TIM RYAN, Ohio		
  THOMAS J. ROONEY, Florida			C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee	        DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington		HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio				CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California			MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland				DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

                  William E. Smith, Clerk and Staff Director

                                   (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2017

                              ----------                              

                                      Wednesday, February 24, 2016.

             UNITED STATES DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. JEH C. JOHNSON, SECRETARY, UNITED STATES DEPARTMENT OF HOMELAND 
    SECURITY
    Mr. Carter. Good morning. We are going to maybe have others 
coming in a few minutes later, but we are going to begin this 
hearing right now, and we may be joined by others of our 
colleagues in a few minutes. As this hearing is called to 
order, I would like to welcome everyone to this first hearing 
of the Department of Homeland Security fiscal year 2017 
President's budget request.
    Mr. Secretary, it is good to have you here. We are going to 
have an interesting conversation. By the way, I understand we 
have several members of the Tunisian Parliament who are 
observing the proceedings today as guests of Mr. Price and the 
State Department. Welcome to each of you. We are glad you are 
here. I have visited your country, and I enjoyed it very much. 
I was given good hospitality, and I hope we give good 
hospitality to you while you are here.
    Mr. Secretary, because we enjoy a relationship that is 
candid and built on mutual respect, I am going to get right to 
the point and tell you that I am pretty disappointed in the 
budget submission. As you know, the budget of $40.6 billion, a 
decrease of $381.3 million from last year, it is not the amount 
of the request that worries me; it is the intellectually 
dishonest and politically insensitive gimmicks included in the 
request.
    Right off the bat, the request creates a $908.8 million 
hole by assuming offsets from new, unauthorized TSA fees. I 
mean, this is not the first time we have talked about these 
fees. They are like a bad penny, they keep turning up, turning 
up, turning up. It shortchanges the statutory minimum of 34,000 
detention beds by more than 3,087, a gap of roughly $142 
million. It slashes FEMA's State Homeland Security and UASI 
grant program by $537 million, a reckless cut given ISIS' 
pledge to launch and inspire more attacks on the U.S.
    It reduces the Border Patrol staffing by 300 agents on the 
grounds that attrition rates exceed new agent hires. While this 
is a fact, DHS has yet to present any analysis that supports 
the assertion that a staff cut will not increase risks to the 
CBP mission to secure the border. At Secret Service, the budget 
fails to include $10 million in change-of-station costs, which 
assures the agents get a respite from the grind of VIP 
protection, something we all agree is necessary to improve 
morale.
    I have other questions about your budget priorities, for 
example, the request to buy back hundreds of millions of 
dollars of cuts made last year for staff positions that are not 
filled today. It includes $150 million for a lengthy design 
process for a new Coast Guard heavy icebreaker, of which only 
$25 million can be obligated in fiscal year 2017. While I 
believe that we need a new heavy icebreaker, this funding 
request precedes a sound procurement funding strategy.
    More than $225 million is requested for a new FEMA 
headquarters at St. Elizabeths. Does this building really 
outweigh the need to secure the border and provide Homeland 
Security antiterrorism programs?
    I am somewhat comfortable with the $250 million increase 
proposed for cybersecurity enhancements, but not if the 
majority of the funds are for increases to personnel.
    So, Mr. Secretary, I hope I have been clear that this 
request is a major disappointment after last year. To be fair, 
I do appreciate your continued emphasis on management reform, 
better requirements analysis, improved budget justification, 
and a commitment to institutionalizing joint operations across 
DHS components. I look forward to hearing what you learned from 
the new common appropriation structure you adopted this year, 
and I appreciate the level of effort made to undertake changes. 
For that, I would like to recognize Mrs. Roybal-Allard, our 
distinguished ranking member, for any opening remarks she may 
wish to make.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman, and good 
morning, Mr. Secretary, and welcome. I also would like to 
extend my welcome to the delegation from Tunisia. Let me begin 
by noting your leadership in helping the Department mature as 
an institution. It is clear to me that today, under your 
stewardship, the Department is more integrated and better 
focused than ever on the critical areas of planning, budgeting, 
joint requirements and acquisition best practices.
    As you know, for the fiscal year 2017 appropriations 
process and beyond, we will be working within a very tight 
fiscal constraint, so that kind of institutional rigor from the 
Department is definitely needed.
    The fiscal year 2017 net discretionary budget request for 
the Department of Homeland Security is $40.57 billion. This 
does not include an additional $6.7 billion in disaster relief 
funding, which is an adjustment to the discretionary cap. The 
total is nearly $400 million below the current year funding 
level. This is obtained, in large part, by proposing 
significant cuts to preparedness grants, and I am deeply 
concerned about these proposed cuts and the signal it sends to 
State and local jurisdictions, which need the Federal 
Government to be consistent in its level of support in order to 
plan and budget for the future.
    Mr. Secretary, some areas in which we have disagreed deal 
with the appropriate enforcement of immigration law. I will 
discuss some of those issues this morning, but I have certainly 
appreciated your willingness to listen to my concern and that 
of other members and take steps to address some of them. For 
nearly every other mission area of the Department, Mr. 
Secretary, I think you are providing excellent leadership. 
There is still a lot of work to do, but it seems clear to me 
that good progress is being made. I look forward to your 
testimony and our discussion today, and I look forward to 
continuing to work with you this year in support of the 
Department's important missions. I yield back.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Carter. Thank you, Ms. Roybal-Allard. I guess now, Mr. 
Secretary, we will hear what you have got to say.

                  Opening Statement: Secretary Johnson

    Secretary Johnson. Chairman Judge Carter, Ranking Member 
Roybal-Allard, and distinguished members of this committee, and 
our distinguished visitors from the Tunisian legislature, I, 
too, want to give you a special welcome. I visited Tunisia in 
2012 with the Secretary of Defense. It was very hot that day.
    The President's fiscal year 2017 budget request for the 
Department of Homeland Security reflects hard choices to fit 
within the caps established by the bipartisan budget agreement 
of 2015, but at the end of the day, it funds all of our vital 
Homeland Security missions in these challenging times. The 
President's budget request calls for, as the chairman noted, 
$40.6 billion in appropriated funds, compared to $41 billion 
currently in fiscal year 2016, but an increase in total 
spending authority to $66.8 billion, compared to $64.8 billion 
last year. And to be clear, that increase depends in part on 
the funding from fee increases, as the chairman has noted. We 
have submitted language to our authorizers to bring that about.
    Total workforce requested is 229,626, compared to 226,157 
in the current fiscal year, accompanied by an overall workforce 
pay increase of 1.6 percent. Like this year, the President's 
budget request calls for $6.7 billion, to finance the cost of 
major disasters in FEMA's Disaster Relief Fund, and the ability 
to collect fees of $19.5 billion, compared to $17.1 billion 
this year.
    The budget request funds all of our vital home security 
missions. It includes $5.1 billion for transportation screening 
operations; $1.6 billion, an increase of more than $200 million 
to fund our vital cybersecurity mission, including increased 
investments in the continuous diagnostic mitigation program; 
$1.9 billion for the Secret Service; $319 million to cover the 
costs associated with unaccompanied children and families who 
cross the border illegally; $1.1 billion for a recapitalization 
of the U.S. Coast Guard's assets, including a sizeable 
investment in the Nation's future arctic capability; and $226 
million for continued investment in the construction of a 
future DHS headquarters at St. Elizabeths.
    Like last year, reforming the way in which the Department 
of Homeland Security functions and conducts its business to 
more effectively and efficiently deliver our services to the 
American people is my top overarching objective for 2016. We 
have done a lot in the last 2 years, as the ranking member 
noted, but there is still much more to do, which I intend to do 
this year. There are still too many stovepipes and 
inefficiencies in the Department of Homeland Security.
    The centerpiece of our management reform efforts has been 
the unity of effort initiative I launched in April 2014, which 
focuses on getting away from stovepipes in favor of a more 
centralized programming process when it comes to budgets and 
acquisition. My overarching goal as Secretary is to continue to 
protect the homeland, and leave the Department of Homeland 
Security a better place than I found it. I look forward to your 
questions.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                          BUDGETARY PRIORITIES

    Mr. Carter. Thank you, Mr. Secretary. Before we start, we 
are really crammed on time up here on this dais. Almost every 
one of us have two or three hearings that are going on almost 
simultaneously with this hearing, so we are going to ask, 
please, that let's try to limit ourselves to the 5-minute rule 
so that maybe we can get more rounds, and some of us can go 
other places where we need to be. We are all challenged, 
including me, the chairman.
    Secretary Johnson, your fiscal year 2017 budget request 
reflects a reduction of $381 million from the enacted level of 
fiscal year 2016. When you factor in the adjustments for 
increased salary and benefits, some dramatic reductions to 
priority programs, and the unauthorized fee proposal of over 
$900 million, the reduction is really over $3 billion. Given 
the limits on nondefense discretionary spending imposed by the 
budget agreement, the proposed increases will have to be 
scrutinized and most probably cut. Based on the top line number 
provided by the budget resolution, the Appropriations Committee 
will have to find almost $2 billion within your budget to 
address the gaps your request has created. Of the requested 
included in the budget, what are your priorities: buying back 
operational staff cuts, St. Elizabeths, the icebreaker? Give us 
some indication.
    Secretary Johnson. Chairman, you note correctly that we 
have to live within the agreed-upon budget caps for 
nondiscretionary, nondefense spending. We have proposed a fee 
increase, which requires authorization from Congress, and we 
have submitted that language, so that we get to the overall 
spending authorization of $66.8 billion, all of which I believe 
is necessary.
    Chairman, my immediate priorities are aviation security, 
border security, cybersecurity, and taking care of the Secret 
Service and making sure that they are adequately staffed, they 
are adequately funded, and they are implementing the reforms 
recommended for the Secret Service in December 2014. I also 
believe it is critical that we continue our efforts to 
recapitalize the Coast Guard. It is the oldest fleet of vessels 
that I know of any navy in the world. With the good support of 
Congress, we are well on the way to do that.
    My overall every day immediate priority is protection of 
the homeland. We want to build a headquarters. We need to build 
a headquarters. That is a long-term investment. So in any 
budget discussion like this, inevitably, the discussion turns 
to shouldn't we trade off your longer-term investment strategy 
for your immediate investment strategy. I don't think that is 
the way to look at it. I think that with the money that was 
appropriated for St. Elizabeths this year, and the money we 
have asked for for next year, we are actually going to get 
there faster. It is going to cost the taxpayer less to build us 
a new headquarters, and we need a new headquarters.
    I will tell you that the place we have been for 13 years 
now was always intended to be temporary, and there are real 
shortfalls and curbs on our ability at the headquarters to do 
our jobs, to manage a 225,000-person workforce, in the place we 
are housed right now. I say that after having spent 4 years 
working in the Pentagon and, you know, just finding SCIF 
[Sensitive Compartmented Information Facility] space, for 
example, or dealing with our communications and the like. It is 
very, very hard to work up on Nebraska Avenue for me. I say 
that on my own behalf and the future Secretary.
    So I am hopeful, and I urge Congress to make that long-term 
investment in St. Elizabeths, but I very clearly do have my 
immediate Homeland Security needs that we have asked for. So 
that is how I see it, sir.
    Mr. Carter. You know, Mr. Secretary, on this fee situation, 
you know as well as I do, you have been around here long enough 
to know that--and I understand budget gimmicks. We see them 
every day. But the reality is, the chances of getting an 
authorization through Congress and signed by the President for 
these fees this year are between slim and none, and it doesn't 
take anybody that has been around here very long to know that 
our authorizers on the homeland side have real challenges in 
what they can and can't get done, and I praise them for the 
good work that they do within the major jurisdictional bounds 
that they have got issues with.
    And the practical sense is that this year, and even more so 
a presidential year, there is not going to be any chance that 
those fees are going to be authorized. So we have got a hole, 
and we have either got to plug that hole, and we are going to 
do what we are going to do, and you know that because we have 
worked with you before.
    But let me shift gears and ask one more question. Have I 
overused my time? Yep. I will come back. I will stick to the 5-
minute rule. Hit me with an elbow.
    Ms. Roybal-Allard.

         U.S. GOVERNMENT ACCOUNTABILITY OFFICE: HIGH-RISK LIST

    Ms. Roybal-Allard. Mr. Secretary, the Department of 
Homeland Security has been on GAO's high-risk list since 2003, 
which was shortly after the Department was established, and 
this is an acknowledgment of just how difficult it is to 
establish a new department. Particularly in the last few years 
under your leadership, DHS has made progress in addressing the 
weaknesses identified by GAO, some of which you noted in your 
opening statement. Would you care to elaborate on where you 
have addressed these weaknesses and what more you are doing, 
and do you expect to be off the high-risk list by the next 2017 
high-risk report?
    Secretary Johnson. Congresswoman, as you have noted, we 
have made good progress to get off the high-risk list. Just in 
the last 26 months that I have been Secretary, this has been a 
top priority of mine. One of the charges of our new Under 
Secretary--he is not so new anymore. It has been almost a 
year--but one of the charges to the Under Secretary for 
Management is to get us off the high-risk list. Every year we 
make progress. In fact, GAO has noted that DHS is a model for 
how to get off the high-risk list. There are a lot of 
departments and agencies on the high-risk list. We got on it 
simply by virtue of our creation in 2003, and my goal is to 
have all of those deficiencies resolved by the time I leave 
office, which I expect is in 332 days. I am not counting.
    But every day I ask about this. For example, one of the 
issues we have had or are having is resolving all the different 
financial systems we had within DHS, getting them synchronized, 
getting them to function better so that my CFO [Chief Financial 
Officer] over here knows how to count the dollars. We have made 
a lot of progress in that regard. I am also very proud of the 
fact that for the second year in a row, our outside auditors 
have given us a clean, unqualified opinion. That is something 
that other very, very large departments of our government have 
not achieved yet in their multidecade history, not naming any 
names, but I am very proud of that fact. And so we continue on 
this road, and I think we are going to end up in a very, very 
good place by the time I leave office.

         U.S. GOVERNMENT ACCOUNTABILITY OFFICE: EINSTEIN REPORT

    Ms. Roybal-Allard. The GAO recently issued a report on the 
national cybersecurity protection system, also known as 
EINSTEIN, and the report was somewhat critical, and I know that 
you took issue with some of its conclusions. What do you think 
the GAO report got right and what did it get wrong?
    Secretary Johnson. I hope the members of this committee saw 
the statement that I issued after the GAO report came out. I 
agree with much of what GAO says, but, GAO, in my view, did not 
adequately note all the progress we have made to cover the 
entire Federal civilian system over the last 12 months or so. 
Last May, only about 20 percent of the Federal civilian.gov 
system was covered by EINSTEIN 3A, which has the ability to 
block intrusions. I gave a charge to my staff that I want at 
least one aspect of EINSTEIN 3A available to every department 
and agency across the civilian and Federal Government by the 
end of last year, and then we met that deadline. And it is my 
goal, before I leave office this year, that all Federal 
departments and agencies across the civilian.gov system will 
have the EINSTEIN 3A system online. We are on target to do 
that. That is a mandate in the new cybersecurity law as well.
    The other thing I will note is that EINSTEIN 3A has the 
ability to block known, unwanted intrusions, known intrusions, 
known bad actors, known bad signatures. It provides a platform 
for a future technology to block suspicious or suspected bad 
signatures. So that is a virtue of Einstein 3A. Currently it 
can block known signatures that are bad, but in the future we 
want technology to block suspected as well. That was something 
GAO noted, and it has the potential to do that.
    Ms. Roybal-Allard. I have a few more seconds, so I just 
want to ask one follow-up question. It has to do with the 
Department's cybersecurity mission through NPPD. It is focused 
not only on Federal Departments and agencies, but also on State 
and local governments and the private sector, and the recently 
enacted Cybersecurity Act included liability protections for 
private sector companies when they share information with the 
Federal Government about cybersecurity threats. How has this 
new liability protection been received by the private sector, 
and are you seeing a greater willingness to partner with DHS on 
information sharing?
    Secretary Johnson. We are in the implementation phase right 
now. Congress gave us firm deadlines for implementing this, 
which we are meeting. I would say that, given that the law was 
passed in late December, it is a little too early to tell, but 
I do know that liability protection was something we heard over 
and over again that the private sector wanted, and we have met 
that need, so it is a little too early to tell at this point, 
ma'am.
    Mr. Carter. Mr. Frelinghuysen.

                     URBAN AREA SECURITY INITIATIVE

    Mr. Frelinghuysen. Mr. Chairman, it is a pleasure to 
welcome a fellow New Jersey resident, the Secretary here this 
morning, and thank you for the leadership you have provided 
that Department and the tens and thousands or hundreds of 
thousands of employees who do some pretty remarkable things.
    You and I come from a region, although you have a 
responsibility for the entire Nation, which experienced 
September 11, 2001. And may I say to our Tunisian guests, we 
know that you suffered a similar tragedy, and when your country 
is attacked, that there has to be a response. Part of our 
American response for our region was what we call UASI, the 
Urban Area Security Initiative. Many of us feel, and I am sure 
you have felt the heat from both the House and Senate, that 
some of those reductions would have some consequences. Could 
you briefly describe how you reached those decisions and 
whether there is a possibility of some reconsideration? Thank 
you, Mr. Chairman.
    Secretary Johnson. Congressman, the UASI grants and the 
State-level grants are, in my judgment, very important to our 
vital Homeland Security mission. I have seen firsthand at 
active shooter training exercises, like the one I visited in 
New York City in November and the one I visited a couple weeks 
ago in Miami, the importance of our funding. It goes for 
communications equipment, police overtime, surveillance 
equipment, and active shooter training. The current budget 
request again reflects hard choices to live within the budget 
caps agreed to between the executive branch and the legislative 
branch. I support this. I support this request. Ultimately, it 
is up to appropriators to, in your wisdom, make a determination 
about what you think are the appropriate levels, but we had to 
make some hard choices and those are reflected in the current 
request.
    Mr. Frelinghuysen. Indeed, I am sure with the chairman's 
leadership, we will make some of those choices. Thank you, Mr. 
Chairman.
    Mr. Carter. Mr. Price. And Mr. Price, thank you for 
including our friends from Tunisia in this hearing today.

                    IMMIGRATION ENFORCEMENT: POLICY

    Mr. Price. Thank you, Mr. Chairman. I do want to welcome 
our friends from the Tunisian parliament, and we will look 
forward to meeting with them later today under the auspices of 
the House Democracy Partnership. We are very, very glad to have 
you here.
    Mr. Secretary, welcome to you. It's good to see you again, 
and I commend you, again, for the leadership you have shown at 
the Department. I want to give you a chance, in fact, to talk 
about one of the most difficult and contentious areas that we 
know you are dealing with, and that is, immigration 
enforcement. You have made a hallmark of your leadership 
focusing enforcement, focusing deportation on criminal elements 
and the people who most pose a threat to this country. That is 
something that I stressed as chairman and ranking member of 
this subcommittee, and we all have a stake in seeing that focus 
effectively implemented.
    That was the idea, of course, originally of Secure 
Communities, but as you well know, the implementation of secure 
communities was not as focused as it might have been and gave 
way, I think appropriately, to the Priority Enforcement Program 
which you have led in implementing.
    I know in your full statement here, you have a discussion 
of this, and I want to give you a chance to articulate that 
here in open session. You say that now you are to the point 
where the percentage of those in detention is about 85 percent 
of the people who are the top priority for removal, and I want 
to know exactly what that means. I do think there is an 
ambiguity here, and I want to get you to talk about it, because 
we do have these recent arrivals from Central America, many of 
them children, women, people who are fleeing terrible 
conditions, and there has been some question, as you know, 
about the access of these people to a full hearing that will 
let them make the case for refugee status.
    And there have also been questions, including a very high-
profile case in my own district, of these individuals being 
targeted for deportation. These anecdotes are not 
representative probably of the overall picture. At the same 
time, they are real cases. They are real people, and they 
often, it doesn't take too many of these cases to have a real 
contagion effect I think in the immigrant community. This 
particular case was a young man, a recent arrival, who was 
eligible for apprehension and detention, eventual deportation, 
picked up on his way to school. Raises questions about--and, of 
course, he is not in that criminal element or anywhere near it. 
Yet it does raise questions about who is in this category of 
priorities for deportation and how are these cases handled.
    So I would appreciate your addressing that sort of 
situation, but more than that, I want you to talk about your 
assessment of how successful you have been in getting this 
focus implemented on people who really should be deported and 
who do pose a danger?
    Secretary Johnson. Congressman, thank you for that 
question. I tell audiences, Democrats and Republicans, that 
immigration and enforcement policy has to be two sides of the 
same coin. On the one hand, those who have been in this country 
for years, who have committed no serious crimes, who have 
children who are U.S. citizens, or who are lawfully present 
here, are not priorities for removal, and we don't have the 
resources to remove them. On the other hand, there are those, 
as you noted, who are threats to public safety, convicted 
criminals, and our new policy that we announced in November 
2014 makes a sharper, more concerted effort to focus on that 
population of undocumented, removable individuals.
    At the same time, we are also focused on border security, 
and that same policy that I wrote in November 2014 says those 
apprehended at the border are in Priority 1 for removal, and 
Priority 2 are those who, while not apprehended at the border, 
came into this country illegally after January 1, 2014.
    So there is the public safety aspect of our new policy, but 
there is also the border security aspect. We have to keep our 
borders under control, in my view. And that will mean interior 
enforcement against those who have been ordered removed by an 
immigration court; their appeal time has run; and they have no 
pending asylum claim. Those people are priorities for removal, 
and we have to enforce the law consistent with our removal 
priorities.
    In terms of the convicted criminals, you noted secure 
communities. We saw an increasing level of resistance among 
State and local law enforcement to cooperating with our 
immigration enforcement personnel with respect to secure 
communities. Something like 14,000 detainers were not acted 
upon by sheriffs and local law enforcement around the country 
in, I think, fiscal 2014, and that was creating a real public 
safety problem for us, releasing dangerous removable criminals 
to the streets so that our immigration enforcement people have 
to round them up all over again.
    So we put in place, as you know, the Priority Enforcement 
Program to replace Secure Communities, which I believe resolves 
the legal and political controversy. We have seen, so far, 
pretty good acceptance of the program.
    Of the 25 largest jurisdictions that were not working with 
us on Secure Communities, 16 have now come online to work with 
us with the new program. That is good for public safety.
    In terms of the anecdotes you referred to, sir, I hear them 
too. Very often, our enforcement personnel, they run them down, 
and they find that the facts were not quite as the rumors 
suggested. But one of the reasons for the statement that I 
issued in early February was to note, first of all, that the 
numbers of those apprehended on the southern border have gone 
down significantly since the beginning of the year, but also to 
make clear to the public, again, who are not priorities for 
removal. And our folks in ICE and at headquarters are working 
on reiterating also our sensitive location guidance for the 
public, to reiterate the places where our people will not go to 
apprehend undocumented immigrants, and it is in the works right 
now, sir.
    Mr. Price. I know my time is expired. I want to return to 
this, but thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Price.
    Mr. Fleischmann.

                      COUNTERING VIOLENT EXTREMISM

    Mr. Fleischmann. Thank you, Mr. Chairman. Mr. Secretary, 
good morning, sir. Mr. Secretary, as you know, I represent the 
Third District of Tennessee. My hometown is Chattanooga. Before 
I ask some questions, I wanted to personally thank you and the 
Department. Our community went through a terrible terrorist 
attack, a homegrown terrorist attack last year. We lost five 
valiant service members, four Marines, one sailor. The sense of 
personal loss was horrible. The community suffered a great 
sadness. But your call that day and the Department's response 
to my requests in the days and weeks afterwards were much 
appreciated, and I want to report to you that Chattanooga is a 
strong, resilient city. We are Chattanooga strong, but, again, 
thank you for your concern and outreach to us, sir.
    It is in that response that I am going to ask some 
questions. It has been made abundantly clear by that attack 
that we live in a very dangerous world, that there are real 
threats out there, and that we are all in this together. I 
think it is so important that we work together to thwart any of 
these threats. I hope we never have to see anything like that 
again.
    In fiscal year 2016, Mr. Secretary, Congress provided $50 
million above the request from DHS to help States and local 
communities prepare for, prevent, and respond to emerging 
threats from violent extremism and from complex coordinated 
attacks. The fiscal year 2017 request includes $49 million to 
create a grant program for CVE.
    I have a three-part question, and in the interest of time, 
I will go in order. What is the Department's overall strategy 
for countering violent extremism like that which led to the 
attack in Chattanooga? My second question is how does DHS plan 
to use the $50 million provided in fiscal year 2016, and the 
new grant program proposed in fiscal year 2017 to support these 
initiatives? And my third question, Mr. Secretary, is what 
goals and metrics will DHS use to determine the effectiveness 
of these programs, sir?
    Secretary Johnson. Congressman, those are all good 
questions. And what happened in July in Chattanooga is a 
reflection of the new type of terrorist threat we face where 
lone actors, or actors in pairs, could strike at any moment in 
almost any community around the country. I believe, therefore, 
that our engaging communities across the country, and, in 
particular, Muslim communities across the country, in cities 
like Chattanooga or San Bernardino or Minneapolis or Boston or 
Houston, or wherever, are critical, and I want to take it to a 
new level. We have been visiting a lot of these communities as 
much as we can.
    I have personally gone to about a dozen cities for our CVE 
purposes to engage communities, build bridges, hear what they 
have to say, and encourage them to cooperate with State and 
local law enforcement, but we want to take it to a new level. 
This is the overall strategy. We want to take it to a new level 
where we encourage the tech sector to help Muslim leaders, in 
particular, with the counter message, the message to counter 
the message of recruitment of the Islamic State.
    We also want to help a lot of these communities with 
resources, support their local activities. This can't all occur 
at the Federal level. That was the reason that I requested the 
$50 million in 2016, and we are requesting the $49 million in 
2017. It is for use at the local level with resources and 
programs, to engage youth, to help them steer their energies in 
a different direction. I think this is a vital Homeland 
Security mission given the current global terrorist threat that 
we face.
    In terms of the goals for success, the metrics for success, 
that is a little difficult to measure because we are not always 
in a position to know who was deterred from going on the wrong 
path. My metrics for success are how many different potentially 
affected communities can we touch across the country? My 
personal goal is to visit every major metropolitan area in this 
country that has a significant Muslim population, which I think 
I am on the way to doing. But building bridges to these 
communities and seeing that countermessage amplified locally 
and nationally and internationally are my basic metrics for 
success. I do appreciate that we are seeing, on a bipartisan 
basis, Republicans and Democrats in Congress supportive of our 
CVE efforts through appropriations and through authorizations. 
I do appreciate that.
    Mr. Fleischmann. Thank you, Mr. Secretary. Mr. Chairman, I 
yield back.
    Mr. Carter. Mr. Cuellar.

               IMMIGRATION ENFORCEMENT: OPERATION PHALANX

    Mr. Cuellar. Mr. Chairman, thank you, and ranking member 
also. Mr. Secretary, thank you for the job that you do. I know 
it is a difficult job. On one side, my colleagues, the 
Republicans, say that you are deporting too many people, and on 
my side, the Democrats are saying you are deporting too many 
people, not enough, maybe too much.
    So I understand your job is very difficult, and I 
appreciate the good job that you are doing. I also appreciate 
you were down there in Laredo this weekend. Mr. Chairman, he 
was there. He did the Washington Birthday celebration, walked 
the whole parade on the streets of Laredo. We just didn't have 
the music behind us, but he walked the streets of Laredo, and 
thank you. You were there to open the first preclearance of 
Mexican Customs being in the U.S. territory to preclear cargo, 
so we actually have Mexican Customs in our territory, first 
one. We started this 4\1/2\ years ago under President 
Calderone, and I am glad that you were able to finish this 
program, and we want to thank you so much for doing that.
    The other part that I want to say is I do support the work 
that you are doing on deportation. It is hard. I support full 
immigration reform. But, again, if we don't enforce an 
immigration order after all the appeals have gone through, and 
they have had their day in court, then why do we need Border 
Patrol? Why do we need immigration judges and members? As you 
know we added moneys, 55 new immigration judges this last year. 
Why do we have detention centers? As you know, I added some 
language to have transparency to make sure that whoever is 
there is treated with respect and dignity and provided the care 
once they are in our hands. I just wanted to say that I know 
that is a very difficult issue. Some people attack you on one 
side, and the other side they will attack you. But, again, I 
appreciate your measured approach to this very difficult time.
    I do have two questions: One has to do with the Cubans 
coming in, but I will save those for the next--I assume we are 
going to have another question on that. I will save that 
because, as you know, in the last 2 years out of the 67,000 
Cubans that have come in, 47,000 have come through the Port of 
Laredo, but I will save that for the next one.
    I want to talk to you about the letter that Governor Abbott 
and myself sent. I thank you for your response. I do want to 
follow up on this, but I know that on your statement, you put 
there that the unaccompanied kids and the families have gone 
down 65 percent from December of 2015 to January of 2016, a 1-
month difference.
    Again, that is always good news. The numbers I was actually 
looking at, Mr. Secretary, were 4 months, from 2015, October 1, 
2015 to the end of January; and then compare it to the same 4 
months of fiscal year 2016. Actually, the numbers are an 
increase of 171 percent for family units, and for unaccompanied 
kids, it is 102 percent. Pure numbers, in fiscal year 2015, we 
had 9,000 families, and fiscal year 2016 it went up to 24,000. 
This is only those 4 months. And for unaccompanied kids for 
those 4 months, from 10,015 to 20,000-plus.
    So, again, I appreciate the numbers you are using for 1-
month difference, but I would like to look more at a trend, 
and, again, the trend that you pointed out it is important.
    The question I have is the letter that Governor Abbott and 
I sent, and, again, we will follow-up at a different time, but 
we thought it was a 50 percent cut in National Guard aerial 
support. You're saying it is a 5 percent. I want to sit down 
and work this out with you and get this cleared up. But I do 
want to thank you, but do you have any thoughts on Operation 
Phalanx? And again, I appreciate your good work.
    Secretary Johnson. Yes, sir. A couple of things. First, as 
Congressman Cuellar noted, I was at the 119-year-old 
International Bridge Ceremony in Laredo, Texas, last Saturday. 
It is a quite remarkable ceremony where two kids from the U.S. 
side and two children from the Mexican side walk across the 
bridge, meet midway at the bridge, and hug each other, followed 
by us grownups. And afterward, there is a huge parade in 
Laredo, Texas, and the Congressman and I participated in it. I 
said, Henry, why don't we walk? He said I haven't done that 
since I was 12 years old. We walked. We must have encountered 
probably 10,000 people that day. He said something to me that I 
still remember, which is ``These people want immigration 
reform, but they also want the border kept under control.'' And 
I said, ``Well, I am with them.'' So it was a great day. I can 
attest that Congressman Cuellar is extremely popular in Laredo, 
Texas. I was basking in his glow during that parade.
    The numbers of migrants apprehended on our southern border, 
I look at every single day. First thing, along with my daily 
intelligence report, I get this report right here. And you are 
correct, Congressman, that compared to the fall of 2014, the 
fall of 2015 was much higher. That is absolutely correct. I 
drew the contrast between December 2015 and January 2016 
because the numbers in the fall of 2015 were rising, and they 
fell off sharply at the beginning of the year as reflected in 
this chart right here, the blue line. That trend has continued 
in February 2016 on a daily basis. I look at this every single 
day, and I look at it 12 different ways. The numbers for 
January and February 2016 are almost exactly like they were in 
January and February 2015. That is a good thing.
    But there is always the seasonal uptick. We can count on 
the seasonal increase in the spring, which we have to watch and 
we have to be prepared for. I am just glad that the numbers 
fell off sharply at the beginning of the year. No one wants to 
see, for humanitarian reasons and for resource reasons, another 
crisis like we had in the summer of 2014.
    In terms of the flight hours, I do believe it is important 
to look at the big picture. Over the last 5, 10 years, CBP 
itself has added much to its own capability in terms of flight 
hours, in terms of other resources at the border, such that we 
were able to give back to DOD [the Department of Defense] about 
half of what they had been giving to us over the last 6 years 
in flight hours. The overall decrease in flight hours was about 
5 or 4 percent, but that is alongside a lot of other additions 
we have made to border security since Operation Phalanx 
started.
    So I hope I have answered your question. I am happy to have 
a further discussion with you on that. I have more detailed 
numbers right here.
    Mr. Cuellar. Thank you.
    Mr. Carter. Dr. Harris.

                           H-2B VISA PROCESS

    Mr. Harris. Thank you very much. Thank you, Mr. Secretary. 
Your plate is obviously full. Your Department has a 
tremendously important mission. And I am just going to focus on 
one of those little areas that is forgotten about. It is a 
follow-up actually, I think, to what we talked about last year, 
and that is the H-2B visa process. In my district, as I am sure 
in areas of New Jersey where you have a lot of seasonal 
employees, our businesses depend on these workers. I mean, they 
depend on them. They depend on the government working smoothly 
with them to enforce the law, and to provide those workers so 
critical to them. And as we know, each H-2B visa that is issued 
actually improves our economy. Now on page No. 1 of your budget 
submission, it says that the goal of the Department has wide-
ranging operations that keep our Nation safe and prosperous. I 
am sure you agree with that?
    Secretary Johnson. Yes, sir.
    Mr. Harris. But part of the prosperity is try to get our 
GDP growth above 2 percent, and if our Federal bureaucracy is 
impeding that growth, making our employers, as they are in my 
district, suffer--look, part of the problem is not yours. It is 
that you are one of the three silos that affect H-2B visas. You 
have got the Department of Labor. You have got your Department. 
You have got State Department. And, you know, I criticized your 
Department last year when the Department of Labor decided on 
that court case that eventually was stayed. When they decided 
to stop taking applications, I criticized your Department for 
stopping to take applications, too, because I understand that 
silo isn't doing its job, but I criticized it.
    Now this year--and you know what happened last year; 
inadequate number of first half-year visas were issued. Those 
are the people who are going to work in my district, whether it 
is processing seafood, whether it is a seasonal employment, 
tourism industry, whatever, and they were upset, and they were 
justifiably upset.
    So let's fast forward. Omnibus bill gets passed. Clear 
language in the Omnibus bill. It can't get clearer. I mean, I 
am quoting from it: Workers who worked in the last 3 years 
shall not, again, be counted toward such limitation during 
fiscal year 2016. It doesn't say following enactment of this 
bill. It says during fiscal year 2016. And yet, the Department 
has issued the guidance that this only counts for applications 
pending after December 18, the signature of the bill.
    Wow. You can't get clearer language of intent of Congress 
that this was going back to the policy back in the early 2000s. 
This is a clear parallel, and the Department decided that they 
were going to--pardon my expression--screw the employers who 
applied before December 18 or those people in the first half of 
the year, by disregarding any recurring applicant during that 
time from counting toward--removing them from counting toward 
the cap.
    So I have got to ask you, does the Department intend on not 
counting those applicants who are returning workers with 
pending applications for December 18 toward the cap? What is 
the deal? I mean, the intent of Congress seems clear.
    Secretary Johnson. Congressman, you asked me a very 
precise, specific question that sitting here right now, I can't 
give you an informed answer to.
    Mr. Harris. Thank you, and I appreciate your honesty. Look, 
we are talking about all the immigration things and Homeland 
Security. I don't expect you honestly, Mr. Secretary, to know 
that, but could you get back to me about that?
    Secretary Johnson. Yes. You are asking a very legitimate, 
informed, intelligent question, so I do want to give you, or 
try to give you a legitimate answer.
    [The information follows:]

    Representative Harris. Thank you, and I appreciate your honesty. 
Look, we are talking about all the immigration things and Homeland 
Security. I don't expect you honestly, Mr. Secretary, to know that, but 
could you get back to me about that?
    Secretary Johnson. Yeah. You are asking a very legitimate, 
informed, intelligent question, so I do want to give you, or try to 
give you a legitimate answer.
    RESPONSE: Changes to the law generally are applied to cases pending 
on or after the date of enactment, unless Congress expressly provides a 
retroactive or a delayed effective date. The previously enacted 
returning worker provisions expressly made them retroactive to the 
start of the fiscal year, although they were enacted after that date, 
and were implemented accordingly. See sec. 402(b) of Div. B, Title IV 
of P.L. 109-13 and sec. 1074(c) of Div. A, Title X of P.L. 109-364. 
There is no such effective date language, however, in the Consolidated 
Appropriations Act, 2016 (P.L. 114-113). Therefore, the returning 
worker provision is not applied retroactively to H-2B petitions 
adjudicated before the December 18, 2015, date of enactment.
    Further, 402(a) of Div. B, Title IV of P.L. 109-13 provided a 
waiver of the certification requirement in INA 214(g)(9)(B)(iii). The 
Consolidated Appropriations Act, 2016, did not contain any provision 
that would allow petitioners seeking returning workers to forego the 
statutorily mandated certification requirement.
    United States Citizenship and Immigration Services (USCIS) has 
created a process to assist employers who had petitions pending or 
approved on or after December 18, 2015, but did not certify H-2B 
beneficiaries as returning workers. This process allows H-2B employers 
to redesignate certain H-2B beneficiaries as returning workers until 
March 4, 2016, and enables USCIS to deduct numbers that had already 
been ``charged'' against the H-2B cap.

    Mr. Harris. Thank you. I would appreciate it if you would 
get back to me because on page 71 in the U.S. CIS section of 
your budget, it says that the service to the public of this is 
to provide accurate and useful information to its customers. I 
am going to ask you in your perception, who is the customer of 
the H2B program?
    Secretary Johnson. The users of the visas, but I suspect 
also probably their employers.
    Mr. Harris. Their employers. So I would ask you because if 
you go to your Web site right now, it seems to indicate that 
the cap has been reached by numbers this first half of the 
year, and yet, you don't have the data about returning workers 
yet. That is not useful and accurate information to your 
customers, and I understand how it is hard because you have got 
to depend upon State to get back to you and all the rest.
    But, Mr. Secretary, I just beg you, please, respect the 
intent of Congress here. Reverse the devastation to these 
industries that occurred last year because of this. And 
Congress is clear. We think that the returning workers should 
not count toward these. I will just ask you to get back to me 
on whether or not this December 18 guideline is true, that you 
are not going to count returning workers if their applications 
were pending then, and whether or not when the employers submit 
their certifications about returning workers on March 4, 
whether you are going to just allow all those returning worker 
certifications for the whole fiscal year to do that, to not 
count.
    And then finally, has the management of the cap 
estimation--and, again, I understand we are working three 
silos. You depend upon something downstream to give you 
feedback. You have got to improve that process somehow. Tell us 
if there is anything we can do to improve it so that we just 
follow the letter of the law. I mean, it is just that simple. 
My employers, they are willing to do whatever it takes to 
follow the letter of the law, but they are incredibly 
frustrated by a moving target.
    And what we are providing, as you can understand when you 
estimate that, for instance, your estimate of caps appears for 
this first--not to have taken into account any returning. And 
the estimates on returning is it could be up to 70, 80 percent 
of these applications are from people who are returning. This 
is a significant problem if you stop accepting applications or 
discourage applications because you haven't discounted the 
returning workers. So please work with us. Again, I understand 
safety is big, but prosperity should be big, too. And I yield 
back.
    Secretary Johnson. Thank you for that. I am going to look 
into this, sir.
    [The information follows:]

    Representative Harris: . . . And what we are providing, as you can 
understand when you estimate that, for instance, your estimate of caps 
appears for this first--not to have taken into account any returning. 
And the estimates on returning is it could be up to 70, 80 percent of 
these applications are from the people who are returning. This is a 
significant problem if you stop accepting applications or discourage 
applications because you haven't discounted the returning workers. So 
please work with us. Again, I understand safety is big, but prosperity 
should be big, too. And I yield back.
    Secretary Johnson. Thank you for that. I am going to look into this 
sir.
    RESPONSE: 8 C.F.R. 214.2(h)(8)(ii)(B) provides that USCIS will make 
projections of the number of petitions necessary to achieve the H-2B 
cap, taking into account historical data related to approvals, denials, 
revocations, and other relevant factors. These other relevant factors 
include:
          <bullet> The number of H-2B petitions received;
          <bullet> The number of H-2B beneficiaries covered on each 
        petition;
          <bullet> The number of H-2B petitions pending adjudication, 
        and
          <bullet> Department of State (DOS) visa refusal and visa 
        issuance rates for H-2B visa applicants.
    In order to fulfill the statutory responsibility for managing the 
H-2B cap, USCIS monitors this information and refines its projections 
based on changes in the program and the factors listed above. Relevant 
factors, such as yearly data on the visa issuance rates, may change 
according to the number of petitioners seeking H-2B workers, among 
other things.
    Through continued collaboration with DOS, USCIS receives more 
detailed and more current visa issuance data than in previous years. 
This additional information has been a new and valuable improvement to 
the H-2B cap analysis. We wish to emphasize, however, that it is not 
possible, at the time that USCIS approves a petition, to know whether a 
given beneficiary or beneficiaries - who are in most cases unnamed 
persons outside of the United States--ultimately will be determined 
eligible for H-2B visa issuance and/or admitted to the United States.
    Note that, effective December 18, 2015, H-2B workers identified as 
returning workers are exempted from the Fiscal Year 2016 annual H-2B 
cap of 66,000 visas. As another example of the ongoing refinement of 
USCIS projections, we recently have incorporated this exemption into 
our H-2B cap analysis.
    To provide H-2B petitioners with current information regarding cap 
numbers, USCIS maintains the H-2B cap count Web page with regular 
updates.

    Mr. Carter. Ms. Kaptur.

                 COUNTERDRUG INTERDICTION: COAST GUARD

    Ms. Kaptur. Thank you very much, Mr. Secretary. Welcome. 
Thank you for the very constructive efforts you are putting 
forward at one of the largest departments in our Federal 
Government. Congressman Bennie Thompson of Mississippi and I 
were just singing your praises yesterday, so thank you for all 
your effort.
    In your budget request, you are asking for an additional 
$381,250,000 this year. That is a lot of money. That is more 
money than some smaller agencies operate on. Meanwhile, in the 
region that I represent, which is exactly the other end of the 
country from Congressman Cuellar, my neighbor here, at the 
Canadian border, Lake Erie, from Cleveland to Toledo, with the 
8th largest amount of road miles, paved roadways in the 
country, we have a massive heroin and opioid epidemic. It is 
crippling. I just left earlier in the week a meeting with the 
Cleveland region, the Cuyahoga County Northeastern Ohio Heroin 
and Opioid Task Force. We have a similar one on the western 
side of the State. The failures to deal with the Sinaloa cartel 
have crept far, far north from the border. 10 percent of the 
deaths in the region are now responsible, are due to opioid and 
heroin addiction.
    In your budget, you state, beginning in the fall of this 
year, the Coast Guard will convert eight of its Great Lakes 
boat stations to seasonal summertime units, and these stations 
will suspend operations prior to winter and resume in the 
spring when boaters return. What I would really like to request 
of you, if possible, would be to send some brilliant person 
from your Department to our northern border. On page 3 of the 
submission, we have gotten for your testimony, you have a 
section called Secure and Manage Our Borders, but it focuses on 
the southern border, and in that region, you have set up, you 
say, for the first time, joint task forces involving the Border 
Patrol, ICE, Citizenship and Immigration Service, Coast Guard. 
I would like to add to that all of our local sheriffs in our 
region, our U.S. attorney, our U.S. marshals.
    We really need to meet with you. I have made a request 1 
year ago during your budget, during your submission to this 
subcommittee, to have someone visit. No one ever has, and the 
situation has gotten worse. To have cuts in our region in any 
part of your Department is troubling to me. I would like to 
help you focus those activities to where they would do some 
greater good for the people of our region.
    So it appears as though the Coast Guard, in your request, 
will spend $2 billion on counterdrug interdiction operations. I 
would hope that some of that could be targeted to our area, but 
not just through the Coast Guard. I think we need a more 
streamlined task force for our region. Can you help me with 
that?
    Secretary Johnson. Yes, ma'am, and I know that in addition 
to the Coast Guard interdictions at sea, a large part of 
Homeland Security investigations is part of our interagency 
task force to deal with the heroin epidemic, but there is 
always more we can do with adequate funding from Congress. We 
are very aware of the heroin epidemics that are stretching 
across multiple regions of this country, and so HSI [Homeland 
Security Investigations], and the Coast Guard have been working 
with DEA [Drug Enforcement Administration] and Department of 
Justice, in a very focused way, to try to address this problem. 
I have been very pleased by the Coast Guard's interdiction 
efforts at sea just over the last year, but there is always 
more we can do.
    Ms. Kaptur. I guess I would say, you know, I have the 
largest coast line in the southern Great Lakes, and it is 
important to deal with the water, but to cut Coast Guard in 
this region right now without having a broader discussion about 
stopping the contraband trade, which, by the way, blends into 
labor trafficking and human trafficking, in a region like ours 
where we have turnpikes and major interstates, it is a big 
problem, and I would really beg you to send some top-level 
person from your Department. I have waited over a year now, and 
I know it is a big country, and there are 435 congressional 
districts, but if you look at the maps of the heroin and opioid 
trade, our region lights up bright red. And, so, I think there 
is a priority here, and I am just asking if you could help me?
    Secretary Johnson. I am actually planning to visit 
Cleveland this year.
    Ms. Kaptur. That it really good news. We will work with you 
on every level, but I would ask you to involve all of the 
counties in the north. And, quite frankly, I see Border Patrol 
sitting out there on our roadways looking for those who are 
here, the undocumented, but we need an emphasis on this drug 
trade.
    So, I think I have made my point, and I really would 
appreciate either you, or if you could send a deputy before 
your arrival, so we could meet with all of our sheriffs and so 
forth. The connection between the sheriffs and the Federal 
departments is not so perfect.

      TEMPORARY PROTECTED STATUS: EL SALVADOR, HONDURAS, GUATEMALA

    Ms. Kaptur. And we need to work at that. So if there is an 
individual, with your budget, you have a gigantic budget, 
surely there is someone in your Department you can send to our 
region. And I hope someone from your staff will get back to me 
after this hearing on that.
    The other question I wanted to ask very briefly is, we have 
gotten, Mr. Chairman, this will be really short, we have gotten 
academic studies showing, local news reports from El Salvador, 
Guatemala, and Honduras, that 83 people were killed in 2014 
after being deported by our Government to those three 
countries. A human rights request has been made to provide 
temporary protected status for people who are arriving from El 
Salvador, Guatemala, and Honduras. Can you provide any insight 
on the acceptance of this request and what our Government is 
doing to provide safe havens, perhaps with other countries, so 
that these people are not killed when they return back home?
    Secretary Johnson. Well, there is currently TPS for 
Honduras and El Salvador based upon events years ago. There is 
a pending request for TPS from Guatemala. I saw the same report 
you referred to about the 83 individuals. I don't know the 
accuracy of it. I don't know when those individuals were 
deported. But, as you know, Congress last year, for this year, 
appropriated $750 million for aid to Central America, which we 
have been urging and advocating. So that is very much going to, 
I think, contribute to the overall improvement of the region.
    The president of Guatemala is going to visit here in a 
couple of days. We will continue the conversation that we began 
with him on his inauguration day about working together to 
address the poverty and violence in Guatemala, Honduras, and El 
Salvador. That is a push factor that results in the illegal 
migration that we see on our southern border. And it is a 
powerful push factor that motivates young children to want to 
come here all by themselves.
    So as long as those conditions and push factors exist in 
Central America, we are going to continue to deal with this 
problem irrespective of the number of Border Patrol agents we 
authorize and appropriate every year.
    Ms. Kaptur. Thank you very much. Thank you, Mr. Chairman.
    Mr. Carter. Once again, we are trying to stick to the 5-
minute rule so that we can give everybody a chance. I will now 
recognize Mr. Young last in this round. And we will have 
another round.

       CYBER ATTACKS: INFORMATION-SHARING WITH STATE GOVERNMENTS

    Mr. Young. Thank you, Mr. Chairman. And I want to thank my 
colleagues. Here we go again, right? Ranking Member Roybal-
Allard, good to see you.
    Secretary Johnson, welcome. Thanks for what you do. Thank 
you for your service. You got a big job. And I respect you 
deeply for what you do. I know you get a lot of requests from 
Congress. I and my colleagues, we sent a letter to you on 
December 4, haven't received a response yet. I am hoping that 
is in the works. If you need a copy of that letter, we will get 
it to you. If the reply is sensitive information, we request a 
brief on that. So just a point of note there.
    Secretary Johnson. I don't recall the nature of the letter.
    Mr. Young. We'll share it with you before we leave here 
today to make sure you have it. It regards refugees. Iowa 
Homeland Security Emergency Management recently expressed 
concerns, and maybe you have heard from some other State 
emergency management agencies as well, just about information 
sharing, should there be a cyber attack, and when there are 
cyber attacks. What information is shared with State officials 
regarding national cyber threats? And in the event of a 
national cyber attack, what role would the States play in 
countering or recovering from such an attack?
    And when States are attacked, cyber attacked, what kind of 
information and role do they play in sharing that information 
with you?
    Secretary Johnson. Congressman, thank you for that 
question. First of all, the cyber threat directed at State 
governments is very real. And it is not just a threat. It is an 
ongoing problem. I just had this exact conversation with a 
number of Governors, about 10 Governors. With regard to greater 
information sharing between the Department of Homeland Security 
and State governments, we have a subcommittee of our Homeland 
Security Advisory Committee, tasked to develop a comprehensive 
plan right now. There is already a dialogue that exists.
    There is a dialogue that exists through a not-for-profit 
agency, the name of which I have forgotten at the moment. And 
there is technology available, something called the Albert 
system available, to pass information from the Federal 
Government to the State government; 39 of 50 States, as I 
recall, are online. And I am encouraging all 50 States to be 
online in that. I do believe that State governments have a role 
and have a need for cyber threat and cybersecurity information, 
particularly as it regards critical infrastructure in your 
State.
    So this is a conversation I had just, I think, Monday with 
Governors. And I think it is an important topic. And we are 
continuing to make efforts to improve the information sharing.

                             BIOWATCH GEN-2

    Mr. Young. Thank you very much, Secretary. A final point, 
in November, there was an article in the Washington Post and it 
regarded the BioWatch Gen-2. It detailed a GAO report which 
stated the Government lacks reliable information about whether 
the current generation, Gen-2 of the BioWatch program, is 
capable of detecting a biological attack.
    Following the GAO report on the BioWatch program, what 
steps is DHS taking to implement the GAO's recommendations, and 
is there any need, does Congress need to do something as well 
on this to put something into law? What can we do to help?
    Secretary Johnson. I know that we have taken very seriously 
that GAO report. I know our Science and Technology Directorate 
is focused on addressing the concerns by GAO. With regard to 
potential help from Congress, I would like to consult my staff 
and get back to you in an informed way.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                 CYBER ATTACKS: ELECTROMAGNETIC PULSES

    Mr. Young. Great. Thank you. And then one final thought, 
science fiction can become reality sometimes. And we hear about 
electromagnetic pulses. Is this a serious threat? And what are 
we doing about it, if it is? Electromagnetic pulses taking out 
grids, it is somewhat of a cyber attack in a way. I just wanted 
your thoughts on it.
    Secretary Johnson. Well, actually I haven't, I am not sure 
I am prepared to give you an informed answer at the moment. We 
are concerned about cybersecurity threats to critical 
infrastructure and the grid. Let me think about that one and 
get back to you, sir.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Young. Okay. Is my time up, sir? Mr. Chairman?
    Mr. Carter. Pretty much. You got about 30 seconds.
    Mr. Young. What keeps you up at night?
    Secretary Johnson. A lot of things. Preparing for 
congressional testimony, how is that?
    Mr. Young. I yield back, Mr. Chairman.
    Secretary Johnson. A lot of things, sir.
    Mr. Young. Good answer.
    Mr. Carter. All right. We are going to start a second 
round. And then after I ask my question, I am going to have to 
be excused because I have got the Attorney General at CJS that 
I need to go ask a few questions.
    Secretary Johnson. I have heard that you prefer the 
Attorney General over me.

 IMMIGRATION ENFORCEMENT: INTERIOR ENFORCEMENT EFFORTS, DETENTION BEDS

    Mr. Carter. You know that is not right. Okay. You know that 
is not right. But I haven't been able to ask her a question 
yet. I have had a chance to ask you a few.
    Okay. A question that we have talked about before: Why is 
DHS proposing to reduce the detention capacity so dramatically 
when the current trend for adult detention remains above 
33,000, will likely increase significantly with potential court 
decisions, and increase in ICE's fugitive operations and 
Criminal Alien program? Please explain the assumptions used to 
develop this number and are they still valid today?
    In addition, are you concerned that all related recent 
border crossings, priority one, for detention are being 
detained? Are they or aren't they? Will the cut in beds support 
detaining this population?
    Finally, the targeted enforcement operation that you have 
just done contributed, I think, to the downward trend in the 
numbers that you gave us, as you discussed what has happened in 
the last month. Looking at a grid shown to me by my staff, it 
is a significant drop. And I believe you returned about 121 
people as a part of your program. I commend you for it. It is a 
start. Will you do more to keep these numbers down? Those are 
all together on detention.
    Secretary Johnson. Well, let me start with the last 
question. Our interior enforcement efforts have been ongoing. 
Our focused interior enforcement efforts have been ongoing 
since the beginning of the year. I made a point of publicly 
referring to the enforcement actions we took on January 2 and 
3, but the enforcement actions have been ongoing against those 
who have been ordered removed by an immigration court, have no 
pending asylum claim, and their appeal time has run. I may have 
more to say about that at the beginning of next month with the 
February numbers. That is number one.
    Number two, with regard to detention beds, we asked you for 
what we think we need. And I would note that the family 
detention beds and the adult single beds, they can be 
transferred back and forth depending on what we see on the 
border. At the time we submitted the request, we took note of 
the fact that on average in fiscal year 2015, we were at about 
28,000 and change. Right now, I would have to say we are around 
31,000 as we speak because of the increase in the fall. So we 
are asking for what we think we need. That includes family 
detention.
    And you are correct, the case, Flores, involving family 
detention is in the 9th Circuit right now. They agreed to an 
expedited appeal. I think that they will hear the case shortly. 
I think we need added flexibility to deal with the crisis 
situation, which we don't have right now.
    Ultimately, the appropriators in Congress will do what you 
think is appropriate. I do think that immigration detention is 
important. I do think that the ability to detain those who 
bring their kids with them is important. We are making 
improvements as you know, Judge, to the conditions in those 
centers. We have had some issues with the one in Pennsylvania. 
But I think that that is an important component of our border 
security. And our interior actions will continue, and they are 
continuing.
    Mr. Carter. When you really get down to it, though, 121 is 
a start. But, in reality, the numbers are astronomical as you 
compare that to the recent border crossings in the last, what, 
4 months as raised by Mr. Cuellar. My wife is from Holland. And 
she says this is not really a Dutch story. But the little boy 
that stuck his finger in the dike is a story we tell our kids 
over here, you know, rescued the country by it. My wife says 
that is not a story in Holland. But, basically, that is what we 
have done is stuck our finger in the dike. But the dam is about 
to break. And continues about to break.
    I commend you for doing it. I know you caught some heat 
above you for doing it. And I think heat is what sometimes 
people who take positions of importance have to carry. And I 
know you caught some. You handled it well. There is a different 
philosophy between groups up here about this whole issue. But 
the reality is you have to make consequences, acts deserve 
certain consequences. Without consequences, there is no clear 
pathway for people to understand what their acts really are.
    So I am going to turn now over to Mr. Fleischmann and let 
him take over this hearing.
    Secretary, I want to tell you that since I have been on 
this committee, which is over 10 years, I have worked with 
multiple secretaries. I want to thank you for the relationship 
you and I have developed, your willingness to always be there. 
I have called you at home almost in the middle of the night, 
and you have always been there to respond. And I thank you very 
much for our relationship. And we will be seeing you before you 
leave office. But I want to commend you. And I know you do the 
same with all of our members of our committee. And we are very 
grateful.
    Secretary Johnson. Thank you, sir.
    Mr. Carter. Mr. Fleischmann, will you take the chair?
    Mr. Fleischmann [presiding]. Yes, sir. Thank you, Mr. 
Chairman. At this time, I would like to recognize the ranking 
member, Ms. Roybal-Allard.

         IMMIGRATION ENFORCEMENT: PRIORITY ENFORCEMENT PROGRAM

    Ms. Roybal-Allard. Mr. Secretary, I would like to go back 
to two of the issues that were raised by Congressman Price. As 
we noted, you have had some success in convincing communities 
to participate in the PEP program. And one of the selling 
points of PEP is that, in most cases, ICE will issue 
notification requests in lieu of detainers. Is this borne out 
in practice? And can you characterize the percentage of time 
that ICE requests notifications in lieu of issuing a detainer?
    Secretary Johnson. I am not sure I can quantify the answer 
to the question. It is my anticipation and expectation that in 
the overwhelming majority of cases in which there is a 
transfer, it will be by request for notification.
    The new policy leaves open the possibility of detainers 
when there is probable cause. I think that, I have not seen any 
quantification of the distinction between the two. But under 
the prior program, detainers were leading to litigation in 
which sheriffs and local governments were losing because they 
were detaining people beyond the point at which they had the 
authority to detain them. So we replaced that, as you know, 
with requests for notification.
    And I think in the jurisdictions where they have accepted 
the new program, it seems to be working well. I would like to 
see our people respond a little more promptly to requests for 
notification. That is a work in progress. But I am pleased that 
we have had additional counties that were not working with us 
before, working with us now on this.
    Ms. Roybal-Allard. The November 2014 Secure Communities 
Memo established enforcement priorities for PEP. And these 
include some, but not all, of ICE's general enforcement 
priorities. For some jurisdictions, this too has been the 
selling point for the program. Given that ICE still has 
discretion to go beyond the more limited PEP enforcement 
priorities, is the agency tracking how frequently that happens 
and documenting the rationale for it?
    Secretary Johnson. I believe the answer is yes.
    Ms. Roybal-Allard. It is?
    Secretary Johnson. I believe the answer is yes. If we don't 
know, it is something that we are developing so that we can 
track it.

   IMMIGRATION ENFORCEMENT: U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT 
                                 AGENTS

    Ms. Roybal-Allard. Okay. That would be great. Mr. Price 
also mentioned allegations of misconduct by ICE agents. What 
are the limits on ICE? For example, can agents enter someone's 
home without permission? And can they lie about their intent to 
gain entrance?
    Secretary Johnson. Well, I can't comment and know about 
every encounter across the country. With interior enforcement, 
our folks knock at the door. Very often, they can tell somebody 
is home. But if nobody answers, they don't enter the home. The 
only time a law enforcement agent would enter a home is with an 
arrest warrant or a search warrant.
    Our civil immigration enforcement people don't have that. 
So they knock at the door. I have heard allegations that in 
making an arrest, our people will mislead or, you know, create 
a ruse situation. I simply don't know about that. And I really 
can't comment on it. But they don't forcibly enter a home. I 
want to make that clear.
    Ms. Roybal-Allard. What about lying about their intent? Is 
that acceptable? Or is that also something that is not 
acceptable that may or may not be happening that you may not 
know about?
    Secretary Johnson. Frankly, I think it depends on the 
circumstances. When I was a Federal prosecutor, I know that to 
enforce the law, sometimes law enforcement agents would in some 
way create a ruse for reasons of public safety. I simply, I 
can't make a broad categorical statement in this regard.
    Ms. Roybal-Allard. So it is possible, then, that agents are 
allowed to enter without permission and it is acceptable to lie 
about their intent? In other words, there is nothing that says 
no, you can't do this?
    Secretary Johnson. Well, as I said, ICE agents don't have 
arrest warrants. So they cannot enter someone's home against 
their will without consent. And, in fact, there are a lot of 
instances where we knock on the door, and we can hear somebody 
home, but they don't answer, so we go away. I can tell you 
that. I cannot categorically tell you yes or no with regard to 
all these different situations out there under which somebody 
is apprehended.
    Ms. Roybal-Allard. No, I understand. I wasn't asking about 
whether or not those allegations were true or not. I was just 
trying to get clarification as to what was acceptable ICE 
behavior and what was not acceptable so that there would be a 
clear understanding in the public as to what ICE----
    Secretary Johnson. Well, they are not supposed to, and they 
don't enter a home without consent. And there are sensitive 
locations where we don't go to make apprehensions except in 
emergency, exigent circumstances. In terms of what we tell 
people in order to gain access, or to apprehend somebody, I 
would have to give you a more defined statement of what the 
policy is. Sitting here right now, I can't give you a 
categorical red line, green line.
    Ms. Roybal-Allard. Okay. Well, I understand--my time is up? 
Okay.

                         ICEBREAKER ACQUISITION

    Mr. Fleischmann. I want to thank the ranking member for her 
questions. Mr. Secretary, last September, sir, the President 
announced plans to accelerate the acquisition of a heavy 
icebreaker by 2 years to ensure that the United States can 
operate year round in the Arctic Ocean. The budget request 
includes $150 million to initiate the lengthy detailed design 
process that would lead to production in 2020. My first 
question is, can all $150 million be obligated in 2017? And my 
follow-up is why is a 2-year acceleration necessary, sir?
    Secretary Johnson. I will give you the note that my CFO 
handed me after I heard Chairman Carter say that in his opening 
remarks. It is an aggressive acquisition schedule. We disagree 
and believe we can spend it in fiscal year 2017. It will be 
tough, but we believe we can do it. And I think the reason for 
that is the urgent need for another heavy icebreaker in the 
Arctic.
    We have one heavy icebreaker right now that is operational. 
And given the national security and increasing commercial needs 
in the Arctic, we think it is important that we get a second 
one and get a second one very soon. And we think we can--we 
have asked for $150 million for design, for the preliminary 
phase of this thing. And we believe that we can utilize those 
funds in fiscal year 2017.
    Mr. Fleischmann. Thank you, sir. The cost of a new heavy 
icebreaker is projected to be in excess of $1 billion. And a 
heavy icebreaker is truly a national asset since it is, and 
will be, a multi-missioned vessel supporting the missions of 
several agency, including the Department of Defense and the 
National Science Foundation. Given the Coast Guard's top line, 
can they afford the burden of acquiring this ship? If not, what 
is the plan?
    And then my follow-up would be does the administration 
intend to announce a funding strategy for the vessel? And do 
you expect it will incorporate other governmental budgets? If 
not, why not limit the budget request to an amount that can be 
obligated this year rather than banking future funds for the 
future?
    Secretary Johnson. I am sure there will be a funding 
strategy for the heavy icebreaker. And my answer to your first 
question is yes, with the support of Congress and the support 
of the appropriators, we do believe that a heavy icebreaker is 
affordable. And it is also necessary. We are also, as you know, 
recapitalizing the Coast Guard with regard to the off-shore 
patrol cutter and the fast response cutters. All these moving 
parts can be funded provided we have the funds from Congress to 
do so.
    But we also believe that it is critical to have a second 
heavy icebreaker that is operational.
    Mr. Fleischmann. Thank you, Mr. Secretary. At this time, I 
would like to recognize Mr. Price.

                   IMMIGRATION ENFORCEMENT: DETENTION

    Mr. Price. Thank you, Mr. Chairman. Mr. Secretary, I hope 
to get to a question about your research operations and the 
thrust of those operations as anticipated in the budget and, 
particularly, the treatment given to university work. So I hope 
we can get to that. I may have to ask you to respond for the 
record. Because I do think it is important to revisit a couple 
of points on this immigration enforcement issue.
    It strikes me, in listening to your answer to a number of 
questions, that at issue here may be the criterion you defined 
in your executive action, of course, quite a while ago, of 
people who have been in this country for years. That is an 
important component of who we are attempting to remove from 
under the threat of deportation. And I know that that 
definition is important to the executive action and to the 
legal action surrounding the executive action.
    It does raise the issue, though, with respect to these more 
recent migrants. And, you know, the priorities for removal are 
people convicted of serious crimes or who have recently been 
apprehended at the border. And those categories are, of course, 
disparate categories in terms of the threat they pose to the 
country. I wonder if, for the record, you could provide 
actually a breakdown of that 85 percent figure you cited, 85 
percent of those at immigration detention are in top priority 
for removal, what percent of those are in that criminal 
category, what percent are simply recent arrivals?
    But I realize that poses an issue. This deferred action 
category can't be too porous. On the other hand, as I think you 
have implied, it is very, very important that people who have 
arrived under the circumstances they have, are mostly from 
Central America, that these people have access to a full 
hearing, full adjudication of their claims for asylum, and that 
rules be followed about where they might be apprehended, 
sensitive locations, and so forth.
    So the treatment of this category of migrant is a vexing 
issue. It seems to me it is raising the possibility that the 
kind of re-prioritization you undertook with respect to Secure 
Communities, it is almost leading to a situation where that 
kind of reprioritization might be again, there may be calls for 
that. But whatever it takes to get this effective focus on 
people who do pose a danger to the country, and making sure 
that that is a singular focus of our immigration enforcement 
efforts, strikes me that that is a continuing challenge.
    By the way, the case that I mentioned is in adjacent 
community, not literally in my congressional district. But that 
and other cases, of course, do raise questions about what the 
overall policy is.
    Secretary Johnson. With regard to your question about who 
is in detention right now, those data do exist. And I can get 
you that. The breakdown of those who are convicted criminals in 
detention, versus those apprehended at the border, and so 
forth, those data do exist. The one thing I will say about it 
is I believe it is a trending number.
    When you have a border surge, the percentage of those who 
are Priority 1s in detention goes up. Ultimately, I would like 
to see an increased percentage of those in immigration 
detention who are Priority 1s be those who are the criminals.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Price. That is, of course, what I am getting at.
    Secretary Johnson. That is where I want to see us make more 
progress on PEP. And with that, I believe we will have an 
increasing percentage of those in immigration detention. And we 
have seen that increase in percentage over the last year or 2. 
We have already seen that in place.
    If you look at the numbers today, though, a lot of people 
in immigration detention are those apprehended at the border 
because of the numbers in the fall. That is the reality. It 
will trend one way or another depending upon the surges at the 
border.

              SCIENCE AND TECHNOLOGY DIRECTORATE'S BUDGET

    Mr. Price. Well, I would appreciate those numbers together 
with any interpretation you want to offer of this. But you see 
my point as someone long focused on making sure we are 
deporting the highest priority individuals. Not wanting to get 
back into a situation where we have to recalibrate once again 
in terms of where the focus of enforcement lies.
    If I have another minute, I would like to just comment on 
the S&T budget. And you can give whatever response you can 
here. And maybe you want to offer this for the record. But 
there is a substantial decrease from the fiscal year 2015 
enacted level of over $1.1 billion. The request this year is a 
couple hundred million less than that. And then within the S&T 
budget, the university research and development funds would 
lose nearly a quarter of last year's enacted level.
    So it raises a couple of questions. First of all, what is 
the philosophy, the thrust of the S&T program as defined in 
this budget particularly given these substantial changes? And 
then what is going on with the university research and 
development, in particular, that would lead to this kind of 
proposed decrease?
    Secretary Johnson. The overall thrust of it is, I think, 
reflective of the overall budget request, hard choices given 
the budget caps we have to live with. I will tell you that 
within S&T, I have directed we take a more integrated, 
centralized approach. So we have put together a team run by Dr. 
Brothers, of operational component leadership, to develop for 
us what we think our S&T R&D priorities should be in the near 
future in a consolidated, strategic way--not stovepiped 
component by component, not something that exists at 
headquarters at S&T.
    So we have a component-level working group that is focused 
on where we think the priorities should be. I do agree with you 
that funding for colleges and universities in this area is 
particularly important. And we have programs right now in North 
Carolina that I know are working very well in this regard. So I 
regard this as an important area that we need to continue to 
support. We have also got to live within our funding caps.
    Mr. Price. Thank you. I assume the subcommittee will look 
at this particular aspect of the request very carefully.
    Thank you, Mr. Chairman.

                       NATIONAL SECURITY CUTTERS

    Mr. Fleischmann. Thank you, Mr. Price. Mr. Secretary, 
Secretary Johnson, Congress has appropriated almost $5 billion 
to acquire nine national security cutters, one more than the 
program of records. While the capabilities in performance of 
the NSC has exceeded expectations, there is a significant cost 
beyond production to man, equip, and operate each NSC.
    My first question, sir, is does the Coast Guard need any 
additional NSCs to accomplish any of their 11 statutory 
missions?
    Secretary Johnson. No.
    Mr. Fleischmann. Thank you. What trade-offs have been made 
in the Coast Guard's cutter modernization program due to the 
unnecessary inclusion of a ninth NSC? And what will happen to 
the program should Congress add a tenth cutter, sir?
    Secretary Johnson. No trade-offs that I know of at this 
point. We appreciate that Congress has also in 2016 provided 
funding for the off-shore patrol cutter, which is our medium-
range cutter, and continues to fund the fast response cutter. 
We have also asked for remodeled, rebuilt aircraft for the 
Coast Guard in 2017, and the continuation of the OPC and FRC 
program.
    So we haven't seen trade-offs. There will be a cost in the 
outyears to maintaining and all the things you would normally 
have for pay for when you build a new cutter, not just the cost 
of building the cutter. And we are hoping that if we have a 
ninth security cutter, as it looks we will, Congress will 
continue to support all the things you need to do after the 
thing is constructed. But we haven't seen, so far as I know, 
any trade-offs we have needed to make so far because we have 
the good support of Congress in this regard.
    Mr. Fleischmann. Thank you for your response, Mr. 
Secretary. What would happen, though, if there was a tenth 
cutter added, sir, in your opinion?
    Secretary Johnson. Well, it all depends on how much you 
give me to pay for it. So you are right, the program of record 
called for eight. We were not expecting a ninth. We will 
support and build a ninth because that is what Congress has 
appropriated for us and asked us to do. But there are costs 
associated with maintaining a ninth, where do you dock it and 
so forth, that we will need that continued support from 
Congress to help us so that we don't have to make any trade-
offs.
    And recapitalizing the whole fleet is particularly 
important, along with building that new icebreaker. So we need 
that continued support from Congress right now. I have seen 
firsthand how old some of our cutters are getting. The medium 
endurance cutter, which the OPC is supposed to replace, is 50 
years old.
    Mr. Fleischmann. Thank you, Mr. Secretary. At this time, I 
would like to recognize the gentleman from Texas, Mr. Cuellar.

                 IMMIGRATION ENFORCEMENT : DEPORTATIONS

    Mr. Cuellar. Thank you, Mr. Chairman. Mr. Secretary, when 
you were in Laredo, as you know, Laredo, percentage-wise, 
according to the U.S. Census, is the most Hispanic city in the 
country, 96 percent Hispanic. As you and I talked, you know, 
we, including myself, we support immigration reform. But we do 
want to have order and not have chaos at the border. And that 
is why your measured approach is well appreciated there at the 
border.
    My question is, and one of the questions folks keep asking 
me is, how many people have been deported, let's say, you know, 
from the unaccompanied kids or the families or other folks, and 
I know ICE had some numbers per, how many have been deported in 
the last year. And Mexico is always number one. But do you have 
any, in the last couple years, the folks we have been talking 
about, how many have been deported?
    Secretary Johnson. There are actual numbers that are 
available. It depends on from what point you count. And it 
depends on exactly what class of people you are referring to. 
The numbers are available. We can get you that. But, as you 
know, we have made a renewed push with regard to those who have 
been ordered deported and have reached the end of the appeal 
process and their asylum claim----
    Mr. Cuellar. And the media made it sound like there was a 
mass deportation. I think that was the words that they used. 
How many people are we actually talking about? And these were 
the ones that finished their----
    Secretary Johnson. That particular weekend, January 23, the 
number was 121 taken into custody. Those actually removed were 
a subset of that. Because once they were taken into custody, 
they got stays from removals. And so, presumably, those people 
are still here. But, again, I want to emphasize we didn't just 
do the one weekend and stop. Enforcement actions are 
continuing.
    Mr. Cuellar. And you are enforcing the Federal immigration 
judge, after they have had their day in court, and their appeal 
is over, that is what you are focusing on?
    Secretary Johnson. Yes, sir.
    Mr. Cuellar. Let me ask you about Cubans.
    Secretary Johnson. There you go.

             IMMIGRATION ENFORCEMENT: CUBAN ADJUSTMENT ACT

    Mr. Cuellar. I need a copy of that. Thank you, Mr. 
Secretary. By the way, you had a great story last night, of the 
TV station, when you went up to them. Nobody has ever done that 
before right in the middle of the parade. So great story last 
night.
    Let me ask you about Cubans. As you know, in my southern 
part of my district, I have unaccompanied kids from Central 
America coming in. My northern part of my district, in Laredo, 
I am talking about just the border area, we have Cubans, 67,000 
in the last year, couple years, I said 2 years, 45,000 of them 
have come through the port of Laredo. And, as you know, because 
of the 1966 Cuban Adjustment Act, and that was during the cold 
war era, very different, Cubans, as you know, the moment they 
touch, they are in. It used to be or it is still called the wet 
foot/dry foot policy.
    But now they have decided to go, instead of going through 
the waters and have Coast Guard try to push them back, they are 
coming in through Ecuador, they are coming in through 
Guatemala, Colombia, they go all the way up here until 
Nicaragua said hold on.
    Now what they are doing is, at least the ones in Costa 
Rica, are flying in directly from Liberia, Costa Rica, straight 
to Nuevo Laredo, which is the city right across from Laredo. 
They take a bus, 45 minutes, I have been told 45 minutes, 1 
hour they cross in. The moment they cross, they cross the 
street, the bridge, they cross the bridge, they go into a money 
exchange house, casa de cambio, they start filling out their 
paperwork for the immediate benefits. And, as you know, they 
get immediate benefits the moment they come in.
    In about 1 year, they become a legal resident. And then 
they are fast tracked to a naturalized citizen. My 
understanding is the moment they come across, if they commit a 
felony, they cannot be deported. Am I correct on that? And I 
don't know if you know that. My understanding is they cannot be 
deported the moment they are coming in.
    Do you or the administration, it has been very quiet on 
this. And I have been talking about this issue because I know 
this has to be a law that we need to change. And I am talking 
to one of my colleagues in this committee, in the 
appropriations, about this issue to come in with some solution. 
But there is two parts of the law, the 1966 Cuban Adjustment 
Act, which allows them to touch and they are in, and then the 
other one is a 1980 law that deals with Cuban, I mean, with the 
refugee assistance.
    So I say that because I am going to ask the committee to 
consider making some adjustments. But does the administration, 
I guess, until we change the law, do you all have any thoughts 
on that.
    Secretary Johnson. Well, first of all, you are correct that 
the overwhelming majority of Cuban migrants who come to this 
country arrive at land ports of entry. Most Americans probably 
think that they come by sea on boats. The overwhelming majority 
have been coming to ports of entry and simply presenting 
themselves because of the Cuban Adjustment Act and because of 
our policies, our wet foot/dry foot policy.
    The policy is reflected in, I think, a 1999 memorandum. It 
basically says that those who arrive here, we will--there is 
not, there is no absolute rule in support of parole, but it 
says something like--will be favorably inclined toward parole 
or something like that. So not everyone is automatically 
paroled. There are circumstances under which someone might not 
be paroled. Being convicted of a serious crime at the time, I 
would imagine, would be one of those circumstances. I don't 
have the policy in front of me. But those are the words along 
those lines.
    We are in the process of normalizing relations with Cuba, 
as you know, sir. At some point, the topic of migration will 
have to be addressed.
    Mr. Cuellar. Yes sir. I'm sorry can I just ask, is that 
1999 memorandum a Homeland----
    Secretary Johnson. It was issued out of, I believe, it was 
issued out of INS [Immigration and Naturalization Service].
    Mr. Cuellar. INS?
    Secretary Johnson. Yes.
    Mr. Cuellar. All right. Thank you so much. And, again, I 
appreciate your good work.

                           AIRPORT WAIT TIMES

    Mr. Fleischmann. Thank you, Mr. Cuellar. Mr. Secretary, we 
are rapidly approaching the busy spring break and summer travel 
season. As anyone who travels frequently by air knows, 
increased volumes of passengers correspond with increases in 
wait times at airports. It is my understanding that over the 
December holiday travel season, there was a noticeable, 
quantifiable, and significant staffing breakdown which led to 
unnecessary delays for many travelers.
    I have a two-part question. Since the busiest travel 
periods are easily predicted, and it is known when the largest 
volumes of flights are banked at large hub airports, why do we 
continue to see staffing levels at checkpoints based more on 
averages, sir, instead of volume spikes? And then my follow-up 
would be, does DHS or TSA have a plan to address this issue, 
sir?
    Secretary Johnson. Both on the front end with TSA, and on 
the arrival end with CBP, we do try to anticipate travel 
surges. We do try to anticipate whether those are daily; you 
know, there are certain times of the day at airports when 
international flights will come and go. And we do try to 
anticipate holiday travel, spring break travel, and the like.
    You are correct that there has been an increase in wait 
times at a lot of airports. That is due, in part, to increased 
travel volume. But it is also due, frankly, to the renewed 
focus on screening at airports by Administrator Neffenger and 
myself. Since he took office in July, his charge from me was to 
take a hard look at aviation security in light of the IG's 
[Inspector General's] test results, which were leaked to the 
press; less managed inclusion, as we call it, where you take 
somebody out of the longer line and put them into the shorter 
TSA line; more secondary screening; more thorough screening; a 
hard look at the technology; back-to-basics training for our 
TSOs [transportation security officers]; and a rewrite of the 
standard operating procedure.
    The increased wait times, frankly, were anticipated. But I 
think that the American public understands that because it is 
for their own safety. And we have heard issues and concerns 
about increased wait times. I think it is necessary. Can it be 
administered in a more efficient way around holiday seasons? 
Probably. And so our efforts to do that are, you know, a work 
in progress. We continue at that.
    But increased wait times are just something that are the 
result of increased volume and our efforts at increased 
security.
    Mr. Fleischmann. Thank you, sir. At this time, I would like 
to recognize the ranking member, Ms. Roybal-Allard for 
questions.

           IMMIGRATION ENFORCEMENT: FAMILY DETENTION CENTERS

    Ms. Roybal-Allard. I have two more issues that I would like 
to cover. I would like to go back to the detention of families 
by ICE. And I have three questions with regard to that. Under a 
district court ruling, the Department is now required to 
minimize the amount of time families spend in detention. And I 
understand that the current average detention time for families 
is around 17 days.
    For fiscal year 2017, the Department is requesting funding 
for 960 family detention beds, which is well below the capacity 
funded for the current year. Does this lower funding request 
mean that ICE is planning to consolidate its family detention 
operations into one or two facilities instead of the current 
three?
    Do you know what percentage of families would spend at 
least some time in detention given the shorter-length stays? 
And also it is my understanding of the district court ruling 
that any prolonged detention of families can only occur in 
State-licensed facilities with a non secure setting. The State 
of Texas recently granted operational licenses to the two 
family detention centers located in that State, but both are 
secure facilities.
    Does the Department have any plans to acquire the use of 
facilities in the future that would meet the district court 
standard for family detention.
    Secretary Johnson. The answer to the last question is no. 
We are seeking a license for both Dilley and Karnes to be 
licensed as nonsecure licensed facilities as they exist. So the 
licensing authorities are looking at those facilities and will 
license them as such.
    You are correct that the average wait time is around 17 
days. Flores, the ruling, gives us some flexibility in times of 
an influx. We are in an influx right now. The judge referred to 
20 days. We have tried to reduce it. We have reduced it. The 
average wait time now is about 17 days. But you are also 
correct that the way that court order reads, and it is on 
appeal, we can keep people longer in a licensed nonsecure 
facility. We are seeking a license for both places to be 
licensed nonsecure facilities.
    Ms. Roybal-Allard. Just changing the name, I mean, what is 
going to change in those facilities to make it truly meet what 
the intent of the court is? Just changing the name from secure 
to non-secure----
    Secretary Johnson. Well, it is up to the State of Texas to 
determine that the facilities are as they are licensed to be. 
That is a matter for the State of Texas. That is what they are 
doing right now. In terms of the bed request, we are requesting 
what we believe we need. We can transfer beds back and forth 
depending on the circumstances.
    So the total request is 31,000. The specific request for 
families is 960. But we need the flexibility to add more or 
less depending on the circumstances and the surges that we see.
    Ms. Roybal-Allard. So basically we are just asking for a 
change in classification. Because nothing is really going to 
change in the facilities----
    Secretary Johnson. We are always seeking to improve the 
conditions, to improve access to counsel. We are continually 
doing that. There is now a FACA [Federal Advisory Committee 
Act], a committee appointed to review and take a hard look at 
the conditions at these facilities. They are doing that. We are 
always seeking to improve them, ma'am.

                           JOINT TASK FORCES

    Ms. Roybal-Allard. I would like to follow up with you on 
that. And my final question has to do with your joint task 
forces. I think that by most measures, the Department is making 
progress in securing the southern border. And I feel certain 
that the Unity of Effort initiative that you have led played a 
really important role, in particular the establishment of the 
joint task forces and the Southern Border and Approaches 
campaign.
    Can you just discuss how you think the three task forces 
have contributed and how they have changed the Department's 
approach to the border security mission?
    Secretary Johnson. We are seeking through the joint task 
forces to bring a more strategic, combined, consolidated 
approach, to border security that brings to bear the Border 
Patrol, Customs agents, Immigration and Customs Enforcement, 
NCIS [Naval Criminal Investigative Services], and the Coast 
Guard, and, where necessary, FEMA [Federal Emergency Management 
Agency]. It would be like trying to run a war by talking to 
only the Army at once, and only the Navy, and only the Air 
Force. You need a strategic, consolidated approach. The same is 
true of border security.
    I have already seen that in a crisis, for example, I need 
to be able to have a strategic approach from a task force when 
it comes to all of our immigration components. I think this is 
the way of the future. I want to do more of this. At some 
point, we will get to the Northern border. We will get to the 
same thing when it comes to other missions. We are making 
strides in this regard with our counterterrorism mission and 
our cybersecurity mission.
    So I think as part of Unity of Effort, this kind of 
approach is very much necessary.
    Ms. Roybal-Allard. I have heard some positive feedback 
about it. That is why I wanted you to comment on it. Thank you.
    Secretary Johnson. Thank you.
    Mr. Fleischmann. Thank you. It is my understanding that 
that concludes the questions that anyone would have.
    Mr. Secretary, on behalf of the subcommittee, I want to 
thank you again today for appearing before our subcommittee. We 
all have an arduous task. You do. It is a very difficult 
mission. And I wish us all the best in our endeavors. And I 
thank you for answering the questions and being before us 
today, sir. I wish you well.
    Secretary Johnson. I appreciate it. Thank you.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                            Tuesday, March 1, 2016.

              UNITED STATES CUSTOMS AND BORDER PROTECTION

                                WITNESS

R. GIL KERLIKOWSKE, COMMISSIONER, UNITED STATES CUSTOMS AND BORDER 
    PROTECTION
    Mr. Carter [presiding]. Today we welcome Gil Kerlikowske in 
his third appearance before the subcommittee.
    Commissioner, welcome.
    Mr. Kerlikowske. Thank you.

                   Opening Statement: Chairman Carter

    Mr. Carter. We appreciate you being here and your service 
to DHS and the nation. We thank you for that.
    The fiscal year 2017 budget for Customs and Border 
Protection is $13.9 billion, an increase of $686 million above 
fiscal year 2016. Unfortunately, gimmicks in the department-
wide budget have created a $2 billion gap that requires this 
subcommittee to make hard choices. Therefore, the increase to 
CBP may not be affordable as it is evaluated by the totality of 
this budget. And we discussed this between the two of us 
yesterday or the other day.
    Commissioner, as you know, I discussed this with you. We 
are really concerned about CBP's hiring problems that have to 
be fixed. To secure and expedite trade, the budget requests 
funds for 23,861 CBP officers, which includes 2,000 officers 
funded in 2014.
    Commissioner, taking 4 years to hire 2,000 CBP officers is 
way too long. I know you plan to send the request to the 
authorizers, asking them to pass legislation increasing the 
number of CBP officers. But why would they increase passenger 
costs knowing that wait times won't decrease because CBP isn't 
likely to have these officers onboard for years, 2014 and look 
where we are now.
    Likewise, the Border Patrol is losing more agents than it 
can hire. Currently, CBP is 1,268 agents below the mandated 
floor. The budget takes advantage of this by decreasing the 
mandate for agents by 300. Unfortunately, the reduction isn't 
supported by any analysis proving that border security won't be 
compromised as a result.
    Commissioner, you understand the important national 
security role these agents play, but we are concerned that CBP 
isn't able to sustain the existing workforce, let alone the 
mandated floor levels of the agents.
    These are urgent problems which must be fixed. Now, we will 
have to discuss how you plan to correct this spiral.
    This request also includes a contingency fund for potential 
surge in unaccompanied children. We look forward to an update 
on the current estimates of the UACs.
    Other increases include $55 million for tactical 
communications, $47 million for vehicles, $26 million for 
aerostats and relocatable towers, and many other smaller 
increases.
    I look forward to working with you over the next few weeks 
to determine the priority of these programs.
    The request proposes a realignment for appropriation 
structures to be more mission-focused. While I know it was 
challenging, it is an effort that I have supported for several 
years. I want to commend you and your team for making the 
effort.
    Lastly, Commissioner, sovereign nations control and manage 
their borders and sustain the integrity of their immigration 
systems. These objectives are your duty and I expect nothing 
less from you and the men and women of CBP.
    Now let me turn to my distinguished member, Ms. Roybal-
Allard, for remarks she may wish to make.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

            Opening Statement: Ranking Member Roybal-Allard

    And good morning, Commissioner. And welcome.
    The discretionary budget request for U.S. Customs and 
Border Protection in fiscal year 2017 is $11.3 billion which is 
an increase of $609 million above the fiscal year 2016 level.
    About half of that increase, however, is attributable to 
the proposed transfer of the Office of Biometric Identity 
Management from NPPD to CBP.
    You have served as commissioner now for nearly 2 years and 
CBP has made good progress in a number of areas under your 
leadership. And I would like to highlight some of those. This 
includes the establishment of a Task Force West to support the 
Southern Border and Approaches Campaign; the assumption of 
criminal investigative authority for allegations of misconduct 
and use-of-force incidents involving CBP personnel; the 
expansion of the preclearance program which helps address 
threats before they reach our borders; a new use-of-force 
policy and the establishment of a use-of-force center of 
excellence; business transformation efforts that are reducing 
wait times for passengers and expediting the flow of commerce; 
good progress toward a more rigorous, technologically based 
methodology for determining situational awareness at the 
border; a more risk-based approach to border security; and 
enhanced capacity to target high-risk individuals and cargo, 
including a new counter-network program focused on disrupting 
transnational criminal organizations.
    So I think there is a lot that you can be proud of, even if 
there are still significant challenges that still remain.
    One of those challenges has been the struggle to hire new 
agents and officers and manage attrition, particularly for 
Border Patrol agents. As a result, the number of Border Patrol 
agents and CBP officers are significantly below the target 
levels, as the chairman mentioned.
    Other ongoing challenges include humanely managing the 
influx of unaccompanied children and families fleeing violence 
in the Northern Triangle.
    So I look forward to a productive conversation on these and 
other issues. And once again, I appreciate your joining us.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Carter. All right. Commissioner, we will hear from you 
and what your comments are. We all have copies of what you 
submitted to us and, of course, they are entered for the 
record.
    You may proceed.

              Opening Statement: Commissioner Kerlikowske

    Mr. Kerlikowske. Good. Well, Chairman Carter, Ranking 
Member Roybal-Allard and members of the subcommittee, good 
morning. During this past year I have certainly had the 
firsthand opportunity to travel not only throughout the country 
and visit with thousands of our personnel, but also to meet 
with our international partners in customs and border 
protection, particularly in South America, Mexico and Canada, 
and these are countries we share common goals with, and 
strengthening both our countries' security, but also our 
economic growth.
    I highlight this because with all of our responsibilities 
to protect the United States from the entry of dangerous people 
and materials, we also have to facilitate the flow of lawful 
international travel and commerce.
    And these goals are the same for many other countries while 
I am reminded of the diversity of our operational environments, 
the complexity of our mission and the commitment of our 
dedicated personnel.
    And thanks to the critical resources that this committee 
has given to CBP, we have not only enhanced border operations, 
we have also laid the foundation for the changes that will 
increase CBP to be more operationally agile, effective and 
efficient.
    Many of these changes are focused on--the budget request of 
$13.9 billion reflects some of the progress that we have made 
and supports our continued investments in personnel and 
technology and in initiatives that are going to strengthen our 
security and streamline our business process.
    Detecting and preventing travel to the United States by a 
foreign terrorist fighter is our highest priority. We recently 
made additional enhancements to the Electronic System for 
Travel Authorization. We started immediately enforcing the 
restrictions in accordance with the Visa Waiver Improvement and 
Terrorist Travel Prevention Act of 2015, and we canceled 17,000 
travel approvals immediately.
    We are expanding preclearance operations. I would like to 
express my thanks to the subcommittee for the statutory changes 
that significantly improve the reimbursement mechanism to fund 
CBP's preclearance operations. It is a critical capability for 
detecting and addressing threats long before they ever arrive 
at our borders.
    Furthermore, with the funding provided by the committee and 
the Consolidated Appropriations Act of 2016, we are initiating 
counter-network operations in our National Targeting Center.
    This capability enhances our comprehensive understanding of 
emerging threats, not only for foreign fighters, but also for 
drugs and human trafficking, and it advances our ability to 
disrupt the networks from that Targeting Center many of you 
have visited.
    Along the Southwest border, we monitor and respond to the 
flow of unaccompanied children and families. The numbers in 
fiscal year 2015 declined from their spike in 2014, but we did 
see an increase in the numbers this past fall and we remain 
concerned about seasonal increases later this year and in 
fiscal year 2017.
    The budget requests a $12.5 million increase in resources 
for CBP to provide for the safety and security of children and 
families who are temporarily in our custody, in addition to a 
contingency fund of up to $23 million to support up to 75,000 
children to ensure that we can respond to that potential surge.
    Along with all of the border environments, our land, air 
and sea, continued investments in technology, surveillance 
technology, other operational assets really increase our 
situational awareness.
    And the cornerstone of our approach to identify, disrupt 
and interdict illegal activities is key.
    And recapitalizing some of the most essential equipment 
that was mentioned, radios and vehicles, increases our ability 
to respond quickly and to keep our front line officers and 
agents safe.
    And we continue to improve the secure and efficient lawful 
movement of people and goods through the ports of entry. And 
that is a function critical to our economic competitiveness.
    The budget request enables us to continue front line hiring 
efforts, incorporate new technologies into our travel and trade 
processes, including biometric exit, and expand our public/
private partnerships, key components of our efforts to optimize 
resources, ease the flow of low-risk, lawful trade and travel 
and free agents and officers to focus on high-risk cargo and 
high-risk people.
    In all our operations across the nation and the globe, we 
continue to instill the highest levels of transparency and 
accountability. In this past year, we implemented new use-of-
force policies, we continued to test camera technologies to 
find solutions that can meet the wide variety of operational 
terrains and climates where our agents and officers work.
    Well, thank you for the opportunity to testify. Thank you 
for your support. And I am happy to answer your questions.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Carter. Thank you, Commissioner.
    Before we begin with the questioning, I want to recognize 
Hal Rogers, chairman of the Appropriations Committee, for any 
statement he wishes to make.
    Chairman Rogers. Thank you, Mr. Chairman.
    Commissioner Kerlikowske, Gil, good to see you again. Thank 
you for being here to discuss your budget for CBP.
    I have greatly enjoyed our association and working together 
in your earlier chapter of your life when you were director of 
the Office of National Drug Control Policy, the drug czar, and 
of course your experience back home in the police of that 
wonderful city.
    But in the drug czar role, you graciously took time away 
from your busy schedule to visit my Appalachian district to 
learn more about our challenges facing prescription drug abuse.
    So you bring a unique perspective, I think, to your job at 
the CBP.
    As the prescription drug epidemic has exploded onto the 
national scene, now giving way to heroin, controlling the 
influx of this dangerous drug and the violence that it fuels in 
our border communities and elsewhere around the country is a 
top priority for you and for us.
    So I look forward to hearing about your efforts to reduce 
the supply of opioids in the country.
    Over 60,000 employees, CBP is one of the world's largest 
law enforcement agencies, if not the largest. You are tasked 
with protecting the United States through a number of critical 
missions, including preventing the illegal entry of terrorists, 
weapons, narcotics from the air, sea and land.
    On a typical day, I am told, CBP welcomes nearly 1 million 
visitors, screens more than 67,000 cargo containers, arrests 
more than 1,100 individuals and seizes nearly 6 tons of illegal 
drugs. That is a day's work. You are busy, to say the least.
    And before going into the merits of your budget request, I 
would like to express my sincere gratitude to the men and women 
under your charge, including yourself, who serve our great 
nation, many of whom put themselves in harm's way on a daily 
basis to keep the homeland safe and secure.
    Your fiscal 2017 budget request, $13.9 billion, which 
constitutes an increase of $687 million above the current 
level, I want to commend you on the improvements you have made 
to the visa security program, although I do have some concerns 
with the gaps that still remain. And I also look forward to the 
expansion of the preclearance program which will push our 
borders further and further out.
    Your appearance here today and our testimony on this issue 
reminds me of this subcommittee in 2003 when we ushered it into 
existence and I became the first chairman of this subcommittee 
and have followed fairly closely since the activities of the 
department. And it is a tough, tough job.
    Mr. Chairman, you are trying to meld together some 22 
federal agencies. I think there are 16 different unions and, 
like, 20 different pay scales. So the work continues and we 
have got our work to do as well.
    But you are on the front line. There are many positive 
things in your budget request. I am deeply disappointed by the 
efforts to ratchet down border security and enforcement of our 
immigration laws.
    For example, the budget proposes a reduction of 300 Border 
Patrol agents, decreasing the statutory floor to 21,070, at a 
time when drug cartels from Mexico and elsewhere are flooding 
our communities, urban and rural alike, with heroin. We have 
never seen the like, and yet the budget proposes we cut back on 
the people fighting that surge and that scourge in our country.
    Others in the administration have rightfully labeled the 
abuse of opioids as a national epidemic. And I cite Tom 
Frieden, the director of Centers for Disease Control, who says 
that overdose deaths, heroin and prescription pills, are taking 
more lives than car wrecks in the country. He calls it a 
national epidemic. And yet, we hear from the administration, 
well, let us cut back on trying to fight it.
    Well, don't be surprised if things are different when we 
get through with your budget in that regard.
    We lose a hundred Americans every day to abuse. And yet, 
you have proposed to reduce our first line of defense against 
the entry of these dangerous, deadly drugs without the benefit 
of any supporting analysis that Border Patrol's mission won't 
be compromised.
    As I mentioned, you have been to my district, you have seen 
firsthand how these drugs are destroying rural communities in 
Appalachia. And of course, you have been all over the country 
and you see the same.
    While you and I agree that reducing demand through 
treatment and education is critical, we mustn't lose sight of 
the fact that enforcement remains a critical prong of our 
holistic strategy on this scourge. Stakes are high and we must 
do everything in our power to combat this scourge.
    I look forward to continuing to work with you to provide 
the resources that you need to do just that.
    Another crisis that is being caused by the drug cartels is 
the massive influx of unaccompanied alien children and families 
at our Southern border. We have seen a surge in drug cartel and 
gang violence across Central and South America, fueled by the 
production and trafficking of drugs. These thugs and murderers 
are wreaking havoc on millions of people, forcing many to flee 
to other countries, including the U.S.
    Recently, there has been an unprecedented spike in 
unaccompanied minors crossing our Southern border. In the first 
4 months of fiscal 2016, Border Patrol has apprehended 20,000 
unaccompanied alien children. That is double the number that 
were apprehended in the same time frame last year.
    Unfortunately, this humanitarian crisis does not appear to 
be subsiding anytime soon, the reality of which is reflected in 
your budget submission. You have requested resources to support 
a revised baseline of 75,000 unaccompanied child apprehensions, 
as well as a contingency fund should that number be exceeded.
    Our committee will analyze this request and my hope is that 
we can provide the necessary resources for CBP to handle the 
influx of these children at our borders.
    In addition, virtually half of the 5.2 percent increase in 
your budget request comes from the transfer of $305 million for 
the Office of Biometric Identity Management, which as you know, 
like fees, requires authorization from other committees.
    Unfortunately, the President has sent us a budget after 
budget after budget that requests large increases in funding 
and graphics them by using budget gimmicks, like increasing 
taxes and fees that he knows are dead on arrival here on the 
Hill.
    Finally, I would be remiss if I didn't mention President 
Obama's executive order on immigration. As you know, this still 
remains one of the most divisive issues in Congress and in the 
country, indeed at large.
    The President's unilateral action demonstrates that he has 
no intention of working with Congress or respecting our 
constitutional authority. Unfortunately, you and your agency 
are caught in the middle of this fight and it has made passing 
an annual appropriations bill for the Department of Homeland 
Security incredibly difficult.
    It also makes it impossible to move forward on any 
meaningful immigration reform while the President remains in 
office.
    So, Mr. Commissioner, thank you for being here today. Thank 
you for your service to your country. And we thank you for 
leading this agency.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Carter. Thank you, Mr. Chairman.
    Commissioner, I am going to start off with the questioning.

                              CBP STAFFING

    And the flag I raised as I was talking to you, staffing is 
something that you are concerned about, I am concerned about, 
and I want us to discuss it.
    We will talk first about the Border Patrol and afterwards 
about aviation hiring.
    I understand that the Border Patrol is currently 1,268 
agents below the mandated personnel floor of 21,370, a floor 
that is not new, it has been around for a while. So the under-
execution of agents is not due to hiring up to a new level as 
it is with the Customs officers, but sustaining the existing 
workforce.
    I am going to have a series of questions. We are going to 
pause and let you answer some of those, then we will move on.
    What are you doing to address the hemorrhage of agents from 
the Border Patrol? I would note that while we have been hiring 
CBP officers, we have consistently lost Border Patrol agents 
over the last year.
    To ensure that stations are manned to the suggested and 
needed levels, do you foresee a need to reinstate a hardship 
designation for certain stations or create other incentives to 
help prevent the attrition of agents?
    With the reduction of overall numbers, do you anticipate a 
need to reexamine and restructure how the Border Patrol mans 
stations and forward operating bases?
    Mr. Kerlikowske. So I share very much the concern that we 
have discussed on this hiring issue. And for the Border Patrol 
to be in a downward spiral, which means that we are not able to 
hire as fast as attrition, is very concerning.
    I have talked with your staff also about the number of 
programs that we have put in place particularly to speed up the 
process. So in these new hiring hubs we can get people through 
in 160 days until, at times, well over a year. That is 
important.
    The close cooperation with the Department of Defense as 
people leave the Department of Defense and the active duty 
military, to be able to hire them into the Border Patrol or 
into Customs and Border Protection is particularly important.
    Working with Congress on additional pay for some of the 
very difficult locations that they work, hardship reimbursement 
would be particularly helpful along with things that we have 
discussed around the age issues.
    When we talk about the Border Patrol, you know, we realize 
that their salaries were cut anywhere from $3,000 to $5,000 as 
a result of the AUO, the additional overtime money.
    But we have now transitioned to the Border Patrol Pay 
Reform Act. You should be very happy to know that 96 percent of 
the Border Patrol agents who have now opted into the number of 
hours that they would work have opted into the maximum number. 
So instead of a 40-hour work week, they will work a 50-hour 
work week for the additional money, which they are clearly 
deserving of.
    And in turn, that actually results in us getting more boots 
on the ground.
    Mr. Carter. So the fiscal year 2017 request calls for a 
reduction of 300 in the overall strength of the Border Patrol. 
However, we understand that many stations along the Southern 
border are facing staffing setbacks for a variety of reasons. 
There is no empirical data to inform how many agents we need.
    How do you justify a reduction in manning when CBP cannot 
articulate a validated requirement for the number of Border 
Patrol agents, combined with the technology requirements to 
surveil the border? When will we see a validated requirements 
and resourcing model similar to the model used by the Office of 
Field Operations?
    Mr. Kerlikowske. Yes, I don't think there is anything that 
is more frustrating to the executives of the Border Patrol or 
myself or certainly the secretary on not being able to have a 
set of metrics that actually said how many Border Patrol agents 
do you actually need.
    It has been unbelievably difficult and complex and it is as 
complex as when we tried to decide how many police officers we 
needed in Seattle versus how many police officers were needed 
in a city like Washington, D.C.
    But we are closer. We are much closer now to developing 
that set of metrics that would be helpful.
    And as you know, the offset in the reduction of the 300 
personnel would be to fund radios, improvements in the radio 
system, the vast majority of which would go to the Border 
Patrol and to their vehicles, many of which now are reaching a 
lifespan that makes them not as serviceable as they should be.
    And there is nothing more frustrating than having an agent 
who can't go out to do patrol because the radio is not operable 
or because of the vehicle. So we are looking at using those 
funds for that.
    Mr. Carter. Commissioner, while we have long discussed the 
hiring of Customs officers and Border Patrol agents, I am 
equally as concerned with the vacancy for area interdiction 
agents.
    Marine interdiction agents and air crew enforcement agents, 
by your own numbers, CBP is 12 percent below the goal for air 
interdiction agents, 93 below the goal of 775 agents.
    How can we efficiently utilize our air assets if we don't 
have enough pilots to fly the aircraft? It is my understanding 
that Corpus Christi is only manned to fly two, maybe three 
missions at a time, yet we have six P-3s and three UASs 
stationed at the facility.
    Do we hire more agents or rehire or retire them with the 
aircraft? Or are vacancies impacting air operations?
    Further, I hear pilots coming out of the military who have 
been flying combat missions overseas are failing the CBP 
polygraph. What is CBP doing to address hiring and polygraph 
issues? How do we address air crew vacancies for the P-3s, who 
are mostly former Navy, when the Navy is no longer training P-3 
air crews?
    Mr. Kerlikowske. So one of the difficulties in hiring for 
Air and Marine is that it is a very competitive environment. 
And one of my last flights, the first officer had been a pilot 
for us in San Diego and was now flying for Delta. And so we 
know and we have seen this huge increase in both domestic 
passenger travel and also international travel by air. So we 
are in a competitive environment.
    One of the difficulties has been, though, that this 
requirement that a pilot coming out of the military must also 
undergo the same level of scrutiny or screening that someone 
hiring from outside would go through; quite frankly they come 
with a top secret clearance if they are a pilot in the 
military. I don't see any reason why we can't continue to work 
with the Office of Personnel Management and others to bring 
them onboard much more quickly without going through as many 
hoops as we would go through for others.
    The last thing that I would mention is that amongst all 
those different job descriptions in Air and Marine, we have, I 
think, four different pay scales. And we are interesting in 
working toward the same law enforcement pay system that the FBI 
and the Marshals and DEA have, which is Law Enforcement 
Availability Pay, (LEAP) pay, which provides an additional 25 
percent of their salary for the extra hours that they would 
normally work. And we would kind of like to level that playing 
field for all of them.
    So we will continue to keep working on that. But of course, 
I think you know, too, our push has been to hire with the 
appropriated money the additional Customs and Border Protection 
officers, plus to stop the bleeding in the Border Patrol.
    Mr. Carter. Ms. Roybal-Allard.

                            BORDER SECURITY

    Ms. Roybal-Allard. Commissioner, I would like to go back to 
the whole issue of border security and the fact that we don't 
have enough Border Patrol manpower there.
    And we also hear a lot about the fact that we have to 
secure our border. And when I go back home, I hear a lot of 
anxiety about that, because the impression is that our borders 
are fairly open and that they are unprotected.
    In practical terms, how does CBP define its border security 
mission? And what are the essential measures by which we should 
be judging CBP's performance?
    Mr. Kerlikowske. So we look very much, particularly with 
the Border Patrol, between the ports of entry, we look very 
much at the security at the Border Patrol. Do they have 
operational awareness or what we would call situational 
awareness? Do they know the number of people that may be 
attempting and the particular areas that they are coming 
across?
    They also have the information and the liaison with their 
state and city and county partners all along the border. And we 
know that many of those border cities, from El Paso to San 
Diego to Tucson, have some of the lowest crime rates of any of 
the large cities in the country.
    So understanding and recognizing that there are also 
places, and this is where we use our unmanned aircraft, that 
there are also places that are so desolate and so rugged and so 
difficult that we are not seeing people attempt in any way, 
shape or form to cross or enter the border illegally.
    Well, if they are not using those locations, we need to 
take those finite Border Patrol resources and allow them and 
put them in the places where we do have greater numbers.
    But you know, as a police chief I was always held 
accountable for managing our people, responding quickly, making 
sure they were trained and had the equipment they needed, but I 
was never held accountable for a crime-free city, whether it 
was Buffalo or Seattle. There will always be gaps. And we will 
work very hard to make sure that those taps are narrowed.

                         UNACCOMPANIED CHILDREN

    Ms. Roybal-Allard. I would like to go now to an issue that 
we discussed during last year's hearing, and that is the 
treatment of unaccompanied Mexican children who cross the 
border, which is different from those children that are coming 
from Central America.
    Last July, GAO released a report on the treatment of 
unaccompanied children in DHS custody, which made a number of 
recommendations pertinent to Mexican children.
    GAO found that CBP personnel were not appropriately 
following the requirements of the Trafficking Victims 
Protection Reauthorization Act.
    For instance, CBP forms lacked specific indicators and 
questions agents and officers should use to assess whether a 
child has a credible fear of returning to Mexico, could be at 
risk of being trafficked if returned, or is capable of making 
an independent decision to voluntarily return.
    The report also found that CBP personnel did not document 
the basis for the decisions they made relative to these 
factors. GAO found that CBP repatriated 95 percent of 
unaccompanied Mexican children it apprehended between 2009 and 
2014, including 93 percent of Mexican children under the age of 
14, even though CBP's 2009 memorandum on the treatment of 
unaccompanied children states that children under 14 are 
generally presumed to be unable to make an independent 
decision.
    I saw that the department recently signed new repatriation 
agreements with Mexico. To what extent were those agreements in 
response to the GAO report? And what specific changes to 
repatriations do they entail?
    Mr. Kerlikowske. Well, as a result of the questions in the 
discussion last year and also as a result of the GAO, we did a 
new series of training for the Border Patrol to make sure that 
those questions are appropriately asked and that the responses 
are appropriately recorded for that decision involving Mexican 
children.
    At the same time, within the last month, Assistant 
Secretary Bersin and Director Saldana from ICE were in, I 
believe, Arizona to sign new repatriation agreements with 
Mexico to make sure that there was close coordination with the 
government of Mexico upon returning someone so that they 
wouldn't be returned at night, they wouldn't be returned in an 
environment that may be considered hostile or dangerous and 
that their property, whatever property they crossed the border 
with, would be also returned with them.
    So I think that progress in the training and progress in 
the additional repatriation agreement with Mexico is helpful. 
And as you know, the vast majority of the unaccompanied 
children that we are apprehending are coming from the three 
Central American countries and really not Mexico right now.
    Ms. Roybal-Allard. I see that my time is up.
    Thank you, Mr. Chairman.
    Mr. Carter. Chairman Rogers.

                       DRUG TRAFFICKING AND ABUSE

    Chairman Rogers. Mr. Commissioner, you and I have been 
working many times together over the years to curtail drug 
trafficking and abuse. I have said many times and I have heard 
you say it many times that there is no one answer to the 
problem, that it does take enforcement, treatment and 
education, a holistic approach.
    The President's budget rightly puts prescription drug and 
heroin abuse in the forefront, but largely focuses on treatment 
and the demand side of the equation. If we want to see any 
further success in treating victims of abuse and educating the 
public about the danger that is present, I think that we have 
got to be sure that enforcement on the front end is emphasized 
and in fact ironclad.
    Your agency is charged with protecting the borders and you 
have got the primary role to play in all of this. DEA says 
heroin seizures in the U.S. have increased in each of the last 
5 years, nearly doubling from 2010 to 2014.
    Your agency reports seizing over 9,600 ounces of heroin 
during fiscal year 2014. And yet, your budget would reduce the 
number of agents patrolling our borders by some 300.
    How can you justify taking boots off the ground in spite of 
this huge increase in heroin interdiction?
    Mr. Kerlikowske. Mr. Chairman, I go back to a couple of 
things. One is that on the heroin issue, the majority of any 
heroin that we seize is not between the ports of entry, it is 
smuggled through the ports of entry, whether it is in San 
Isidro or El Paso or whether it is at JFK Airport. Heroin 
seizures almost predominantly are through a port of entry and 
either carried in a concealed part of a vehicle or carried by 
an individual.
    We don't get much heroin that is seized by the Border 
Patrol coming through. And I think just because there are a lot 
of risks to the smugglers and the difficulty of trying to 
smuggle it through.
    But when I look at the number of Border Patrol agents that 
we are already down and I look at offsetting, being able to 
provide additional radio equipment and additional vehicles as a 
result of using some of that money or the majority of that 
money to the Border Patrol, I think it is a decision that will 
help.
    We know that technology is better for their safety and it 
is also better to get get them out to be able to patrol.

                          VISA WAIVER PROGRAM

    Chairman Rogers. Changing subjects, the Visa Waiver Program 
permits citizens of 38 different countries to travel to the 
U.S. either for business or tourism purposes up to 90 days 
without a visa. In return, those 38 countries must permit U.S. 
citizens to remain in their countries for a similar length of 
time.
    Since its inception in 1986, that program has evolved into 
a comprehensive security partnership with many of America's 
closest allies. The department administers the Visa Waiver 
Program in consultation with the State Department and they 
utilize a risk-based, multi-layered approach to detect and 
prevent terrorists, serious criminals and other bad actors from 
traveling to this country.
    With the advent of the terrorist era that we are in now, 
the Congress deemed it impossible to live with that kind of a 
free border program with 38 countries in the world for fear of 
terrorist infiltration undetected.
    So we passed the Visa Waiver Program Improvement and 
Terrorist Travel Prevention Act of 2015 which established new 
eligibility requirements for travel under the Visa Waiver 
Program to include travel restrictions.
    They don't bar a person from coming to the U.S. point 
blank, but they do require that the traveler obtain a U.S. 
visa, which then gives us the chance to investigate the 
background of the person.
    So in December, that law was passed. Can you outline for us 
the programmatic changes concerning aliens from these 
countries, how soon you will be able to implement the changes 
if they are not already there?
    Mr. Kerlikowske. So Secretary Johnson several months before 
the passage of this authorized an additional series of 
questions to be put into the ESTA, this system in which we 
would record information with more detail and more specificity.
    For instance, more specificity when it comes to the 
location that a person would be staying, additional contact 
information, such as cell phone and email, those types of 
pieces.
    And then when the law was passed, particularly the fact of 
dual citizenship with the four countries that were outlined, we 
canceled 17,000 travel approval requests that had already been 
basically approved.
    As you know, this ESTA system lasts. You can use it within 
a 2-year window.
    One thing that isn't always recognized with this system, 
though, is that a person is continually vetted. Those names are 
run against databases every 24 hours. So if you applied and you 
weren't going to travel for another 8 or 9 or 10 months, every 
single day your name would be run against the series of 
databases because we don't want you suddenly to say now I am 
going to go ahead and use the ESTA, it has already been 
approved, I am going to get on a plane. And we say, well, wait, 
in the last 48 hours or 72 hours, some information of a 
derogatory nature came up and needs to be worked on.
    We work closely with the Department of State. I testified 
recently at two hearings on this issue. I think the fact that 
we were able to cancel those 17,000 ESTAs and require that 
those individuals then go back to an embassy or a consulate and 
get a waiver and we will continue, including standing up with 
the National Targeting Center along with the State Department 
personnel sitting right next to us, a terrorist prevention 
group that will look at this much more in-depth on a 24-hour 
basis.
    Chairman Rogers. Are you properly staffed to handle this 
increased workload?
    Mr. Kerlikowske. In the budget, we requested an additional, 
I believe, 40 personnel to go to the Targeting Center. I would 
think that frankly if there is a real jewel in the crown of CBP 
when it comes to prevention.
    I would say our National Targeting Centers for cargo and 
passenger anticipation of things that could be dangerous or 
people that could be dangerous.
    And I know a number of members and a number of staff have 
visited it. And I would encourage them to see that 24/7 
operation. But asking for these additional people, including 
working in a Counter Network Division to work on human 
smuggling and drug smuggling is a good prevention technique.
    Chairman Rogers. The legislation also required program 
countries to validate passports, report lost or stolen 
passports, use INTERPOL screening and start passenger 
information exchange agreements. Can you tell us what these 
requirements are and how they will be put in place?
    Mr. Kerlikowske. Yes. They must vet or they must check that 
foreign passport against INTERPOL's lost and stolen database. 
They must do that.
    And the requirement, you know, with visa waiver that I 
think is not often talked about, but is really quite helpful, 
is the fact that it brings these countries who are like-minded, 
who want to prevent terrorism and want to prevent smuggling, it 
brings us together in a better information-sharing environment.
    We have in CBP a permanent liaison to INITERPOL. We have 
two permanent liaisons to EUROPOL policing. And we have at our 
immigration assistance program a number of CBP personnel at 
airports where they don't do enforcement on foreign territory, 
but they certainly work closely with their foreign 
counterparts.
    And I think that is part of the benefit of, frankly, the 
Visa Waiver Program. It brings us together to all assess risk 
and to realize that we are all in the same boat.
    Chairman Rogers. The legislation directed you to terminate 
program countries for failure to comply with certain 
requirements. Do you foresee the termination of any countries 
from the program?
    Mr. Kerlikowske. I am not familiar with that. I know that 
Secretary Johnson in counsel with Secretary Kerry and also the 
director of the Office of National Intelligence just added 
three additional countries to the original four that Congress 
passed.
    So that increases our workload, but it also improves our 
risk assessment and our safety and security.
    Chairman Rogers. Thank you, Mr. Commissioner, for your 
service.
    Mr. Kerlikowske. Thank you.
    Mr. Carter. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Welcome, Commissioner. Glad to see you here again.
    Mr. Kerlikowske. Thanks.

                            BORDER SECURITY

    Mr. Price. I want to pick up where the ranking member left 
off on the question of border security, how you conceive of 
that going forward in terms of the mix of elements that would 
go to make up the kind of situational awareness and border 
security you are talking about.
    I understand this is a mix of personnel, infrastructure and 
technology that we are talking about here. I share the concern 
that has been expressed repeatedly this morning about the 
shortfall in personnel that this budget would apparently leave 
us with, something like 700 Customs officials, 1,300 Border 
Patrol agents.
    My own view, and I think it is widely shared, is that in 
the long term, true and effective border security isn't going 
to be achieved, even with all the money we might throw at it, 
without comprehensive immigration reform.
    And since it has been brought up here this morning, I think 
maybe a little reality check is in order.
    The President in fact pushed very hard in cooperation with 
the Congress for years for comprehensive immigration reform. 
And he worked effectively at it and successfully with the 
Senate. The Senate passed a bipartisan immigration reform bill.
    But then the House never took it up. That is the problem. 
That is the problem with comprehensive immigration reform.
    And it was only after months, indeed years of that kind of 
stonewalling that the President did take executive action. It 
was limited action, it is very well-reasoned and legally sound 
action, I believe, to exercise a degree of prosecutorial 
discretion with respect to whom we initiate immigration 
enforcement on.
    And of course, then the Republicans take that executive 
action as a new excuse, a new excuse not to act. So 
frustratingly we fall short, fall short of the comprehensive 
immigration reform that might deal with this larger issue.
    So we return to border security. And that issue, too, has 
become inflamed in recently months, thanks largely to the 
Presidential campaign.
    People with little or no immigration enforcement or policy 
experience, including some high-profile Presidential 
candidates, have said once again we can simply build a fence. 
We can seal the Southern border. And one actually says we can 
send the bill to Mexico.
    Now, when I was chairman of this committee the fence loomed 
very large. And we appropriated on this subcommittee for 
hundreds of miles of pedestrian and vehicle fence. We 
attempted, with mixed success I have to say, to exercise some 
measure of cost/benefit analysis with these various segments of 
the fence. But we built it.
    There was a huge political push all of the time to build 
that fence. Well, now it is back. Now the fence is back, and I 
am going to give you a chance to comment explicitly on this.
    So what does a secure border look like? And do we need more 
fence?
    Mr. Kerlikowske. It does mean that when we have that 
situational or operational awareness and we know what is coming 
and where our gaps are, that that is particularly helpful.
    And the fence that has been built, I think it is 
approximately 600 miles of different types of fencing, 
including tactical fencing, very high fencing, double and 
triple fencing in some locations, and some to prevent a 
vehicle. The Border Patrol uses that type of technique and 
those types of fence technologies in order to move people that 
may be attempting to come across into different locations where 
they can have more resources.
    We also, you know, clearly recognize that anyone who has 
traveled and spent time on the border, as I think everyone of 
the members here has, that there are lots of locations in which 
fencing and walls would not be able to be built, would not work 
and would not be able to withstand.
    And even with the fencing that we have, we spend 
considerable resources repairing and keeping that fencing in 
line. So you know, we think it is the combination of all of the 
other things that we do, tactical aerostats, patrols, infrared, 
fixed towers, ground sensors, on and on and on, that make for a 
more secure border.
    Mr. Price. Would it be your judgment that the budget you 
have submitted gets that balance right in terms of the mix of 
elements going forward? Are there major gaps, major omissions 
that you would look to be addressed in later years?
    Mr. Kerlikowske. No, I think the budget that we have 
submitted is a very realistic budget. I think that I would be 
very happy, as I am sure every member of the committee would 
be, if we could hire and, again, get the number of Border 
Patrol agents and Customs and Border Protection officers fully 
trained and on the job, that right now that is the number-one 
priority.
    Because regardless of all the technology, this is still a 
very labor-intensive and people-oriented kind of business, 
whether it is at a port of entry or between the ports of entry.
    But I think we have submitted a realistic budget that will 
help us get there. And quite frankly, the committee has been 
very supportive of a number of initiatives in the past. And I 
think that is why we have made progress.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    Commissioner, thank you for your many years of service, and 
to your peers as well, law enforcement all around the country. 
It is a difficult time to be in law enforcement and want you to 
know that many of us support you and the efforts that you are 
trying to undertake.
    I am going to ask you a couple of questions, and I don't 
think you are going to be able to answer them, at least I will 
be a little surprised if you are, but I would kind of like to 
explore do we know what we don't know and how good of a feel we 
have on some of these things that we may not, you know.

                          VISA WAIVER PROGRAM

    For example, I appreciated and I wanted to follow up on the 
chairman's conversation about the Visa Waiver Program. And you 
indicated there and it is in your written testimony something 
like 17,000 who have been denied or revoked today on the ESTA 
program.
    Do we have any idea of those 17,000, is that 90 percent of 
those who maybe, you know, we should have identified, is it 50 
percent? Do you have a sense for how successful that is?
    Mr. Kerlikowske. The 17,000 are the dual citizens with 
those four countries.
    Mr. Stewart. Right. So that is fairly easy to identify.
    Mr. Kerlikowske. And I would tell you that looking at it, 
it is a mix of people. Have we been able to--is there somebody 
in that mix that probably might not have or should not have 
gotten that? I think that is very possible.
    But also, it is people who have fled Iran during the 
overthrow of the Shah in 1979 that haven't been to Iran in 40 
years, but still have dual citizenship.
    Mr. Stewart. Yes.
    Mr. Kerlikowske. And they were canceled, too. So you know, 
it was a broad brush, widely supported by certainly Congress 
and the President.
    Mr. Stewart. But that is a relatively easy thing to do, 
identify those who have the dual citizenship of those targeted 
countries.
    Mr. Kerlikowske. Right.
    Mr. Stewart. And I am guessing you identified most of those 
people, wouldn't you say?
    Mr. Kerlikowske. Well, we identified them through the fact 
that they had already--we knew in the system that they were 
dual citizens.
    Mr. Stewart. Much harder, though, to identify those that 
the visa waiver legislation required us to identify, those who 
had traveled to some of these serious, not Syria, but some of 
these questions or countries question.
    Do you have a sense for how successful we have been in 
identifying those people? And let me elaborate and then I will 
allow you to answer.
    That is a much harder thing to do. And we need partners in 
order to do that. They may be traveling from Europe that we 
would be unaware of that travel were it not for our European 
partners or counterparts who have made us aware of that.
    And Department of Homeland Security, the director really 
was pretty firm on several countries, France, Belgium, Germany, 
Italy, Greece, gave them a February 1 deadline to fix what he 
called crucial loopholes.
    Can you give us an update on how our partners are doing in 
providing us this information? Because again, we would be 
unaware of it without their input and they hadn't done a good 
job of doing that previous. Have they gotten better? Are our 
partners doing a better job of giving us that information?
    Mr. Kerlikowske. Visa waiver, it results in a lot of 
partnerships, including the exchange of information. So one, 
the relationship, particularly after the attacks in Paris, 
continues to get strengthened about the necessity of exchanging 
and sharing information.
    You are exactly correct when you talk about that it is much 
more difficult then to detect people because of either broken 
travel.
    So we rely, one, on a partner, another partner in another 
government to perhaps tell us about that. Also, people do self-
declare about having traveled to one of the countries.
    And then lastly, when you enter the United States and that 
passport is gone through by that Customs and Border Protection 
officer, just as we did during Ebola screening, we do come 
across people that have traveled to one of those countries. I 
think 2011 was the cutoff date that you put in place.
    Mr. Stewart. So Commissioner, being short on time, let me 
just ask the question simply. Department of Homeland Security 
asked these identified partners, they gave them a February 1 
deadline to close these loopholes. Would you say that they have 
done that effectively?
    Mr. Kerlikowske. I would say they are much better, but I 
couldn't answer for every one of them, and I would be happy to 
provide that information to you or your staff.
    Mr. Stewart. I wish you would.
    Mr. Kerlikowske. Okay.
    Mr. Stewart. And I think it is something we are going to 
have to, you know, keep our eye on, because some of them are 
more effective than others.

                              SOCIAL MEDIA

    And let me ask very quickly, one of the things that we 
identified and I think many of us recognized as something that 
we had to expand our capabilities, and that was using social 
media to identify some who may be entering our country and pose 
a threat.
    In San Bernardino, there were indications that there were 
some social--I am not talking about the radicalization, I am 
talking about those who were maybe radicalized, trying to enter 
a country. And if we had used social media as a tool, we would 
raise the red flags and be able to say this person is someone 
we should look more closely at.
    Previous to that, we hadn't done a good job of that. I 
don't think it was a policy to use that tool. Can you update 
us, how is that being implemented with using social media to 
identify those individuals who may be a threat as they are 
trying to enter the country?
    Mr. Kerlikowske. Sure. The social media checks would 
certainly apply throughout DHS to USCIS, to ICE, et cetera. And 
Secretary Johnson has stood up a task force within DHS to look 
at expanding and moving forward on the ability to research and 
use information and social media that applies DHS-wide, not 
just for CBP.
    Mr. Stewart. Yes. And do you know when that task force is 
supposed to give their report?
    Mr. Kerlikowske. I believe General Taylor from intelligence 
and analysis is in charge as the chair of that task force. I 
don't know the date.
    Mr. Stewart. Okay. We will find out and we will follow up 
with that.
    Mr. Kerlikowske. Okay.
    Mr. Stewart. Thank you.
    Mr. Kerlikowske. Thank you.
    Mr. Stewart. Thank you.
    Mr. Carter. Mr. Cuellar?
    Mr. Cuellar. Thank you, Mr. Chairman.
    Commissioner, thank you. I believe you said earlier this 
might be your last hearing. And I just want to say thank you so 
much for all the many years of service. I appreciate it.

                            BORDER SECURITY

    And also appreciate your moderate approach to this. I am 
from the border. Laredo is 96 percent Hispanic, most Hispanic 
city percentage-wise in the country.
    I think people know my policies. You know, I would like to 
see a moderate approach. We don't want to see open borders. We 
believe if somebody is put in detention they ought to be 
treated fairly, but that we should have detention, have some 
sort of deterrent.
    At the same time, we believe in immigration reform, 
sensible immigration reform.
    At the same time, we think the wall is a 14th century 
solution to a 21st century problem that we have.
    So we would like to see the moderation there because we 
want to see order at the border. And you know, just don't want 
to get political, but if the folks that I represent on the 
border wouldn't give me 95, 90 percent of the vote every time I 
run, so I assume they support my policies, which is pretty much 
what you do also, a moderate approach.
    One of the things we have been talking about lately is to 
extend our border beyond the U.S.-Mexico border because we 
spend billions of dollars on the U.S.-Mexican border.
    A couple of years ago, I think we put about $80-$85 million 
to help Mexico secure the Southern border with Guatemala. I saw 
some figures that over a period of time they actually deported 
more people than Border Patrol did over the same amount of 
time. So just $80 million did a lot to help Mexico extend, for 
us to extend our border.
    We were in Costa Rica. The Cubans, that is a totally 
different issue. But we were there, the Costa Ricans were 
telling us in December that the people who are coming in, 
trying to get into the U.S., they had people from Ghana, 
Somalia, Nepal and literally name the country and they were 
there.
    So my question to you in extending the border out besides 
the U.S.-Mexico border, what else can we do to help the 
Mexicans and our Central American folks to help us secure our 
border? Because the more we stop outside the U.S. border, the 
better it is for us.
    So if you want to address biometric equipment, training we 
can do. I know you are doing that, but what can we do to step 
this up?
    Mr. Kerlikowske. Congressman, I think the government of 
Mexico has done a really admirable job, particularly in the 
last year-plus, in increasing and improving their border.
    CBP and other components of DHS have a number of advisers 
and technical assistance, both in places like Tapachula and 
other locations, but also within Mexico City.
    We visited the training center for those personnel. We 
visited the detention facility, I visited it particularly. They 
have made marked progress in the work that they have done.
    And I think we couldn't be more pleased with the government 
of Mexico as a partner in this. So we will continue to look at, 
can we assist in biometric identification processes, other 
types of things?
    But I think the last thing, and probably the most important 
in all of this, would be that if those three Central American 
countries, Honduras, El Salvador and Guatemala, had better 
safety, better security, a better educational system for people 
and better hope for the people that live in those countries, 
they wouldn't be fleeing and making an incredibly dangerous 
journey to the United States.
    As Ms. Roybal-Allard and I sat on the floor with a father 
not that long ago and his 4-year-old daughter, and he said, you 
know, we had several murders down the street. He said the last 
thing I needed to do is to leave my wife with one of our other 
children and for myself and my daughter to flee, this is in El 
Salvador, to flee and try to get to the United States where his 
mother lives. But he said, I can't raise her in that 
environment.
    If those countries are more stable, I think people don't 
want to pick up and leave and come here.
    Mr. Cuellar. Well, I hope you work with the State 
Department. Because as you know, Mr. Chairman, and members of 
the committee, we added $750 million working with--for Central 
America, the Northern Triangle. So hopefully you all are part 
of that process, because the more we extend our security out, 
instead of playing defense on the 1-yard line, but extend it to 
the 20-yard line, the better it is.
    So there were $750 million that hopefully you all will work 
with the State Department.
    Thank you so much for your time and effort and your 
service.
    Mr. Kerlikowske. It would be really helpful to have an 
ambassador, too, in Mexico to be able to work with.
    Mr. Cuellar. Oh, I agree. I think Roberta Jacobson should 
be the ambassador and it is unfair that she has been delayed 
for something that has nothing to do with Mexico. It is very 
unfair to Mexico.
    Mr. Carter. Dr. Harris.
    Mr. Harris. Thank you very much.
    And thank you for being before the committee. And thanks 
for your service. You know, we have got your resume here and it 
is pretty impressive, including, of course, your service over 
at the Office of National Drug Control Policy.

                           DRUG TRAFFICKINGS

    So I am going to follow up with what the chairman of the 
full committee asked about a little bit, which is the role of 
your organization now in controlling drug traffic. I think 
there was testimony last year that your department or, you 
know, U.S. Customs and Border Protection doesn't have a zero-
tolerance policy. That in fact people found crossing the border 
with marijuana or other drugs, actually there is no zero 
tolerance, you actually don't refer for prosecution everyone 
who attempts to enter our country and poison our youth.
    So I have got to ask you, why?
    Mr. Kerlikowske. I don't actually know of any policy like 
that. I know that people are apprehended with drugs, whether it 
is small amounts that they are carrying for some personal use, 
or whether it is multi-ton or multi-kilo loads. All of those, 
to my knowledge, would be referred to the United States 
attorney and it would not be up to Customs and Border 
Protection to make a decision for the Department of Justice as 
to whether or not prosecution would be accepted.
    And frankly, if I did find out that we did have a policy 
where we were making those decisions rather than where they 
belonged with the Department of Justice I would reverse that 
policy very quickly.
    Mr. Harris. Well, you were head of the Office of National 
Drug Control Policy.
    Mr. Kerlikowske. Right.
    Mr. Harris. Would you be disappointed with the Department 
of Justice if in fact they had set minimum amounts of marijuana 
to be brought into this country before it would be prosecuted?
    Mr. Kerlikowske. I would tell you that----
    Mr. Harris. I mean, that seems like it would be a waste of 
time for your agents. Your agents go, you track them down, you 
find the drugs, they think they did a great job, you turn it 
over to the DOJ and DOJ looks the other way and says we are too 
busy.
    Mr. Kerlikowske. I would tell you that I understand that, 
depending on the U.S. attorneys offices along the border, from 
Texas to California, that the number-one client for 
prosecutions is Customs and Border Protection.
    We keep them busy with everything possible. I think there 
are clearly going to be cases that they are not going to, and 
these are questions better answered by them, but I think there 
are clearly cases that, given the finite resources that they 
have, that they are not going to be able to accept for 
prosecution, either because of prosecutorial merit or because 
they have set some guideline.
    But I would tell you that we make those referrals all the 
time and we are happy to make sure that they have everything.
    I have assigned five attorneys in our office to be cross-
designated as assistant United States attorneys just to help 
out in those areas so that they can have additional 
prosecutors. And if we need to assign more attorneys to do that 
to help them out, then that is what we will have to do.
    Mr. Harris. Thank you very much. You know, I was a little 
disappointed when back in 2009, I guess, you know, the 
administration decided and I think you agreed to stop using the 
term ``war on drugs.''
    And honestly, I think if you look at the heroin epidemic we 
have now, it is exactly the result of the leadership of the 
country saying that we no longer have a war on drugs. Just my 
personal opinion, rhetorical question.

                          VISA WAIVER PROGRAM

    Let me go on to the Visa Waiver Program, because I just 
have a question about this. Because as you know, part of the 
controversy is is that this decision was made to, on a case-by-
case basis, permit waivers for people, business people from 
Iraq or Iran who are conducting business, I believe those are 
the two case-by-case, can you tell us, since that program was 
put in place, how many, since it was case-by-case, who makes 
those case-by-case decisions?
    Mr. Kerlikowske. The process, if there was a request, and 
there has never been a request and to my knowledge there is not 
even a pending request for anyone to use that example, but we 
would use the unit or the group that we stood up in the 
National Targeting Center to review those.
    There are a series of questions that a person would have to 
answer if in fact, for example, it was a business case.
    We know that there are waivers already in existence, 
general waivers in the law for government officials and for 
military. But there would be a whole series of questions and we 
would have to validate through that system.
    But right now, I don't know of a single, there is not a 
single pending request or even one that has been made.
    Mr. Harris. So Iran's objection seems to be much ado about 
nothing?
    Mr. Kerlikowske. I don't know if it is merely too early in 
the process for some of these additional requests, but I do 
know that no request has been made.

                        INTEGRATED FIXED TOWERS

    Mr. Harris. Okay. And just one final point, and this would 
be pretty brief. It has to do with the integrated fixed towers 
contracts.
    These were, you know, supposed to be important parts, the 
certification was delayed. Now there is no--is there money in 
the budgets for the rest of these towers? Are they going to 
proceed on time?
    Mr. Kerlikowske. There is money. And they are proceeding on 
time. The Border Patrol was required under the contract, and 
rightly so, to certify that these expensive pieces of 
technology are actually operational and are helpful. And I 
think as many members of the committee know, the attempt to 
build a virtual wall in SBI Net resulted in pretty significant 
investments of taxpayer dollars in some technology that did not 
prove to be useful to the agents on the ground that actually 
needed it.
    As I understand it, the Border Patrol has certified that 
the integrated fixed tower is a useful, helpful tool that 
expands their visibility on the border.
    Mr. Harris. Thank you very much.
    Yield back.
    Mr. Carter. Dr. Harris, you will recall that I mentioned it 
is a pretty strong rumor, at least on the Texas border, of the 
200 pound rule on marijuana. I didn't get a response from the 
attorney general when I asked her about that.
    Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    Commissioner, welcome. Nice to see you. Thanks for what you 
do.

                            BORDER SECURITY

    I want to talk a little bit about Customs and Border 
Protection's use of UASs, unmanned aerial systems. I had gone 
down to the border last year, early last year, and noticed UAVs 
and aerostats. Can you talk a little bit about where those are 
being used and how they are being used and where they are being 
used?
    Are you seeing a drop in border activity? Because it seems 
to me this can simply be a real deterrent by seeing these 
intimidating blimps or drones. Can you just reassure us or talk 
about the relationship between using the UASs in conjunction 
with your agents? And is one meant to supplement the other? You 
are not phasing out agents with the use of UASs, are you?
    Can you just talk a little bit about this?
    Mr. Kerlikowske. No, they are all designed to enhance and 
kind of, even in my earlier statement, the fact that it is 
still a labor-intensive job, it still requires boots on the 
ground. But it can be greatly enhances with technology.
    So I think the tethered aerostats are particularly helpful, 
with the camera systems that are in them.
    Mr. Young. Do you know about how many aerostats we have 
now?
    Mr. Kerlikowske. I think we are at five and we just put 
another one in McAllen area, so I think we are now moving to 
six aerostats.
    They are fairly expensive to operate because we use 
contractors to operate them. But frankly, I don't want to take 
a Border Patrol agent off the road and then have them operate 
the mechanics of the tactical aerostat.
    So I think they are helpful. I will be down in McAllen next 
week for my 12th or 13th trip and the agents down there feel 
that they are a definite deterrent and visible.
    I kind of thought that even if we had some extras, without 
the equipment we ought to just put them up in the air and see 
how that works, kind of like when we would park a police car 
with nobody in it and see if people slowed down.
    Mr. Young. Or the inflatable tanks they used in World War 
II.
    Mr. Kerlikowske. On the road. But we will have to see if 
they take up my idea.
    Mr. Young. Thank you for that.
    Last year I asked you about guidance given to CBP personnel 
to keep the administration's policies in mind and if these 
priorities supersede the law. And last month, House Judiciary 
heard testimony from a CBP agent that undocumented immigrants 
are no longer given a notice to appear and are released without 
any means of tracking their whereabouts.
    I have serious concerns about this and I know some of my 
colleagues do as well. Are agents being directed to ignore the 
law? Or is this coming from within their own decision-making or 
are they given guidance on ignoring the law on this?
    Mr. Kerlikowske. Well, they shouldn't be releasing anyone. 
And the Border Patrol shouldn't be issuing the notices to 
appear, without going through and without having ICE, 
Immigration and Customs Enforcement. So we don't need to be in 
that.
    I mean, I think everyone is very familiar with policies in 
the past called catch and release in which people were not 
documented, reports were not as well-written, people weren't 
questioned. There is no one that is apprehended today, unless 
they are under the age of 14, that isn't fingerprinted and 
photographed, that isn't debriefed about how did you get here, 
was there a smuggling involved, who did you pay, how much did 
it cost, all of that information.
    But we don't need and don't want and I would not stand by 
if the Border Patrol was releasing people without going through 
all of the formalities that are required.
    Mr. Young. Well, did this concern you when this Border 
Patrol agent gave this testimony before the Judiciary Committee 
on this about----
    Mr. Kerlikowske. So the concern I have is quite often the 
Border Patrol Council, which is the union, is probably not the 
most knowledgeable organization about what is actually going 
on.
    I think unlike, you know, when I have police officers in 
Seattle, they would follow the law, then there is room within 
the law to actually do things. And if they weren't happy with 
doing that, it is kind of like, well, if you really don't want 
to follow the directions that your superiors, including the 
President of the United States and the commissioner of Customs 
and Border Protection, then you really do need to look for 
another job.
    Mr. Young. Well, there are some serious concerns out there 
that the law is not being enforced. And last year when, with 
ICE, Saldana was here and she gave intimations and pretty much 
a statement saying that their goals and principles and 
priorities should take precedence, even over the law.
    And so that is very concerning to myself and many others on 
this panel and just throughout America, wondering why if it is 
not happening, the law is not being enforced. It is a very 
serious thing. I urge you to keep an eye on that, please.
    Mr. Kerlikowske. Thanks.
    Mr. Young. Thank you.
    Mr. Carter. All right. I think we will start a second 
round. First, going back to something one of my colleagues 
brought up, I think Mr. Harris.

                        INTEGRATED FIXED TOWERS

    The integrated fixed towers, the reality is that the first 
certification of one of these towers was last Friday. Am I 
correct? So it is a very, very current event.
    Mr. Kerlikowske. Yes.
    Mr. Carter. And on those towers, here is the question that 
Texans would like to know, when will your budget install towers 
in Texas? Or what will you use in Texas if not integrated fixed 
towers?
    Mr. Kerlikowske. So I think that part of the delay with the 
integrated fixed towers was the fact that that contract was 
protested. And as we know, when a contract is protested it 
takes a long time then to overcome that.
    But that fixed tower in Arizona is up and working. We know 
that the additional aerostat in Texas is very helpful. And if 
there are other locations, including those within Texas, in 
which that fixed tower would make a difference, then I would 
like to move forward with that.
    I couldn't be more specific, but I am happy to get back to 
you on that.
    [The information follows:]

    Chairman Carter. And on those towers, here is the question that 
Texans would like to know, when will you budget install towers in 
Texas? Or what will you use in Texas if not integrated fixed towers?
    Mr. Kerlikowske. So I think that part of the delay with the 
integrated fixed towers was the fact that that contract was protested. 
And as we know, when a contract is protested it takes a long time to 
overcome that.
    But that fixed tower in Arizona is up and working. We know that the 
additional aerostat in Texas is very helpful. And if there are other 
locations, including those within Texas, in which that fixed tower 
would make a difference, then we would like to move forward with that.
    I couldn't be more specific, but I am happy to get back to you on 
that.
    RESPONSE: Surveillance requirements in Texas may be filled with 
various combinations of personnel, technology, and infrastructure. 
Capabilities currently deployed in Texas for ground surveillance are 
the Tactical Aerostats and Relocatable Towers System and Unattended 
Ground Sensors (UGS). In addition, we have the Tethered Aerostat Radar 
System (TARS) for air domain awareness. We are planning deployments of 
the Remote Video Surveillance System (RVSS) fixed surveillance, the 
Mobile Video Surveillance Systems (MVSS) and the Mobile Surveillance 
System (MSC), both mobile surveillance. In some parts of Texas, we will 
also deploy the Mobile Surveillance System (MSS), which adds radar 
capability combined with cameras.
    CBP does not currently plan to install integrated fixed towers 
(IFTs) in Texas, largely because the Analysis of Alternatives concluded 
they are not an appropriate technology for much of Texas. Because of 
the foliage and terrain along the border in Texas, camera technologies 
are more effective than current radars, like those on IFT. We are 
emphasizing the deployments of RVSS and MVSS in Texas. The MVSS 
contract has recently been awarded and we expect initial deployments to 
Texas later this year. With respect to RVSS, we have begun preliminary 
work to do environmental assessments and acquire land. Accounting for 
the sometimes lengthy timelines of these preliminary processes, we 
expect to begin RVSS deployments in FY 2017 or FY2018. As a stop-gap, 
we have deployed six tactical aerostats to high-priority areas in 
Texas, as well as several ``relocatable towers'' with cameras in 17 
sites. Ultimately, it is the combination of surveillance assets, with 
tactical infrastructure such as patrol roads and access roads that 
support the responding agents, that will ensure CBP mission success.

    Mr. Carter. Well, it wouldn't be the first time that we 
have looked around and seen resources going to Arizona that we 
really needed in Texas. So I think I am required to ask that 
question.
    Mr. Kerlikowske. I got the message.
    Mr. Carter. Okay. [Laughter.]
    Mr. Cuellar. I agree.

                        BORDER SECURITY METRICS

    Mr. Carter. We understand that the department is exploring 
an outcome-based approach to metrics that would measure the 
effectiveness of our border security. How is CBP working with 
the secretary on this initiative? And how will it change the 
current CBP metrics which are more input-based instead of 
outcome-based?
    And what does the preliminary data suggest for border 
security between and at ports of entry? I understand the 
results differ compared with existing metrics.
    Mr. Kerlikowske. Yes, the secretary, and I think everyone, 
including CBP and the Border Patrol, is frustrated with either 
the lack of metrics or the metrics that exist. What do they 
really tell you?
    And almost like I believe it was Dr. Harris, you don't know 
what you don't know would be one of the questions.
    So the secretary brought in a number of people from the 
Department of Defense and others that have been working pretty 
closely with all of us to gather as much information as 
possible about what are the measures and what should be looked 
at and what are the determinations that would be most useful in 
things like determining the number of Border Patrol Agents, how 
secure is the border, what are we missing, et cetera.
    It is very complex. I don't know the exact timeline, but I 
know that he is absolutely focused and intent on trying to have 
this done and out certainly before he leaves office.
    Mr. Carter. So you don't really know anything, the 
difference between, you know, between input and outcome basis? 
Do you have some examples as to what the differences might be?
    Mr. Kerlikowske. I don't. The last briefing I had from the 
people that had come over from defense was probably three or 4 
months ago. So I am not all that familiar with where they are 
now, because they wanted to gather a lot of information from 
ICE, not just Border Patrol, but also at our ports of entry.
    Mr. Carter. Well, if you got anything that gives us a hint, 
would you share it with us?
    Mr. Kerlikowske. I will be happy to.
    Mr. Carter. Okay.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And I think if we look back on the record of the hearing 
last year, I do not believe that Director Saldana said or 
implied that the law should not be followed.

                        LAW ENFORCEMENT CAMERAS

    Commissioner, late last year, you briefed me on the results 
of CBP's review of body-worn cameras, which this committee 
supported as a way of potentially increasing accountability for 
CBP personnel as well as protecting them from unfounded 
allegations of misconduct.
    The budget request includes $5 million to continue 
examining how body-worn cameras might be used across CBP's 
varied operational environments while also looking at how the 
expanded or more efficient use of other camera technologies 
could be beneficial.
    Can you elaborate on how this funding will be used and how 
that activity will be different from the feasibility study that 
CBP conducted last year?
    Mr. Kerlikowske. Yes, ma'am. So we have tried to move 
beyond the fact that, one, Customs and Border Protection is a 
very camera-rich environment now. Every port of entry, certain 
checkpoints, lots of locations and including all the cameras 
that are along the border. So we have lots of cameras and we 
use a lot of cameras.
    But expanding the cameras in two areas would be 
particularly helpful. One is that our marked vehicles do not 
have dash cameras, as many police departments have, like Los 
Angeles and others. We want to be able to use part of that $5 
million to put those cameras in those vehicles because we do 
end up in apprehensions and pursuits, et cetera, where that 
record would be helpful.
    Expanding cameras at the checkpoints, the permanent 
checkpoints, the number would be helpful.
    And also on our boats. We have had two fatal incidents, one 
off the coast of California and one with the British Virgin 
Islands within the last year, fatalities involving enforcement 
actions. And our boats are not equipped with those cameras.
    The difficulty that we have had with body-worn cameras, and 
our air and marine agents will be testing them out as they 
interact with people at locations, but the difficulty with the 
body-worn cameras for our Border Patrol agents is that we did 
not find a camera that withstood the environment that they 
worked in, for more than about 3 months.
    Since that time, we have had a number of discussions with 
vendors who have come forward with either ideas or ways to 
improve those cameras, because we think it would be helpful.
    And you know, I spent time over coffee with a number of the 
agents who field tested the cameras. You know, they were very 
positive about it. The Border Patrol Council, the union in this 
particular case, has indicated support for body-worn cameras.
    So we will keep looking at the technology.
    Ms. Roybal-Allard. Okay. And how long do you anticipate 
that this next phase will take? And when can we anticipate that 
CBP will make a decision about improving and expanding the use 
of cameras, including the body-worn cameras?
    Mr. Kerlikowske. It is relatively easy to improve and 
expand on the cameras in all of the locations that I talked 
about, except for the agents out in the field in the rough 
terrain.
    I would certainly make it a goal of mine before I leave 
office at the end of this year to make sure that we have 
developed body-worn cameras that agents can wear and rely upon.
    Ms. Roybal-Allard. And what progress has been made in 
addressing the major procedural and policy challenges 
associated with using the cameras?
    Mr. Kerlikowske. I think the most help that we have gotten 
has been from the nongovernmental organizations who are very 
involved in body-worn camera issues for state and local law 
enforcement, they have been a part of the discussion over what 
would be the best policies.
    But we also know, and I think the city of Los Angeles 
looked at a price tag just for that city alone of over $50 
million and wants to make sure, and I think you have brought 
this up, too, Mr. Chairman, you know, there are huge numbers of 
costs when it comes to retaining information, FOIA request, et 
cetera.
    And all of that needs to be included in the analysis.

                          USE OF FORCE POLICY

    Ms. Roybal-Allard. Okay. When you arrived at CBP, I and 
many others had significant concerns about allegations of the 
improper use of force and other types of misconduct among CBP 
personnel. And a short time later in 2014, you updated CBP's 
use-of-force handbook, incorporating many of the 
recommendations made by the inspector general and in the Police 
Executive Research Forum's review of CBP use-of-force cases and 
policies.
    You also announced the establishment of a use-of-force 
center of excellence. The budget request for fiscal year 2017 
includes a $4.2 million increase for the center, which is based 
at CBP's Advanced Training Center in Harper's Ferry.
    Can you elaborate on the purpose of the center, what it has 
accomplished to date and how the proposed funding increase 
would be used?
    Mr. Kerlikowske. So the center has been particularly 
helpful in two areas, one is less-lethal technology. There are 
a variety of less-lethal, from tasers to pepper ball launchers 
and on and on, that can be used before having to resort to the 
use of a firearm. And so part of the work that they do is the 
training and looking at that new equipment.
    The other is the simulators. So we are in the process of 
purchasing 21 simulators that will be assigned throughout our 
field of operations, from Spokane, Washington, to Florida, 
where agents and officers can go through a simulation.
    We make our own videos based upon the environment 
particularly that the Border Patrol works in. At the same time, 
we added a variety of fencing to the Border Patrol training 
facility in Artesia, New Mexico, so that agents could actually 
practice before they ever leave training, could actually 
practice in the environment that they were going to be 
operating in.
    So we have seen great progress in that area and we would 
like to make more. And that is part of the request.
    Ms. Roybal-Allard. Have you seen use-of-force incidents 
decrease over the past year?
    Mr. Kerlikowske. So our assaults on agents so far, year to 
date in this fiscal year, are down about, I believe, 25 or 30 
percent. So assaults on agents are down.
    We released our use-of-force information and our uses of 
force were, even though last year we did see a flattening or 
the same number of assaults on agents, we saw a reduction in 
the use of force by agents. And part of that is a result of 
better policy, better training, better equipment, et cetera.
    Ms. Roybal-Allard. Thank you.
    Mr. Young [presiding]. Thank you.

                              INTELLIGENCE

    As you well know, it is critical for CBP officers to be 
able to transmit information they have gathered for national 
security purposes. I am concerned about findings by the 
Homeland Security Committee that while CBP officers can pass 
along information collected at our borders, the process isn't 
[obviated] and it is not incorporated into the federal 
government's other intelligence and travel databases.
    I see you are requesting $48 million for--intelligence 
staffing. I want to be sure, and I know everybody does, and 
maybe you can talk a little bit more about this, about the 
integration and collaboration between systems and technologies 
to address this and make sure this information is not being 
missed.
    Mr. Kerlikowske. Yes, when I arrived at CBP and examined 
each of the components, including the Office of Intelligence, I 
saw that the Office of Intelligence was very much tactical and 
very much focused on particular targeting. But that means that, 
as I described it, it was kind of a mile wide and an inch 
deep--no, vice-versa. It was very much targeted or very much 
tactical.
    And so it was very important that we brought in a new 
assistant commissioner who came from the Office of the Director 
of National Intelligence and the FBI and had been at the NSC 
and said let us broaden our intelligence scope and let us work 
more closely with the other intelligence agencies and feed the 
information to our targeting center. But let us not make our 
intelligence unit all targeting all the time.
    We needed all of the other information. For instance, we 
are negotiating on preclearance with nine other countries. We 
need that broad-based intelligence. That is where we are, that 
is where we are headed. And the relationship with the 
intelligence community to be able to use or access other 
databases is progressing well.
    Mr. Young. It is progressing well?
    Mr. Kerlikowske. It is.
    Mr. Young. Do you sense any impediments that you need to 
overcome that we can help with?
    Mr. Kerlikowske. No, we couldn't have better--you can 
always help.
    Mr. Young. Yes.
    Mr. Kerlikowske. But we couldn't have better partners than 
Director Clapper, than Director Comey and others. And I think 
they see the value and the importance of what CBP brings to the 
table on these issues.
    Mr. Young. Thank you for that.
    Mr. Kerlikowske. Thanks.
    Mr. Young. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.

                     CARGO SCREENING & PRECLEARANCE

    Commissioner, I would like to ask you about two distinct, 
but related areas to push our borders outward, as we say. The 
first, cargo screening overseas; the second, preclearance for 
airline passengers.
    First on the cargo screening, as you know, the 9/11 Act 
required CBP to scan 100 percent of maritime cargo originating 
in foreign ports prior to landing on American shores. For a 
variety of reasons, from costs to technological constraints to 
inadequate infrastructure at many harbors, this requirement 
remains illusive. Perhaps it is not ultimately possible.
    I think this subcommittee has recognized that. In fact, in 
our 2016 report we acknowledged as much. We acknowledged the 
expectation that the department, in light of this, would 
provide to the Congress aggressive, alternative requirements 
that build on the layered secured capabilities achieved to date 
and that could be realistically achieved within the next two 
years, I am quoting.
    So we directed CBP to provide a briefing within 45 days of 
enactment on its near-term and longer-term plans for the 
improvement of maritime cargo scanning at foreign ports.
    I have just not so much a question as a comment. I do think 
you have a case to make here. There may be elements there. But 
I do think the subcommittee needs to be assured that in light 
of this very difficult, perhaps impossible statutory 
requirement, that you are filling in the blanks with a risk-
based screening process that we can rely on longer term.
    So we put great stock in your filling out that information.
    Mr. Kerlikowske. We do. The secretary has made it very 
clear the importance of this. We know we have a lot of 
screening systems in place, both overseas and here, but it does 
not meet the requirement of the law. And that is important.
    And also, of course, the direction through the law for 
biometric exit. And that is why we have moved very aggressively 
since we were given the mandate in 2013 to move to a biometric 
exit process. We have a biographic exit program that is pretty 
robust, but we need biometric exit.
    And I think the final part of this budget is the request 
that the Office of Biometric Information be moved to CBP, so 
that if you are going to hold me or the next commissioner 
accountable for biometric exit, we would have the tools and the 
resources to actually make that happen.
    Mr. Price. But my reference is to this prior statutory 
requirement for screening overseas. And as I said, this 
subcommittee, on a bipartisan basis, has been cognizant of the 
difficulties there, but at the same time we do need to be 
filled in as to what the short and long-term plans look like 
for the screening of particularly risky cargo coming from 
overseas.
    Now, preclearance, airline passengers, this has been, in 
some instances, a very uncontroversial process involving 
Canada, Ireland, other countries; in the case of Abu Dhabi, not 
so uncontroversial.
    Nonetheless, it seems to me it has had a very solid 
rationale, a security rationale, a rationale in terms of 
convenience to passengers. In other words, the case is pretty 
strong, but we need to make the case and we need you to 
understand how the department assesses the work done so far and 
what kind of projections you make into the future.
    So I wonder here, and you may want to submit more for the 
record, but I wonder here if you could briefly give us an 
assessment, how many places this is going on, what do you think 
would be desirable in terms of the future reach of this 
preclearance effort. What kind of process report can you give?
    Mr. Kerlikowske. So the discussion with 10 airports in nine 
countries is continuing on. It is very robust. Tonight I will 
be meeting in New York with a group, a country, seven people 
flying in from another country to discuss final discussions. I 
believe that before the end of this calendar year that we will 
have several signed agreements with countries for preclearance. 
And then I believe in 2017, preclearance operations will 
actually be operational in a couple of those locations.
    For safety, security, for benefit to the traveler, for cost 
to the taxpayer, I don't think, and certainly with the support 
that Congress has given on this, I don't think we can go wrong 
with pushing our borders out.
    Mr. Price. Abu Dhabi in particular, do you have any 
comments on how that has worked, and particularly on the 
security benefits of that arrangement?
    Mr. Kerlikowske. The last numbers I looked at, which were 
several months ago, well over a thousand people who wanted to 
fly from Abu Dhabi to the United States, our recommendation to 
the airline was that if they arrived they would be deemed 
inadmissible. And the airline then made a decision not to admit 
them.
    And that doesn't mean just citizens from UAE, but that is 
people that have flown through Abu Dhabi to then continue-on 
travel.
    So from a security standpoint, I think it makes sense, but 
I am very pleased that in the negotiations with the current 
negotiations, all of these locations have American flag 
carriers that fly into and out of them.
    Mr. Price. That is the requirement going forward.
    Mr. Kerlikowske. Yes.
    Mr. Price. It was not true of Abu Dhabi at the time.
    Mr. Kerlikowske. Right.
    Mr. Price. That seems remarkable just on the face of it. A 
thousand you say?
    Mr. Kerlikowske. Yes.
    Mr. Price. Do you think those thousands of people otherwise 
would have come to this country and be dealt with at one of our 
ports of entry? Or is there something attracting these people 
to maybe try their luck?
    Mr. Kerlikowske. They would have been deemed--I mean, we do 
apprehend and deny admissibility every single day. And they 
would have landed in the United States. They would have been 
deemed inadmissible based upon the information we had.
    The airline would have been required to place them on the 
next flight back, the next return flight. They would have been 
held during that, they would have been incarcerated during that 
period or maintained in a secure location until getting back on 
that flight where we escorted them back on the plane and they 
left the United States.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter [presiding]. Dr. Harris.
    Mr. Harris. Thank you very much.

                        FORWARD OPERATING BASES

    Let me ask a little bit about the OIG report on the forward 
operating bases, which I am sure you have seen, and I 
understand and they, you know, say, you know, your organization 
responded.
    But it seems it is pretty serious because these are pretty 
important operating bases. Are you committed to addressing all 
the problems they found?
    Mr. Kerlikowske. The first problems and the ones that were 
certainly most significant involved the quality of the water. 
And we made changes.
    One of the difficulties with an organization this vast and 
this widely dispersed is that sometimes by the time the 
information gets to me it is like, you know, what is being done 
and how many days has this already gone.
    I have made it clear that the safety and security our 
personnel, whether it is in where they work, is key to that.
    So these forward operating bases, which can be quite 
helpful, but are also quite remote, need to be secure and they 
need to be well-maintained and we need to work with our staff 
and the GSA to make sure these locations are better.
    Mr. Harris. Okay, thank you. I appreciate that, because you 
are right, our agents do need to have secure facilities and, 
you know, good facilities where they are working.

                           EXPORT ENFORCEMENT

    With regards to export enforcement, I just have a question. 
Obviously, the sanctions that prohibit U.S. exports to Iran 
still remain in full effect with the exception for civilian 
aircraft. But what is, you know, what steps are you doing now 
that there is this, you know, enhanced relationship with Iran 
to monitor for illegal exports, to make sure that we are not, 
you know, exporting illegally to Iran?
    Mr. Kerlikowske. You know, exports for any customs 
organization in the past, including ours, did not see the same 
level of scrutiny and review that certainly imports see.
    Over the last several years, we have taken a number of 
steps to do a much better job of looking at what is leaving. 
There is a program in which large numbers of exports from well-
known manufacturers here in the United States may leave the 
country, but that the manifests of what was leaving the country 
would not be transmitted until it was already on a ship and 
already going out.
    So we are working with industry because we want the 
manifests in advance before it ever gets on a boat or ever gets 
the ability to leave.
    And we also need to make sure that we are working closely 
with the intelligence community and others on things that may 
be exported to a country that could be hostile to us, that they 
never get to that country.

                            FOREIGN STUDENTS

    Mr. Harris. Fine. And one final question. I am just not 
sure this is, you know, your jurisdiction. But the homeland 
security sector is supposed to deny entry to the U.S. of any 
Iranian citizen seeking to enter the U.S. to study for a career 
in the fields of energy, nuclear science and nuclear 
engineering.
    Makes great sense. You know, we don't need to train our 
enemies. And under the JCPOA, the law is to remain in effect 
for the next eight years.
    My concern is, and again maybe you have knowledge of how 
this works, but you know, look, I have five children, four have 
been to college, all four have changed their majors when they 
were in college. Someone can come here and say, no, I am not 
going to study nuclear engineering, go to school, and in fact 
take nuclear engineering courses.
    Do we have a safeguard to make sure that Iranians don't 
come here and literally gain access to what I believe is the 
best education in the world, technical education in the world, 
to go back and build weapons against us? I mean, how do we 
safeguard against that?
    Mr. Kerlikowske. You know, Dr. Harris, it isn't in my----
    Mr. Harris. That is probably ICE, isn't it, I imagine?
    Mr. Kerlikowske. I don't have that information. Or USCIS. 
But we will be happy to get with your staff and figure out who 
the best people are.
    [The information follows:]

    Representative Harris. Do we have a safeguard to make sure that 
Iranians don't come here and literally gain access to what I believe is 
the best education in the world, technical education in the world, to 
go back and build weapons against us?
    Mr. Kerlikowske. You know, Dr. Harris, it isn't in my . . .
    Mr. Harris. That is probably ICE, isn't it, I imagine?
    Mr. Kerlikowske. I don't have that information. Or USCIS. But we 
will be happy to get with your staff and figure out who the best people 
are.
    RESPONSE: The best person to answer this question is the Director 
of Student and Exchange Visitor Program at U.S. Immigration and Customs 
Enforcement (ICE).

    Mr. Harris. If you would, I would appreciate that because 
that is of some concern to me. Because you know, people can 
come here and, you know, we don't know their intention. They 
will fill out a form and say that, you know, they want to be a, 
you know, a history major and end up in an engineering school 
learning things that will come back to bite us.
    Thank you very much. I yield back.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Mr. Chairman, thank you so much.

                          CBP STAFFING: TRADE

    Two questions dealing with trade. Where are we on the full 
2,000 CBP officers? I know at one time we were delayed because 
of a breach of security backgrounds. Where are we with that?
    And then tell us a little bit about the agricultural 
specialist staffing issue. And again, you know my history about 
Laredo being the largest--and then the valley has a lot of 
agriculture.
    So tell us where we are on those two issues.
    Mr. Kerlikowske. Sure. One, I would be remiss if I didn't 
thank you for speaking to our personnel when they have their 
large personnel meetings and talking to them about 
professionalism and their responsibilities and on and on. It 
means a great deal when a member of Congress spends time with 
them. So that is very helpful.
    We are about 700 Customs and Border Protection agents below 
the 2,000 that we would have hired. Remember, we have had a lot 
of, you know, a lot of attrition.
    In December we hit the highest number ever of Customs and 
Border Protection agents onboard. So we are making progress 
with them. That is particularly helpful.
    We also did not ever have a staffing program or a workload 
analysis for our agriculture specialists.
    And quite frankly, after 2003 and the fact that we were put 
together as a result of that, combining in the Department of 
Homeland Security, it was all security all the time. And our 
agriculture specialists, who are the most highly educated, by 
the way, of our workforce, did not receive, in my estimation, 
as much support as needed.
    And when you think about the things that can harm this 
country, from pests and diseases in agriculture, we have worked 
pretty hard to try and improve and increase and show the 
recognition for the important work that they do.
    But the staffing model will be helpful.
    Mr. Cuellar. Okay. Second question has to do with a letter 
that Governor Abbott and myself wrote to the secretary. And I 
see the response and I told the secretary I respectfully 
disagree, especially I think the chairman said a while ago that 
you all are 12 percent below the goal for air interdiction 
officers. Is that correct?
    Mr. Kerlikowske. Yes.

                             NATIONAL GUARD

    Mr. Cuellar. Yes. So if there is air crew vacancies and we 
provided funding, full funding to the National Guard--and 
again, I disagree with the way the secretary had looked at it. 
And you know, he does a great job and I appreciate it. But he 
was looking at it 1 month, from December to January, when 
actually when you look at the longer one, it is, you know, it 
is actually 171 percent increase on just unaccompanied kids, 
102 percent on families.
    But regardless of all that, but if we are short, we have 
vacancies, the National Guard got funded, I would ask you all, 
with all due respect to the letter I got from the secretary, I 
would ask you all to look at that again one more time.
    Because, Mr. Chairman, I am going to request some language, 
especially if we fund it, that we put that back again, 
especially if your numbers are correct and they have been 
confirmed that 12 percent under the goal of air interdiction.
    And all we want to do is provide the men and women the 
support, air support. I can understand if we didn't provide the 
funding blame Congress, but in this case we did provide the 
funding.
    So again, you don't have to give an answer. I would just 
ask you to just respectfully consider our request again.
    Mr. Kerlikowske. Certainly. And we would never blame 
Congress. [Laughter.]
    Mr. Cuellar. And again, my last question. Again, 
Commissioner, thank you for all and I wish you the best for the 
end of this year. And again, I really appreciate your 
dedication and the men and women that serve along with you. 
Thank you so much.
    Mr. Kerlikowske. Thank you very much.
    Mr. Carter. Commissioner, I, too, want to join my friend 
from Texas in thanking you for your hard work.
    Please convey our appreciation and thanks to all the 
members of the U.S. Customs and Border Protection Agency. They 
do a tough job in a tough environment.
    And as we talk and question, we all know, because all of us 
have been there, and those that haven't are going to go, 
because they need to know the kind of rough environment that 
you all have to work in.
    And we hope God blesses each and every one of you. Thank 
you.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



                                          Wednesday, March 2, 2016.

                 TRANSPORTATION SECURITY ADMINISTRATION

                                WITNESS

PETER NEFFENGER, ADMINISTRATOR, TRANSPORTATION SECURITY ADMINISTRATION

                   Opening Statement: Chairman Carter

    Mr. Carter [presiding]. All right. We will call this 
hearing to order. This afternoon we welcome Administrator Pete 
Neffenger to testify on the Transportation Security 
Administration's fiscal year 2017 budget request.
    Welcome. Glad you are here. Administrator, thanks for all 
you do, and we are very pleased we are able to do this hearing 
today.
    The fiscal year 2017 budget for TSA is $7.6 billion, which 
is $149 million dollars above fiscal year 2016. This year's 
budget is a significant departure from previous years, which 
were marked by reductions in screening personnel and other 
efficiencies achieved through TSA's risk-based security 
initiatives.
    This committee has long supported risk-based approaches to 
transportation security, but has emphasized the need for these 
programs to be grounded in improving security, above all else. 
The fiscal year 2017 budget request continues initiatives 
funded in fiscal year 2016 to strengthen passenger screening 
operations, equipment, training, and intelligence and vetting 
programs, in response to the disturbing results from the OIG's 
Office of Testing last year.
    I look forward to hearing from you on the progress TSA has 
made so far and how the fiscal year 2017 budget continues to 
support these efforts.
    I would also like to understand how TSA is continuing to 
invest in risk-based security efforts that will ensure we are 
focusing our resources on the highest-risk passengers.
    Lastly, I would be remiss not to convey my disappointment 
that the administration has yet again resorted to budget 
gimmicks, assuming unauthorized fees as an offset for TSA's 
appropriations. This has created a huge hole in TSA's budget to 
the tune of about $908.8 million that Congress now has to deal 
with.
    I would like to recognize our distinguished ranking member 
of the whole committee, Mrs. Lowey, for any remarks that she 
would like to make.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mrs. Lowey. Well, thank you, Mr. Chairman, for your very 
gracious welcome. It is always a pleasure for me to be here 
with you and our ranking member, Mrs. Roybal-Allard. I thank 
you for holding this hearing today.

                Opening Statement: Ranking Member Lowey

    And, Administrator Neffenger, I welcome you and thank you 
for joining us.
    The President's budget proposes $7.33 billion for TSA, 
which is a modest $149 million increase from fiscal year 2016. 
The request includes investments to enhance aviation security 
and continue risk-based security initiatives such as TSA 
PreCheck. TSA has shown a commitment to maximizing security 
capabilities while expediting the screening process for low-
risk travelers.
    Last year's OIG report on vulnerabilities in TSA's 
screening process was a reminder, however, that we must take 
great care in ensuring that security remains the top priority. 
Our aviation security infrastructure remains at risk due to 
poor screening standards of the airport employees and 
significant vulnerabilities to perimeter security.
    In particular, I am disturbed by reports of security gaps 
around airport perimeters and at non-passenger access points, 
which could be exploited by attackers to sneak bombs onto 
planes, much like what happened at the Sharm el-Sheikh Airport 
last year.
    I look forward to hearing from you on what improvements TSA 
is making to protect the traveling public.
    In addition to combat risk to aviation security, we need a 
trained and experienced workforce to deter and detect security 
threats. I worked with your predecessor, Administrator Pistole, 
to ensure that transportation security officers have 
satisfactory workplace rights and responsibilities.
    As I think you can agree, TSOs put themselves on the line 
every day to protect us and to serve in an enriching, 
professional environment. That is why I am concerned about 
morale and collective bargaining for TSA employees and, more 
specifically, career advancement and workplace discrimination 
for female TSOs.
    Administrator Neffenger, you have a lot on your plate. I 
look forward to discussing these concerns today and hearing 
your testimony.
    [The information follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
   
    Mr. Carter. Thank you, Mrs. Lowey. We are honored to have 
you here, and I know you've got plenty of missions that you 
gotta accomplish today. We are thankful for you.
    Ms. Roybal-Allard.

            Opening Statement: Ranking Member Roybal-Allard

    Ms. Roybal-Allard. Administrator Neffenger, welcome to your 
first appearance before our subcommittee. You arrived on the 
scene just when significant changes were needed in TSA's 
screening operations.
    The results of the Office of Inspector General's covert 
testing found that TSA had been moving too fast on expedited 
screening without fully understanding a number of the risks and 
vulnerabilities. Because the vulnerabilities identified by the 
OIG were not really new, the OIG report raised questions about 
TSA's ability to manage competing pressures of prioritizing 
security and reducing wait times.
    Over the last several months TSA has taken a number of 
steps to address many of the vulnerabilities. There is one area 
of improvement in particular on which I want to commend you and 
your workforce.
    I am a frequent traveler between D.C. and my home district 
in Los Angeles, and I actually have seen a difference in the 
degree of professionalism that has been displayed by many of 
your officers. And I hope that my colleagues and members of the 
traveling public have also experienced the same thing.
    I look forward to this afternoon's discussion of TSA's 
proposed budget for the coming year and look forward to your 
testimony.
    Thank you.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Carter. Administrator, we are ready to hear from you. 
And we have got your written statement in the file, and of 
course we are all aware of it. So you may proceed.

               Opening Statement: Administrator Neffenger

    Mr. Neffenger. Thank you, Chairman.
    Good afternoon, Chairman Carter, Ranking Member Roybal-
Allard, Ranking Member Lowey, and distinguished members of the 
subcommittee, and thanks for the opportunity to testify today 
on behalf of the fiscal year 2017 budget, which includes $7.6 
billion for TSA. And thank you also for the support that this 
committee provided to TSA in the omnibus bill of 2016. That 
was, I think, an important step forward in terms of addressing 
some of the challenges last year.
    This budget provides funding to sustain and strengthen the 
critical missions of TSA: protecting the nation's 
transportation system and ensuring the freedom of movement of 
people and commerce. Transportation underpins the entire 
economic health of this country. We depend upon it, and 
protecting it is one of the most important services our 
government provides the American people.
    It is now 8 months since I joined TSA on July 4th of last 
year, and of the many positive impressions, the most profound 
is the one I have gleaned about our workforce. TSA's nearly 
60,000 security professionals are dedicated to a demanding and 
challenging mission, and they are our most important resource. 
They are incredibly patriotic and passionate about our 
counterterrorism and will deliver excellence if properly 
trained, equipped, and led.
    This budget is a modest increase over last year and will 
enable TSA to more fully renew its focus on security 
effectiveness. It annualizes the investments made in our front-
line workforce, our screening technology, and the new TSA 
Academy, and sets a foundation for the transformation of TSA 
into the professional counterterrorism and security agency the 
American people deserve.
    I would like to thank this subcommittee for its commitment 
to our mission and for helping us hold front-line staffing 
levels steady in the face of dramatic increases in passenger 
volume and a dynamic threat environment.
    This budget also enables us to hire air marshals for the 
first time since 2011, consistent with a risk-based concept of 
operations, modestly increases our intelligence capability, and 
invests further in the TSA Academy.
    We have made great strides in addressing the challenges we 
faced last summer. To ensure we do not repeat past mistakes, 
determining root causes of the problem identified has been my 
utmost concern. Delivered in a classified report to Congress 
and this committee in January, we concluded that strong drivers 
of the problem included a disproportionate focus on efficiency, 
environmental influences that created stress in checkpoint 
operations, and gaps in system design and processes.
    I am proud to report that we have refocused on our primary 
mission, retrained our entire workforce, corrected procedures, 
improved our technology, and analyzed systemic issues. We are 
emphasizing the values of discipline, competence, and 
professionalism in resolving every alarm, and I am confident 
that we have corrected the immediate problems. And I am also 
confident that TSA is able to deter, detect, and disrupt 
threats to our aviation system.
    TSA will continue to partner with the airlines, the airport 
operators, and the trade and travel industry to identify 
solutions that can reduce stress on the checkpoint, 
particularly as we move into the summer season, and we must 
continue to right-size and resource TSA appropriately to ensure 
that we continue to be responsive to the public we serve.
    Moving forward, we are guided by a principled approach 
central to a successful enterprise leadership. We are intensely 
focusing on the central unifying purpose of TSA, which is to 
deliver transportation security, and we are aligning our 
strategic guidance, our operational plans, our measures of 
effectiveness, our system design, and our performance 
evaluations to this core purpose.
    The unity of effort that we expect is memorialized in my 
Administrator's Intent. This is a document I published in 
January this year. I provided copies to the subcommittee.
    Mission success is built on a shared understanding of 
objectives, unity of purpose, and alignment of values and 
principles, and my Intent articulates those objectives for the 
entire organization, the approach we will pursue in 
accomplishing our essential counterterrorism mission, and the 
values and principles that define us. Simply stated, we will 
focus on mission, invest in our people, and commit to 
excellence.
    Our self-examination also gave us insight into imperatives 
for change and how we must evolve. We must adapt faster than 
the enemy; we must invest at the pace of the threat; and we 
must build resiliency into operations, and we must do so in a 
rapidly growing sector of the American economy.
    We are undertaking a series of foundational efforts, 
including a comprehensive assessment of our acquisition system; 
building a planning, programming, budgeting, and execution 
system; developing an enterprise-wide human capital management 
strategy; reviewing our staffing model to ensure operational 
focus and agility; and fielding an agency-wide training 
strategy which includes new officer training, continuing 
professional education, and leadership training and 
development.
    We are rethinking how we invest in technology and are 
partnering with several airlines and airports to develop and 
install in the near future a dramatically improved passenger 
screening environment in a couple of key airports.
    Of utmost importance, TSA must remain committed to the 
values that public service demands, and I have challenged our 
leaders at every level to commit themselves to selfless and 
ethical service. As I discover questionable policies or 
unjustifiable practices, I fix them. I demand an agency that is 
values-based and infused with character from top to bottom.
    This is my solemn duty, and it is what the American people 
expect of their government and those in whom they entrust their 
security.
    Many profound and important tasks lay ahead for TSA, but I 
believe we are on a sound trajectory and I am optimistic about 
the future. As I have relayed in my Intent, we will focus on 
mission, invest in our dedicated workforce, and will commit to 
excellence in all that we do.
    I thank you again for the opportunity to appear before you 
today, and I look forward to your questions.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                          CHECKPOINT SECURITY

    Mr. Carter. Thank you, Admiral. Before we begin I am going 
to start off with a little humor.
    On my way up here for your hearing from Austin, Texas, 
standing in the PreCheck line and I handed the officer what I 
thought was my Texas driver's license. It was actually my 
concealed carry permit, which is, by the way--and I told him, I 
said, ``That is an official ID for the state of Texas.'' But I 
found out also that I didn't have my driver's license.
    He was in a dilemma because I think I threw him off with 
that concealed carry permit, and so I got my voting card and 
gave that to him, and that impressed him even less than the 
concealed carry permit. And so he went to the management to see 
if they were going to let me in, and meanwhile half of the 
constituents in my district walked passed me in the line 
saying, ``What did you do?''
    And I said, ``I don't know.'' And they finally very 
graciously let me through without any problems.
    But I have to go back tomorrow, and I might need a note 
from you before you leave giving me permission.
    Mr. Neffenger. I will write it while we sit here, Judge. 
[Laughter.]
    Mr. Carter. No, they were very courteous. They did a good 
job, and I told them that you did a good job.
    Mr. Neffenger. Thank you.

              CHECKPOINT SECURITY: RESPONSE TO OIG TESTING

    Mr. Carter. Well, let's start off with--in fiscal year 2016 
Congress provided TSA with funding to strengthen aviation 
security in light of the disturbing results in the OIG covert 
testing; the 2017 budget proposes to continue these 
initiatives.
    Explain the actions TSA has taken to date to enhance its 
screening operations, or tell us, are our skies any safer today 
than they were a year ago when OIG conducted its covert 
testing? And what additional capabilities and security efforts 
will be supported with the additional funding requested in 
fiscal year 2017?
    Mr. Neffenger. Well, thank you for that, Mr. Chairman. We 
have actually--we have done a lot in the past 8 months, and I 
have actually been very impressed with the work that the agency 
has done to correct both the immediate problems raised by the 
leaked report of the inspector general as well as to identify 
systemic problems.
    So this budget really invests in--there is a people piece, 
a technology piece, and a training piece associated with this. 
The people piece is really the--was the ability to halt further 
reduction of the screening workforce--so we were, as you 
remember, originally scheduled to take another 1,600 or so 
bodies out of the screening workforce in fiscal year 2016, and 
this committee and Congress allowed us to keep some of those.
    I thought that was important, given the challenges that we 
came across and the fact that we were going to be pushing 
people that had been inappropriately moved into expedited 
screening back into the standard lane. So I knew we would 
probably need that staff.
    I owe you an explanation of what our staffing needs are, 
and we are working on that right now.
    So that is one piece of it is to keep those people onboard.
    The technology piece is to implement some software upgrades 
as well as some hardware changes to the--some of the screening 
equipment that is in the system. So the other thing that we 
found is that we needed to address the screening--or the 
effectiveness of that advanced imaging machine. This was the 
one that looks for nonmetallic threats.
    It is a good machine. It is probably the best there is out 
there right now for determining nonmetallics. But we found 
through our root-cause analysis that we needed to tighten up 
the standards and to improve the ability to detect in certain 
regions of the body.
    So we have done that, and we are fielding a new software 
algorithm that has dramatically improved our ability to do 
that.
    The other thing that we did was to--one thing I was 
surprised to discover when I came onboard is that there was not 
centralized and consistent oversight of training of our new 
hires coming in, particularly the front-line screening force.
    So if you join TSA as a transportation security officer you 
train largely at the airport that you are going to work. If you 
were at a smaller airport they might port you over to the 
nearest closest airport.
    But it was done in what I would consider to be an 
inconsistent manner, and without any good means of measuring 
the effectiveness. And it also wasn't done real-world scenario-
based on the equipment that they would be using in the actual 
environment.
    So long story short, and I know we presented to the 
committee earlier on this, we started from scratch. With your 
funding we created a TSA Academy at the Federal Law Enforcement 
Training Center in Glynco, Georgia--a world-class training 
facility where some other 90 agencies train their officers.
    They are an accredited facility. They helped us to build a 
program that we are working to get accredited.
    But it is a basic training course, 2 weeks long right now, 
where they start with aculturation, first and foremost: What is 
this you are connected to? What does it mean to be part of a 
federal security program? What does it mean to be engaged in 
something larger than you?
    So I really want them to get connected to this sense of 
public service and the history of the organization.
    And then they go through classroom laboratory immediately--
or classroom work immediately followed by a laboratory, where 
they work on the actual equipment that they are going to be 
using that we can create all sorts of scenarios in that 
environment. And then we move them through--they actually--they 
go out to a bomb range and they learn what the devices look 
like that they are trying to discover; they watch what happens 
when those devices explode. So it gives them a visceral 
connection to the work that they are doing.
    So I am very excited about that, and I think that that is 
going to be foundational in terms of transforming the agency in 
the future.
    The other thing that we did was to look deep into the 
organization for systemic issues. I was concerned that if all 
we did was fix the last failures then all we did was fix the 
last failures. It seems to me that if you have repeatedly seen 
things happen there is something more going on.
    And no surprise, as you looked at it we saw systemic issues 
across the agency. No one person at fault, but an agency focus 
that--and some of it is just the tyranny of being in an 
operating agency that has to do something every day. You tend 
to do the next thing that comes along--and sooner or later the 
next thing became the last thing, and becomes the last thing 
over and over.
    So I said, ``You gotta take a--you gotta step back and look 
at the big picture.''
    So that showed us that we had a disproportionate focus on 
efficiency over effectiveness. That might be the right thing to 
think about if you are in the management: You want to keep wait 
times to a reasonable level. But it can get translated in 
distorted ways when it gets to the front line.
    We had leadership--we had integration issues. You know, you 
have lots of things going on in the organization but they are 
not tied together very effectively. And then you have lots of 
environmental pressures: growth in passenger volume, lots more 
stuff coming through the checkpoint.
    All of that has to be considered as a system, otherwise you 
are just going to be swatting the next bad thing that happened.
    So I am proud to report that I think that we have done a 
good job of addressing those immediate challenges. Our own 
internal testing shows that we are significantly more effective 
than we were this time last year.
    I am working with the inspector general on the next round 
of testing that he intends to do. I want it to be aggressive; I 
want it to be--to--I want it to test the things that we have 
done in--just in the testing other aspects of the system. And I 
am convinced that we will do significantly better.
    We are going to continue to do that improvement as we go 
forward.
    Mr. Carter. Very good. Thank you.
    Mrs. Lowey.

        TRANSPORTATION SECURITY OFFICERS: COLLECTIVE BARGAINING

    Mrs. Lowey. Thank you again for your courtesy.
    And thank you for your service, sir.
    Two questions regarding the training program: As you 
probably know, I fought to provide collective bargaining rights 
to transportation security officers and ensure they have the 
same rights and benefits as other federal employees in the 
Department of Homeland Security. This is of vital importance, 
as the initial collective bargaining agreement between TSA and 
its front-line workers has now expired; the expiration of the 
contract should not result in scaling back hard-fought worker 
protections.
    So the first question is, can you update the subcommittee 
on when a contract between TSA and its employees will be 
finalized?

                       VETTING: AVIATION WORKERS

    The second question, the Government Accountability Office 
and the department's Office of Inspector General have issued 
reports over the last few years in which they found significant 
vulnerabilities in TSA's vetting of aviation workers with 
access to secure areas of airports. These vulnerabilities 
included oversight of how airports collect data on applicants 
for vetting purposes, security threat assessments that were 
based on checks against some of the government's watch list 
codes, and an inability to notify the employer when an employee 
gains a criminal record after hiring.
    So I understand your progress, so the first is once they 
are hired we want to make sure they get the rights of all other 
employees; but secondly, I am very concerned about this whole 
issue, and I understand you made some progress. What are you 
planning? Can you be confident that your aviation worker 
vetting is as rigorous as it needs to be?

        TRANSPORTATION SECURITY OFFICERS: COLLECTIVE BARGAINING

    Mr. Neffenger. Well, thank you, Ranking Member Lowey, for 
the question.
    To the first question, with respect to the--where we stand 
on the collective bargaining agreement: The current collective 
bargaining agreement remains in effect while we are 
continuing--or completing negotiations on the next agreement.
    The current status is as we--the negotiating teams--
negotiating team, both sides--completed its negotiations in 
December. They came to agreement on the majority of the 
collective bargaining items.
    That now is going out with the--to the union membership. 
AFGE has a schedule for presenting that for a referendum to the 
union members.
    We will see how that referendum goes. If it passes then we 
will have a new collective bargaining agreement; if there is a 
rejection of that then we will go back in to the negotiating 
table for an additional period of time and negotiate those 
items that we need to.
    But I am confident that we are on a good track. The teams 
worked very hard this past year.
    Like all negotiations, there are challenging components to 
it, but I am committed to a successful negotiation. I am 
committed to carrying forward the protections that we have in 
place now.
    As I said, the current collective bargaining agreement 
remains in place and we abide by that going forward.

                       VETTING: AVIATION WORKERS

    With respect to the aviation workers, this is a trusted 
population that has badged access to airport environments. I 
think we made a lot of progress this past year.
    As I came in those reports were coming out as I took over 
this job, and one of my first questions was, ``Explain to me 
how we do this vetting.''
    I think on the positive side, we have--they have always--
all people who hold credentials--and there are about 900,000 or 
so aviation worker credentials. This includes pilots, and air 
crew members, and the like, so it is everything from the people 
who manage the baggage and the catering and the like, to the 
vendors in the airports, to the people who fly and crew the 
aircraft. That is about a 900,000-person population. They have 
always been fully vetted against the Terrorist Screening 
Database.
    I think what you are referencing is we--there is a 
companion database to that--to the terrorist database that is a 
data environment of additional information. TSA did not have 
what is called automated access to that data. We could take a 
name and plug it in, but that is very cumbersome when you are 
working with 900,000 names.
    I am pleased to report we have come to an agreement and we 
now have automated access to all of those categories. So now we 
have full access to all of the categories, both the Terrorist 
Screening Database as well as the data environment that feeds 
into that database. So that is good news.
    The second thing we have done is we always had a 
requirement to periodically vet all workers against criminal 
databases to see if they have had any recent arrests. That was 
a--that is a 2-year recurrent requirement--periodic 
requirement.
    We are about to pilot a project with the FBI called Rap 
Back, and all it really is is access to their daily recurrent 
data on criminal arrests throughout the system. And we are 
going to pilot that at Dallas/Fort Worth and Boston Logan over 
the course of the spring.
    Assuming that pilot goes well--and the nature of the pilot 
is just to see, are there any problems connecting to the 
database, do we have any problems bouncing names off of it, and 
so forth. We wanted to pick a couple of large airports so that 
we could do that.
    Assuming it goes well, then we will field that nationwide 
before the end of the calendar year. And that will give us then 
recurrent vetting of the same population against the criminal 
databases.
    So I am comfortable that we are doing everything we can, 
given the existing data that is out there to ensure that these 
workers are being vetted properly. The next step, of course, is 
to then verify the trust of that population, because we know 
that people that vet out okay can still go bad or can still 
have criminal intent.
    So you always want to find ways to deter people from acting 
in ways that you don't want, to detect them, and to disrupt if 
it does happen. So we are also in a--concurrently working with 
every--I required a vulnerability assessment at every single 
airport that is under federal control across the nation, so 
that are some 450-plus airports--or some--yes, close to the 
total population. There are some airports that don't require a 
federal security plan.
    But the idea behind this is to get a true, very detailed 
vulnerability assessment of every single airport, understanding 
what is the worker population at that airport, what are the 
accesses that those workers have available to them, who--what 
is the nature of the access that they have? I mean, are they 
driving cars through there, or are they bringing carts through, 
or are they carrying maintenance equipment?
    Who are the various employers that employ these 
individuals, and how are they conducting their individual 
checks and their recurrent checks, as well? What are they doing 
to employ these individuals?
    I felt that there just wasn't enough data to understand 
what is actually happening out there, so that is an order I put 
out earlier this year. We expect all of those reports to come 
back in over the course of the next month, and then we will 
evaluate those and my intent is to provide a classified report 
to Congress on what we find.
    Mrs. Lowey. Thank you.
    And thank you, Mr. Chair.
    Mr. Carter. You are welcome, Mrs. Lowey.
    Ms. Roybal-Allard.

       CHECKPOINT SECURITY: DISPROPORTIONATE FOCUS ON EFFICIENCY

    Ms. Roybal-Allard. Administrator Neffenger, in your opening 
statement you talked about efficiency versus security issues. 
We know that one--the prime function of the TSA is to prevent 
dangerous passengers and cargo from threatening air travel, 
while at the same time the traveling public gets understandably 
frustrated by long wait times at the screening checkpoint. 
While safety is the highest priority, convenience is also a 
factor in the equation.
    The OIG report highlighted security vulnerabilities, but it 
also shined a light on the culture at TSA that was too willing 
to tolerate some of those vulnerabilities in the interest of 
managing wait times. Aside from the particular personnel, 
process, and technological changes that you have implemented, 
what has been done to address the underlying cultural problem 
of tolerating vulnerabilities?
    Mr. Neffenger. Well, there are a number of things, and some 
of it is the training that I mentioned.
    So the very first thing that we did--once we completed the 
initial root-cause analysis we said, ``What is driving all 
this?'' And we saw this big category of disproportionate focus 
on efficiency.
    I said, ``Well, how does that happen, and where did that 
come from, and what is the nature of it?''
    So there are actually a couple of pieces to that, too. It 
was also that we hadn't--so there is a lot of pressure on a 
TSO, the front-line--the uniformed member, to be the person 
managing the wait time.
    I mean, I think it is appropriate to pay attention to wait 
time; that is a challenge in and of itself. You don't want a 
lot of people congregating outside the secure area of the 
airport.
    But I felt that that comes up the management chain a little 
bit. We put a lot of pressure on people that should be focused 
on stopping things that shouldn't get through into managing.
    And so that creates a real tension in the individual and a 
little bit of cynicism, to be honest. They say, ``What is my 
real job here? Am I just flushing people through the line or am 
I actually supposed to do my security?''
    So that was one thing: Too much pressure at that very point 
of the mission to be the one responsible for that. So we took 
that off immediately and said, ``Your job is not to do--not to 
manage wait time. Your job is to ensure that things that 
shouldn't get through the checkpoint don't get through.'' And 
that is what I meant by focus on mission.
    And we got a resounding positive response to that from 
across the workforce. A lot of people said, ``Thank you for 
letting us focus on the mission.''
    Then you have to determine how to do that mission. So we 
did a rolling stand-down of training across the entire 
organization. We called it Mission Essentials training, but 
what it really was was to take what happened--I wanted to be 
very transparent with the workforce about what the I.G. had 
found.
    I didn't want them to feel guilty; I just wanted to see--
let them know, ``Here is what we have to do going forward. This 
is what was found. It is a fact. It is a challenge. This is our 
fundamental mission. We have failed in a fundamental aspect of 
our mission.''
    So we showed them exactly what happened, what was the 
nature of the failure, what actually got through the 
checkpoint, how was it brought through, and in what manner did 
it present itself.
    The second thing we did was say, ``Now, let me--let's 
train''--so that is the first piece: what happened. Second 
piece was, what are the processes that we found that didn't 
work very well?
    Turns out we had these very complicated standard operating 
procedures--I mean, this huge document, nothing--something that 
it would be very challenging to remember. We simplified that.
    We worked with a team of front-line people to simplify that 
and turn it into a true simplified operating procedures: What 
am I trying to accomplish? What are the key steps for doing 
that and moving forward?
    And then we looked at the machines themselves and said, you 
know, you have to understand how this equipment operates. I was 
surprised to find out that many of our front-line officers 
didn't know what the limitations of the technology were that 
they were operating, and so we made it clear to them what that 
technology was.
    And then we closed it all up with a current threat brief.
    We are now doing that Mission Essentials training across 
the whole system of our technology for our officers every 
quarter, and we pick another aspect of the screening 
environment. And we do regular threat briefs to them, as well.
    I wanted to connect them to the mission, have them doing 
the right part of the mission and not things that they 
shouldn't be doing, get leadership back involved in the pieces 
that leadership needs to be involved--more engaged with the 
airlines, with the airports, with the--more engaged on managing 
the flow of people through. So distribute that work in the 
right way possible.
    So I am very happy about the response by the front-line 
workforce. I appreciate your comments earlier about their 
attitude. I think some of that is we are allowing them to do 
the job that they took the oath of office to do now and they 
are very excited about that. They really want to do this job 
well.
    I think we are on a pretty good track. There is more to do, 

clearly.
    Ms. Roybal-Allard. And do you feel confident that these 
changes are being institutionalized so that----
    Mr. Neffenger. You know, it is still early. We are only 8 
months into it. But I push this every single day.
    I track measures directly related to the things I just 
talked about. I have a performance measure and a readiness 
measure for people and for equipment.
    And the readiness measure says, ``Are we giving people the 
tools they need to do what they need to do? Am I training them 
properly?'' There is an interactive piece, there is a survey 
piece, there is an engagement piece to that. I am happy to 
share with the committee how I measure that. I think it would 
be useful.
    And then the performance measure is, and can they do what--
is the training worked? Does it make it possible for them to do 
their job?
    So I do that, which means--and what usually I have found, 
if the guy at the top pays attention to something, almost 
everybody below you starts paying attention to it as well, 
which has been very helpful.
    Ms. Roybal-Allard. Have you gotten any feedback from the 
OIG on some of these changes that----
    Mr. Neffenger. I have been working very closely with him, 
and I have had a number of meetings with Inspector General 
Roth. I think they are very happy with where we are going.
    The same report that we provided to Congress we provided to 
the I.G. They have concurred with every step that we are 
taking. He has told me that it addresses every one of their 
concerns.
    Their recommendations remain open because we have to 
verify, and they will stay open as they go back and test us. 
But he has told me he is happy with where we are going, he is 
comfortable with our approach, and we--and I have linked us up 
at all the staff levels, because I felt that there was too much 
distance between us and the I.G. and the work that he was 
doing.
    Ms. Roybal-Allard. And do you feel satisfied that your 
fiscal year budget request would give you the resources that 
you need to continue to prioritize both security and minimize 
wait times?
    Mr. Neffenger. Well, I think it is--I think the--it is an 
open question whether the resources are right yet. What I 
wanted to do was just hold steady, because I knew that there 
would be more to learn as we looked at--as--first of all, as we 
moved more people back into standard screening, as we try to 
expand the PreCheck population and true vetted population to a 
level that is more sustainable over--that allows us to do a 
better job of the risk-based security, and as I watch what 
happens in the growth of the passenger industry.
    I mean, we have had record growth over the past couple 
years beyond what was anticipated when this budget was prepared 
a couple of years ago.
    So I am pleased that the committee has allowed me to keep 
that staffing. I think I owe you an answer on that, and we are 
looking--I have got staff right now looking at now the current 
projections for volume growth, what we think will get into the 
trusted traveler population over the course of the next year 
and beyond, and what we see is the current pressure on a 
checkpoint.
    In the meantime, we are working very closely with--
specifically with the top 20 airports, but across the entire 
system--to work with the airports, the airlines that service 
those airports, as well as TSA to look--to mitigate to the 
extent possible.
    So I am going to husband my overtime resources now. I am 
going to push those into the summer months. We hope that we 
have what we need to address it, but my concern is that we may 
not have the staffing levels right yet.
    Ms. Roybal-Allard. Okay.
    My time up? Okay, thank you.
    Mr. Carter. Dr. Harris.

                    TSA PRE<bell> : IMPROVED SAFETY

    Mr. Harris. Thank you very much.
    And thank you, Admiral, for taking the job. And, you know, 
I have noticed--I think it has gotten better, noticeably better 
at the airports. So you must be doing a good job.
    Mr. Neffenger. I hope so.
    Mr. Harris. I have got two areas of questioning. First one 
has to do with the PreCheck. From the sound of your last answer 
it sounds like we are actually a little bit safer--I will use 
the term--the more people we get into TSA PreCheck. Is that a 
fair--we--I mean, is it a safety as well as convenience measure 
to have trusted travelers?
    Mr. Neffenger. Well, I think first and foremost the more 
you know about travelers that are traveling, the more 
comfortable I am with the safety and the security of the 
system. So I said in previous testimony before Congress that I 
thought--the goal would be a fully vetted traveler population 
if you could get there. That is probably unachievable, but I 
would like to drive towards more and more people in the vetted.

                     TSA PRE<bell> : COST SAVINGS

    Mr. Harris. And so let me--the cost per traveler to get 
them through a screening process I imagine is actually lower 
with a TSA PreCheck person.
    Mr. Neffenger. It is, because there is less that you have 
to do----
    Mr. Harris. Sure.
    Mr. Neffenger [continuing]. To somebody coming through 
PreCheck.

                TSA PRE<bell> : REDUCING ENROLLMENT FEE

    Mr. Harris. But one of the obstacles--and maybe it is--I 
don't know if you have studied it--I mean, there is still a 
charge associated with becoming a trusted traveler. It is like, 
you know, we----
    Mr. Neffenger. That is correct.
    Mr. Harris [continuing]. We want you to help us screen you, 
but we want you to--you know, but write a check first or give 
us a credit card.
    Is there any thought into saying, look, long-term we 
actually--would it save money to actually reduce the fee, 
eliminate the fee, just encourage people en masse to get into 
the PreCheck program? Is this something that has been 
considered?
    Mr. Neffenger. Well, the cost is designed--so TSA doesn't 
benefit from the cost. It defrays the cost of the enrollment, 
so it pays the private contractor that does the enrollment 
services and it is a reimbursement for the cost of doing the 
vetting against a--because we have to pay that----
    Mr. Harris [continuing]. My question----
    Mr. Neffenger. No, I understand that.
    You know, I think that there is a cost associated with 
the--with what we have to do to determine the trust of the 
trusted traveler, so that cost has to come out of somewhere. I 
do think it is appropriate to have people contribute to the 
cost of a program that they are asking to be vetted for. It 
gives them access to these expedited screening lanes. I hope 
that----
    Mr. Harris [continuing]. But as you get better in your non-
TSA lanes, you know, you reduce that incentive. And so, you 
know, there seems to be----
    Mr. Neffenger. No, I hear what you are saying.
    Here is what I would say is I think that over time you can 
see the enrollment costs come down or the--and that is what we 
are hoping to see with the recent request for proposal that we 
put out, which would expand the opportunity for private sector 
enrollment centers to participate. So this would open it up to 
a couple of other opportunities, and I think if you can do that 
you create some competition and we can see the price come down. 
You know, the more people you have the more that there is an 
economy of scale as you start doing these vetting----
    Mr. Harris. Sure, which we would gain from----
    Mr. Neffenger. Exactly.

                     FEE INCREASE PROPOSAL: OFFSETS

    Mr. Harris. Now let me just bring up one other issue, which 
is, you know, a particular concern to some, and that is--and, 
you know, you have got a business degree so you get accounting 
and how you can do things in accounting. And one of the things 
is this $908 million that you depend upon in new revenues in 
order to take some other money from elsewhere and do something 
else with it. I mean, it goes somewhere else in the budget.
    Knowing that the $908 million--I mean, this committee--I 
don't think the administration wants this committee into--to 
open up that can of worms into being able to do things outside 
the appropriations--normal appropriations process. So you have 
got kind of a budget gimmick--I mean, I will just use the 
simplest word I can.
    You are not the only person or the only group that has got 
a little budget gimmick here. I sit on the Health Subcommittee. 
There is over a $1 billion budget gimmick that would--will 
reduce the NIH appropriation, basically.
    Because in an election year especially with this--and if 
you don't believe me, ask our former governor--you don't want 
to be raising taxes and fees in an election year. I believe you 
don't want to do it any time, but an election year you are 
certainly not going to get it.
    I can't imagine the administration really thought Congress 
was going to say, ``You know what? Let me fall on my sword and 
raise taxes and fees in an election year.''
    That leaves us in a quandary, because we have to actually 
write a budget no--without that $908 million. So that is a big 
chunk of your budget, so where are we going to cut $900 million 
to allow what we have control over to be in balance?
    I mean, do you have a list of priorities? You know, if the 
gimmick doesn't work, help us out. What are we going to cut?
    Mr. Neffenger. I will be honest with you: That would be a 
challenge for me to absorb a $900 million reduction in this 
budget request. That represents, in terms of people, about 
13,000 transportation security officers. I think if I were to 
reduce that level of front-line workforce we would have more 
than wait times as a challenge for us going forward.
    And there are some--there would--it would be challenging to 
find, given that two-thirds of my budget is pay compensation 
and benefits, it would be challenging to find that amount of 
money anywhere else in the budget----
    Mr. Harris. So----
    Mr. Neffenger [continuing]. Without eliminating entire 
programs.
    Mr. Harris [continuing]. Begs the question, why do that? 
You know, we all know the outcome of this is going to be that 
there is going to be no fee and tax raised. I mean, you know, 
it was tried before. Fortunately last fiscal year it was given 
up on.
    Why do that? You know, you seem to be like an honest guy. 
Come on. Why bring that to the committee, and why not just 
honest budgeting?
    You know, come in but don't depend upon those kind of--you 
put--you understand how difficult that decision would be for 
you. It is going to be equally difficult for us to do it.
    Mr. Neffenger. Well, I think the argument is that people 
who benefit from the security service--directly benefit from 
security services provided should contribute. And they do now. 
So we have a $5.60 per passenger fee per trip, with a cap of a 
roundtrip--you know, double that for roundtrips.
    Mr. Harris. Which we just raised, right?
    Mr. Neffenger. It was raised a couple of years ago, yes, 
by----
    Mr. Harris. I think it wasn't a couple. Think it was last 
year, wasn't it? We went to a per-trip where it got--where it 
is now per--you know, it used to be per segment; now we kind of 
raised per--it was pretty recent.
    So is this a pattern I am seeing develop that, you know, 
every year you come back and say, ``Let's just go ahead and''--
because you did create last year's budget without that.
    Mr. Neffenger. That is right.
    Mr. Harris. What changed between last year and this year?
    Mr. Neffenger. You have a much more complex threat 
environment this year than we have had in a long time. And----
    Mr. Harris. Let me just interrupt. Your total budget 
request isn't $900 million higher, right? Your total budget 
request----
    Mr. Neffenger. $146 million.
    Mr. Harris [continuing]. Is--right. So it is not $900 
million. So give me the big reason. That is a little reason. 
Give me the big reason why you did this. It is $900 million you 
are talking about.
    Mr. Neffenger. I think it would be--this would reinstate 
the airline security fee that was in place until the budget 
amendment of 2013. That actually went out in 2014; it would 
reinstate that fee of $420 million across the industry.
    Mr. Harris. Oh, oh I get it. I get where it is from.
    Mr. Neffenger. And it would add a dollar to the passenger's 
fee.
    Mr. Harris. Right. It is a fee increase--$900 million.
    Mr. Neffenger. I think the only answer I can give you is 
that the--it is--I think the--as I have said, the argument is 
that people who directly benefit should contribute to the cost 
of the services that they get from the government.
    Mr. Harris. And you don't think the average American 
benefits from our planes being secure in the sky?
    Mr. Neffenger. Absolutely, I do.
    Mr. Harris. Okay. So there actually is a direct benefit to 
all Americans.
    I will just say--look, here I am disappointed because we 
are messing with national security. And I would hope that there 
are some areas of the budget where we don't play games. For 
heaven's sake, the security of our transportations is someplace 
we just shouldn't--just my humble advice--we shouldn't be 
playing budgetary games.
    I yield back.
    Mr. Carter. Mr. Cuellar.

              CHECKPOINT SECURITY: RESPONSE TO OIG TESTING

    Mr. Cuellar. Mr. Chairman, thank you so much.
    Mr. Administrator, again, thank you for the job that you 
are doing. And again, I appreciate the work that your folks do. 
I know through a week that I fly through Laredo, San Antonio, 
your folks have been very pleasant and doing their job.
    I want to ask you--go back to the question about the 
security gaps the I.G.--that the I.G. found. At this point I 
think you are requesting about $200 million for screening 
technology, $116 million for training front-line employees.
    How are we going to be assured that we are not adding money 
and then we get the same results? Because it is not the first 
time we face this type of situation.
    If you remember those x-ray machines that would show the 
body, and then you all put them in a--somewhere you all were 
renting warehouses. We lost millions of dollars on those 
machines. We were paying millions of dollars for storage on 
that, and I assume you all got rid of them already to the 
prisons or somewhere else where they expect less privacy.
    So how do we make sure that we keep adding money for 
personnel, that we are adding money for technology and we are 
not ending up with the same type of results? And I want to be 
very supportive because we all fly planes, and I want to make 
sure that if we get in a plane that we are secure. But, you 
know, when those red teams saw that it was only a success rate 
of 4 percent that puts us to think about some of the work that 
is being done.
    Mr. Neffenger. You know, those are all the same questions 
that I asked when I came onboard. There was a benefit to 
coming--to taking the job in the midst of a crisis: It allows 
you to ask questions that you might not otherwise be able to 
ask and allows you to address things in a way that you might 
not normally be able to do.
    So here is what I can tell you--and we owe you continuous 
updates, and I think I have provided--I think I provided a 120-
day report to you, and I will continue to do that on a 
quarterly basis, partly to give you the measures that we are 
using to determine whether or not anything that you are paying 
for is actually--anything the American public is paying for 
is----
    Mr. Cuellar. But what is your number one--are your 
measures--excuse me for interrupting, but are your measures on 
performance.gov?
    Mr. Neffenger. I don't know if we--well, we probably won't 
post--some of these are sensitive information, so I am--I would 
prefer not to post actual performance. But I am willing to give 
that to the committee, but most of it is sensitive information.
    But I measure, as I mentioned, readiness, and then I 
measure performance. And I do that for both people and 
equipment. That is the big rollup measures; there are a lot of 
components to that.
    Mr. Cuellar. And we are measuring results, not activity?
    Mr. Neffenger. Absolutely.
    Mr. Cuellar. Because agencies have a tendency--and I have 
seen the performance.gov, and a lot of those measures there--
and they are getting better. And I am not talking about you, 
but homeland in general, the measures that I have seen have 
been more for activity than measuring results.
    Mr. Neffenger. No, this is--these are outcome measures. I 
am very focused on how well are we doing our mission.
    In my opinion, we weren't focused on outcome measures. So 
it is easy to measure activity. You were busy every day.
    Mr. Cuellar. Right.
    Mr. Neffenger. But you may not be busy doing the right 
things. So I am very interested in understanding whether we are 
actually improving. So that is my fundamental focus right now, 
and that is one of the things I have been working with the I.G. 
is to ensure that his tests help us understand our outcomes, in 
addition to ours.
    So we have completely changed the way we do our red team 
testing so that it is focused on outcomes and then rolling 
those outcomes back into the way we do business. Here is what I 
would say--here is the way I approached it, and what I think we 
need to continue to do going forward: You always have to look 
at the systemic issues. You don't get that unless you figure 
out whether you got the thing that you needed to get on the 
other end.
    The other piece of this--and this is the piece that is 
sometimes, I don't think, as well understood by an agency: You 
can't just focus on the operating end of the agency; you have 
to look at all the things that support operations.
    So as you set--you know, when the American public says, ``I 
want you to get something--to do something''--in our case, to 
secure the aviation system--then you have to figure out, well, 
how do I get to secure? Well, there is a--there are things you 
have to buy; there is capability you need; there are 
requirements that you need.
    I wasn't sure that we were doing that very well, and so I 
asked the Defense Acquisition University to come in and do a 
top-to-bottom review of the way we analyze our mission, set the 
requirements for the mission, and then eventually field 
capability, either people or things, to do it. They just 
completed that study for me, and not surprisingly, they found 
things that we need to do better.
    So I think there is a lot of work we need to do on the 
requirements end of the business so that we actually know what 
we need to do to get the outcome we want. That will keep you 
from putting things in warehouses.
    You know, I am not a fan of buying the next shiny object on 
the shelf. I would like to buy the object that actually does 
the thing and it integrates into a system and is designed to 
produce a result at the end of the day.

        TRANSPORTATION SECURITY OFFICERS: HOURS AND PAY SCHEDULE

    Mr. Cuellar. I got another appropriation--as you know, we 
are running around--so I won't be able to come back in again, 
with all due respect.
    Thank you again, but for your personnel, I know there--some 
of your folks are part-timers. Are you planning to move any of 
them up to full-time? And then TSA officers--maybe somebody 
asked this question--plan to move any of them to the G.S. pay 
scale?
    And that is all the questions I have.
    Mr. Neffenger. Okay, well on the part-time, full-time, we 
actually have a sizeable full-time staff, but almost everybody 
hires in part-time and then converts to full-time. I would like 
to see whether we can work with the committee to find ways to 
hire more full-time on the front end so that they don't have to 
wait to go full-time.
    And then with respect to the G.S. schedule, as you know, 
the--I am not currently under the General Schedule, and that is 
a function of the Aviation Transportation Security Act. It 
would take a----
    Mr. Cuellar. That is more of a----
    Mr. Neffenger [continuing]. Congressional act to do that, 
if we were to do that.
    Mr. Cuellar. Okay. Thank you, again, for the work you are 
doing.
    Mr. Neffenger. Thank you, Mr. Cuellar.

           NATIONAL EXPLOSIVES DETECTION CANINE TEAM PROGRAM

    Mr. Carter. Congress has consistently added funding for TSA 
to expand its canine program. You and I have talked about it, 
and I like canines. But TSA has had trouble hiring and training 
teams at the enacted level.
    As you and I have discussed, canines are extremely 
effective assets, and I think TSA can do a better job of 
leveraging these resources. TSA's budget request includes an 
increase of $9.7 million in fiscal year 2016 to fund 997 canine 
teams.
    How many teams does TSA currently have deployed? What is 
TSA doing to aggressively hire and train canine teams to reach 
the enacted level? And how many more canine teams does TSA need 
to support its operations?
    Mr. Neffenger. Thank you, Mr. Chairman. I like canines too, 
and I think it is probably one of the most effective elements 
of the security program. And it also allows us to move people 
very efficiently through the system.
    So I think I have got a good story to tell on canines. We 
have 997 teams currently, and we are--322 of those are directly 
operated by TSA. As you know, we also provide teams to state 
and local law enforcement, but we train for them.
    So we now have 322 teams. Of those, 142 are trained--in 
addition to being cargo-sniffing dogs, are trained as 
passenger-sniffing does. The goal is to train all 322 in both 
so that you can move them between cargo and passengers.
    And as you know, it is two different modes of training. If 
they are sniffing cargo it is a--they walk up to an item and 
they sniff it. The passenger, it is--they are moving within a 
passenger environment and they are detecting the vapor that 
is--and then they trace it back to its source, which is 
fascinating to watch when the do it, both in the test and in 
the real environment.
    So the goal is to train them. We will get about 230 of 
those done by the end of this year.
    We can move about 230 teams a year through our new training 
center down in San Antonio. In fact, I will be in San Antonio 
tomorrow to take a look at the new training facility that we 
have conducted there.
    We just completed contracts for--with vendors to get dogs. 
So right now we are not seeing--we are not having a problem 
getting dogs and we are not having a problem with the through-
put.
    There is still a fairly high attrition rate for dogs--about 
13 percent annually. These are dogs that either become 
medically unfit during training or for some reason fail the 
training. But that is apparently standard around the world at 
that level, so that means about 260 dogs start; about 230 come 
out the other end.
    I think we can use more teams. I owe you a good number on 
that. I don't want to just make one up.
    But I think that we could put more teams to use. It is of 
great value, particularly in the top 20 busiest airports, you 
know, that account for about 85 percent of the traveling 
population. So we will get you a full report on what we are 
doing, but I think it is a good story.

   NATIONAL EXPLOSIVES DETECTION CANINE TEAM PROGRAM: PRIVATE SECTOR 
                              CANINE TEAMS

    Mr. Carter. And in 2016, in fiscal year 2016 the House 
directed TSA to look at the feasibility of using private sector 
canine teams, along with the canine program. Do you think using 
private sector canine teams would accelerate TSA's efforts to 
expand its program?
    Mr. Neffenger. Well, you know, I think we owe you a report 
the end of this month on that very question, but there are a 
couple components to that: Can they construct a facility that 
can meet the standards for the training? And then what is the--
how do we continue to ensure they meet that?
    I think those are the easy questions to answer. The harder 
question is integrating them into the checkpoint environment. 
Are there any authorities needed to do that?
    We would have to talk to you about that. We will take a 
look at that.
    So those are the questions that we are asking. Our goal is 
to come to you with an outline of what we think the questions 
would be, the concerns, and then the availability of the teams 
out there.
    So I would want to make sure it was done consistently to 
the right standards. I am very pleased with the work that is 
being done now to train canines, and we have got a--it is 
actually a very good program and people are--the state and 
local law enforcements that are using the dogs are very happy 
with the program.
    Mr. Carter. Good.
    Ms. Roybal-Allard.

            CHECKED BAGGAGE SCREENING: PRECLEARANCE AIRPORTS

    Ms. Roybal-Allard. The fiscal year 2016 House report 
highlighted the problem for current preclearance locations in 
which baggage transferred to connecting domestic flights in the 
U.S. has to be rescreened. And I understand that TSA has made 
some progress on this problem.
    Can you give us an update and talk a bit more about how TSA 
verifies the baggage screening operations at the checkpoint for 
preclearance airports? Is the equipment up to TSA standards?
    Mr. Neffenger. Yes, ma'am.
    So I will start with the last point. They do have to meet 
TSA standards and they have to be equivalent, in terms of their 
ability to detect explosives and other contraband that 
shouldn't get through.
    There are 15 preclearance airports right now. There are 15 
preclearance airports, and as you know, that is a--it is a 
program managed by CBP but we work very closely because there 
is a TSA--strong TSA component to that.
    In order to meet preclearance requirements they also have 
to have a TSA equivalent screening, so equivalent to what we do 
domestically, both for passengers and checked baggage.
    Of those 15, there are five airports now that have 
agreements with us that we have agreed--that have agreed that 
meet the baggage screening requirements so there is no need to 
rescreen when they come here. So we are very pleased about 
that. We are hoping to expand that over the course of the 
coming months.
    The way in which we verify that they meet our standards is 
through annual inspections. Well, there is the initial 
installation, so they have to identify and demonstrate that 
they meet our standards, and we verify that. And then we do 
periodic--at least annual, or whenever we make a change to the 
system requirements to inspect them.
    A lot of that is done by our teams that are present in 
countries around the world to do that.
    I think it is a good program. It is part of the No-Hassle 
Flying Act was to address this, and we are systematically 
walking through it.
    Some countries are having a little more challenge in 
meeting the baggage screening standards. They obviously hit the 
passenger screening--and I don't mean challenge in that they 
don't have--they don't do a good job; it is just that it has to 
have the explosive-detection system as part of it.
    Ms. Roybal-Allard. What happens if you find that they don't 
meet the standards?
    Mr. Neffenger. If they don't meet the standards then, 
depending upon the severity of not meeting it, sometimes it is 
just a correction. But ultimately I suppose you could wind up 
losing your preclearance status if you couldn't maintain the 
standard.

                  AIRPORT SECURITY: NON-STERILE AREAS

    Ms. Roybal-Allard. We usually talk about airport security 
in terms of protecting the sterile areas of airports, but the 
nonsterile areas prior to the checkpoint are also vulnerable.
    My hometown airport, LAX, has experienced its share of 
security incidents, including the tragic shooting death of TSO 
Gerardo Hernandez in late 2013. And following that incident TSA 
made a number of changes to security policies and procedures, 
including new recommended standards for law enforcement 
presence outside the checkpoint and requirements for response 
times.
    Are airports generally following the recommended standards 
for presence and the requirements for response times?
    Mr. Neffenger. They are. That was a tragic wakeup call 
across the whole system. I mean, it didn't--it sort of directly 
affected LAX, of course, but it was felt across the system, and 
not just by TSA--by other law enforcement agencies. I actually 
watched the video of that and sat down with Chief Pat Gannon, 
of the LAX Police Department, and we talked through that.
    So here is what we have done: We have a very strong active 
shooter program now in place, so we do annual training and 
twice yearly drills. And we do that not just by ourselves but 
in conjunction with the law enforcement and airport partners.
    And then there is periodic retraining throughout the year 
that the individual officers go through. And so there are 
constant drills.
    We have installed duress alarms across the entire system at 
every checkpoint, at every point in every checkpoint, and those 
duress alarms tie directly to the local law enforcement for a 
response, and they drill those duress alarms for response time 
and actions.
    I can tell you that just--if you recall last year we had 
the incident in New Orleans where the individual with a machete 
and wasp spray attempted to attack a checkpoint. The people at 
that checkpoint, both our officers as well as the Jefferson 
County sheriff's deputy who was the one who wound up stopping 
the individual, said it was a direct result of that training 
that we instituted that they knew what to do. And when you 
watch that video you can see people doing exactly what they 
should be doing.
    So I think that that is one--it is one data point, but I 
think it is an example of why it is so important that you train 
and that you drill and that you continue to work it.
    This is a focus of mine. I am always concerned about the 
safety of our officers who are outside the sterile area of the 
airport, because we know that there are people in this world 
who will--who are unpredictable and will do things that they 
shouldn't.
    Ms. Roybal-Allard. My 5 minutes are up.

          TSA PRE<bell> : PRIVATE SECTOR ENROLLMENT EXPANSION

    Mr. Carter. Dr. Harris. No more questions?
    Well, let me ask a couple more.
    TSA PreCheck private sector expansion: TSA has often cited 
a goal of enrolling 25 million people in DHS's trusted travel 
program to more effectively and efficiently focus our--the 
resources on unknown or high-risk travelers. It has an 
initiative underway with the private sector to extend TSA 
PreCheck enrollment.
    When do you expect PreCheck enrollment will be available to 
the public through these private sector vendors? What other 
efforts are you using to expand enrollment?

                  TSA PRE<bell> : ENROLLMENT TARGETS

    And in your statement you indicate TSA is aiming to reach 
the goal of 25 million enrollments within the next 3 years. How 
realistic is the timeline--this timeline, and what are the 
resources implications for achieving that goal?
    Mr. Neffenger. Well, I think it is--in talking with the 
private sector folks who are--who had indicated or did respond 
to our RFP, they tell me that they think it is very reasonable 
that we could achieve that goal within 3 years once they go 
active. So I am hoping by the end of this calendar year we will 
have let contracts to additional private sector vendors to 
provide enrollment services, and to do so in a more retail 
environment.

          TSA PRE<bell> : PRIVATE SECTOR ENROLLMENT EXPANSION

    You know, as you know, part of the request for a proposal 
was to determine whether or not--was to ask them for response 
to the requirement to market it more effectively, as well. You 
know, as it turns out, advertising is actually pretty important 
if you want people to pay attention.
    In the meantime, we have worked with the existing vendor, 
both to increase the availability at airports, and we have 
worked with--I have talked with the airlines and travel 
associations, airline associations, and if you have noticed 
recently on flights, many of the airlines are actually 
marketing PreCheck on--either on their in-flight notices or in 
their in-flight magazines. If you go to some airlines' Web 
sites it pops right up to see if you want to join PreCheck.
    All of that has actually been helpful in dramatically 
increasing enrollments. So we are seeing already, just with the 
existing vendor, a doubling of enrollments--daily enrollments 
since--over this time last year. So we were averaging a little 
over 3,000 enrollments a day last year; we are up around 6,200 
enrollments a day this year.
    So that is huge. We have grown the--so the PreCheck 
population has grown to about 2 million right now. That is on 
top of about 6.5 million people in the other trusted traveler 
programs.
    So I am hopeful that we can see dramatic growth, but it 
will depend upon issuing these contracts to the private sector 
partners and then them getting to work.
    Mr. Carter. Do you expect those contracts to be let this--
--
    Mr. Neffenger. I hope by the end of the--I hope by the end 
of this calendar year, of calendar year 2016. But we are 
evaluating those bids now, and what I will have a better feel 
for that as we do the bid evaluation.
    Mr. Carter. Ms. Roybal-Allard, do you have----

               SECURE FLIGHT: USE FOR EXPEDITED SCREENING

    Ms. Roybal-Allard. I do have one more question, and it is a 
follow up on the prescreening, or PreCheck. Because even though 
there have been some increases in PreCheck, it is my 
understanding that the largest portion of the traveling 
population that receives expedited screening are those assessed 
to be low-risk using the Secure Flight risk assessments.
    And last year TSA discontinued the use of Managed Inclusion 
II because the risk assessment on which it was based was 
determined to be inadequate. So how confident should we be that 
expedited screening is appropriate for travelers based on 
Secure Flight assessments? And isn't the kind of vetting that 
is associated with the PreCheck program and CBP's vetting 
programs what we actually should be relying on?
    Mr. Neffenger. Well, I would like to see a fully vetted 
population. But I am confident that--first of all, we had to 
turn off Managed Inclusion II. I don't think that that was 
supportable, and plus, I think it introduced a higher level of 
risk into the system than we were willing to accept and that 
was justifiable.
    What I would like to do is, without going publicly into the 
rules, I think I owe you an answer offline about the--how the 
rules are determined. We have dramatically shrunk that 
population.
    I am comfortable that what we are doing is appropriate, and 
if I could show you that population I think you would 
understand that, and what I would like to do is not talk 
publicly about those rules. But it is a very small percentage 
compared to what it was before.
    But the goal is to move all of that into truly vetted 
population. And what I would like to do is transition to that 
fully vetted population as we provide more opportunities for 
people to enroll, to sunset those other provisions and make it, 
like I said, a fully vetted population across the board.

                EXPEDITED SCREENING: FUTURE EXPECTATIONS

    Ms. Roybal-Allard. And then my final question is, do you 
foresee in the future a time when the vetted population would 
be so large that TSA would then start limiting the expedited 
screening to----
    Mr. Neffenger. No. Actually, just the opposite. I think you 
could then--once you get--if you had a very large vetted 
population then you can really begin to do true dynamic risk 
assessment of travelers.
    And so you can think about it--you could actually get to a 
point where you are confident enough in some travelers that 
they will--that they could actually move through in--with 
relatively little oversight and screening, whereas--and then 
you graduate, depending upon how much you know about somebody.
    So I think it is just the opposite. I think you actually 
get a much better approach to your risk-based security so that 
you are not just have a few categories of people now; now you 
could have a true continuum of risk.
    And I can foresee a day when you could have travelers going 
through things like the Known Crewmember lane, where you have 
got--you know enough about the individual and they have 
provided you with enough confidence that they are safe to go 
through the system.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Neffenger. Like members of Congress.
    Mr. Carter. Mr. Young, welcome. Are you ready to--with a 
question?
    Mr. Young. Do I have a choice?
    Mr. Carter. Yes. You can say no.

                CHECKPOINT SECURITY: RISK-BASED SECURITY

    Mr. Young. I was born ready.
    Welcome. Nice to see you.
    In your testimony you state that TSA is pursuing an 
intelligence-driven risk-based approach to screening and 
identifying threats. You are trying to move more people into 
PreCheck to provide more efficient screening for low-risk 
frequent travelers.
    TSA is also developing the Dynamic Aviation Risk Management 
Solution, the DARMS, to integrate intelligence assessments and 
analytics into procedures. Yet the most recent terror attack 
our nation has suffered, the San Bernardino shooting, was 
committed by terrorist previously unknown to law enforcement.
    At the same time, security lanes are routinely shut down 
for false alarms resulting from novelty items and, as has been 
discussed at length, TSA is still failing to detect a vast 
majority of the real weapons reaching screeners.
    Is this risk-based strategy TSA is pursuing leaving the 
door open for those who have gone undetected by our law 
enforcement and intelligence communities, and is there a 
substitute for thorough, hands-on, effective screening?
    Mr. Neffenger. Well, what I would say is I think we are 
doing a far better job of catching things that shouldn't get 
through the checkpoint now than we were even a year ago. And 
that goes to the work that we have done since the I.G. report 
was leaked publicly to determine true root causes of those 
failures, and then to implement a change to that.
    Mr. Young. But how do you measure that? When you say, ``I 
think we have done a far better----''
    Mr. Neffenger. Well, you have to test it. So we are going 
out and we are doing follow-on red team testing of our own to 
determine--not just red team testing, but you test to see 
whether the procedures actually catch the things that you want 
to catch.
    So there is open testing, first of all: Hey, am I--if I do 
a pat-down of a certain type did I find the device that we are 
hiding there? I mean, do that openly just to see if you find 
it.
    And you also do your own covert testing through the system, 
and we have done a lot of that. What I am finding is that we 
are significantly better at that.
    So our own results tell us we are better. Now, that will be 
borne out by--as others independent of us do that testing, and 
the I.G. has got a series of tests scheduled over the coming 
months and over the course of this next year. And I have worked 
very closely with him to ensure that we work collectively on 
correcting these problems.
    So that is the first thing is you have to get better at 
that primary mission, and so we really, really focused our 
folks back on the mission and took all the other stressors off 
them.
    You know, I don't want transportation security officers 
managing wait times; I want them focused on their mission, and 
if their mission is to read an x-ray I want them to read that 
x-ray and pay attention to it.
    So that is the first thing we have done.
    The second thing is with respect to the population, there 
is always going to be the potential that you have an unknown 
who suddenly becomes a problem. But there are things you can 
do, even given that, to identify problems that might be 
arriving.
    So remember, you put your name into a system when you make 
a travel reservation. That gets vetted against databases.
    Now, if it comes up negative you might say, ``Well, how 
would I know that this person is not what they are supposed to 
be?'' But you have all of these--you have these virtual 
elements that you use to determine, and you have physical 
elements that are used to determine.
    And the general thought is you want to--if you want to 
deter, detect, and disrupt you need to have some visible 
elements, you need to have some virtual elements, you need to 
have some things happening in the background, all of which is 
designed to create uncertainty in the mind of somebody who 
would do harm.
    So, for example, if you had a San Bernardino-like shooter, 
there is a reason, I believe, that that individual went to a 
place where he was known and he had worked and didn't have any 
security standards in the way between him and the individuals 
that he wanted to do harm to.

                      FEDERAL AIR MARSHALS SERVICE

    Mr. Young. Thank you for that.
    And now I want to get to my last question: You have 
requested a funding increase for the Federal Air Marshal 
Service. However, the mission and objectives of federal air 
marshals remain somewhat unclear.
    Could you elaborate on why an increase in federal air 
marshals is necessary and how this will improve the safety of 
air travel? And where do federal air marshals fit into the 
TSA's mission, and do they have a specific goal or purpose they 
are working to achieve?
    Mr. Neffenger. Yes, sir. Well, the funding is specifically 
to allow us to begin hiring. We haven't hired any new federal 
air marshals since 2011, and so that is a challenge for any 
operating agency. You have to replace, at some point, the 
attrition and create an entry path.
    The average age of the federal air marshals now is 43. We 
will age out on mandatory retirement about close to 30 percent 
of that workforce over the next 5 years. So just to sustain the 
workforce--so what this will allow us to do is to higher back 
to attrition for the first time since 2011.
    I think it is critically important first of all to have a 
law enforcement capability in an agency tasked with the 
security of this nation's transportation system. That is first 
and foremost, and there are things that air marshals do that I 
think are important in that respect.
    There is still, in my opinion, a mission for the air 
marshals on flights. What I would like to do is provide the 
committee with a classified report which can show some of the 
reason behind that statement, what the types and the nature of 
flights that they are--that we are putting them on.
    That said, Director Rod Allison, who has been in place for 
about a year-and-a-half now, has done a--what I think a superb 
job of identifying what the true need is, establishing a 
strategic CONOPS for their--concept of operations for the air 
marshals, addressing what specifically they do to fit into the 
transportation security network, and as well as what the real 
reason is to have them on certain flights of certain types.
    Mr. Young. Well, I will take you up on that classified 
briefing, and I appreciate you being here today.
    And I appreciate my chairman and my ranking member, Lucille 
Roybal-Allard.
    Thank you.
    Mr. Neffenger. Thank you.
    Mr. Carter. I, too, would like to have a classified 
briefing.
    Mr. Neffenger. Yes, sir.
    Mr. Carter. And I do have a question--this price tag is 
$815 million--and I would like some----
    Mr. Neffenger. Yes. And if you would like, Mr. Chairman, we 
can do it for the committee and just come give you a classified 
brief on----
    Mr. Carter. I think we ought to know the risks----
    Mr. Neffenger. Yes, sir.
    Mr. Carter. I would love to get the air marshalls--it has 
been a long time since we have seen----
    Mr. Neffenger. Well, and one of the other things I wanted 
to do was to have a defined number. And, you know, we have 
never publicized a number, but we have also never developed a 
number.
    And so I said we gotta develop a number. What do we need? 
So I think we have that now, and I think we have a good 
strategy that we would like to present to you, and I think we 
can show you why we think that strategy makes sense.
    Mr. Carter. Okay, you know the ``Where is Waldo?'' Well, 
when my wife flies with me--she is pretty good at----
    Mr. Neffenger. Thank you, Mr. Chairman. All right.
    Mr. Carter. Thank you, we appreciate you being here and we 
wish you well. We will be working with you on this budget and 
trying to get passed the fees that are unauthorized and come up 
with solutions----
    Mr. Neffenger. Yes, sir. Thanks very much, Mr. Chairman.
    Thank you, Ms. Roybal-Allard. Thank you.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                           Thursday, March 3, 2016.

                       UNITED STATES COAST GUARD

                                WITNESS

ADMIRAL PAUL F. ZUKUNFT, COMMANDANT, UNITED STATES COAST GUARD
    Mr. Carter [presiding]. We are calling the subcommittee to 
order.
    Mr. Price, we are really glad that, with your experience, 
you are sitting in for Ms. Roybal-Allard. She is a little under 
the weather today, and thank you for being here. Thank you for 
stepping up like you always do.
    Admiral, we are going to get started. I think we told you 
before we got started we have a vote pending in about 10 
minutes. We will try to get through our opening statements and 
then we are probably going to be called to vote, we will come 
back as soon as we can after that vote, and we will proceed 
forward from there, okay?
    Admiral Zukunft, thank you for being here. We look forward 
to getting your perspective on the Coast Guard's budget for 
fiscal year 2017.
    Coast Guard is the principal federal agency in the maritime 
domain responsible for securing our borders, safeguarding our 
maritime commerce, ensuring environmental stewardship of our 
ports and waterways, interdicting drug trafficking and illegal 
immigration, and combating transnational crime. To be sure, the 
Coast Guard has a complex and diverse mission requiring 
significant resources including vessels, aircraft, and 
especially personnel.
    To that end, Congress provided substantial funding in the 
fiscal year 2016 omnibus appropriations to improve the 
readiness, recapitalize vessels and aircraft, modernize shore 
facilities, and recruit and retain a quality force. From my 
assessment, the Coast Guard's fiscal year 2017 budget request 
appears to largely sustain these efforts, along with some 
limited though important recapitalization efforts to continue 
to address the Coast Guard's aging fleet, both vessels and 
aircraft.
    Admiral, I know you support the President's budget, but I 
am concerned there are unmet needs within this budget request. 
That said, as I told the Secretary, the fiscal year 2017 DHS 
budget submission is a disappointment, given the budget 
gimmicks and large gaps in funding through the request.
    Tough decisions are necessary to ensure critical priority 
programs are adequately funded, and that all funding 
appropriated is, in fact, executable.
    While you have two vessel modernization programs underway--
the NSC [National Security Cutter] and the FRC [Fast Response 
Cutter]--we are moving towards a third with the award of a 
detail design contract on the OPC [Offshore Patrol Cutter], 
many of the remaining vessels in your fleet are past their 
useful life and replacements are years away from being 
delivered. The planned acceleration of the development and 
production of a new polar icebreaker will further strain 
modernization efforts.
    And I understand in your recent State of the Coast Guard 
Address you stated a bigger force is needed, which will require 
even more resources. I look forward to hearing from you on what 
you see as your staffing requirements and what your strategy 
will be to fund this growth, especially in light of the 
recapitalization efforts that the Coast Guard will no doubt 
need to continue to address in future budget submissions.
    Admiral, we fully understand the challenge you face 
recruiting and retaining a quality force, sustaining operations 
with aging assets, recapitalizing for the future, and taking 
care of the Coast Guard families--no easy task in today's 
constrained fiscal environment. So I look forward to a candid 
discussion about unmet needs that are not addressed in this 
budget. We are relying upon you to explain how the request 
balances the nation's needs for both fiscal discipline and 
robust security.
    Before I turn to the Admiral for his statement, the text of 
which will be included in the record, let me first recognize 
Mr. Price, who is sitting in for our distinguished ranking 
member, as she is a little bit under the weather today, for any 
remarks he wishes to make.
    Mr. Price.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Price. Thank you, Mr. Chairman. We are sorry to hear 
that Ms. Roybal-Allard is not feeling well today, but I am 
happy to sit in and to be a part of this hearing.
    Admiral, I want to welcome you. And let me just say a word 
as we begin this hearing, and then we will return after the 
votes.
    I was pleased, as was Ms. Roybal-Allard, that we were able 
to provide funding above the fiscal 2016 request for the Coast 
Guard, including $928 million above the request for the 
acquisitions, construction, and improvements account (ACI) 
which funds the recapitalization of the Coast Guard air and 
marine assets; and $239 million above the request for operating 
expenses. Coast Guard has a critical set of missions that we 
must properly support.
    Now, the fiscal 2017 request for the ACI account is $1.14 
billion, which is $808 million below the fiscal 2016 level. I 
don't anticipate that we will be able to absolutely match the 
current-year ACI appropriation in the fiscal 2017 bill, but the 
request level is lower than what we would usually hope to see, 
and we are going to have to address that.
    Admiral, your predecessor thought properly recapitalizing 
the Coast Guard fleet would require at least $1.5 billion per 
year. So this morning we will want to discuss the adequacy of 
the ACI request.
    We also want to look at the other components of the budget, 
see whether the request adequately supports your important 
missions, including personnel and operations funding that you 
require, and that most certainly will include the Coast Guard's 
Arctic strategy and the icebreaker request.
    So thank you again for joining us this morning. I look 
forward to our discussion.
    Mr. Carter. We see that the vote has been called and has 
started. Time is running, and they are getting kind of strict 
on getting there on time, so I guess we ought to recess now, 
get our votes done, and be back as soon as we can.
    Sorry about the delay, but that is the nature of Congress. 
Thank you.
    [Recess.]
    Mr. Carter. Admiral, I think you offered that you might 
forego your statement and just get right into the questions?

                 Opening Statement: Commandant Zukunft

    Admiral Zukunft. Yes, Mr. Chairman. I would just ask that 
my written statement be accepted as part of the official 
record----
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Carter. We will make a record--I will get Mr. Price 
seated and we will get back into it.
    I call this subcommittee back into session.
    Admiral, we were just talking about you submitting your 
statement to us in writing, and we will make it a part of the 
record and we will go straight to questioning. Is that 
satisfactory with you?
    Admiral Zukunft. Absolutely. Thank you.
    Mr. Carter. Mr. Price, is that okay with you?
    All right, then we will get started.
    Admiral, as has been pointed out, the missions of the Coast 
Guard run the gamut from search and rescue, to ensuring the 
safe flow of commerce, to combating criminal trafficking of 
drugs and people. And no one appreciates more than I do the 
successful execution of those missions.
    And we know it is due to the sacrifice and service of men 
and women in the Coast Guard. It is our duty to provide them 
the best possible equipment and facilities we can, and we have 
been--in the last several appropriations bills--doing just 
that.
    You state that your recapitalization remains your highest 
priority. However, many of the vessels the Coast Guard operates 
today have reached or surpassed their projected service life.
    Admiral, the magnitude of a recapitalization and 
modernization effort will require tradeoffs annually. What 
strategic risk do you face to fund this recapitalization while 
executing the spectrum of missions assigned to the Coast Guard? 
What keeps you up at night?
    Admiral Zukunft. Thank you for that question, Mr. Chairman.
    And what does help me sleep at night is we have also made a 
significant investment in the intelligence community. The Coast 
Guard is an official member of the intelligence community.
    And so when I look at managing risk, recognizing if the 
Coast Guard can't be at all places at all times, where must we 
be? And we look at transnational crime, drug flows, but more 
importantly, the illicit proceeds from those drug-trafficking 
activities that have created violence in Central America that 
eight of 10 of the most violent countries in the world are not 
in the Mid-East; they are right here in our backyard.
    These are countries that are thoroughfares to bring drugs 
into the United States for ultimate consumption where 50,000 
Americans died last year due to drug abuse--and many of these 
deaths in your districts, as well. I know you are well aware of 
this fact.
    So that is one area where I cannot accept risk. I can't 
accept risk if there is a threat to the homeland, but at least 
I can make informed decisions and not shoot from the hip when 
it comes to risk if we don't get the full appropriation that we 
need to invest in the Coast Guard.
    Mr. Carter. Admiral, funding a capital ship like the NSC is 
expensive. There is no question that the national security 
cutter is a tremendous asset and performing well above 
expectations.
    However, I believe it is just one of the many tools in the 
toolkit that the Coast Guard needs to successfully execute its 
complex and diverse missions. I am concerned there may be a 
growing misperception that adding more national security 
cutters and foregoing other recapitalization like the OPC would 
better serve the Coast Guard.
    Admiral, let me ask you today, just as I asked the 
Secretary last week: Does the Coast Guard need more national 
security cutters to execute any of its 11 statutory missions?
    Admiral Zukunft. Mr. Chairman, our number one priority is 
the offshore patrol cutter, and I always look at any new adds 
that might jeopardize that program of record. I am indebted to 
this subcommittee when a ninth national security cutter was 
added into our 2016 appropriation. That could have potentially 
offset the offshore patrol cutter.
    In fact, this committee added the final $89 million for 
final design work. I am encouraged that there is $100 million 
in long lead time materials in our 2017 budget.
    But this is the platform that we really need to move out 
on, because I look at, one, affordability; and I also look at 
what the out-year costs are of adding these newer platforms 
onto our base. The shore infrastructure cost alone is $140 
million to home-port that ship; the annual operating expenses, 
including salaries, fuel expenditures is another $45 million.
    So I look long-term that these are ships that will be 
around for 60 years, and what is the commandant--three or four 
commandants, what are those challenges going to be of how do 
you sustain this mixed fleet?
    And when I look at our fleet mix analysis that was eight 
national security cutters, 25 offshore patrol cutters, 58 fast 
response cutters--we got it right. And so now we are going back 
to our force mix analysis again now with the ninth.
    But I am quite satisfied with where we are now that we have 
a ninth. But really, the offshore patrol cutter is my number 
one priority going forward.
    Mr. Carter. Would a 10th national security cutter endanger 
other priority recapitalization programs like the offshore 
patrol cutter and fast response cutter, and the polar 
icebreaker, which is a huge-ticket item? Let's speak 
specifically about that.
    Admiral Zukunft. Specifically, absent any topline relief to 
our acquisition budget--and actually, it was me last year who 
said, you know, we need a reliable, predictable AC&I budget--a 
floor of $1.5 billion to keep all of these acquisition projects 
moving forward. But within that base, it does not give me the 
latitude, a 10th national security cutter, to build out the 
offshore patrol cutter, finish out the fast response cutter 
program, and now look at building new icebreakers as well.
    So something would have to give if we were to look at a 
10th national security cutter. And so that would jeopardize our 
other programs within the funding climate that I see going 
forward.
    Mr. Carter. And as your answer to the previous questions 
was that the 11 statutory missions that you have are--as far as 
they relate to the national security cutter--are well-served 
with the number that you have got now.
    Admiral Zukunft. I am happy with what we have.
    Mr. Carter. Yes, sir. Okay.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Carter. I am going to have to go to a Defense 
subcommittee meeting right now because the Chief of Staff of 
the Army is from my district and I need to get on him about 
some stuff, so--but I will probably be back.
    Mr. Price. Thank you, Mr. Chairman.
    Admiral, I want to read a sentence from the Coast Guard's 
recent Arctic strategy paper. ``Numerous studies have examined 
national and Coast Guard shortfalls in the Arctic, from the 
need for additional icebreakers and long-range patrol vessels, 
to improved communications and maritime domain awareness 
capabilities and aviation assets.''
    Pretty large menu implied there by changes in Artic waters 
and climate, and certainly international activity that we are 
looking at. I would like to get to as much of this as we can, 
but I do want to focus on the most immediate item, which is the 
icebreaker.
    You identify in this same study icebreaking capability as a 
significant gap in the Coast Guard's current fleet, so we are 
pleased that the President has announced he wants to expedite 
the acquisition of a new heavy polar icebreaker.
    This is not going to happen quickly, however, so it--I 
wonder if you could describe in more detail how the $150 
million proposed in this budget for this year would be used. Is 
there any way to further expedite the acquisition?
    And let me just ask you a follow up while I am at it, 
because I want you to set the context here. We often hear that 
Russia has 20 to 30 icebreakers already. I don't know of what 
size or what quality, but maybe you can fill that in.
    How many do you think the Coast Guard will need? Do we need 
to match the Russian fleet or is there a particular number that 
would give us the capability we need? And assuming we stay on 
track to begin constructing this first icebreaker by 2020, when 
could we realistically begin acquiring a second or third ship?
    Admiral Zukunft. Thank you, Congressman.
    And I will first talk to the $150 million that had been 
identified in the President's budget for 2017. We are already 
moving out on hiring the acquisition staff professionals that 
would oversee the buildout of a heavy icebreaker.
    We have published in FedBizOpps what the requirements for a 
heavy icebreaker are, and we have actually worked with the--at 
least six other stakeholders that have equity in the Arctic to 
identify what would they require of an Arctic heavy icebreaker.
    So we have done that up front, and now we are reaching out 
to industry. The shipbuilders of the United States are 
convinced that they can build a heavy icebreaker here in the 
United States. To accelerate this timeline we are also looking 
at parent craft designs in other countries, but that design 
would be built here in the United States to accelerate that 
timeline.
    What the $150 million does is it incentivizes industry. It 
also provides a stable platform, as we have seen in years past 
with sequestration, budget control acts, in the last 4 years we 
have been through a number of continuing resolutions, two 
funding lapses that would cause an acquisition of this 
magnitude to stall out at a point in time where the Polar Star, 
our only heavy icebreaker, has maybe 5 to 7 years of service 
life. We are doing everything we can to sustain it before its 
relief arrives.
    Russia has about 40 icebreakers. About eight of those are 
heavy and they have six more under construction today.
    This last year I hosted all eight of the Arctic Council 
nations, and through the State Department I was allowed to 
invite Russia here to the United States to have a strategic 
dialogue and establish an Arctic Coast Guard Forum to not look 
at the Arctic as the next battlefield, but to look at the 
Arctic for the safety of life at sea, the amount of human 
activity, fisheries activities, indigenous populations, search 
and rescue, oil spill response, all of that.
    And other Arctic Council nations look to the United States, 
as the most powerful nation among the Arctic Council, to really 
have a leadership role because there are sovereignty issues at 
play up in the Arctic, as well. So on a global scale, we are 
seeing internationally a desire for the United States to step 
up to the plate and be a more active player in the Arctic 
region, as well.
    There is a high-latitude study that said--you know, 
independent--said that the nation would require three heavy and 
three medium icebreakers. One, it would be under consideration 
right now to at least provide some self-rescue capability.
    And we will have to see what happens over time, but right 
now the baseline study says three heavy icebreakers, three 
medium, but not peer-to-peer competition with Russia to be, you 
know, ``If you have 40 then we need 41.'' There is really no 
good return on investment when it comes to that.
    Mr. Price. That is your own projection you are talking 
about, three plus three?
    Admiral Zukunft. So mine is--would be three heavy and three 
medium. And ironically, when I was an ensign many years ago we 
actually had seven icebreakers in the Coast Guard inventory.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Fleischmann [presiding]. Admiral, good morning, sir.
    Admiral Zukunft. Good morning.
    Mr. Fleischmann. Want to thank you for your outstanding 
service to our country, and I want to thank the Coast Guard for 
all the great work that you all do.
    Before I ask my questions, couple of things: I represent 
the 3rd District of Tennessee. That is Chattanooga. And the 
Coast Guard does an exemplary job in my part of the world with 
the inland waterways. And I wanted to note that for the record. 
It is a very important function in our part of the world, and 
you all fulfill that very well.
    I also wanted another point of thanks: We hold two military 
academy days in our district. We are very proud of the fact 
that the 3rd District has provided some of the best students to 
our military academies, and--all five. And the Coast Guard 
without fail has sent personnel and alums--I understand you are 
a graduate of the Coast Guard Academy--to our academy days, and 
I want to thank you for that because I want all the students in 
the 3rd District to have opportunities for our military 
academies, and the Coast Guard Academy is doing a great job, 
sir.
    Admiral, last year you testified that the offshore patrol 
cutter was the very top priority for the Coast Guard. As a 
result, Congress provided the funding needed for you to award a 
contract this fiscal year for detail design that will lead to 
production in 2021.
    I am pleased to see that you included $100 million in your 
request to complete the design and procure the long lead time 
materials required to meet that date. However, I am concerned, 
sir, with the timing of that award.
    Where does the process stand today, and how confident are 
you that you will be in a position to make that award before 
the end of this fiscal year?
    Admiral Zukunft. Congressman, I have the utmost confidence 
that we will down-select to one shipbuilder before the end of 
this fiscal year. The detail design funding certainly provides 
the impetus for us to move forward.
    And, quite frankly, the $100 million for long lead time 
materials for fiscal year 2017 really sets that first platform 
up for success because this will be a one-ship build initially 
before we go into full-rate production. But at least to get 
this first one on the starting blocks, we are very well 
postured going forward.
    Mr. Fleischmann. Follow-up question: What would be the 
impact to the program if that contract awarded needed to be 
shifted to early fiscal 2017, sir?
    Admiral Zukunft. Right now I would be loath to see any 
delay in this moving forward. When the first offshore patrol 
cutter is delivered in about the year 2021, the ships that it 
will replace, if I don't have to decommission them before that, 
will be reaching 55 years of service.
    In our fast response cutter fleet we have had to take two 
ships offline, and we will decommission those, just in the last 
2 months because of deterioration. So really we are at an 
inflection point right now where any delay on the offshore 
patrol cutter will impact front-line operations.
    Mr. Fleischmann. Thank you, sir.
    Mr. Cuellar.
    Mr. Cuellar. Chairman, thank you so much.
    And, Admiral, thank you for your service and, of course, 
what your men and women do.
    Let me talk about immigration a little bit and part of the 
work that y'all do. Traditionally Cubans who are coming into 
the U.S. would cross the water and then go to Florida most of 
the time.
    The last 2 or 3 years they have been coming through my home 
town of Laredo, which is a port--a land port. In fact, the last 
2 years out of the 67,000 Cubans that came in, 47,000 of them 
came through a port of Laredo--a land port.
    And, as you know, the wet-foot-dry policy, the 1966 Cuban 
Adjustment Act, says basically if you touch the U.S. you get to 
stay. The wet-foot policy came in, and basically you know what 
that means.
    Now there is no more wet-foot-dry policy, at least for some 
of them, because they are coming in--they were coming in 
through Ecuador, Colombia, Panama, and then, you know, Costa 
Rica till Nicaragua said, ``Put a hold on them.''
    And then they would come in through Laredo, not come 
through a river, not come in and see border patrol; they 
actually would see only CBP, which are the men and women that 
we have at our bridges. They just come through a bridge, show 
their passport; 45 minutes or so, they come through and that is 
it.
    And then they are fast-tracked: 1 year they become legal 
residents, and then in 3 years they become a U.S. citizen so 
they can ask for immediate federal benefits on the moment they 
come in.
    So you can understand what has been happening on the 
border. If you can tell us--and I am looking up some numbers as 
to what y'all have--I think for fiscal year 2015 Coast Guard 
made a total of 3,800 maritime migrant interdictions, which 
2,900 of them were Cuban nationals.
    Do you have any thoughts whether the Joint Task Force East 
is taking to extend this SONAR security that helps us address 
this issue? Because now they are--somebody got real smart and 
said, ``Forget about the water''--they are still doing that, 
but now they are coming in in the thousands, and what they are 
doing is now they are flying directly from Costa Rica--Iberia, 
Costa Rica.
    They will fly into Nueva Laredo, which is a city right 
across from Laredo, and they fly in, they take a bus--maybe not 
a Uber, but they will take a bus or a taxi, and then they get 
to the bridge and they are in.
    Any thoughts on how we address this issue, besides changing 
the 1966 Cuban Adjustment Act, which I think is the magnet in 
this case.
    Admiral Zukunft. Yes, Congressman. What happened in the 
last year or year-and-a-half, there was a four-fold increase in 
remittances that could be sent back to Cuba. So those who were 
the benefactor of these remittances then had the wherewithal to 
get on an airplane, get to Central America, ultimately Mexico, 
cross our land port of entry in Laredo, and as soon as they 
cross that border they are feet-dry.
    Not everyone is a recipient of these remittances. Just in 
the last quarter our numbers in maritime flow is up about 45 
percent from where it was a year ago. And what we are seeing 
are those that don't get these remittances.
    And in fact, one of our most recent interdictions we asked, 
``How many of you is this the first time you have been stopped 
by the Coast Guard? '' Some it was the fourth or fifth time.
    And he says, ``Well, what are you going to do when you go 
back?''
    He says, ``Well, we will come back again.'' And they will 
keep trying and trying until they ultimately go feet-dry and 
are welcomed into the United States.
    So it is a policy, but it is also a policy that is folded 
in with `is Cuba a country that honors human rights? ' So if we 
are going to address this policy, I think in the same breath we 
have to take stock of the government of Cuba and is this a 
country that abides by human rights policies.
    In the interim we need to protect our borders.
    Mr. Cuellar. Yes. And I understand that, and certainly I 
think maybe when President Obama goes down there he can address 
some of those issues because, you know, my good friend Mario 
Diaz-Balart and some of us, we have talked about that.
    But it is more political freedom. The Central Americans are 
escaping. It is a life-and-death situation for them because 
they are escaping drug cartels, try to put them into 
prostitution, try to get them to join the gang. So it is a 
little different.
    But for those folks we deport--so you can understand how 
the Central Americans and the Mexicans and even people on my 
side of the, you know, on this side of the river feel. It is a 
little unfair. One is trying to escape political freedom, and 
here they are trying to escape deaths in many cases.
    So it is, you know, I understand what you are saying. It is 
a politically correct answer.
    But understand that at least us on the ground on the 
southern border, we are facing two folks: folks coming in 
trying to escape the death--and I think you know this. We have 
talked about this. People are trying to escape the drug cartels 
and the violence, and some of the most violent places in the 
world are in Central America. And we deport them after a while. 
But here it is they touch and they are in.
    So I do understand your answer, but my question is, any way 
we can at least put a speedbump for some of the folks coming in 
on the land area? And I know you are more water, but any 
thoughts on that question?
    Admiral Zukunft. And again, through the joint task force 
approach, looking at who are the enablers of moving these 
individuals. They generally don't move on their own, so there 
is a human trafficking, organized crime element to this as 
well, and I think that is really what we need to be focusing 
our attention to, as well, you know, exploiting this--seeing 
this policy that we have in that regard.
    Our biggest challenge in the maritime domain, people taking 
such acts of desperation as to shoot themselves and not damage 
any vital organs, swallow bleach, use babies as fenders to keep 
our ships away from boarding them, but truly desperate measures 
to find a better life here in the United States, which is 
really no different than what we are seeing in Central America 
as well.
    Mr. Cuellar. Okay. Thank you, sir.
    Mr. Fleischmann. Mr. Young.
    Mr. Young. Thank you.
    Welcome, Admiral.
    Recently I asked Secretary Foxx, of the Department of 
Transportation, about the United Nations rule regarding 
International Maritime Organization's requirement that shippers 
verify the weight of cargo containers for steamships and 
terminal operators before being loaded on the vessels. You are 
aware of this issue?
    Admiral Zukunft. I am, Congressman.
    Mr. Young. Thanks.
    I had a roundtable--an agriculture transportation 
roundtable--a few weeks ago in my district, 3rd District in 
Iowa, with retailers, transportation folks--great way to get 
people together and discuss issues. But this is a real concern 
that a lot of our retailers had in the agriculture community.
    They are worried there may be some real concerns that could 
create delays and turmoil at our ports and repercussions on our 
economy. How can retailers be assured that this is not going to 
be an issue that is going to choke things up and cause delays?
    What current procedures are there for verifying cargo 
weight? And can you, again, reassure agriculture exporters that 
they will not have to be really concerned about this 
regulation?
    And if there are unintended consequences that result from 
this--the July 1st date is coming up--is there a way out of 
this? Can an extension be given to become compliant or can 
there be an exemption altogether?
    Admiral Zukunft. Again, Congressman, as you noted, this was 
a--you know, run through the International Maritime 
Organization, not a regulatory process per se. But it really 
does apply to exporters to verify the weight of a container 
before it is loaded onto a ship and then exported to a foreign 
country. So if there is not verification of weight then the 
shipper can refuse to load that particular container.
    Now, the same container in all likelihood has to go on 
another mode of conveyance--maybe the highway, maybe a train--
where there are typically weight requirements as well. So it is 
rare where we encounter containers today that have not been 
weighed prior to loading aboard a ship, and it really is 
designed for safety of life at sea: What is the load of these 
containers, with ships carrying upwards of 18,000 container 
equivalent units on there, but what is the ultimate weight of 
that? And then how are they loaded and how it might affect 
stability, as well.
    We do not foresee any disruption to shipping activity. We 
have had significant outreach with both exporters, shippers at 
container terminals. One of my admirals was in Houston earlier 
this week. We had 2,000 people in attendance.
    So I think much of this is really in the communication 
realm right now, and we will continue to do that outreach 
effort and assure folks that there will not be a disruption in 
getting their products into the international commerce stream.
    Mr. Young. Well, I would appreciate your commitment as the 
July 1st date comes that you will be monitoring this and 
listening to the stakeholders and seeing what they are 
experiencing with this new rule.
    Secondly, like my colleague from Tennessee regarding inland 
waterways, Iowa is very unique. We have the Missouri River on 
one side, Mississippi on the other side. And it is a great way 
to help us get our agriculture goods to market.
    Can you share with the committee the work the Coast Guard 
is doing to protect our inland waterways and facilitate trade 
for a lot of the landlocked states?
    Admiral Zukunft. Absolutely. We work closely with the Army 
Corps of Engineers; we work real close with the American 
Waterways Operators.
    As you are well aware, this was almost a biblical flood 
season on our inland river system, and so there are occasions 
where the size of tows have to be broken down into smaller 
units so they can safely transit going downstream.
    We are making investments in our inland river tender fleet 
to keep those viable. The good news: They operate on 
freshwater, not salt. They are getting up there in age, but we 
are attending to that as well.
    We have had a lot of outreach with the operators as we look 
at being a little bit more efficient on how we mark the inland 
waterways--do we need visual aids to navigation or can you use 
electronic virtual aids to navigation--and try to strike a fine 
balance. But none of that is done in the absence of input and 
consultation with the American Waterway Operators.
    What we have seen is a reduction in flow coming downstream 
here of late, because a year ago I would say every day we are 
putting a new tank barge into the inland waterway system, and 
it was typically carrying Bakken crude going downriver. And a 
year ago oil was triple what it is today, in terms of that 
value.
    So we are seeing that immediate impact there, but in terms 
of agricultural goods and the like, you know, those are moving 
at--within normal rates.
    Mr. Young. Well, thank you for mentioning ways to address 
some of these problems, and I just encourage you to keep that 
outreach with the stakeholders and the operators because this 
is a big deal for not just the state of Iowa and the 3rd 
District, but other states as well. We mentioned Tennessee 
here--my colleague--and the inland waterways, and so thank you 
for paying attention to this issue, and please stay engaged 
with it.
    Thank you. I yield back.
    Mr. Fleischmann. Thank you, Mr. Young.
    And, Admiral, we are going to begin a second round of 
questioning, sir.
    I note that the fast response cutter, the FRC, which we are 
acquiring to replace the aging fleet of 110-foot patrol boats, 
is an important asset in the interdiction of illicit drugs. But 
the fiscal 2017 request only includes funding for four FRCs. 
This request, sir, is down from the six that were funded in 
fiscal 2016.
    Is the goal still to acquire 58 fast response cutters? And 
if so, why is there a reduction in the number requested this 
year? Will this drop in production significantly delay your 
ability to complete this acquisition goal or negatively impact 
your ability to prosecute your interdiction missions?
    Admiral Zukunft. Congressman, we looked at when the full 
production run of these fast response cutters need to be 
complete, and that year is 2023. The reason that year is 
important, because that is when we go to full-rate production 
on our offshore patrol cutters. So we need to close that one 
account before we go full-bore on the offshore patrol cutter.
    We can go at risk this year with four, but part of this is 
driven by a $1.1 billion AC&I budget, so those were some of the 
tradeoffs that we had to make going forward with four, but 
recognizing we need to get up to full-rate production of six 
per year to deliver all 58 by 2023.
    Mr. Fleischmann. Yes, sir. I understand that you are in the 
process of contracting for the remaining 26 ships that will 
complete the program of record. What risk do you face if you 
are unable to reach an agreement on a fair and reasonable price 
for the remaining hulls, and what effect would a pause in 
production have not only on the cost of the ship but also on 
your ability to meet the Coast Guard's missions.
    Admiral Zukunft. Congressman, we are in I would say very 
emotional negotiations with the vendor as I speak today to come 
to closure on the cost of these final 26 cutters. We have a lot 
of experience with this program of record. We have held 
requirements steady and we know what the unit cost is, and we 
know what a fair and reasonable price is.
    That is the subject of the negotiations going forward, but 
we need to come to closure on this within the next 2 months so 
we can move forward. Otherwise--and I will just leave this 
vague--we will have to explore other options. But fair and 
reasonable is absolutely paramount.
    The immediate impact, as I said earlier, we had to take two 
110-foot patrol boats offline and we will decommission them. It 
was on plan, but when they went in for their routine dry-dock 
availability, the hulls are deteriorated to a point where we 
would be throwing good money after bad, and we are not going to 
do that. All the more reason we need to keep this program 
moving along.
    But I am encouraged that we will come to closure on these 
negotiations, which are critical, one, to the taxpayer, we get 
a good value; but more importantly, for our men and women who 
are operating these platforms and just doing fantastic things 
for our country out there on the water.
    Mr. Fleischmann. Thank you, sir.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Admiral, I want to pick up on some of the issues raised 
regarding Cuban migration by my colleague, Mr. Cuellar. But 
first I want to wrap up where we got cut off on the icebreaker 
and the Arctic strategy.
    I do want to make sure I understand the fiscal 2017 request 
and how it relates to the bigger picture, in terms of this 
initial icebreaker project.
    You asked for $150 million in the way of an initial 
appropriation for fiscal 2017. That is with a total projected 
cost of how much?
    Admiral Zukunft. Right now we are using a place marker of 
$1 billion, but I would not use that as a figure to go on 
record with. But that is a nominal value right now until we do 
the full scoping requests for proposals and we see what comes 
back.
    Mr. Price. All right. And the way that would be parceled 
out over how many years? What is the completion date?
    Admiral Zukunft. Right now we are talking upwards of 8 
years to produce a heavy icebreaker. Part of that depends on if 
we can go with a parent craft design to accelerate that 
timeline.
    Mr. Price. Eight years does seem like a very long timeline, 
or is that not unusual for icebreakers?
    Admiral Zukunft. Well, we haven't built a heavy icebreaker 
in over 40 years, Congressman, so there will have to be 
investments in technology by our industrial base to be able to 
build ships with that hull thickness. And so there will be some 
front-end investments required, which is why we have given this 
nominal value of $1 billion. Because we don't know what it will 
take industry to be able to build this because we have not 
built a ship of this type in such a long period of time.
    Mr. Price. That does bring to mind, though, the way you 
described the $150 million down payment. You talked about 
incentivizing industry. That was your phrase, and you implied 
that there might be some degree of incentivizing required to 
carry out this project.
    What does that mean exactly? And does this add up to 
obligating, you think, the entire $150 million in the fiscal 
year?
    Admiral Zukunft. I can't project out whether we will be 
able to obligate that $150 million, but certainly to accelerate 
detail design and then get ourselves to construction of an 
icebreaker.
    Our biggest challenge in the past has been the vagaries in 
the budget process. We have seen our acquisition budget ebb and 
flow 40 percent in some cases. And even with a continuing 
resolution that prevents no new starts in acquisition, it has 
really challenged our ability to move forward in some of these 
large acquisition projects of ours.
    So what it does do is it provides us some surety to overlap 
a fiscal year, but more importantly, to keep industry keenly 
interested in this as well. It does signal to our industrial 
base that we are serious about making this particular 
investment.
    Mr. Price. Well, we are serious, and this committee is 
serious. I fully sympathize with the desire to protect the 
project against the vagaries of the process. Believe me, we--I 
understand that and share that concern.
    At the same time, we need to assure ourselves that there is 
some reasonable relationship between the amount requested and 
the amount likely to be actually obligated within the 
timeframe.
    Let me turn to the questions Mr. Cuellar was raising. He 
has returned; he may want to raise some more himself.
    But with respect to the Cuban migration and the way it has 
stepped up since the President's opening to Cuba, which I fully 
support that. I know that there are some challenges to the 
Coast Guard which result, however. And I want to focus on the 
people that are interdicted at sea, as opposed to the land 
migration.
    First of all, I want to know if our budget--if the budget 
proposal is sufficient in what you anticipate in terms of 
interdiction and rescue. And then I just wish you could clarify 
the process. I understand wet-foot, dry-foot; I am not sure I 
understand what differences, if any, might pertain to people 
you apprehend at sea, the process for returning these people to 
Cuba. And then how does that compare to the process for 
returning people let's say from the Triangle countries of 
Central America?
    Mr. Cuellar has a very compelling point here: These people 
are all fleeing tough situations and threatening situations, 
but the threats are very different. And in the case of the 
Central Americans, in many cases it is a more dire and more 
immediate threat.
    How do we treat these migrants who you pick up at sea? Do 
we treat the ones from Central America differently from the 
Cubans?
    Admiral Zukunft. There are two different policies. So with 
the foot-dry policy, when we apprehend Cuban migrants at sea 
they are detained aboard our Coast Guard cutters. They go 
through an interview with an Immigration Service official to 
ascertain whether there is a bona fide claim of political 
asylum.
    And these are economic migrants. Very rarely does one raise 
to a threshold where there is a bona fide claim of political 
asylum.
    Mr. Price. This is the Cubans you are talking about.
    Admiral Zukunft. These are the Cubans. So they are 
repatriated.
    The other countries, historically it has been Dominican 
Republic and Haiti that we apprehend at sea, and they are 
directly repatriated upon recovery aboard a Coast Guard cutter.
    In each and every one of these cases, first and--these are 
actually safety-of-life-at-sea events. You don't see like you 
do in the Mediterranean Sea corpses coming ashore, which--so 
there is a human element to this as well.
    But it demonstrates the magnitude of risk that these people 
will go through to try to find a better life here in the United 
States. But these are two separate and distinct policies.
    Mr. Price. Is there any substantial number of people 
attempting to come through this--through the Caribbean from 
these Central American countries, the ones under such duress, 
at present?
    Admiral Zukunft. No, Congressman. All of those typically 
arrive at our land ports of entry. But to date we are seeing 
few, if any, migrants taking to the water from the tri-border 
region of El Salvador, Guatemala, and Honduras.
    Mr. Price. All right.
    Thank you, Mr. Chairman.
    Mr. Fleischmann. Admiral, that bell that we hear is the 
voting bell, which necessitates our members to go and vote, as 
you know; we talked about this earlier.
    If any of the members had a very brief--very brief 
question--I had some more, but I will defer.
    Mr. Cuellar, did you have any really quick questions?
    Mr. Cuellar. Just a real quick question.
    Mr. Fleischmann. Yes, sir.
    Mr. Cuellar. Thank you, Chairman.
    Just real quick on the aids to navigation--I don't 
represent Corpus Christi, but it is part of Texas--that I would 
like to ask you is your budget requests, what, about $51.1 
million for shore units and aids to navigation? Could you tell 
us real quickly what the process and the criteria for 
prioritizing aid to navigation projects?
    And more importantly, do you have the authority right now 
to do a reimbursement to nonfederal entities that choose to 
advance the aid to navigation projects pursuant to your 
specifications? We are doing that because we did that for CBP, 
myself and Chairman Carter, we added language to do 
reimbursement.
    Are you allowed to do that reimbursement? Are you allowed 
to get money if let's say the city of Corpus Christi decides to 
move forward and advance that funding?
    Admiral Zukunft. Congressman, right now we do not have a 
reimbursement vehicle, but we certainly--with private aids to 
navigation we routinely consult with those to assure that they 
properly mark a federal waterway.
    Mr. Cuellar. Okay. And like to follow up with your folks. I 
know you have met with them. I know that my friend Senator John 
Cornyn I believe sent a letter, and Senator Cruz also. So I 
just want to follow up on that and see if we can find a way.
    And, Mr. Chairman, we are going to try to look at--possibly 
we will talk to Chairman Carter about the same thing we did for 
CBP, to look at giving you authority to allow a reimbursement. 
That is a call from Chairman Carter and we will definitely work 
with them.
    Mr. Fleischmann. Thank you.
    Mr. Cuellar. Thank you. Thank you so much.
    Mr. Fleischmann. Thank you, Mr. Cuellar.
    And, Admiral, again, thank you for being before this 
subcommittee. We appreciate your testimony today and we wish 
you and the Coast Guard the best in your endeavors.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                           Tuesday, March 15, 2016.

                      UNITED STATES SECRET SERVICE

                                WITNESS

JOSEPH CLANCY, DIRECTOR, UNITED STATES SECRET SERVICE
    Mr.  Carter [presiding]. Good morning, everybody.
    Let me start off by saying I am cursed by a bunch of 
allergy attacks right now, and I may sound like I am either 
dying or have escaped from a tuberculosis isolation, but I am 
not contagious, I am just congested, okay? And please forgive 
me for that.
    When I get allergies they all settle in my bronchial tubes, 
so I sound like heck. But anyway, that is the--you know, live 
as long as I have you get certain problems that stay with you 
for a while.
    Well, this hearing is called to order and I want to thank 
all of you for being here. Today we welcome Joe Clancy, the 
director of the United States Secret Service--his second 
appearance before the subcommittee.
    Director Clancy, welcome. We appreciate you being here. 
Thank you for your service to DHS and to our nation. We 
appreciate you.
    Before I begin, or we begin, I want to take a moment to 
remember former Congressman Martin Sabo, who passed away this 
weekend in his home in the state of Minnesota. Congressman Sabo 
served 28 years in Congress, and for 2 years served as the 
ranking member of this subcommittee. Please remember his 
friends and family in your prayers.
    I want to commend you and the Secret Service on 
successfully and, most importantly, safely completing multiple 
national security events last September. And you remember that 
September, especially since the events overlapped as the Pope 
visited Washington, New York, and Philadelphia at the same time 
the United Nations General Assembly hosted 162 heads of state 
in New York. It was truly a whole government response.
    Thank you and everyone in the service for a job very well 
done, and I know you took the responsibility very seriously and 
we are very proud of you--the kind of pride we like to always 
have in the Secret Service.
    Fiscal year 2017 budget for Secret Service is $1.9 billion, 
a decrease of $42.4 million below fiscal year 2016, which is 
largely due to the close of the 2016 presidential campaign 
cycle. I am pleased to see a continued investment in 
communications with the inclusion of $27 million to complete a 
long-needed reinvestment in radios and significant increases to 
explosive detection systems; chemical, biological and 
radiological detection systems; and upgrades to the White House 
physical protective structure.
    Director, while you have tackled many challenges over the 
last year, I remain concerned about the rate of hiring and 
associated attrition, which is forcing unsustainable overtime. 
On this note, a few weeks ago you and I discussed a new agent 
career track path you instituted last summer to improve morale. 
However, your budget underfunds the program's latest 
initiatives by $29 million, or 130 percent.
    I look forward to hearing from you on what you are doing to 
address these continuing challenges.
    Before I turn over to you to make your opening statement, I 
would like to recognize Ms. Roybal-Allard, our distinguished 
ranking member, for any remarks she would like to make.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms.  Roybal-Allard. Thank you, Mr. Chairman.
    And I, too, would like to take a moment to send my 
condolences to former Representative Martin Sabo's family. He 
was a tireless advocate for the people of Minnesota and our 
country, and we have lost a truly remarkable person and I am 
saddened by his passing. I hope his family and the people of 
Minnesota will find comfort in the legacy he built and in the 
foundation he built for members of this subcommittee and for 
his state.
    Director Clancy, welcome to this morning's hearing. I know 
the past few years have been challenging for the Secret 
Service, but I am very hopeful that you have now turned a 
corner on putting the agency back on the right track.
    Beyond incidents that have brought negative attention to 
the agency, the Secret Service faced a significant operational 
challenge last September when it provided protection for the 
Pope's visit and the United Nations General Assembly while also 
preparing for the beginning of the presidential nomination and 
transition process.
    By all accounts, the Secret Service performed admirably, 
and I congratulate you, your senior staff, and all the men and 
women of the Secret Service on a job well done. I understand a 
number of TSA and ICE personnel also pitched in and supported 
the efforts, so this was truly a DHS unity-of-effort 
initiative.
    Other tests will be the nuclear summit coming up at the end 
of March, the ongoing presidential nomination contest, and the 
presidential transition next January.
    Earlier this year you began providing protection for three 
presidential candidates in addition to protection already 
provided to Hillary Clinton as a former First Lady. By the 
summer, you will be protecting the nominated candidates, and 
shortly after that, setting up President Obama's post-
presidency protective detail.
    Since the Protective Mission Panel issued its report, the 
Secret Service has made a number of productive changes, 
including improvements to the hiring process for both officers 
and agents. But as we discussed, officer attrition continues to 
be a real problem.
    Thank you for joining us this morning. I look forward to 
hearing from you about the progress you see at the agency, 
areas that you hope to address during the last year of the 
administration, and how the fiscal year 2017 budget request 
will help the Secret Service continue moving in the right 
direction.
    I yield back.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Price. Mr. Chairman, before we turn to our director 
could I say just a word about our colleague, Martin Sabo?
    Mr. Carter. Certainly. David, I recognize you.
    Mr. Price. I remember Martin Sabo very fondly as just a 
wonderful man, wonderful colleague, devoted member of this 
institution. He first entered public life at the ripe age of 
22, I believe, when he was elected to the Minnesota House. He 
later served as speaker of the Minnesota House and then 
succeeded Donald Fraser, an esteemed member of this 
institution, in the U.S. House of Representatives.
    Martin was a well-established, accomplished member by the 
time I got here in the in the late 1980s. He served as chairman 
of the House Budget Committee and then was the inaugural 
ranking member of this subcommittee when this--he had offered 
leadership on appropriations in a number of areas, most notably 
transportation. But when this subcommittee was first formed, 
Martin took on the leading Democratic role on the subcommittee, 
and that is where I served most closely with him and learned a 
great deal from him as we figured out what the Homeland 
Security Subcommittee was all about and what this new 
department was all about as we undertook that post-9/11 
reorganization here in the House.
    So it is with real sadness and very fond memories that we 
receive news of Martin's death. And since this is the first 
subcommittee hearing since that has occurred, I think it is 
appropriate that all of us pause to remember him and his 
service to our country.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Price.
    Anyone else want to comment?
    All right.
    Director Clancy, we have your written submission, but we 
are ready to hear from you and we yield the floor to you.

               Opening Statement: Director Clancy

    Mr. Clancy. Thank you, Mr. Chairman.
    Good morning, Chairman Carter, Ranking Member Roybal-
Allard, and distinguished members of the committee. I am 
honored to join you to discuss the President's fiscal year 2017 
budget request for the Secret Service.
    This budget builds on the investments made over the past 2 
years, moves our agency forward, and strengthens our 
capabilities to carry out our priority mission of protecting 
the President and the White House. The fiscal year 2017 budget 
will continue to advance initiatives centered on increased 
staffing and training as well as enhancements to technologies 
and infrastructure that directly support our front-line 
personnel. These investments are important contributors to our 
operational success.
    Ultimately, it is the dedication and the professionalism of 
our people that ensures our success as an agency. I am proud of 
them and what we are accomplishing together every day.
    The fiscal year 2017 budget for the Secret Service totals 
$1.9 billion. This amount is roughly $42 million below this 
year's enacted level, largely due to the drawdown of the 
presidential campaign operations.
    Program increases proposed in the budget will allow us to 
complete the 2-year effort to upgrade the radios and associated 
infrastructure at the White House complex. Other enhancements 
at the White House complex include ongoing work to replace 
aging officer booths and security gates and necessary 
investments in classified protective countermeasures to address 
known and emerging threats.
    In addition to these increases, the budget provides funding 
for the final months of the presidential campaign activities 
and to sustain the costs associated with the establishment of 
the former presidential protective division for President 
Obama, to ensure a smooth transition on January 20, 2017.
    The Secret Service is focused on our human capital needs 
across the organization. Attaining appropriate staffing levels 
will ease overtime demands on individual employees and further 
increase training opportunities.
    In fiscal year 2015 the agency hired 500 new employees. In 
fiscal year 2016 we are building on this momentum as we work to 
meet our goals of hiring 860 new employees. In fiscal year 2017 
we will continue to maximize our hiring efforts as we work to 
keep pace with our 5-year human capital plan and fulfill the 
recommendations made by the Protective Mission Panel.
    As we work to meet our hiring goals, it is critical that we 
recruit the highest-quality candidates. In 2015 more than 2,100 
recruits representing 96 organizations attended the Federal Law 
Enforcement Training Center, or FLETC. Only eight received the 
prestigious Honor Graduate Award. I am proud to say that four 
of those recipients were Secret Service recruits.
    As impressive as this achievement is, I am especially proud 
that one of our special agent trainees earned the distinguished 
title of 2015 FLETC Honor Graduate of the Year. I congratulate 
these individuals for their achievements and could not be more 
optimistic about our future when I see people of this caliber 
joining our ranks.
    While the Secret Service has made significant progress in 
meeting our hiring goals, we have yet to see the desired impact 
on our overall staffing levels due to increased attrition. In 
order to maximize our hiring gains, we have turned considerable 
attention to the retention of our existing workforce. We have 
begun retention initiatives available to us within our existing 
authorities and are pursuing several options for more 
comprehensive retention initiatives, which will be inclusive of 
all members of our workforce.
    Every presidential campaign increases the operational tempo 
of the Secret Service. This year a number of National Special 
Security Events, as well as overseas protective travel, have 
increased the tempo even further.
    This increased operational tempo highlights two important 
points.
    Number one, the success of these protective trips and 
events is dependent on more than just those agents and officers 
assigned to permanent protective details. The majority of the 
staffing and advanced planning that is required to fulfill the 
mission is a result of special agents and support staff working 
in field offices around the world.
    Number two, our hiring and retention initiatives are 
especially critical this year so our employees across the 
agency can begin to see the benefits of increased staffing 
levels.
    With respect to the presidential campaign, candidate 
protection details are currently in place for Secretary 
Clinton, Donald Trump, and Senator Bernie Sanders. Work has 
already been underway for months to establish the security 
plans for the nominating conventions which will take place 
later this summer.
    In fiscal year 2017 the budget provides $72 million for 
presidential campaign activities. This includes protection 
costs for the nominees and their families through the general 
election, funding for the protection of the President-elect and 
Vice President-elect and their immediate families during the 
transition, and funding to secure the 58th presidential 
inauguration and associated events.
    As we move further into the 2016 presidential campaign 
cycle, I recognize the next year will remain challenging. As 
our personnel continue to meet the considerable demands of the 
mission, my leadership team will support them by building on 
last year's staffing and retention initiatives.
    We will continue to advance training as a central component 
of our success and aggressively pursue the equipment and 
technologies that are reflective of an elite organization and 
ensure our employees have the tools necessary to provide them 
every advantage.
    Through the dedication and sacrifices of our employees 
around the world, the Secret Service has built momentum at a 
time when the demands of the mission are at its highest. I ask 
for the committee's support for this budget, which will 
continue this momentum at a critical time in our agency's 
history.
    To close, I would like to take a moment to extend our 
condolences to the Reagan family on the passing of former First 
Lady Nancy Reagan. Protecting the President and first family is 
an honor unique to the Secret Service. Over the course of 35 
years, many fine people served President and Mrs. Reagan with 
honor and distinction. I salute them all, past and present, for 
their service and thank the Reagan family for this privilege.
    Chairman Carter, Ranking Member Roybal-Allard, thank you 
once again for the opportunity to be here to represent the men 
and women of the Secret Service. I will be happy to answer any 
questions you and the members of the committee may have.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                STAFFING

    Mr. Carter. Well, thank you, Director. We will try to stay 
to our 5-minute, but we have a little flexibility.
    Right to something you mentioned in your conversation when 
you started. Given the amount of overtime being worked by 
agents on the President's detail on campaigns and within the 
uniformed division, it is obvious the service needs additional 
agents and officers. In fact, your own human capital plan says 
you will need 7,600 people by the end of fiscal year 2019, an 
increase of 1,300 above your current end strength of 6,287.
    However, your fiscal year 2017 budget only requests 6,772 
positions. Congress funded 6,714 positions in fiscal year 2016 
for the Secret Service. Is that number obtainable in light of 
the fact that the service is losing more agents than they have 
brought onboard?
    In the last 4 months you have lost 19 positions. Can you 
truly bring on 427 people by the end of September?
    How is the service changing the recruitment and the hiring 
process to ensure that both quality and quantity officers are 
acquired?
    Lastly, is 7,600 personnel truly the requirement of the 
Secret Service? If so, your future budget continues to build on 
this number? Is that correct?
    I note that the fiscal year 2017 budget only increases by 
58 FTE over fiscal year 2016, and none of those are special 
agents and uniformed division, but instead are all support 
staff. Could you go into some detail on that?
    Mr. Clancy. Yes. Thank you, Mr. Chairman. When I first came 
in over a year ago I had three priorities: staffing, training, 
and morale, and you have hit on the number one priority here, 
which is staffing.
    We have basically re-tooled the way we go about hiring 
people, trying to condense the time without lowering the 
quality of candidates that we get to bring in new employees. We 
have had to retool the way we do business in our human 
resources.
    But we have made significant progress in our hiring. As you 
see, we hired, in fiscal year 2015, approximately 200 agents. 
We hired approximately 150 Uniformed Division officers and 
approximately 140 professional staff people.
    So in our first year we have done significant hiring, and 
we will continue to build on that momentum. We are very 
confident that this year, fiscal year 2016, we will reach our 
goals of hiring 312 agents, 312 officers, and over 260 
professional staff.
    We think that we have this hiring process fixed, I would 
say. But the big issue for us here--and you hit it here, Mr. 
Chairman--is the retention.
    We are losing a lot of folks. Our attrition rate for 
Uniformed Division is approximately 8 percent; for our agent 
population it is about 7 percent; and for our professional 
staff it is about 8 percent. So we are losing some very good 
people, and when you think of the amount of time that we invest 
in training these people, the amount of time that we take to 
give them the experience they need, and then to lose those, we 
have got to find ways to keep them.
    One initial retention initiative that we have done, which 
we thought was within our authority working with the Department 
of Homeland Security, was to provide a bonus for Uniformed 
Division officers. It is a 2-year plan. It hopefully entices 
our Uniformed Division officers to stay throughout this 
critical time in our agency where we have this campaign going 
on.
    Over 1,000 of our uniformed division officers signed up for 
that, but we have more initiatives on the table that we are 
looking at within our authority.
    Just as an example, we are hoping to push out this month a 
student loan repayment initiative; also a tuition assistance 
initiative. Those are, within our authority, things that we can 
do to try to entice our people to stay with us rather than move 
on to other agencies or other opportunities.
    There may be additional initiatives we may look at further. 
Of course, we would work with your staff and the Department of 
Homeland Security and OMB if we go in that direction.
    Mr. Carter. Is your chief financial officer looking at this 
and telling us what it is going to cost to do those things? We 
have got that great ideas will retain people. I can understand 
that. But in turn, we have got to always put in what you are 
requesting so we don't have any shortfalls.
    Mr. Clancy. Yes.
    Mr. Carter. Because we have got some shortfalls we have to 
deal with right now.
    Mr. Clancy. Yes. In fact, I have the Chief Financial 
Officer with me today. She was newly appointed to this position 
within the past year--and I may get into this later with the 
structure of the Secret Service--but in the past we have had 
agents in a lot of these positions, and now we are moving to 
run this agency as a business and we have brought in a Chief 
Financial Officer who has that expertise.
    Mr. Carter. That is a good idea.
    We are joined by the Chairman of the whole committee. Even 
though we are into questioning, I am going to yield to Hal 
Rogers to make an opening statement or any comments he may 
make.
    Chairman Rogers. Well, thank you, Mr. Chairman. I apologize 
for being late, and I have to leave early because we have got 
three simultaneous hearings----
    Mr. Carter. Yes, we do.
    Chairman Rogers [continuing]. That I have to be at. But I 
wanted to be here with the Director and you.
    I want to echo the sentiments exercised by the Chairman, 
Ranking Member, and others regarding our former colleague and 
committee member Marty Sabo. Marty dedicated over 47 years of 
his life to public service, 28 of which was in this House, 
including 2 years as the first ranking member of this 
subcommittee.
    David, I am correct on that, aren't I?
    Mr.  Price. That is right.
    Chairman  Rogers. When we started this subcommittee on 
Homeland Security in 1980 and 2003, Marty was ranking member, I 
was the first chairman. We worked together beautifully and I 
think effectively for those years.
    He was a true patriot, he was a great legislator, former 
speaker of his home state House, and many other things. My 
condolences go out to his family, Sylvia, his wife, and loved 
ones, and let them know that he will be sorely missed here in 
his nation's capital.
    Mr. Director, thank you for being here. I want to share my 
gratitude, first off, for the men and women at your agency who 
serve our great country, many of whom put their lives on the 
line on a daily basis and put their families, really, in harm's 
way themselves.
    Your fiscal year 2017 request includes $1.89 billion. That 
is a $42 million decrease from current levels, largely due to 
the winding down of the presidential campaign, I understand. 
The request includes $108 million to enhance security at the 
White House, $27 million for national capital region radio 
system upgrades, $72 million to continue the security work of 
presidential candidates throughout the inauguration.
    I am disappointed, though, to see that the request does not 
include funding for the National Center for Missing and 
Exploited Children, which has been a bipartisan priority for 
years.
    The Secret Service fulfills a very critical mission, of 
course, of protection and investigation. Your agency is charged 
with protecting the Commander-in-Chief, the Vice President, 
presidential candidates, visiting foreign heads of state, among 
many others.
    This past year you were tasked with protecting the Pope on 
his visit throughout the U.S., as well as over 160 visiting 
heads of state or their spouses for the U.N. General Assembly 
in New York. These were no small tasks and I want to commend 
you and all the men and women at your agency for the tremendous 
job they did. The world was watching and the Secret Service did 
an exemplary job.
    There is much to praise your agency about, but there have 
also been some major missteps in recent years. There seems to 
be an overarching theme within the Secret Service since well 
before your tenure as director began just a short time ago.
    A number of high-profile incidents in the recent past have 
called many to question the integrity, culture, and 
effectiveness of the agency. From a series of unacceptable 
misconduct acts by some of your agents to major security 
lapses, changes need to be made in order for the Secret Service 
to regain the trust of the American people.
    While I have to commend you and your agency for being 
relatively scandal-free since the last time you came before 
this subcommittee, the bar needs to be set much higher. 
Leadership starts at the top and I trust that you are 
leveraging your career's worth of experience to right the ship 
at the Secret Service.
    I look forward to hearing from you today on what measures 
you have put in place over the last year to address these 
problems at your agency.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                          COUNTERFEITING: PERU

    One particular thing comes to mind. I was recently in South 
America, and Peru, I think, is the counterfeiting capital of 
the world, is that correct?
    Mr. Clancy. Sir, right now there is a significant amount of 
counterfeit coming out of Peru, yes.
    Chairman Rogers. I mean, you could get a Harvard diploma or 
a $1,000 bill or whatever you wanted, it seems at will. What 
are you doing there?
    Mr. Clancy. We have an agent assigned to our Peru office 
who is making tremendous strides down there. I know we have 
gotten good, positive feedback from the ambassador down there, 
and I think over $10 million was seized last year alone, and 
there have been several offset printing presses that have been 
closed down.
    They are making a significant effect on the counterfeiting 
out of Peru and getting great support from the ambassador's 
office in the embassy.
    Chairman Rogers. Well, that is not quite the report I got. 
I mean, I talked to the ambassador and the head of the agency 
and so on, and, you know, they are working hard. I give them 
that.
    But the problem is so broad and wide, and it is an absolute 
factory for fake dollars, fake money, and everything else.
    Mr. Clancy. Yes, sir.
    Chairman  Rogers. And I don't think we are putting enough 
effort there to try to stop a real sore on the American dollar.
    You have got a lot of critically important missions: 
safeguard the nation's financial infrastructure; you play a 
vital role in protecting the economy from cyber crime and the 
counterfeiting. In fiscal year 2015 alone you made nearly 800 
arrests and seized almost $60 million in currency before it 
entered into circulation.
    You also trained 24 members of the Peruvian counterfeiting 
force to help them combat this problem, but I really think that 
we are not doing nearly enough there, and I sometimes wonder 
whether Peruvians are not too unhappy.
    I mean there is a lot of money that is being circulated in 
their country before it is caught on to be counterfeiting 
elsewhere. Could you give us a report in due course of time 
here on how we might be able to beef up our efforts there?
    Mr. Clancy. Yes, sir. My staff will get with yours 
certainly to give you a more detailed briefing.
    I will say that those recruits, the Peruvian recruits, did 
come up to our training facility here in Washington, and I met 
with their command structure there, as well, to talk about how 
we are doing down there. But we will take a good look at that 
and our staffs will give you a better briefing.
    Chairman Rogers. Yes, I am not interested in a briefing; I 
am interested in action----
    Mr. Clancy. Yes, sir.
    Chairman Rogers [continuing]. To get something done. I know 
what is going on there; we just got back----
    Mr. Clancy. Yes, sir.
    Chairman Rogers [continuing]. And met with all the players 
there. And they are all hard-working, and they are innocent and 
they are above board, and they are trying their best, but it is 
not enough.
    Thank you, Mr. Director.
    Mr. Carter. Ms. Roybal-Allard.

                        PROTECTIVE MISSION PANEL

    Ms. Roybal-Allard. Director Clancy, you talked a little bit 
about some of your efforts when it came to hiring and 
retention. But the Protective Mission Panel in its 2014 report 
also went beyond the hiring process. Can you elaborate on the 
status of fulfilling the other recommendations of the 
Protective Mission Panel, and is the budget request sufficient 
to allow you to make progress on or to complete all of those 
recommendations?
    Mr. Clancy. Yes, thank you. There were 19 recommendations 
through the Blue Ribbon Panel. We took them all very seriously 
and we concur with most of these recommendations.
    I am very proud to say we have made a lot of progress in 
addressing these recommendations. In fact, a month or so ago, I 
brought back two members of the Blue Ribbon Panel to assure 
them that we are taking their report serious, a very well-
written report.
    You know, it started with a structure, I will say, that 
they talked about an outside perspective with the Secret 
Service and the culture of starving for management, starving 
for leadership. So what we did was we restructured the way we 
do business.
    In the past, we have had a Director and a Deputy Director, 
and now we are looking at running this more like a business, as 
I said earlier, with our Chief Operating Officer we brought in 
from the Department of Defense--this gentleman is with me here 
today--and that Chief Operating Officer is now overseeing the 
business aspect of the Secret Service. And we have elevated the 
Chief Financial Officer, who we spoke about today.
    In the past, our finances were overseen by an agent. We 
brought in a subject matter expert to oversee our finances.
    We created a new directorate, the Office of Strategic 
Planning and Policy, to look at our 30-, 60-, 90-day plans as 
well as our 5-year plan. And with that, we have elevated a 
subject matter expert, an attorney. He is not an agent; we 
wanted to get that outside perspective again.
    The COO just recently hired a Chief Information Officer who 
is a 34-year Marine Corps brigadier general. He was a CIO in 
the Marine Corps. We were thrilled to get this gentleman, and 
in a few months he has made great strides in assessing where we 
are. We have strengthened that position, the CIO position, so 
that we can do a much better job in our I.T. functions.
    And then we have done some other things structurally, 
based, again, on the Blue Ribbon Panel and their 
recommendations. Training--you know, they said our training--
and we agree--was not where it should have been. So we have 
applied more focus to our training.
    Our human resources and training previously was one 
directorate. We have split that to give both the focus that 
they need. And our training has increased over the last year, 
fiscal year 2015, increased 43 percent.
    And certainly leading up to this campaign, we have made a 
commitment to ensure that our details that are protecting these 
candidates that are out there are well trained. We trained over 
940 agents prior to this campaign to ensure that they are set.
    So with the Blue Ribbon Panel, structurally we have made 
significant changes. It is a much different agency from a 
management standpoint than it was years ago.
    Thanks to the funding that you have provided here, our 
radios and infrastructure will be improved. Some of our 
facilities at our Beltsville training facility will also be 
improved. So we are moving forward with the Blue Ribbon Panel 
recommendations and I think making a lot of progress.

                          PERSONNEL MISCONDUCT

    Ms.  Roybal-Allard. The Secret Service has had a difficult 
couple of years with several incidents of misconduct by 
personnel, suggesting strongly that the culture within the 
agency had drifted and needed to be changed. The issue is not 
only about misconduct, it is also about whether personnel feel 
confident in coming forward when they become aware of 
misconduct. For example, do they know how to register their 
concerns of misconduct, and do they feel confident that their 
careers will not suffer as a result of speaking out?
    Can you please elaborate on how things are improving and 
what the signs of progress are that you can point to and the 
areas where you think more progress still needs to be made in 
this particular area?
    Mr.  Clancy. Yes. Primarily through communication, 
initially; trying to get to our workforce to tell them, ``We 
can't fix what we don't know, and you have got to come forward 
and tell us what issues are out there.'' And we have given them 
several avenues to do this, whether it is through the 
ombudsman, whether it is through our Office of Professional 
Responsibility, through our inspection division, or through the 
Office of Inspector General.
    Any of those avenues, or come to me directly. I have an 
open-door policy; come to me directly and we will look into the 
misconduct that may or may not be out there ,and we will act 
upon it.
    But we have also gone out to field offices, and we have 
addressed them. I have addressed them personally, and I have 
gone to every protective detail we have and addressed them and 
reiterated the fact that if there are issues out there, we need 
to know about them so that we can fix them.
    And I think we are making some progress. We have heard 
several responses from our workforce where we have taken 
initiative and gone out to field offices to investigate what 
they have reported.
    Ms.  Roybal-Allard. Okay. And just very quickly in that 
same area, one of the recommendations was to implement a 
disciplinary system in a consistent manner that demonstrates 
zero tolerance for failures that are incompatible with a zero-
failure mission. Is that also something that is currently being 
worked on?
    Mr.  Clancy. Yes. It is.
    We have just recently elevated our integrity officer to an 
SES position, again, to highlight the importance of integrity 
within our agency. We have also, through the table of 
penalties, we have strengthened some of these penalties so that 
if you are a supervisor and you don't report things up, you are 
subject to discipline--or severe discipline.
    So we have gone back and looked at that. And the whole 
entire table of penalties is under review now to see if we are 
where we should be with the discipline process. And we are 
benchmarking against other federal agencies.
    Mr.  Carter. Mr. Young.

                              CYBER-CRIME

    Mr.  Young. Thank you, Mr. Chairman.
    And welcome, Director Clancy. I recently cofounded a 
bipartisan caucus--a congressional task force to combat 
identity theft and fraud.
    And you know the seriousness of all this, both in your 
public and private sector experience. It can happen on the 
individual scale, a larger scale, affecting corporations, 
businesses, individuals, the public sector, and it is something 
that we need to take quite seriously, and I know you know that.
    How will the proposed budget assist the Secret Service--and 
I looked particularly at your testimony here about the 
Electronic Crimes Special Agent Program.
    Mr.  Clancy. Yes.
    Mr.  Young. And how will the budget assist the Secret 
Service to help prevent and investigate cyber crimes and data 
breaches? And is the need primarily in staff or is it new 
technologies?
    Mr.  Clancy. Thank you for your question, Congressman.
    It starts with staffing, and our field offices are down 
considerably at this point because we have had to move a number 
of our field office agents to our protective mission. But what 
we do have in the field is we have 37 Electronic Crimes Task 
Forces throughout our country, and we have two overseas in 
London and in Rome.
    So we take this very seriously, obviously, the cyber crimes 
that are out there and the identity theft that is out there. We 
are also partnering with our local and state law enforcement 
officials. We also have a National Computer Forensics Institute 
down in Alabama where we train a lot of these law enforcement 
officials, as well as judges, so that they can go back into 
their communities and use this expertise that they have learned 
and take the equipment that we provide for them to work these 
types of cases in their communities.
    Mr.  Young. In your testimony as well you state the Secret 
Service is working with state and local partners. Can you 
elaborate on this, and how does the Secret Service work with 
other agencies to protect private citizens?
    Do you review and follow up on your investigations, and 
from there find shortcomings, successes and needs with the real 
analytics on this? How can we help you, in terms of maybe even 
legislation?
    Mr.  Clancy. Right now, again, through the Electronic 
Crimes Task Forces, that is where we really partner with our 
community, state, and local law enforcement authorities.
    For example, during this campaign year a lot of folks think 
that our investigations may get pushed to the wayside. But the 
beauty of these Electronic Crimes Task Forces, where we have 
the locals and states working with as well as the private 
sector, that if our agents get pulled out to do a protective 
assignment, those cases continue on. They are not dormant; they 
are not being put aside. So we continue to work those.
    And we do look at the metrics. And our staff can get with 
yours and give you a better idea of what those metrics are in 
terms of the number of cases closed in your community, for 
example, and the amount of arrests made in your community.
    Mr.  Young. And with new technologies and scams and 
hucksters out there trying to steal identity and commit these 
frauds, you are seeing this growing? And what are your roots in 
this criminal community?
    Mr.  Clancy. Yes, you are exactly right. You know, these 
cyber criminals today, they run it like a business. They don't 
just take their spoils from their crime and spend it; they 
reinvest in their criminal enterprise.
    And we have to evolve and improve our techniques as well, 
and that is where this continuing education for our 
investigators in the work with the private sector and trying to 
keep up with the new technology is beneficial. We have a 
representative out at Carnegie Mellon to study the newest 
technology out there; we are out at Tulsa University studying 
the wireless mobile new technology that is out there. So we are 
trying to continue to educate our folks, too, as we move 
forward.
    Mr.  Young. Well, thank you for coming here today, and our 
bipartisan task force I am sure will take you up on your offer 
for briefings and sharing information on how we can work 
together to do this.
    So I yield back, Mr. Chairman.
    Mr.  Clancy. Thank you, sir.
    Mr.  Carter. Mr. Price.

                         PRESIDENTIAL CAMPAIGN

    Mr.  Price. Thank you, Mr. Chairman.
    And welcome, Director. We are happy to have you before the 
subcommittee.
    I know you have a lot on your plate this year, with the 
election warming up and the election proving to be very 
contentious. And that really defines what I want to ask you to 
address today, that contentiousness.
    We had a regrettable example in my congressional district 
last week, Fayetteville, North Carolina--a recent incident at a 
Donald Trump rally. In this instance it was reported that 
without any physical provocation a Trump supporter allegedly 
sucker-punched, as they say, a man named Rakeem Jones and later 
said--and I am quoting here, ``The next time we see him we 
might have to kill him,'' when referencing Mr. Jones.
    Now, there is a lot of inflammatory rhetoric being used on 
the campaign trail. I would imagine that is making your job and 
that of your agents more difficult at a minimum, and perhaps 
more dangerous.
    So that is what I want to ask you to help us understand 
here today, to the extent you can in an unclassified setting. 
Can you speak to these challenges faced by your agents and--as 
more and more violent and provocative rhetoric is being used 
out on the campaign trail?
    Are you seeing an increased number of incidents that you, 
of course, need to protect against, but also need to 
investigate, compared to the 2012 election cycle or any modern 
election cycle, for that matter? And then this vitriol on the 
campaign trail, has that led to an increased number of threats 
against the President or the first family, again, to the extent 
you can comment on this--in this setting.
    Mr.  Clancy. Thank you, Congressman, for the question.
    In general I will say that every day is a challenge for us. 
And we talk about this within the ranks. Every minute of every 
day is a challenge for us, whether our protectees are at a 
large rally where there is a lot of passion and intensity, or 
whether a protectee is going into a coffee shop. Every minute 
of every day, we have to be on our game, and to the question 
that came earlier, even off-duty as well, and that is something 
we are stressing too.
    But in regard to the campaign, it all starts with the 
advance. And one of the things that we talk about at the 
advance is that we are there to protect our protectee. If there 
are protesters, if there are people that are disrupting the 
event, that is not our primary responsibility.
    If it is an NSSE we are more involved that way, but for 
typical campaign events as you have brought up here, we sit 
down with the host committee or the event organizer and we tell 
them that if there is someone that you feel is disrupting the 
event or protesting, it is incumbent upon you to make that 
decision and then work with your private security that you may 
have or your university security or the local law enforcement 
to remove the protester if you think that is warranted.
    Our concern is overt acts of--or threats to our protectee. 
If someone, for example, comes into the buffer zone or secure 
zone we are going to respond to that, as we saw in Dayton, Ohio 
just this past weekend. We have also seen at other rallies 
where individuals have crossed into our buffer zone over the 
bike rack. We will remove those individuals.
    But we do not interfere with people's First Amendment 
rights. People have the right to voice their opinions, and it 
is for the host committee to decide whether or not that is 
disruptive to that event.
    Mr.  Price. Surely the environment matters, though, and the 
cooperation with--I understand you are saying the cooperation 
with local law enforcement involves deferring to them, mainly, 
in handling protests and presumably counter-protests. The 
atmosphere surrounding this, though, surely has some influence 
on how you assess your mission and the kind of complications 
you might face in executing your mission.
    And what I am really asking you is not about--I gave you an 
illustrative instance, but I am asking you about the 
environment surrounding this campaign and whether it has posed 
those kinds of challenges. And if so, what have you undertaken 
to deal with this? This is not politics as usual, at least in 
my experience.
    Mr.  Clancy. Yes. We are flexible with our security plan at 
each site, and we look at all the factors of every event.
    And we are flexible with our assets. We may bring in 
additional assets if we feel that there is more intensity, for 
example, in a rally.
    We have certain requirements that we want to make sure that 
we have available to us. And I don't want to get into much 
detail here, but we want to make sure, for example, we have a 
good, clean route in as well as a good, clean route out. And if 
we don't feel that we can have some of these basic requirements 
of a good security plan, then, you know, it may require us to 
bring in more assets or have more discussions with the staff or 
local law enforcement.
    But there is a lot of give and take with all these events. 
And there is no question some of these events create even more 
challenges for us, but it is our job to be flexible and 
resilient and make sure we have a good security plan.
    Mr.  Price. And your responsibility conceivably could be to 
advise local enforcement as to what you are picking up and the 
additional precautions and safeguards they need to put in 
place, and you might even advise that a rally be canceled or 
postponed.
    Mr.  Clancy. Right. We work very closely with local law 
enforcement.
    One of the beauties of our field offices is that we have 
great relationships with the local police departments through 
our investigative missions. And in fact, for a lot of these 
rallies and events, our field offices are the ones doing the 
initial advance work.
    So those relationships have already been formed, and there 
is a lot of give and take from an intelligence standpoint, what 
assets are available, what requirements are needed. So it truly 
is a unity of effort, a team effort.
    Mr.  Price. Thank you.
    Thank you, Mr. Chairman.
    Mr.  Carter. Thank you, Mr. Price.
    Mr. Stewart.

                        PERSONNEL ACCOUNTABILITY

    Mr.  Stewart. Thank you, Mr. Chairman.
    And, Mr. Clancy, I want you to know that we--many of us 
support you and we understand that, you know, just culturally 
as a military officer, I am supportive of law enforcement. I 
recognize that you have a difficult job, that many times you or 
your agents or others involved with law enforcement have to 
make split decisions--split-second decisions that they are 
going to be criticized on after the fact in many cases, that 
many times it is under very stressful situations, including 
life-and-death situations.
    And again, I think the great majority of Americans support 
you and others working with you and want to support you, but 
that only works, I think, if we recognize that that trust is 
based on behaviors and holding people accountable in some cases 
to earn that trust.
    And that is a bit of a concern of mine, which I will--I 
would like to elaborate on here if I could.
    And going back to quote a Government Oversight and Reform 
report from 2015, and I am quoting here, ``Internal USSS data 
shows that morale is further harmed because many employees do 
not have confidence in agency leadership. Some whistleblowers 
told the committee that they believed this is due to a culture 
where leaders that are not held accountable.'' And I know that 
was previous to your time or about the same time that you came 
on, and that is not a critique of your leadership, this quote I 
just gave.
    But I would like to give an example of accountability and 
then ask you to respond if you would. And I am not using this 
example because he is a friend of mine or because he is a 
member of Congress. This is Jason Chaffetz. I am using it--I 
would feel the same way about any U.S. citizen.
    And that was where there was a breach of some 60 of his 
personal data--60 different items. And quoting from the 
Washington Post, ``Some information that he might find 
embarrassing needs to get out,'' is what the assistant 
director, Edward Lowery, wrote to another director.
    And wanting to support you, but also recognizing that that 
trust and that accountability is so important. Could you tell 
the committee what disciplinary actions have been involved with 
those who were responsible for leaking this data of a private 
citizen, especially in regard to Director Lowery?
    Mr.  Clancy. Congressman, there have been 42 Secret Service 
employees who were issued discipline with regard to that case 
that you referred to here. Many of those are in the appeal 
process and coming to the end of that appeal process.
    I can't speak specifically about what--because of privacy 
issues--what each individual received as a result of those 
actions, but it is something that the agency is embarrassed by, 
and we have said that publicly.
    And in terms of are we holding people accountable and are 
people willing to come forward, in the year that I have been 
here we are now putting out a report--showing that discipline 
across the board, from supervisors as well as non-supervisors, 
to be transparent to our agency, to show the discipline. We are 
not naming people in this report, but we put it up for everyone 
in our agency to see the type of misconduct that occurs, and 
then what type of discipline is put into effect as a result of 
that.
    Mr.  Stewart. You know, I guess this is a--is just a 
contrast of what I experienced. And again, using my military 
experience, when we had, you know, a concern, whatever it might 
be, whether we crashed an airplane or some type of security 
breach, I mean, we knew immediately what the outcome would be. 
And the discipline was very public and it took place in a 
matter of days, maybe weeks.
    But here we are a long time later and we don't know those 
who have been disciplined; we don't know the outcome of that 
discipline. And they are already--they are on appeal.
    You know, just watching this, I can understand why some 
members of your organization look at this and say, ``We do have 
a hard time holding people accountable and the system protects 
them, it seems.''
    And again, let's use Director Lowery as an example. I mean, 
I would be curious to know what his position is. I mean, this 
is fairly egregious to me, him writing to another--``Some 
information he might find embarrassing needs to get out.'' This 
is what he wrote about a public official. And yet, again, can 
you tell me any discipline that has been effected upon this 
individual or this director?
    Mr.  Clancy. Congressman, I am sorry, I cannot speak to 
that currently until this appeal process goes through.
    We are committed to Title 5, where there is due process. 
And I realize the frustration that it takes a long time to go 
through this process, but that is where we are today.
    Mr.  Stewart. Okay, and I appreciate that and I actually 
expected that would probably be your response.
    But again, Director, a long time has passed, and if we are 
going to hold people accountable it can't be accountable 5 
years down the road. In my opinion, it has got to be something 
more immediate than that.
    But once again, we appreciate what you are doing. I think 
you are trying to do the right thing here under maybe confined, 
you know, restrictions that are imposed upon you.
    But, my heavens, I just can't imagine that these 
individuals would have this type of attitude--cavalier attitude 
regarding, you know, their elected representatives and that 
they wouldn't be held accountable.
    But thank you. Do you want to respond, or----
    Mr.  Clancy. No, sir.
    Mr.  Stewart. Okay. I understand.
    Mr. Chairman, thank you. I yield back.
    Mr.  Carter. Thank you, Mr. Stewart.
    Mr. Cuellar.

                     WHITE HOUSE TRAINING FACILITY

    Mr.  Cuellar. Thank you, Mr. Chairman.
    I also want to echo what Chairman Rogers said, Mr. 
Director, on the issue with Peru. There is an issue, and even 
the Peruvians say that outside of Washington, we are the--they 
are the biggest printing press in the whole world.
    Why Peru? We don't know. But I think just having one Secret 
Service--and he is doing a great job, by the way, and under the 
circumstances.
    So I would echo Chairman Rogers that you all put a little 
bit more resources on that. Because even though I think you 
said you got $10 million, that is probably just a drop in a 
bucket as to what they are doing. So I would ask you to--
following Chairman Rogers--ask you to follow up on that and 
just keep our office posted on that.
    Second of all, Director, what are y'all doing to combat 
transnational organized crime that targets citizens and 
financial institutions in the U.S.? I do have a press release 
what y'all did in San Antonio, I think it was in January, where 
you did this San Antonio Electronic Crime Task Force and you 
brought people together. And I want to thank you. This is very, 
very good.
    I would encourage you to set up something, if you can talk 
to your folks, do something on the border. Also, I would be 
happy to bring you down to Laredo and work with your folks, and 
I will be happy to put folks from the border--law enforcement, 
state, local folks, academicians, whoever you all might need 
for the private sector to sit down. So I would ask you to--if 
you would do this on the border.
    Everybody talks about the border, but when they do events 
they usually do them 150 miles away. And I do represent San 
Antonio; I love San Antonio. But if we are going to talk about 
border, I would ask you to have your folks come down to the 
border. We will be happy to set that up for you, okay?
    The other question I have: Whatever happened to the--we 
talked about this a lot--the White House mockup. What was it, 
$15 million? How is that coming along?
    Mr.  Clancy. Well, we are committed to this White House 
mockup or building defense training facility. We are in the 
process now working out a revised master plan for our Rowley 
Training Center, out in Beltsville, Maryland, and we have to 
submit this master plan to the National Capital Planning 
Commission to get approval for what we want to do.
    We are definitely committed to this mock White House. We 
had an initial design that came back to us. We are going back 
to reevaluate that design to see where we are with that, but we 
have full intention of implementing the training facility.
    Mr.  Cuellar. I think last year we talked about a $15 
million, if I am going by memory. I hope that hasn't gone up 
because, as Chairman Carter says, you know, we gotta work with 
a tight budget.
    My experience dealing with the Federal Government is you 
start out with a number and then before you know it, it 
explodes. Has that gone up? And from what amount to what 
amount?
    Mr.  Clancy. I am not prepared to say what the amount would 
be, but I will say that I know the initial design came back, 
which was a little bit more elaborate than what we really had 
expected and the cost was going to be higher. So we have gone 
back to the drawing board in that regard.
    Mr.  Cuellar. Will you keep certainly Chairman Carter, and 
the members of the committee, the ranking member also, and 
myself what the cost is? Because we want to be supportive, but 
again, my experience has been is you start off with an initial 
number and I assume the number they gave you went up and not 
down.
    Mr.  Clancy. Yes.
    Mr.  Cuellar. So I would ask you to just keep us informed, 
because I originally thought the original amount was a lot, but 
again, I understand the purpose and the rationale. But I am 
interested in you keeping the cost as close as possible to the 
amount.
    Mr.  Clancy. Yes, Congressman.
    Mr.  Cuellar. Thank you so much.
    And again, the culture issues that were brought up the last 
time you were here, I know there are still some incidents but I 
do have to say, you are doing a good job and I appreciate your 
good service.
    Mr.  Clancy. Thank you, sir.
    Mr.  Carter. Very quickly, on the White House mockup, last 
year you asked for $8 million; we gave you $1 million. I know 
you are going forward and doing studies and so forth. Echo what 
Mr. Cuellar said, be sure and stay with us on this. Don't take 
us out on a limb and let it break off on us on this extra 
expense, okay?
    Mr.  Clancy. Which, Mr. Chairman, is exactly why we went 
back to get another design. We want to be good citizens here 
and with the budget here.
    But it is a critical element, as you have all addressed 
here. This would really help our training to move into the 21st 
century, with allowing our people to train on real-life 
scenarios with the exact grounds that we have at the White 
House rather than on a hard tarmac surface. So it is critical, 
but we know that we have to be very careful with the way we 
move forward.

                  PRESIDENTIAL NOMINATING CONVENTIONS

    Mr.  Carter. Just echoing what Cuellar said.
    Director Clancy, the Secret Service is responsible for 
securing both 2016 Republican and Democratic National 
Conventions. What is the state of planning for securing this 
year's political conventions in Cleveland and Philadelphia in 
back-to-back weeks in July?
    Do you have any credible threat information regarding the 
events to be held at these venues? Are you satisfied that your 
fiscal year 2016 funding, along with separate appropriations 
made available to host states, will be sufficient to cover all 
the foreseeable security costs of the convention?
    Mr.  Clancy. First, I want to thank the committee for fully 
funding the campaign, which includes these conventions. The 
conventions itself, there is a fixed cost of I think $19 
million, and $40 just for RNC and DNC, and then another $20 for 
associated costs with those conventions.
    But as it is now, we have had individuals specifically 
assigned to the conventions in Cleveland and in Philadelphia. 
They have been working with the local law enforcement for 
several months to work on everything from outer perimeter to 
credentials, and we are well on our way to providing a very 
good security plan for these events.
    As you have stated, Mr. Chairman, they are earlier this 
year than they typically are in the campaign year, so that does 
cause for some additional protection dollars coming out the 
convention. In the past, conventions were late August or maybe 
early September, and now coming out of the conventions in July, 
we will have additional protectees.
    We will have the President-elect--I am sorry, the 
candidate-elect and the Vice President-elect for both parties, 
and that will add some additional requests. Well, it is in the 
budget, but the costs go up as we move forward.
    Mr.  Carter. Are you in charge of the overall security for 
both the conventions? The Sanders campaign has brought a lot of 
new voters into the mix; the Trump campaign on the Republican 
side has brought millions of new voters into the mix.
    In addition, we have already experienced violent outbreaks 
with protesters coming in to disrupt the campaign side of this 
stuff. Those of us that can remember back to 1968 remember what 
happened in Chicago, and nobody on either party wants to have a 
convention that ends up like Chicago back in 1968, where tear 
gas was fired, you know, weapons fired, a lot of really bad 
things happened there. I believe the National Guard even was 
called out for that Democratic Convention.
    So whenever, you know, whenever you see disrupters start to 
come in in campaigns, you are going to say, ``How big a project 
is this going to be?'' And I hope you are doing, like I said, 
threat analysis and intel to see if there is any rumors out 
there of organizations to come in to disrupt either convention. 
We don't need that. We have got enough problems without that. 
So that is----
    Mr.  Clancy. Mr. Chairman, I would just say that with 
these, they are designated as National Special Security Events. 
And as you noted, we are in charge of the overall security 
plans.
    We have 24 subcommittees for each of these conventions, and 
each of those committees has a unique responsibility, whether 
it is intelligence, as you rightly mentioned, where they work 
with all the federal, state, and local authorities to gather 
all of the intelligence, and we have already started that.
    Then we have a committee on transportation, just to make 
sure people can get to and from the sites. We have someone who 
works with the public affairs. And so there are 24 different 
subcommittees working on each individual component to make sure 
that these conventions are safe and that they are a positive 
event for all who want to attend.
    Mr.  Carter. Well, and I can say that I have been--I have 
attended some of the conventions and I have been very pleased 
with, overall, both the local and the Secret Service's 
participation in keeping people safe. When you are in big 
crowds in big areas in a strange city, yes, there are a lot of 
things that can happen to you and your wife if you are not 
careful. So thank you for that.
    Ms. Roybal-Allard.

                 RADIO SYSTEM: NATIONAL CAPITAL REGION

    Ms.  Roybal-Allard. Director Clancy, the budget request 
includes $27.2 million in additional funding to upgrade the 
Secret Service National Capital Area Radio System, and this 
request follows $16.8 million provided for phase one of the 
upgrade in the fiscal year 2016 bill.
    Can you elaborate on how the phase two funding will be 
used, what additional capabilities the new system would 
provide, and how it would improve reliability as compared to 
the current system?
    Mr.  Clancy. Yes. Thank you for this question.
    This comes out of the Blue Ribbon Panel as well. As we 
talked earlier, they noted that our communications needed to be 
enhanced and replaced.
    Additionally, I have to credit the Office of the Inspector 
General, who did a study as well. And although they saw that 97 
percent of our radios worked well around the White House 
complex, they rightly stated that we can't have any failure at 
all. And I have to credit, again, Mr. Roth and his team for the 
review that they did.
    So this funding will allow us to--first of all, to assist 
our Joint Operations Center. Most of that equipment hasn't been 
replaced in 7 years. It is getting old; it is breaking down. We 
can't even find some replacement parts in some cases.
    But we are looking to the Joint Operations Center, which is 
where all of our alarms come in, all of our video feeds come 
in, so with funding, we will be able to replace that. And also, 
to allow more interoperability with our local partners--
Metropolitan Police and the Capitol Police--and take in some of 
their feeds as well. So the Joint Operations Center is going to 
be enhanced considerably.
    Additionally, we will continue what we have already started 
in fiscal year 2016, by getting radios out--handheld radios--to 
individual employees. They will be state-of-the-art with a lot 
of new features, and the coverage will be better using these 
radios.
    But more importantly, we did a survey throughout the 
National Capital Region where typically the President has 
events or visits or motorcade routes for dead spots. And with 
the help of our Washington field office, we identified these 
locations, and we are going to add an additional 56 repeaters 
and transmitters throughout the National Capital Region. And 
that all has an impact on how these handheld radios work. So 
that is a big plus-up for us as well.

                      RADIO SYSTEMS: FIELD OFFICES

    Ms.  Roybal-Allard. Okay. Could you talk a little bit about 
the status of radios and radio systems for the field offices?
    Mr.  Clancy. That will also be included in this funding. 
For example, I went out to Chicago and talked to the field 
office and surrounding field offices, in an effort to try to 
communicate with our workforce. I can't get out to everyone so 
I have actually moved to doing video messages and pushing out a 
video message when we have new policies or a state of the 
service, which for example, we released about a month and a 
half ago.
    But because of the bandwidth in some of our smaller 
offices, they haven't been able to view some of these messages. 
This new funding will help us with the bandwidth so that we can 
do a better job of communicating not only our messages, but 
also help us with our security. We have got to have a better 
infrastructure as we expand from our large field offices into 
the surrounding communities.

                           WHITE HOUSE FENCE

    Ms.  Roybal-Allard. Okay. Last year improvements to the 
current fence--I am going back to the White House fence--the 
improvements that were completed were an interim solution, as I 
understand it, and it was designed to make it more difficult to 
scale the fence and give officers on the White House grounds a 
critical few extra seconds to respond.
    Can you describe the improvements to the current fence and 
whether they are working more or less as expected? And what are 
the plans and the schedule for completing a new and permanent 
fence?
    Mr.  Clancy. Yes.
    The interim measure was placed on the White House fence in 
July of 2015. We knew that wasn't going to be an end-all, 
obviously, but it was going to buy us some time if someone did 
attempt to jump the fence. Since we put that up there, we have 
had one fence-jumper over the north fence, and we think it is a 
deterrent.
    I don't have metrics to show that because we don't know who 
has an intent to come over that fence, but one individual did 
get over the fence, and he was immediately contained just on 
the other side of the fence.
    But moving forward the permanent fence, will be a very 
complex and lengthy process. And we know that whatever fence we 
put in there has to last 100 years. We are not going to get 
another opportunity to do this.
    We could go in and just put up a higher fence, maybe a 10-
foot fence, but is that enough? Maybe you need a 12-foot fence. 
Is 12 feet enough?
    And we have got to do some more studying with that. There 
are some other areas in a classified setting I could talk about 
where we want to do some things with the fence, but also a more 
comprehensive look at what we are doing there at the White 
House and the perimeter.
    The perimeter, as you know, every day--just last week we 
had--we have a buffer, as you know; you have walked in front of 
the White House. We have a bike rack there, and that has been a 
good help to us. We know people can get over the bike rack, but 
it gives us an early warning that someone has bad intentions.
    And just last week we had an individual who went over that 
bike rack, and we immediately--because we have added some 
additional posts--we immediately contained that individual 
before they could get to the fence.
    So in terms of the timeline, 2017 will still be used for 
design and to do more research on the type of fence that we 
need, and 2018 is when we expect to be able to actually put a 
shovel in the ground and start to build a more permanent fence.
    I can tell you that even last week we met with the National 
Planning Commission and the Commission on Fine Arts. They feel 
the same urgency that we do to get this project completed. But 
we have to do it right, and that is where we are, 2018, 
actually getting it into the ground, I think.
    Ms.  Roybal-Allard. Okay, thank you.
    Thank you, Mr. Chairman.
    Mr.  Carter. Mr. Price.

              COORDINATION WITH DHS SCIENCE AND TECHNOLOGY

    Mr.  Price. Thank you, Mr. Chairman.
    Director, I would like to address your relationship within 
DHS with the Science and Technology Directorate. The Secret 
Service relies heavily on your colleagues in the directorate to 
develop and validate tools that you and your agents use in the 
field every day. Unlike some of your other DHS counterparts--
counterpart agencies that have their in-house research 
capabilities, you are more dependent on the department's 
research and testing capability to ensure that you have the 
tools and resources needed to carry out your mission.
    So could you speak to that, to the way you work with S&T, 
the value add of that important relationship? And how is your 
ability to fulfill your mission related to funding for science 
and technology priorities?
    Mr.  Clancy. Yes. We have a very good relationship with the 
S&T Directorate in DHS. In fact, their director very recently 
came down to the White House complex, and we gave them a full 
tour of our facility and what we have in place.
    We have worked with them. One of the bigger problems today 
are unmanned aircraft systems (UAS's), the drones. And we have 
worked with them, as well as other partners outside of DHS, to 
try to come up with the best detection systems as well as 
mitigation.
    So this is a critical issue, the drone issue, for both DHS, 
Science and Technology, as well as us. So there are numerous 
meetings between S&T and our technical department directorate.

                       UNMANNED AIRCRAFT SYSTEMS

    Mr.  Price. I want to return to some of the other S&T 
projects perhaps, but on the drone issue, you catch my 
attention here. What is the Secret Service's particular take on 
that issue? How does it relate to the involvement of other 
agencies? How would you describe that?
    Mr.  Clancy. Well, it is a problem for everyone.
    Mr.  Price. I realize that. That is why I asked.
    Mr.  Clancy. Yes, sir.
    Again, it is a challenge for all of us. FAA, of course, is 
taking a role here with education. We have to educate the 
public and ensure that they know areas that they cannot fly 
these UASs, or unmanned aerial devices. We have worked with the 
Department of Defense because they have a lot of experience 
certainly out in the wartime zone.
    Our challenges are a little unique because we are in an 
urban environment. Some of the things that they can do to 
mitigate and detect drones in a military environment are 
different than we have here in an urban environment, where you 
have to be concerned about the public, and of course the public 
buildings, and so on.
    But the technology, though, is where we are working very 
closely and sharing. That is the important thing here, I think, 
is that there is a sharing of ideas. There is no holding back. 
And in fact, just a couple weeks ago my assistant director in 
technology informed me that they are working with the Germans 
now, too, to see what they have out there and the sharing of 
ideas.
    I know the Blue Ribbon Panel talked about how insular we 
are. We have made a committed effort to make sure that we 
branch out and we see all the good work that is being done out 
there. Science and Technology and DHS I know are doing the 
same. We are getting the best advice we can get.
    Mr.  Price. But on the ground in a specific setting, you 
know, a permanent setting like the White House or special 
events settings, I assume that those words ``detection'' and 
``mitigation'' are shorthand for a whole range of activities. 
To what extent does the Secret Service take on an independent 
or a proactive responsibility for this?
    Mr.  Clancy. Right. I don't want to get into specifics with 
regard to what measures we have in place, but I will say that 
beyond science and technology it also affects our staff that 
are on the ground, our uniformed officers.
    They are trained on what to look for. If they see a drone 
in the air, they know what to look for and how to respond to 
it. And then also our protective details, whether it be in the 
White House or whether it be on a trip in some other city 
throughout the country, they have specific protocols if one of 
these devices is in the air.

              COORDINATION WITH DHS SCIENCE AND TECHNOLOGY

    Mr.  Price. If I have another minute, could you return to 
S&T? Are there--or you could do this for the record--are there 
are other particular areas of collaboration where you are 
dependent on S&T and therefore S&T funding to support your own 
mission?
    Mr.  Clancy. In terms of S&T funding, I will have to get 
back to you on that, Congressman. But I will say that 
everything from our enhancements with CBR detection down at the 
White House to enhancements of our perimeter defenses, we work 
with S&T to see what the best types of systems there are out 
there--x-rays, et cetera, we will work with S&T.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr.  Price. Thank you.
    Thank you, Mr. Chairman.
    Mr.  Carter. Mr. Cuellar.
    Mr.  Cuellar. Chairman.

                        COOPERATION WITH MEXICO

    I live on the border, represent a large chunk of the 
border, so we understand what is happening across.
    We spend, I believe, about $18 billion, when you combine 
everything, on border security--north, south. A lot of money. 
So we play defense on the 1-yard line, what I call the 1-yard 
line. I would rather play defense on their 20-yard line instead 
of our 1-yard line.
    So the more we can do to work with the Republic of Mexico--
and I believe Secretary Osorio Chong is here or will be here 
Secretary Johnson, and I appreciate the work that they are 
doing--and whatever we can do with our Central American and 
other Latin American countries will be good.
    Could you tell us what your efforts are, in particular what 
you are doing with, keeping that in mind, moving the defense a 
little bit more--and the more we can do in those countries the 
better it is--what we are doing with the Republic of Mexico and 
Central America to address, you know, some of this 
transnational problems that we are seeing right now?
    Mr.  Clancy. I would just say that we have, again, a 
terrific relationship with the government of Mexico. We have an 
agent--we have an office in Mexico City----
    Mr.  Cuellar. I am sorry, just one agent?
    Mr.  Clancy. I believe it is one agent, yes.
    I am sorry, Congressman, I don't know that number off hand. 
I will get it to you.
    I will say that just recently we had reason to work with 
the Mexican government. They had the Pope's visit in Juarez and 
they did a tremendous job.
    But knowing that we had experience with the Pope's visit in 
the fall. We offered any advice that they may want, but--and we 
did talk to--we sent our agents down there to talk to them, 
share our experiences. But again, I have to say that the 
Mexicans did a terrific job with protection of the pope just a 
couple of months ago.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr.  Cuellar. Okay.

                             HIRING PROCESS

    Well again, I would ask you to institutionalize the working 
relationship with the Republic of Mexico and Central America, 
because again, the more we can do outside the 1-yard line 
defense, the better it is. So I encourage you to do as much as 
you can under our tight budget that we have.
    And again, I appreciate--I know changing the culture has 
been hard. We talked about it a lot. I know Chairman Carter and 
members of the committee, we talked a lot about it, and I know 
there is still once in a while an incident, but I--you know, 
keep addressing the culture within the Secret Service because 
you have a lot of good men and women working in our government, 
so I appreciate that.
    And the final point, because I know you have got to go, but 
the last point is the hiring process--and I know this has been 
an issue with Homeland--it takes a long time. You start out 
with jobs.gov and then you go to process. I understand from 
your earlier testimony you have been reducing that.
    So the more you can keep working on that, the better it is, 
because I have had people say, ``I am not going to wait a year 
or a year and half.'' By that time they move on to something 
else. So whatever you can do to shorten that time up, I really 
would appreciate it.
    Mr.  Clancy. Yes. I will just comment on that one item. We 
have instituted these--we call them ELACs--these Entry Level 
Assessment Centers, where we bring in candidates and we give 
them interview, and a test. If they pass the test, then there 
will be a super interview and a scheduled polygraph in the very 
near future, if not that weekend. So we are condensing it.
    Mr.  Cuellar. Keep working with the Hispanic-serving 
institutions and the black universities, also, and other 
places, of course. But there are pools of qualified individuals 
that you can start them as interns and move them on on that.
    But thank you so much. My time is up.
    Mr.  Clancy. Yes, sir.
    Mr.  Carter. Well, Director, I think we will end this 
hearing now. You have done a great job.
    We thank you for the great service you have done here 
lately. We are really proud of you. Keep it up. Keep up the 
good work and I compliment the service and thank them for a 
good job.
    Mr.  Clancy. Mr. Chairman, thank you.
    And, Ranking Member Roybal-Allard, thank you.
    And I want to commend your staffs, as well. We want to be 
as transparent--we want to be transparent, and your staffs have 
been very patient as we have gotten our structure together this 
first year. But my thanks to you and your staffs.
    Mr.  Carter. Well, we will continue to work together for 
the betterment of everything.
    Thank you, sir.
    We are adjourned.
                                          Thursday, March 17, 2016.

           UNITED STATES IMMIGRATION AND CUSTOMS ENFORCEMENT


                                WITNESS

SARAH SALDANA, DIRECTOR, UNITED STATES IMMIGRATION AND CUSTOMS 
    ENFORCEMENT
    Mr. Carter [presiding]. Good morning. This subcommittee 
will come to order.
    Director Saldana, thank you for being here. I understand 
you have your husband with you today. Would you like to 
introduce him to the panel?
    Ms. Saldana. Thank you very much, Chairman, yes.
    My husband unadvisedly wore pink this morning. He is in the 
pink tie.
    Mr. Carter. Well, he will get pinched--you will get pinched 
because you are not wearing green.
    Ms. Saldana. He, like----
    Mr. Carter. I would volunteer, too.
    Ms. Saldana. But he, like I am, from the great state of 
Texas.

                   Opening Statement: Chairman Carter

    Mr. Carter. Yes. Yes, ma'am. Yes, ma'am.
    Well, welcome. And you have had about 18 months under your 
belt now as director of Immigration and Customs Enforcement, 
known as ICE, and we look forward to hearing from you today, 
our subcommittee hearing on the department's fiscal year 2017 
budget request.
    I think I have used the word ``complex, diverse, and 
demanding'' to describe missions and responsibilities of every 
agency in the department which has appeared before us--before 
we got to ICE. ICE is no exception. To say the job is 
challenging is an understatement.
    ICE is the principal investigative arm of the DHS, 
responsible for preventing the exploitation of our borders by 
transnational criminal organizations while simultaneously 
securing our interior through the enforcement of our nation's 
immigration laws, apprehending and detaining criminal aliens. 
ICE agents, whether here or deployed abroad, serve on the front 
line to safeguard our country. We could not be prouder or more 
grateful for all they do.
    This committee also has a challenging job. It is our 
responsibility to ensure ICE receives the resources necessary 
to properly man, train, and equip your organizations; to enable 
it to successfully accomplish the myriad of missions assigned 
to it.
    The fiscal year 2017 budget for ICE is $5.9 billion in 
discretionary spending, an increase of $76 million over fiscal 
year 2016. Although the budget reflects an almost $140 million 
increase in Homeland Security Investigations, unfortunately the 
administration yet again resorted to budget gimmicks to achieve 
this increase, decrementing custody operations funding by $185 
million and reducing the number of detention beds by 3,087 from 
the mandated level of 34,000 to 30,913.
    This reduction makes no sense. The average adult daily 
population has steadily remained 33,000 since fiscal year 2015 
and shows no sign of retreating. In fact, with more localities 
cooperating with ICE through the Priority Enforcement Program 
and the potential lifting of the injunction against the 
executive order on DAPA, the requirement for detention beds is 
likely to exceed 34,000.
    This is unacceptable and will force Congress to search for 
offsets in your budget to fund the required number of beds. 
Today we expect you to provide a thorough explanation for this 
shortsighted decision.
    And before I turn to you, Ms. Saldana, I would like to say 
that the text that you have submitted will be in the record.
    And I would like to recognize our ranking member, Ms. 
Roybal-Allard, and congratulate her on the tree that was 
planted in honor of her father on the Capitol Grounds. I saw 
that, and red oak is a good tree. And we've got them in Texas.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

            Opening Statement: Ranking Member Roybal-Allard

    Good morning, Director Saldana, and welcome to this 
morning's hearing.
    Let me begin by saying how pleased I am that the advisory 
committee for family detention began its work last December. 
The budget proposes $57 million for 960 family detention beds, 
which is a significant reduction below the number of beds 
funded for the current year. This is a reflection of how the 
approach to families has changed over the past several months. 
As we have discussed, much more still needs to be done, and I 
am hopeful the advisory committee will play a significant role 
in addressing the serious issues that still exist.
    I was also pleased to learn of your announcement last week 
about an initiative to hire community relations officers to 
help improve relations with nonprofit organizations, community 
groups, local law enforcement agencies, and other stakeholders. 
My understanding of this initiative is that it will help 
generate constructive feedback that ICE can use to improve the 
way it carries out its mission.
    I believe there is real opportunity here, and I hope ICE 
will make the most of it because I continue to have serious 
concerns about how ICE is carrying out its immigration 
enforcement activities and detention operations. We have 
discussed those concerns a number of times, but I have yet to 
see the kind of progress that I have hoped for.
    I am specifically concerned that ICE's enforcement actions 
have targeted families with young children from Central America 
who are already traumatized by the violence in their home 
countries and the dangerous journey they took to escape that 
violence. It is unclear whether these families were given the 
opportunity to present themselves for removal, which might have 
made enforcement actions unnecessary.
    Also in question are ICE's tactics, which importantly have 
involved subterfuge and taking advantage of the fact that most 
families don't know their rights. These individuals are not 
criminals. Even a final order of removal doesn't mean they 
don't deserve to be treated humanely and with respect.
    Let me clarify that I am not suggesting ICE should not 
enforce our immigration laws or never remove anyone from the 
United States. What I am suggesting is that the current process 
fails to ensure due process to those seeking asylum--especially 
children.
    Most of us who were born and raised in this country and 
speak English would find it difficult if not impossible to 
navigate our immigration system by ourselves. Just think how 
impossible it is for a child. Yet more than 50 percent of 
unaccompanied children have no legal representation.
    To make matters worse, a Washington Post story earlier this 
month reported that a senior immigration judge--someone who 
trains other immigration judges--testified during a federal 
court deposition that he has taught unaccompanied children as 
young as 3 and 4 immigration law, and therefore they can 
adequately represent themselves. That is simply outrageous.
    It is true that currently there is no obligation for the 
Federal Government to provide legal representation. But we have 
to ask ourselves a crucial question as to whether due process 
can really exist without it.
    That is why Congresswoman Zoe Lofgren, Luis Gutierrez, and 
I have introduced the bill, ``Fair Day in Court for Kids.'' 
While I realize legal representation may be more of a 
Department of Justice issue, ICE needs to be sensitive to 
concerns of due process.
    Thank you again for being here, and I look forward to our 
discussion this morning.
    [The information follows.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Carter. Thank you, Ms. Roybal-Allard.
    Before we start with your statement, we are on a time 
crunch. We are told we are going to call a vote about 10:30, 
which is 20 minutes from now.
    And we will certainly complete your statement and we will 
maybe go to the first question. Then we will have to take a 
break and run off, and we will be back and we will finish after 
we get through with that vote.
    We will expect another vote around 12 o'clock, and 
hopefully we will be through by the time we have that second 
vote.
    So you are now recognized for your statement, and thank 
you.

                  Opening Statement: Director Saldana

    Ms. Saldana. Good morning, Chairman Carter--it is good to 
see you again--Ranking Member Roybal-Allard, and other 
distinguished members of this committee. I appreciate the 
opportunity to represent ICE's fiscal year 2017 budget request, 
and I really do appreciate the continued support you all have 
provided to our agency.
    We have the same objectives in mind: public safety, border 
security, treating people who are in our temporary custody with 
dignity and respect. All of these are values that, of course, I 
am particularly interested in and do my best to ensure occurs.
    This budget for fiscal year 2017 is largely in line with 
the enacted fiscal year 2016 budget. It is a sustaining budget, 
something that will help us continue what we started in 2015, 
are doing now in 2016, and try to accomplish our core missions 
of immigration enforcement, criminal investigations, and 
investing in technology that is going to bring us into the 21st 
century.
    The government is a slow and--can be very slow and 
burdensome sometimes. I find myself impatient with our 
progress, particularly in this technology area. But we are 
moving forward and doing the best we can. And I will share more 
details about that as we proceed.
    We continue to respond to the influx of families coming 
across the southwest border. You all have seen the numbers. 
Certainly the first 3 months of this fiscal year the number 
were going in the creasing--were increasing; the last couple of 
months it has been declining, but we are always standing ready, 
monitoring those carefully, and doing our best to stay on top 
of it and, quite frankly, in some cases trying to stay ahead of 
it.
    We have tremendous cooperative arrangements and working 
relationships with the governments which are largely involved 
in this influx: Guatemala, Honduras, El Salvador, and also 
Mexico. Mexico has been a great partner in assisting us with 
respect to all this.
    I remain committed, sir, to continue my law enforcement 
efforts that I started as a United States--assistant United 
States attorney and then United States attorney to ensure that 
the immigration laws are enforced effectively and, quite 
frankly, sensibly. We are focused on undocumented immigrants 
who are threats to public safety.
    Our numbers, I feel, reflect the quality if our efforts as 
opposed to maybe in some cases the quantity. Of the 235,000-
plus removals we had last fiscal year, over 98 percent fell 
into one of our top three priority enforcement--enforcement 
priorities that the secretary laid out in late 2014.
    We have a number of challenges. You alluded to that 
earlier.
    This is tough job. The 20,000 women and men of ICE are 
challenged left and right--almost literally from left and 
right. But they continue in their work because their interest 
is in the safety of our country, and I am very proud of that 
fact.
    Some of these challenges include court decisions, going 
both ways. When we believe a decision is wrong we challenge it, 
and we continue to do that. But we are not deterred in our 
overall effort.
    We are working with state and local jurisdictions with 
respect to Priority Enforcement Program. I am happy to report 
that I targeted the top 25 jurisdictions which had failed to 
honor our detainers in 2014. I made them a top priority in 
2015. Seventeen of those 25 have come back to us in some form 
or fashion to cooperate with us where they hadn't, so I do 
foresee an increase in some of the demands on our detention 
system.
    Further, we have asked for an additional 100 officers to 
continue this effort, focusing on the worst of the worst, in 
the Criminal Alien Program that we have, focusing on criminal 
aliens. And I trust the committee, if you have any questions, 
you will inquire about that, because we believe that is a very 
important part of what we do.
    The $2.12 billion we requested for current investigative 
efforts. HSI, Homeland Security Investigations, our 
investigative arm, as opposed to ERO, our administrative civil 
enforcement arm, certainly has had tremendous success. When I 
see that 239 transnational criminal organizations have been 
dismantled or disrupted by our efforts, I am very pleased with 
that.
    I am pleased with the fact that 3,500 of these involve gang 
members. We continue focusing on gangs and gang members in our 
investigative efforts.
    A million pounds of narcotics. We all know the dangers that 
drugs and in particular methamphetamine and heroin present to 
our, and we are committed to working with that.
    An area near and dear to my heart, human smuggling and 
trafficking, something I prosecuted as an assistant United 
States attorney: We have assisted more than 2,300 crime 
victims, including 384 human trafficking victims and 1,000--
this is where I give our people gold stars--1,000 children that 
we have saved from further exploitation.
    So part of this is the request of $43 million for our 
continued efforts and modernization of our technology. You all 
know. You all are the source of a number of inquiries we get 
from the Congress, and there about 100, I understand, 
committees, subcommittee that exercise some form of 
jurisdiction over Immigration and Customs Enforcement. We have 
to respond to those inquiries, and we are working very hard to 
modernize our technology.
    We are going to continue to play a critical role in 
fulfilling the Department of Homeland Security's national 
security, counterterrorism, border security, cybersecurity, and 
public safety mission, and I think the fiscal year 2017 budget 
reflects the resources necessary to support these efforts.
    In conclusion, I want to recognize the hard work and talent 
of our 20,000-strong Immigration and Customs Enforcement, both 
domestic and foreign. We are in 46 countries, including our VSP 
program, which is in 20 countries. I am very proud to represent 
them.
    And I should note here that we have been demanding more and 
more our--of our enforcement and removal people, Chairman, with 
respect to more investigations as opposed to just their 
traditional civil enforcement, more investigative 
responsibilities. And I look forward to working with the 
department, with this committee, with the Congress, and with 
our labor union representatives to try to correct some issues 
we continue to have in overtime compensation there.
    So I thank you for the opportunity to testify, and I am--
stand ready to answer your questions after your break.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                             DETENTION BEDS

    Mr. Carter. Thank you for your statement. And I will--of 
course it is part of the record.
    Director, as I mentioned in my opening statement, the 
fiscal year 2017 budget proposes to cut funding for ICE 
detention and reduce the number of detention beds from 34,040 
to less than 31,000. While the number of families being 
detained has dropped dramatically, the average adult daily 
population has been holding steady over 33,000 since the end of 
fiscal year 2015. Surprisingly, the fiscal year 2017 budget 
request proposes to reduce the number of adult detention beds 
by 1,327.
    Why is DHS proposing to reduce the detention capacity so 
dramatically when the current trend for adult detention remains 
33,000 and will likely increase significantly with the 
potential court decision on DAPA and the increases in ICE 
fugitive operations and Criminal Alien Program? And please 
explain these assumptions used to develop this number, and are 
they still valid today?
    Ms. Saldana. Thank you for that question, Chairman Carter.
    I think you have hit on an issue that has really obviously 
gotten my attention. Beds is a large part of our budget, and--
but I want to point out to you, you know that the budget 
process is a very long one.
    We formed our assumptions for this particular number back 
in 2015, even though it is for the 2017 budget, because of, 
obviously, the process. In the spring of 2015, you will recall, 
we had a tremendous decline in apprehensions at the border by 
CBP. The numbers I have seen are 65-plus, almost close to 70 
percent decline in apprehensions.
    And we have had a decline--we had--we were enjoying a 
decline in people we were taking into custody. That, to me, 
actually is good news, not necessarily bad. I know we may have 
some argument there.
    But I am very keenly aware of the situation. You all, much 
wiser and more experienced than I am in these areas, will make 
the ultimate decision on what our number should be, but we 
based it on the assumptions that we were dealing with the time.
    You are right. Currently we are at about 33,000. Of course, 
at the end of fiscal year 2015, you all have reminded me very 
often, our number was 29,000 for the year. So that is why we 
came in with this 30,000 number.
    Also looking at the fact that while we have a number for 
adults and for families, we appreciate the ability to react to 
a very volatile situation on the border and perhaps interchange 
the beds there as the need arises. So I am looking at it 
closely.
    I can commit to you, if we stay at the number or if you all 
choose to do something else with it, that we will follow it 
closely and monitor it daily.
    Mr. Carter. Well, first off, if you talk to the people who 
talk to the people that get apprehended--the Border Patrol--
they will tell you that detention is a deterrent to people 
coming across the border. If they think they are not going to 
be detained, more people will come.
    Secondly, to base it on the lowest number in 3 years is not 
good analysis. You don't even have to be a member of the 
government, you don't even have to be a member of law 
enforcement and live in the state of Texas to know that when it 
gets cold less people come across the river and when it gets 
warm more people come across the river. It has been going on 
that way for my entire lifetime, and I am getting pretty old.
    So everybody in Texas knows that. No analysis there. Cold 
weather, it is not as much fun to swim the river as it is in 
nice spring weather. And we generally see the uptick start in 
April, May, peak up until it gets too hot, and then it slows 
down again.
    So, I mean, it is--without the other problems that have 
been created with executive orders and other things that we can 
argue and not argue--I am not going to get into that--but I 
think it is a--you made an assumption based upon the best 
numbers you can find, and that doesn't work because if we run 
out of detention beds then we are scrambling to shovel money 
around to get you where you want to be.
    If ICE has less capacity to detain the number of criminal 
aliens, and recent border crossers, repeat offenders, and other 
high-risk population--which are required; they are priority 
detainees--how can you mitigate that risk?
    Ms. Saldana. Well, the secretary clearly directed us, and I 
have done in kind, have directed our workforce, that we are not 
going to release criminals who should be detained just because 
there aren't enough beds. We are going to do whatever we do, 
short of perhaps them spending the evening at my home, we are 
going to do whatever we can to make sure those people are 
detained.
    And let me just say, Chairman, I really do want this--to 
communicate this clearly: We don't do detention for deterrent 
purposes. Detention is specifically outlined in the statute. 
You have to be an expert in these laws and regulations to be 
able to maneuver around that.
    But we can't use detention as a punishment. Detention is 
for the specific purpose of taking custody of people who are 
going to be removed, and to remove them and ensure we can 
remove them. Those who are not detained, there is a reason for 
it.
    Judge, I am in law enforcement. This is what I do and what 
I know, and I assure you, if there is anyone that needs to be 
removed, we are going to remove them. But short of having an 
order, short of having travel documents, we cannot just remove 
somebody willy-nilly.
    Mr. Carter. The purpose of incarceration is three-fold. One 
is punishment. I didn't say punishment.
    I said deterrence. Number two is deterrence.
    And three is rehabilitation. You served as a criminal 
attorney. You know. You made that argument in court. I promise 
you, you have.
    Ms. Saldana. In a criminal context.
    Mr. Carter. In a criminal context, but it is--this is one 
of these like juvenile law, that falls into a civil category, 
but has people who are committing--some people who are 
committing acts that fall into the criminal code, okay? My 
whole point was if it slows down the flow, that is deterrence, 
okay?
    If somebody coming across says, ``I might get put in 
detention; I am not going,'' we haven't had to do any work on 
that guy. He is staying in Mexico or he is going back to 
Guatemala.
    Ms. Saldana. I mentioned that we don't operate in a vacuum. 
We have courts reviewing everything we do. You know we have a 
decision out of the----
    Mr. Carter. Look, we are not going to get in a discussion 
about courts.
    Ms. Saldana. But it says we cannot use deterrence.
    Mr. Carter. You can wait 5 years to get to some courts, 
okay? So let's don't get off on a tangent on courts.
    Ms. Saldana. I have to follow court orders----
    Mr. Carter. And let me finally say, and then we will go on 
to Ms. Roybal-Allard, this is like ``Groundhog Day'' for us in 
the Obama administration. We have had a request for a reduction 
in beds every year since--and the administration clearly wants 
to reduce the amount of detention beds. We have had it as low 
as 25,000--reduction down to 25,000 in my memory, and it has 
probably bounced around in numbers everywhere in that category.
    This is not new. This is every year, just like the movie 
``Groundhog Day,'' just bing, and there it is again.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Secretary Saldana, I would like to 
clarify something that Secretary Johnson told us when he 
appeared before the subcommittee in late February. In his 
response to a question about the potential for the Karnes and 
Dilley family detention facilities to be issued state operating 
licenses, the secretary seemed to indicate that simply the 
issuance of a state license would make the facilities fully 
compliant with the requirement that children be housed in 
licensed, non-secure facilities. But the licensing rule 
promulgated by the Texas Department of Family and Protective 
Services specifically states that it has no role in determining 
whether the family detention facilities are secure.
    In order to ensure the facilities also comply with the 
intent of the U.S. district court ruling, what changes will you 
require to be made at these facilities so they meet the 
requirements of being a non-secure state child welfare agency?
    Mr. Carter. Before you answer, I want to ask Ms. Roybal-
Allard, I didn't see that we are 10 minutes----
    Ms. Roybal-Allard. Okay.
    Mr. Carter [continuing]. We got 10 minutes left of the 
vote. We probably talked a little bit longer than we should 
have. Do you want to give her a chance on----
    Ms. Roybal-Allard. Maybe just that one? Just that one and 
then I have others. Okay.
    Ms. Saldana. Congresswoman, the welfare and well-being of 
the people in our custody is topmost in our minds of everyone 
who deals with the detention facilities, be it family or 
adults. You are right, we are in the middle of this licensing 
procedure in Texas. Also in Berks, actually, we have a battle 
going on there in Pennsylvania.
    We are constantly monitoring the safety and welfare of 
those facilities. We are constantly evolving. You know last 
year I set up that family advisory committee. They were in 
Dilley and Karnes this very week and reviewed, and I am very 
eager to hear back from them with respect to what they saw and 
what they considered.
    We have standards that must be complied with. There are two 
aspects to the court's order that you are referencing, both the 
secure part and the secure part I think is the part that you 
are in part focusing on.
    We--and the court's decision recognizes--rely--we can't 
license our own facilities. Every state, wherever we have a 
facility, with respect to those questions, has to do so. So 
that is why we are looking to Texas to see if we can get--
continue our license.
    I assure you, however, that the safety and welfare of the 
people in our custody is not determined by the state of Texas. 
It is determined by our people. And we have people on site; we 
have people who monitor those people; we have people who 
monitor the people who monitor, at the I.G.'s office and 
elsewhere.
    So it is a continuing concern of mine, and I keep up with 
it daily.
    Mr. Carter. Thank you, ma'am, and we will get back to you 
after we take a break to go vote.
    Ms. Saldana. If you don't need to, Judge, that is fine too.
    Mr. Carter. No, I would like to see you later.
    [Recess.]
    Mr. Fleischmann [presiding]. Madam Director, we are going 
to continue on with the hearing. It is my understanding that we 
are going to have votes called again, another vote series 
around 12:30 or so.
    I believe the ranking member, Ms. Roybal-Allard, is in the 
middle of her questioning.
    Ms. Roybal-Allard. Director Saldana, I would like to go 
back to the issue of the state licensing of Dilley and Karnes. 
I was not clear with regards to your answer.
    Clearly Dilley and Karnes are secure facilities. And simply 
by having them licensed differently does not change that fact.
    So my question really is that once they have received that 
license, in order for you to be able to place children there 
does that mean that it will then have to become a non-secure 
facility? Will the fence be taken down so that it is in 
accordance with the U.S. district court ruling?
    Ms. Saldana. So let me be sure I do answer your question. I 
am not sure I still understand it, but the court itself in 
Flores is what we are talking about--recognized that the state 
determines what is secure and not secure for purposes of 
meeting the--that obligation in the overall settlement 
agreement. The court recognized that.
    What I am saying to you is even if we get the license and 
they determine it is a non-secure facility, that doesn't end my 
responsibility and my job. I recognize that.
    But we will have met that on the letter of the law. We will 
have met that obligation under that. That is my understanding.
    Ms. Roybal-Allard. Okay, because my understanding is that 
the Texas Department of Family Protective Services has 
specifically stated that it has no role in determining whether 
the family detention facilities are secure. We will talk about 
this a little bit.
    Ms. Saldana. Okay.
    Ms. Roybal-Allard. Well, I am just concerned. I just want 
to make sure that simply by changing the designation of the 
facility, that then all of a sudden Karnes and Dilley are okay 
to place these children. Because clearly those are facilities 
that are not places where children should be at this point, 
based on what I saw when I visited. So that is my concern.
    Ms. Saldana. And I know we have had that conversation in 
your offices, or Congresswoman Lofgren's offices. I am happy to 
talk more about that with you.
    Ms. Roybal-Allard. Okay. And what is the current average 
length of stay at Karnes, Dilley, and Berks right now? Do you 
know?
    Ms. Saldana. It is still holding steady at about 17 days.
    Ms. Roybal-Allard. And are any families being detained 
beyond the 20-day period that the district court had 
established as the upper limit for a reasonable processing 
time?
    Ms. Saldana. What the court established on the 20-day is 
that there is a presumption of reasonableness there. It doesn't 
require a 20-day stay. It recognizes that there are reasons to 
detain people, under certain circumstances, for a longer period 
of time.
    So there may be some that--but the average I think tells 
you that it is--it would be probably few and far between.
    Ms. Roybal-Allard. And do you know what percentage of 
arriving families now spend at least some time in detention?
    Ms. Saldana. I have that number somewhere, Congresswoman, 
but I don't want to just speak out of memory.
    Ms. Roybal-Allard. Okay. Well, you can----
    Ms. Saldana. I will provide that later for the record.
    Ms. Roybal-Allard [continuing]. Provide that, yes, ma'am.
    The fiscal year 2017 budget proposes funding for 960 family 
detention beds, which is a significant reduction from the 2,760 
family beds funded for the current year. And I saw that last 
week you published a request for information for facilities and 
services provided in an innovative manner and which do not 
resemble traditional correctional practices.
    What are ICE's plans for consolidating its family detention 
facilities? And depending on what you get back from the RFI, is 
it possible that ICE will stop using Karnes and Dilley for 
families in fiscal year 2017?
    Ms. Saldana. Well, we are pretty much there on the decision 
on Karnes. We are probably going to convert that into--our 
plans are to convert that into an adult male--perhaps with 
children--facility, not family facility, as it now with largely 
women.
    Dilley will continue to exist. We will continue working 
there.
    And although with respect to Berks, the jury is still out. 
Our license continues there, but the jury is still out as to 
whether we will be able to win that challenge to--that is being 
made right now with respect to our license at Berks.
    So this is such an answer that is determined by so many 
different factors, not the least of which is what is going to 
be--what is happening on the border tomorrow or the month 
after. I know we all recognize the fact that there is a season 
for migration and then there are times when it is a little 
slower, but that is currently our plan.
    Ms. Roybal-Allard. Okay. What is the specific role of the 
advisory committee for family residential centers, and will it 
make formal recommendations to ICE on how to improve family 
detention?
    Ms. Saldana. We have left it intentionally fairly broad. 
They are not going to be running our family facilities. That is 
our responsibility.
    But they will be, as they did this week, visiting 
facilities, making recommendations to us. All of this is in a 
public setting, Congresswoman. Anybody can come visit our 
meetings when we have them.
    And as I say, I expect to hear back from them on their 
visit this week pretty soon. I am hopeful that we get some 
good, solid suggestions.
    Ms. Roybal-Allard. I would look forward to seeing what 
those suggestions are.
    Ms. Saldana. Thank you. And I was just handed by people who 
are brilliant that the average is at about 68 percent of 
families who are actually booked. So 32 percent, more or less, 
don't ever get booked in to one of our facilities.
    Mr. Carter [presiding]. Thank you, Ms. Roybal-Allard.
    Mr. Fleischmann. And thanks for helping out.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Good morning, Director Saldana.
    Ms. Saldana. Good morning.
    Mr. Fleischmann. Good to see you today.
    I have some questions for you regarding the family 
detention beds.
    The cost of beds for family units was $342.73 in fiscal 
2016. Yet the budget requested a drop in the average cost to 
$161.36. In addition, the request projects a decrease in the 
number of beds by 1,800 beds.
    While I applaud the effort to cut costs in this current 
fiscal climate, I am concerned as to whether this estimate is 
achievable. I have three questions.
    First, why does the request drop the number of beds so 
dramatically?
    Ms. Saldana. As I tried to say earlier and I may not have 
been clear enough, this was our number back at a time when 
actually our--the actions we had taken in enforcement were 
working, the government of Mexico was helping us with respect 
to stopping people at our southern border. This was looking 
fairly steady and even declining, so we based that number on 
that. That is why we did that.
    But again, I am going to be all over this. I will be 
looking at that very, very frequently.
    Mr. Fleischmann. Okay. So then you would agree with me the 
situation has changed to make that number not feasible?
    Ms. Saldana. It has changed, sir, and obviously that is 
part of what you are going to be doing with respect to looking 
at that request, I am sure.
    Mr. Fleischmann. I understand.
    Did you consult with industry in developing the cost 
estimate? If not, how did you develop it and how confident are 
you that the bed cost can be reduced so significantly?
    Ms. Saldana. Well, we have quite a few people who are 
experts who have been doing this for 20 and 30 years. I cannot 
answer your question as to whether there was a specific private 
consultant we used. We certainly use private sources for 
consultation. In the end the decision is ours.
    But let me just point out to you, you may remember that 
when we had that tremendous influx in 2014 we had to stand up 
Dilley and turn that on a dime, and as a result we paid dearly 
for those demands that we made to get the housing in shape, get 
it available. And we have just released that request for 
information with respect to trying to get facts that will help 
us decide how we are going to save this money.
    But we really do anticipate, since we had a lot of front-
end costs in the Dilley stand-up, that we will be saving that 
money and target it--this number for you.
    Mr. Fleischmann. Okay. And I have one final question. Thank 
you.
    What financial management controls does ICE have in place 
to ensure the service costs don't escalate outside the normal 
perimeters over time?
    Ms. Saldana. We have people who are constantly monitoring 
the contracts that we execute. They are looking at them. There 
is a family--there is a detention oversight group within our 
agency that looks at that.
    Our financial people are always on top of that, including 
our contract management people. They are very smart folks and 
they keep me in line with respect to managing those costs. So I 
rely on them and I am very confident that what they are telling 
me is accurate.
    Mr. Fleischmann. Thank you, Madam Director.
    And with that, Mr. Chairman, I will yield back.

                      PRIORITY ENFORCEMENT PROGRAM

    Mr. Carter. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Welcome, Director.
    I am glad to see you here and want to focus on a familiar 
topic but one that I think is at the heart of your mission and 
at the heart of the policy questions that we need to address. 
That has to do with priorities you set for immigration 
enforcement actions.
    The department's announced policy is to focus on people who 
pose a danger to the country--particularly convicted felons--
for enforcement action. That is a declared priority that I and 
others have applauded--widely applauded. In fact, it has been a 
priority of this subcommittee for many years to facilitate 
exactly that kind of focus.
    Now that was the original intent of the Security 
Communities Program, which lost some focus, unfortunately, and 
lost some support of local communities, and therefore was 
replaced by the administration with precisely this issue in 
mind of how to focus on the right people for enforcement, for 
deportation. And that is where the memo of November 2014 came 
from, recalibrated DHS policy.
    Once again, though, we seem to be in some danger of losing 
focus or losing clarity about what our priorities are and what 
this priority one, so-called, includes, and what the relative 
weight is that might be given to the different priority one 
categories. I am referring to, of course, the November 2014 
memo.
    And I am raising this issue based on several North Carolina 
cases. I am not going to go into the specifics of that, but 
that is how we learn where some problems lie often is in cases 
that come to our attention, whether they are anomalous or not.
    I mean, we have to ask the questions that I am going to ask 
you now. We have five priority one categories. Four of them I 
think are clearly within the guidelines or the standards that I 
earlier articulated: aliens engaged or suspected of terrorism, 
people apprehended--people convicted of an offense in 
connection with a street gang, aliens connected of an offense 
classified as a felony, convicted of an aggravated felony.
    Okay. Those categories, pretty clear.
    The fifth one is maybe more spacious and more problematic, 
just convicted. Seems to be--to target people who were turned 
away immediately at the border. All right, so that, too, we 
understand.
    Except when I look at these North Carolina cases I see some 
that weren't apprehended at the border. They might have been, 
but they haven't maybe shown up for a hearing, some may have 
been reentering the country. It is just clear that they do not 
fit that category of dangerous people or convicted felons.
    So my question is, what is the policy within these priority 
one categories, and can you put a percentage on these five 
components of priority one as to how many of the people you are 
going after fall under each of these categories?
    Ms. Saldana. Thank you, sir. Yes, this is the cornerstone, 
the foundation of the work we do now in the post-November 20, 
2014 memorandum era.
    We are razor-focused on criminal aliens. That is absolutely 
for sure, and I mentioned some of the stats with respect to the 
fact that in our detained population over 59 percent have a 
criminal conviction, the highest we have ever had in the 
history of the agency.
    But, sir, it is a two--it is a--this is what makes our job 
interesting. There are two aspects to what we do.
    There is definitely the focus on interior enforcement and 
getting people who do not belong in this country out of here. 
At the same time, there is the border security aspect.
    And while I was not here in November of 2014, I have heard 
from the secretary personally tell me about all the 
handwringing, the consultation, the work that went into 
deciding what part of the priorities is going to be focused on 
border security. And while we believe all of them are, the part 
that you are talking about, the recent border entrants, that is 
where we are trying to stop the flow of people continuing to 
come into the country.
    Because all our enforcement priorities with respect to 
criminal aliens and others will not serve us as well if we 
don't pay attention to stopping the flow. And that is why the 
date of January 2014 was used to say, ``If you can't show us 
that you were here in the country peacefully, abiding by the 
laws, before January of 2014, we are--you are going to be 
subject to removal.''
    Mr. Price. So this isn't a matter of just turning someone 
away at the border. This is a matter of fingering for 
enforcement action anybody who entered after that date no 
matter where they are in the country.
    Ms. Saldana. That is right. That is right.
    Mr. Price. All right. So here you are breaking up families, 
you are going after people who have no criminal record or 
criminal intent. It seems like we are back where we were in 
terms of a pretty indiscriminate approach.
    Anyway, do you have the percentages as to how many people 
fall in each of these categories?
    Ms. Saldana. Generally speaking, yes. Border entrants, it 
is about 42 percent, just a little bit over that.
    Gang members, a little bit over 1.5 percent. Many of the 
gang operations we have end up being citizens, unfortunately.
    Felons and aggravated felons, about 21 percent. These are 
the really serious criminals.
    And so that is approximately the number up to now. And that 
is just focusing on those categories.
    Mr. Price. Mr. Chairman, I know my time is expired. I will 
return to this. Thank you.

                       RELEASE OF CRIMINAL ALIENS

    Mr. Carter. Dr. Harris.
    Mr. Harris. Thank you very much.
    And thank you, Madam Director, for coming before the 
subcommittee.
    I am going to follow up a little bit about a letter that 
you sent to Mr. Grassley over on the Senate side February 11th, 
and it was in response to a letter he wrote on June 16, 2015 
about the release of criminal aliens, and especially looking 
into some details of the ones who subsequently were arrested 
for homicide-related crimes. You are aware of the letter you 
wrote back?
    Ms. Saldana. Yes.
    Mr. Harris. Okay. I hope so, because what you have is you 
have, you know, 120--I am going to get the number--124 criminal 
aliens who were released, who were actually in your custody and 
released who went on to commit 135 homicide-related crimes. 
And, you know, I think obviously you have a large task to do, 
but, you know Americans expect that someone who is here 
illegally and has a criminal record ought to be looked at 
really carefully before they are released back into the 
population.
    In fact, in the list--and, you know, it is on page seven of 
your letter in response--you know, two of those people had 
previous convictions for homicide. So let me get it straight: I 
mean, there really were two people who were held by--in 
detention with previous convictions of homicide who were 
released to subsequently be arrested for a homicide-related 
crime.
    That right? Is that what your letter implies?
    Ms. Saldana. If that is the facts of those two cases, yes.
    Mr. Harris. Well, it says there are two convictions--I am 
sorry, it is two convictions. It could be the same person 
actually had two convictions of a homicide. I am not sure if 
that is better or worse.
    Ms. Saldana. And I can't tell you to distinguish, but 
that--your point is--I understand your point----
    Mr. Harris. So under what circumstances would someone 
convicted of homicide be released instead of deported? I mean, 
is this, you know, a person who went to Zadvydas--the--let's 
hope I pronounced that right--Zadvydas ruling, or is that----
    Ms. Saldana. Can't do much better than you, sir. I think it 
is----
    Mr. Harris. Yes, I know. I----
    Ms. Saldana. Zadvydas.
    Mr. Carter. It is Zadvydas.
    Ms. Saldana. Thank you so much, Judge.
    Mr. Harris. Zadvydas, a silent D, huh?
    Ms. Saldana. Thank you so much, Judge.
    Yes. Now, Congressman, you----
    Mr. Harris. I mean, because otherwise it would be pursuant 
to a bond set by the DOJ's Executive Office of Immigration or 
an--or something that you all decided.
    Ms. Saldana. Exactly. Now, this is something--this is one 
of the reasons I designated this criminal--this community 
relations officers, is because there is so much 
misunderstanding of what we do and the fact that we are guided 
by this statute and the regulations.
    Mr. Harris. Sure. And I understand that but, you know, we 
go down the list. I mean, 22 were convicted of assault prior to 
their--you know, prior to their detention and release; 14, 
vehicle theft; 11, robbery; nine, possession of a weapon. I 
mean, someone convicted of possession of a weapon and they get 
released?
    I am not sure I--so I am--what I will do, and I will--and 
you don't have to respond. What I am going to do is I am going 
to ask you to follow up, because the senator didn't ask the 
question that way, is specifically those crimes that--I mean, 
homicide is a felony. I mean, there is no question that even 
under the highest prioritization--under any prioritization 
scheme they would be prioritized--is just to see if you could 
give me information if those, in fact, if any of them were 
related to the discretion that you have. Not the ones where you 
don't have discretion, where it is, you know, the 180-day 
detention limitation, things like that.
    Ms. Saldana. And let me just tell you the short answer with 
respect to last year, fiscal year 2015. Is that in----
    Mr. Harris. I think 2015 might be in here.
    Ms. Saldana. Yes. So we were at 57 percent there of 
discretionary cases. That came down from 61 percent in 2014. 
Currently we are at 37 percent.
    You know, I set up a committee to make sure that we double 
and triple check any criminal releases that are discretionary, 
sir. We do not release criminals unless there is--we are 
obligated to under Zadvydas, an immigration court judge has 
told us to do it.
    In those discretionary cases we do it on a case-by-case 
basis. But I am happy to delve further into that----
    Mr. Harris. No, I would appreciate that. And maybe we will 
have to figure out some solution because, you know, releasing a 
convicted--person convicted of homicide back into the community 
when they are here illegally is just an interesting concept.
    With regards to the Secure Communities Program being 
switched over to Priority Enforcement, what has been the 
response from those jurisdictions that previously were 
considered sanctuary cities as you converted from one program 
to the other?

                          PRIORITY ENFORCEMENT

    Ms. Saldana. All right. So if you don't mind, I am going to 
stay away from that term because, quite frankly, I don't know 
if you and I would agree on that definition.
    Mr. Harris. Well, I live in a sanctuary state, so I 
understand what the term means.
    Ms. Saldana. So I can tell you that with respect to what I 
did when we were trying to focus in on this issue and we 
converted into the Priority Enforcement Program is I asked my 
staff to identify the top 25 jurisdictions in the country, 
which at the time were responsible for something like, I don't 
know, 86 percent of the declined detainers--our detainers that 
are being declined.
    Let's laser-focus; let's have all hands on deck, including 
the secretary and the deputy--not that I directed them to do 
this; they did it on their own--but myself and our staff have 
been out working the field to make sure local law enforcement--
once again, that is my community relations folks that are going 
to be doing this in the future, but currently my field office 
directors, everyone is all hands on deck to explain to local 
jurisdictions these priorities and the Priority Enforcement 
Program.
    Currently, as I think I mentioned earlier, although I might 
have dreamt this, of those 25 jurisdictions, 17 have come to 
the table with cooperation. That is a big impact. And I haven't 
given up on the remaining eight because we will continue going 
back to those jurisdictions and asking them to work with us in 
a reasonable way.
    Our efforts have paid off. I think by that number it shows 
that.
    In the end, we--I think we have been persuasive because we 
all are interested. Local law enforcement are not interested in 
releasing criminals and having people victimized by people in 
the country illegally.
    We all have the public safety concern. And so I think that 
has carried the day so far, but we are continuing to work with 
those remaining eight.
    Mr. Harris. Thank you very much.
    I yield back.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Chairman, thank you so much.

                               EMPLOYMENT

    Director, again, thank you for your service. I think you 
are in a very difficult situation. On one side you have 
Republicans that think you are not deporting enough; then on 
the other side you got Democrats who are saying that you are 
deporting too many out there. So I know it is a difficult 
situation.
    Let me just direct your attention to recruitment and 
retention of employees, because I think I am seeing a pattern 
in homeland where a lot of the agencies are having a hard time. 
My question is, what are you doing to recruit, retain, and are 
you streamlining the process? Because it takes a long time to 
bring people onboard.
    Ms. Saldana. It does. And let's not forget the training 
part, even when we have employed them.
    We were very ambitious after the lapse in appropriations 
last spring of 2015. As soon as that was lifted we hit the 
ground running and brought on 800 positions or so----
    Staff. A thousand.
    Ms. Saldana [continuing]. A thousand--for the balance of 
the 6 months, furiously working to try to fill some of the 
positions.
    We still have a ways to go because, as you know, December, 
January, people are retiring. So when we make gains, we 
sometimes have to take some steps back.
    But what I charged our human capital people in particular 
with is I don't want to hear about delays and things get--I 
said, ``Let's do this as efficiently and effectively as 
possible, because we can't do anything unless we have the well-
trained, appropriate staff onboard.''
    And, by the way, I had my human capital number one person, 
officer, had been vacant, that position, for some period of 
time. Thank goodness we have an outstanding woman, Catherine 
Payne, who is now our human capital officer for the entire 
country, and she is laser-focused on my directive.
    She has--and part--much of our staff--has done several 
things. One of them is we are now doing like one-stop shopping, 
where we have gone to like five or six jurisdictions and done 
fairs where we say, you know, let's do the pre-employment 
interview; let's get--let's start the processing on the 
background; let's concentrate so you--we don't have to keep 
going back and saying, ``Now this is the next step.'' We are 
taking several steps at one time. That has really gained us 
things.
    We have got additional people focused on background checks, 
which are vital. We have gotta have them before people come 
onboard.
    As you said, a lot of agencies--investigating agencies--are 
in this box. Just within our departments, Secret Service is 
trying to find people, Border Patrol is trying to find people. 
We are all pushing against the same pot of people, so to speak.
    But as a result--and I was just in Georgia to see our 
FLETC. I don't know if any of you all have visited it, but it 
is an extraordinary place, the Federal Law Enforcement Training 
Center. We are all competing for place there, just to get our 
people trained when they get onboard.
    So one of the ideas that came up and we have adopted it is, 
you know what, get those people onboard. We will continue 
working with them to get them trained as early as possible in 
that tenure, but let's get them onboard.
    Mr. Cuellar. Thank you.
    Ms. Saldana. So----
    Mr. Cuellar. And thank you for doing that, because I know 
it is--you hire people and then the attrition rate comes in on 
that, so I appreciate it.

                            FAMILY DETENTION

    Real quickly, I added some language on transparencies of 
family detention facilities, and I think within 15 days and 
monthly thereafter you all were supposed to give the 
information in the committee. Maybe you are getting that. 
Because I am one of those Democrats that I believe in 
immigration reform, but I still want to see law and order at 
the border. I represent a good section of the border.
    So I would ask you all to give us this transparency 
language detail that we have sent to you.
    The last point I want to make is the area that I represent 
I got two very unique situations. Rio Grande Valley, part of my 
district, it is from fiscal year 2015 to February of this last 
year family units went up 149 percent, from 11,000 to 27,000 
for that same period of time, compared to fiscal year 2016. 
Unaccompanied kids went up 89 percent, from 12,000 to 23,000. 
The majority--the Rio Grande went up 90 percent, 133 percent on 
that.
    Then on the Laredo area I have a different type of 
situation. I have Cubans coming in.
    And I know your role is a little bit more limited because 
of the Cuban Adjustment Act, but just to give you an example, 
in fiscal year 2024--I mean fiscal year 2014, 24,000 Cubans 
came in; 15,000 came through the Port of Laredo. Fiscal year 
2015, 43,000 came in; 28,000 of the Cubans came in through 
Laredo. Fiscal year 2016 up to February 24th, 25,000--almost 
26,000--Cubans came in, and over 18,000 came through the Port 
of Laredo.
    So my district is one of the those that on the southern 
part I have, you know, the Central American folks coming in, 
and then in Laredo, my home town, I have Cubans come in. And I 
know that is more limited on that.
    Again, all I would ask is we play defense on the 1-yard 
line. The more we can play defense on their 20-yard line--and I 
know y'all have folks working in Central and Mexico and other 
places--the more you can do that, the better it is. Because 
otherwise they get to the border and they come in and they get 
to stay, quite honestly.
    Ms. Saldana. I understand that. And, of course, everyone 
here knows that we are in the middle of this transition period 
with Cuba, but I am quite sure that is going to be one of the 
top topics in the discussion as we move forward with them.
    Mr. Cuellar. Thank you so much for your service.

                                 HIRING

    Mr. Carter. I am going to recognize Mr. Young, but before I 
do I got a quick question on the hiring situation Mr. Cuellar 
was talking about.
    You are about to go to a polygraph investigation, and one 
of things that we have heard from CBP and others is one of the 
reasons for the delays in their hiring is waiting on 
polygraphs. So I don't know if you are aware of that, but that 
claims to be a delay almost across the entire DHS department, a 
lack of polygraph operators to get a schedule and get it done.
    And you are about to instigate--to put that into this--have 
you thought about that, and have you got any plans to not 
create something that further delays the hiring of people?
    Ms. Saldana. Well, yes. And you are right, there is a 
shortage just generally of polygraph examiners, and everybody 
is using them, and we were late to this game.
    But we are visiting with our colleagues that have already 
had that experience with respect to polygraphs. We are doing 
the best we can to try to identify--because we haven't started 
this, as I understand. We haven't started the polygraph 
examinations, but we are doing everything we can to ensure, put 
in place, you know, get people lined up, get contracts in place 
to try to find as many people to do these exams for us as 
possible.
    We are going to stay on that and just make sure it doesn't 
delay us any further.
    Mr. Carter. Well, it seems to be a problem and I wanted to 
raise a flag.
    Mr. Young.

                               DETAINERS

    Mr. Young. Hi, Director Saldana. Thank you for being here 
today.
    As you know, on February 3rd this year my constituent in 
Iowa, Sarah Root from Council Bluffs, was killed by a drunk 
driver, Eswin Mejia. Mr. Mejia entered this country illegally, 
and after posting bail on February 5th he has failed to turn up 
for mandatory sobriety tests and has not been seen since.
    After speaking to Ms. Root's father and learning the facts 
about the situation, it is clear there are serious mishandlings 
of Mr. Mejia's case. Specifically, the judge in this case 
should have more accurately assessed Mr. Mejia's flight risk.
    I know that you are aware of this. There was a hearing 
yesterday where Senator Sasse asked you about this.
    Do you believe that this is all just very unjust?
    Ms. Saldana. It is tragic. It is horrific. Again, you know, 
I am a prosecutor. I want those people in jail, in prison.
    We look at every case on a case-by-case basis. We rely on 
the professional judgment of our people evaluating risk, 
because that is what we do every day.
    You and I may disagree on looking at the same person, but I 
am 99.9 percent satisfied with the risk assessments we do. We 
even have a tool to help us with that.
    But I don't want to see a single one of these cases or hear 
about them. That is at the top of our list of fugitives. We are 
assisting the local police department and trying to locate him.
    Mr. Young. Eswin Mejia is at the top of your list of 
fugitives?
    Ms. Saldana. They are at the top of the list, and we have 
notified, through our transnational contacts that we have with 
governments--I believe he was from Honduras, and we have 
notified the government there that, ``Please be on the lookout 
for him.''
    We will find him. We will find him.
    Mr. Young. Do you think he will show up to his court 
hearing in 2017?
    Ms. Saldana. I would not put any money on that, sir, but we 
are looking for him and we are going to find him, with the 
assistance of the local police department.
    Mr. Young. Well, you said that this is unjust and, of 
course, I agree with you. It is tragic.
    And you mentioned in your opening statement that one of 
your priorities is to challenge unjust decisions. Thank you for 
that.
    There are state and federal roles in these kind of cases, 
but there seems to be a lot of confusion, based on what you 
read, Q&A from yesterday, about what exactly ICE's role is and 
when do they get involved. Can you elaborate on that?
    Ms. Saldana. Yes. So we are talking about, essentially, the 
transfer--the relationship between local government law 
enforcement and ourselves when we have a detainer on somebody.
    So what we will do is we have got databases that will tell 
us that somebody has been arrested by a local jurisdiction and 
that there is some information maybe that this person is in the 
country illegally. We run that check. Sometimes we are there at 
the jails; sometimes we are not allowed in the jails. And we 
will meet with that person and interview them to confirm, 
because it is not always the case they are in the country 
illegally.
    As I said, every decision we make, from apprehension to 
bonds to detention decisions, is made on a case-by-case basis. 
So we are looking at the facts relating to that situation and 
we decide, ``This is a risk. This is a flight risk or this is a 
risk to public safety.''
    So we will look at that, make that decision, and then it 
goes from there. Sometimes when we have to release them or 
put--they are put in removal proceedings. But we make that 
decision on detention while we have information from the local 
jurisdiction that there is a--they have been apprehended for a 
crime.
    Mr. Young. Well, yesterday you stated ICE did not follow 
through on a detainer request made by Omaha police for Mr. 
Mejia because Ms. Root had not passed away when Mr. Mejia 
posted bail. Can you elaborate on this? Because certainly she 
had passed away, because the bail was a few days later.
    Ms. Saldana. Sir, if I said that I didn't say that very 
clearly or very well. I believe what I said was our posting a 
detainer would not have saved her life. It, unfortunately----
    Mr. Young. But it kept him from being released----
    Ms. Saldana. Yes, it kept him from facing justice 
immediately. He will face justice, I am very confident. But it 
did keep him from facing justice.
    And that sounds fairly callous. I am very confident I would 
not have said that. What I was trying to explain is that at the 
time that we were looking at it, the facts we were looking at 
is that we had a serious injury.
    And as I say, sir, I don't want to see a single instance of 
where we have somebody on whom we do not place detainers and 
they abscond when they have been involved in such a serious 
situation. We have had conversations and we will continue to 
have conversations with our people in our training and 
everything else to consider that because, quite frankly, the 
priorities allow it with respect to federal interest cases. And 
that, to me, if I had been looking at this file I would have 
considered that heavily.
    Mr. Young. I would like to have some further conversations 
with you on this.
    Ms. Saldana. I would be happy to.
    Mr. Young. And I know you view this as a tragedy, but 
others have died in similar situations like this. Sarah Root is 
dead. Eswin Mejia is missing. A family in the community mourns.
    And I just don't think that we are doing enough, and I 
think this committee would stand with you in trying to do more 
to make sure that these things don't happen again.
    Ms. Saldana. Thank you. We are like-minded in that regard.
    Mr. Young. I yield.
    Mr. Carter. We will end this first round with Mr. Culberson 
and then start a second round.

                          PRIORITY ENFORCEMENT

    Mr. Culberson. Thank you, Mr. Chairman.
    Director, the secretary of homeland security testified 
earlier this year that there were a large number of--or still a 
number of large jurisdictions that are not participating in the 
Priority Enforcement Program. And in your testimony this 
morning you say that, quote--``16 of the top 25 jurisdictions 
with the largest number of detainers that declined to 
participate in Secure Communities are now participating in PEP, 
representing nearly half of the previously declined 
detainers.''
    It is 16 of the top 25, so which are the--what nine large 
jurisdictions are still refusing to participate and are not 
honoring detainers?
    Ms. Saldana. And as I said, I am very happy for that 
progress. And I think the number is more like 68, maybe close 
to 70 percent now of the detainers are being honored, or some 
form of----
    Mr. Culberson. Well, in these 25 largest jurisdcitions----
    Ms. Saldana. Yes.
    Mr. Culberson. So I am asking what are the--you say 16 of 
25, so who are the other nine? Is----
    Ms. Saldana. I can share that list with you, Congressman. I 
am still working with these jurisdictions. I will share the 
list with you----
    Mr. Culberson. I understand. Did you ask one of your folks 
back there? Somebody can tell you. Who are the nine?
    Ms. Saldana. I will share that list. What I am hesitant to 
do, sir----
    Mr. Culberson. You have got it with you. It is important. I 
would like to know who they are, and as----
    Ms. Saldana. And I will provide that to you. I am not 
saying I won't.
    What I am saying is shaming somebody is not productive when 
I am trying to work very closely with these----
    Mr. Culberson. I am not looking to shame them. We are 
looking to solve the problem.
    Ms. Saldana. And I will provide you that list.
    Mr. Culberson. They are going to honor detainers and they 
are going to follow federal law, or they are going to lose all 
their federal grant money. It is that simple. You want federal 
money? Follow federal law.
    I need to know the answer to that question.
    Ms. Saldana. And I will provide it to you immediately.
    Mr. Culberson. It is time-sensitive.
    Ms. Saldana. I will provide it to you immediately----
    Mr. Culberson. And I need the list of those--or all of 
them, actually. I want to know who those nine are, but then I 
would like to know who those 25 are, and then a list of those 
that are not honoring detainers. Could you provide that to me 
within the week?
    Ms. Saldana. That may be a little ambitious because I want 
it to be accurate, but we will attempt to.
    Mr. Culberson. Well, I know the list exists. You have 
already got it. I----
    Ms. Saldana. No, I thought you said--I am sorry--all of 
them.
    Mr. Culberson. Yes, I would like to know all of them.
    Ms. Saldana. The nine we can give you immediately.
    Mr. Culberson. Okay, great. Thank you. That would be super. 
And then I need to know who these--who the others are, as well.
    Ms. Saldana. Yes, sir.
    Mr. Culberson. Because it is my responsibility as chairman 
of the CJS Subcommittee to make certain that jurisdictions 
don't ask for federal money unless they are complying with 
federal law. So I need that list right away. Thank you very 
much.
    Ms. Saldana. Thank you, sir.
    Mr. Carter. Ms. Roybal-Allard.
    I guess I am next.
    Thank you.

                       ALTERNATIVES TO DETENTION

    It shows how much I like you, Lucille.
    Director, your budget requests project a significant 
increase in the number of participants eligible for the 
Alternatives to Detention Program for fiscal year 2017. Since 
the beginning of this fiscal year, the monthly average for 
participants in ATD has increased from 34,000 to 43,000. 
Despite this data, your request maintains the capacity at 
53,000.
    Given this large increase in such a short period of time 
and the projection for significant increases, is the request 
sufficient to meet the projected increases? What happens if 
53,000 ATD options are insufficient? Will you then detain more 
aliens or will you release more aliens?
    Obviously not all aliens on the detain docket are enrolled 
in ATD. What statistics do you have to support the 
effectiveness of ATD with regard to compliance with hearings 
and actual removals?
    Ms. Saldana. Let me see if I can remember all your 
questions. Let me start with the----
    Mr. Carter. I will go back through them for you if you want 
me to.
    Ms. Saldana. Let me start with the first one, and that is 
with respect to ATD and how ambitious we are. We are at 44,000 
or so now; we are looking at 53,000 overall.
    As you know, we are at the beginning of that peak season, 
we believe, where we may be seeing more people as the weather 
warms up. We also have that success that we have enjoyed in 
PEP, which may end up producing more people that we have and 
that we may end up using ATD for some of them.
    With respect to the last question on effectiveness, we have 
currently a pilot program, a family residential program that 
talks about--that has let out a contract to GEO, a contractor, 
to actually monitor and give us hard statistics on helping 
these people to make sure they show up for their hearings to 
the very end when it is time for removal and taking them back 
into custody if we are--if we have had to release them.
    I believe we will have some good numbers from that pilot 
study. But in the interim, my understanding is that we have had 
very good success with ATDs in terms of compliance of people at 
hearings for that--for the period of time that they are on 
release.
    Mr. Carter. What do you anticipate would happen if you 
exceed 53,000? I mean, based on some recent current events, 
that could happen.
    Ms. Saldana. It could, sir. That is part of my job is 
managing and watching the numbers and seeing where we are. Same 
thing with beds.
    We will keep a close lookout on it and we will keep the 
committee informed as to how things are----
    Mr. Carter. If this happens we gotta find the money.
    Ms. Saldana. I understand, sir.
    Mr. Carter. And effectiveness, you got a pilot going on 
that. When do you anticipate some kind of information from that 
pilot?
    Ms. Saldana. Well, it just started, Congressman, and I 
think in a few months we will have some results to share with 
you. Are----
    Mr. Carter. I used to do alternative to detention or 
incarceration in my county and we got monthly reports on the 
effectiveness of that. And we didn't have near the numbers you 
got, I will go along with it, but we had more than our share. 
And monthly reports make it--for people making determinations--
much more effective making decisions if you see whether 
something is working or not.
    Ms. Saldana. Absolutely.
    Mr. Carter. And the more you make those people report, the 
more they realize that they have got an obligation. And if you 
don't--if you leave them alone and let them roam, they go away.
    Ms. Saldana. Well, that is why we asked for that increase 
is because we think it is effective.
    Mr. Carter. Thank you.
    Ms. Roybal-Allard.

                           FAMILY ENFORCEMENT

    Ms. Roybal-Allard. Okay. Director Saldana, as you know, I 
and many of my colleagues have been concerned about ICE 
enforcement actions targeting families, particularly one that 
took place at the end of the winter holidays in which 
reportedly ICE agents used deceptive tactics to gain entry into 
homes.
    There are also reports that out of the 121 individuals who 
rounded up, 77 were deported within 4 days without ever 
speaking to a lawyer, despite available pro bono legal 
assistance at the detention center. Multiple women also 
reported asking to speak to a lawyer and being denied by ICE 
agents.
    While immigrants in civil deportations proceedings have no 
legal right to counsel, do you believe that the government has 
at least an obligation to respect the detainee's request to 
speak to a lawyer? And also, if you could answer as to whether 
or not ICE targets only individuals who have refused to comply 
with a removal order, or does it also target individuals who 
have not had the opportunity to voluntarily surrender 
themselves to ICE for removal?
    Ms. Saldana. The operation you are talking about, 
Congresswoman, was very targeted. It started with a large list 
of individuals who were possible candidates for the operation 
and ended up a very small list. And in fact, I think the 
numbers with respect to families was something like, across the 
country, 77 people that were actually apprehended.
    We do not go outside the priorities unless there is, as I 
said earlier, a federal interest or a good reason to do so. I 
don't know how much scrubbing we did, but we did it at the 
headquarters level, we did it at the local level, and we had 
supervisors reviewing that list. And as I say, it started out 
much larger than it was.
    I have heard some of these same reports. I will assure you 
that we have run down--everything we get a specific information 
on, we have run in down, and all the people involved in that 
operation were enforcement priorities.
    Now, you and I may disagree on whether we should be looking 
at recent border entrants. But to the extent that they were--
some families may have been involved, they probably fell into 
that category and that is the answer that we have at ICE, 
enforcement-wise, to trying to stop the flow of people. Because 
it makes a tremendous impression to put someone on a plane and 
return them to their country so that people can say--see it is 
not worth the dangerous trip to the United States to come here.
    But that issue of whether or not we should include recent 
border entrants was hotly debated, I understand, and that is 
where we came down. And it wouldn't have been somebody outside 
of those parameters.
    You and I have met about specific instances. To the extent 
you provide us any information on specific examples, we can do 
that.
    But I think I have shared this with you before, 
Congresswoman--I mean this: We are professionals at ICE. People 
may disagree, and they throw allegations at us all the time. 
Things are reported that are not accurate.
    I take every allegation seriously and I ask people to take 
a second and a third look. You know I have a special advisor, 
someone who interned with you not that long ago, Liz Cedillo-
Pereira, and she assists me in monitoring these situations.
    Ms. Roybal-Allard. Let me just stop you there, then, and be 
a little bit more specific in what I am trying to get at in 
terms of the allegations about multiple women asking to speak 
to a lawyer and being denied by ICE agents. Have you looked 
into that allegation?
    Ms. Saldana. Yes. Yes, we have.
    Ms. Roybal-Allard. And you are saying that that is not 
true.
    Ms. Saldana. Exactly. People are advised of their rights.
    But part of the targeting of this operation are people who 
have been through the process. We did not include anyone in 
that operation who didn't have a final order of removal; had 
had due process up one side, down the other; had exhausted 
their appeals. Not one single person in that operation fell 
outside of those--of that specific targeted population.
    From the moment they get into the door they are advised of 
people who provide legal services free. They have phones in 
which to make those--free phones in which to make phone calls 
to their legal representatives. Many of them are represented, 
and they----
    Ms. Roybal-Allard. I am running out of time, so I just want 
to say I think we need to look into this a little bit more. And 
we don't have the time to do that now, but I just want to make 
the point that even when a final order of removal is imposed 
and the time for appeal has closed, it doesn't necessarily mean 
that these individuals have been provided due process.
    And that is the reason that the Board of Immigration 
Appeals agreed to hear cases of several families taken into 
custody during the early January enforcement actions even 
though they had final orders of removal. And the issue is 
whether an individual really has been given fair access to 
effective counsel.
    I am over my time and I would like to follow up at a later 
time with you on this particular issue.
    Ms. Saldana. Certainly.
    Ms. Roybal-Allard. Thank you.
    Mr. Carter. Mr. Culberson.

                              ICE RELEASES

    Mr. Culberson. Thank you, Mr. Chairman.
    Director--according to your budget submission, ICE removed 
235,413 illegal aliens in fiscal year 2015. How many illegal 
aliens did ICE release during that same period?
    Ms. Saldana. Did ICE release?
    Mr. Culberson. Yes.
    Ms. Saldana. In this is 2015?
    Mr. Culberson. Yes, fiscal year 2015. If you removed 
235,000, how many did you release?
    Ms. Saldana. I have got that number, sir. Let me take a 
look at that.
    Mr. Culberson. Thank you.
    Ms. Saldana. And we are talking about general release as 
much as criminal.
    Mr. Culberson. Yes, fiscal year 2015, all releases. How 
many did you release who were in the country illegally during 
that same period, fiscal year 2015?
    Ms. Saldana. Okay.
    Mr. Culberson. Thank you.
    Ms. Saldana. You know, I am not finding that real quickly 
right now.
    Mr. Culberson. And also, if you see it there, how many did 
you release in fiscal year 2016?
    Ms. Saldana. Total removals in 2015--this is very--well you 
already know it is 235,000.
    Mr. Culberson. 235,000. Right. So how many were released?
    Ms. Saldana. I don't have that number right in front of me. 
And you know that in 2016 we are at 74,630 so far total 
removals.
    I don't have that number in front of me. I will have to 
give that to you in a little bit.
    Mr. Culberson. That is a very important number.
    Ms. Saldana. Yes, sir.
    Mr. Culberson. That is the one that concerns us all because 
it includes--how many of those people, for example, that were 
released fit into category one or two of priorities for 
removal?
    Ms. Saldana. Who have been released?
    Mr. Culberson. Yes.
    Ms. Saldana. If we have a reason to detain someone, if the 
statute provides our ability to detain someone, we are going to 
detain them. They are not going to be released unless they come 
within Zadvydas, which is that Supreme Court decision, or an 
I.J.--an immigration judge--has ordered it.
    Mr. Culberson. Okay. Then you will be able to tell me that, 
as well, if you would in a follow up.
    Your folks are going to provide me with a list of 
jurisdictions that are not honoring detainers, the list of 
jurisdictions--those large ones, the 25--and then that list 
show me the--those--there are 16 of the 25 you said that are 
now at least participating in PEP, and that is good news. And I 
will work with Jeremy back there on this--thank you, Jeremy--on 
letting me get ahold of that list soon as possible. And then 
Jeremy I guess would also provide me with how many folks were 
released in 2015 and 2016?
    Thank you.
    Ms. Saldana. Now it is 17, by the way. I don't want to give 
up that one. Instead of 16 out of 25, it is now at 17. We just 
added Miami-Dade and another jurisdiction, so it is 17 now.
    Mr. Culberson. Miami-Dade is honoring--is participating in 
the PEP program.
    Ms. Saldana. Yes, as of about a month ago.
    Mr. Culberson. But Miami-Dade still does not honor 
detainers.
    Ms. Saldana. I think it is only notifications, but----
    Mr. Culberson. What?
    Ms. Saldana. Notifications. That is that they want to be--
they will notify us before they release someone.
    Mr. Culberson. But they will not honor a detainer. They 
won't hold them.
    Ms. Saldana. I don't think so.
    Mr. Culberson. Miami-Dade will not hold them.
    Ms. Saldana. That is right.
    Mr. Culberson. Okay.
    What about Chicago--Cook County? Will Chicago hold people 
until you come pick them up?
    Ms. Saldana. That is one of the folks--the jurisdictions we 
are still working with. They have not, up to now, agreed to 
participate in PEP.
    Mr. Culberson. Will Cook County hold an individual until 
ICE comes and picks them up?
    Ms. Saldana. No.
    Mr. Culberson. Okay. Will Los Angeles hold an individual 
until ICE comes and picks them up?
    Ms. Saldana. They will notify us.
    Mr. Culberson. Will Los Angeles hold them until ICE comes 
and picks them up?
    Ms. Saldana. Well, they can't hold them beyond the 72 hours 
even under a detainer.
    Mr. Culberson. I understand. Will they hold them at all? 
Will they honor your detainer?
    Ms. Saldana. Well, in--at--in Los Angeles it is----
    Mr. Culberson. Same question as Miami and Cook County.
    Ms. Saldana. They are far different from Cook County. We 
have an arrangement, and actually it is even in writing, with 
them with respect to notifications. So they will hold them for 
a period of time. As they process them out they give us notice 
and we come pick them up.
    Mr. Culberson. But they will not honor a detainer.
    Ms. Saldana. They do not honor detainers.
    Mr. Culberson. Los Angeles.
    Ms. Saldana. That is correct.
    Mr. Culberson. Okay. Does San Francisco honor detainers?
    Ms. Saldana. No.
    Mr. Culberson. What other major jurisdictions come to mind 
that don't honor detainers?
    Ms. Saldana. Currently Seattle.
    Mr. Culberson. Okay.
    Ms. Saldana. Significant, substantial size, that is all I 
can recall right now.
    Mr. Culberson. Doesn't the state of California have a law 
that forbids the jurisdictions or even the state from honoring 
detainers?
    Ms. Saldana. It has the Trust Act, sir, which is a legal 
morass. In my view it is very hard. But yes, part of it is to 
discourage cooperation.
    But obviously since we have a number of jurisdictions in 
California cooperating with us, we have been able to work with 
the legal departments of those entities to see if we can either 
find a way to work within the Trust Act or make some 
arrangement. And in a number of jurisdictions we have been able 
to do that, including Los Angeles.
    Mr. Culberson. The purpose of the Trust Act is to 
discourage cooperation with federal authorities on immigration 
status of people held in their----
    Ms. Saldana. I don't think I can opine on the purpose, sir. 
You will have to ask the people who passed the law.
    Mr. Culberson. I am just confirming what you just said.
    Thank you very much, Mr. Chairman. I have gone over my 
time. Forgive me.
    Mr. Carter. Mr. Price.

                          PRIORITY ENFORCEMENT

    Mr. Price. Thank you, Mr. Chairman.
    Director, I would like to return to the question of the 
Priority Enforcement Program and who actually is prioritized, 
in terms of immigration enforcement.
    Let me first, though, indicate that an aspect of at least 
one of these cases that have come to my attention--and again, I 
am trying to just take cues from those cases. I know we can't 
adjudicate them here. But there is apparently a company policy 
that has to do with the places where people are apprehended, 
sensitive locations that might be involved.
    And I am reading here from a statement by Secretary 
Johnson--``When enforcing the immigration laws, our personnel 
will not, except in emergency circumstances, apprehend an 
individual at a place of worship, a school, a hospital or a 
doctor's office, or other sensitive location.''
    One of the troubling aspects of one of these cases is that 
a young man was picked up waiting for a school bus. But is 
there any reason to doubt that this is and should be and will 
be a department policy, as the secretary stated here?
    Ms. Saldana. We have it in writing, and I believe it is 
even posted on our--which I found kind of unusual--it is even 
posted on our website, our sensitive locations policy. We train 
on it.
    Mr. Price. All right.
    Ms. Saldana. We discuss it. We discuss situations where 
perhaps--because it is not all-encompassing. There is a 
recognition that there may be additional situations where some 
sensitivity is involved.
    And as I say, I have confidence that in 99.9 percent of the 
cases we make the right judgments with respect to that.
    Mr. Price. All right. I just wanted to confirm that that 
was, indeed, the policy and that this is a relevant concern to 
raise about cases that come to our attention.
    Ms. Saldana. And I just directed, Congressman, my field 
office directors to be sure to incorporate sensitive locations 
issues into their meetings with local communities and law 
enforcement.
    Mr. Price. Good.
    Now, let me return--we were rushed when you were going 
through these priority one categories and giving me percentage 
figures. The figures I have don't add up, so I want to ask you 
to revisit that.
    You said, I think, that maybe 42 percent category B. That 
is the one category that is not criminals or people who pose a 
danger, gang members. You said 42 percent were in that non-
criminal category, and that is--I want to return to that.
    But then I don't have the figures on these other 
categories, I suppose, that add up, or maybe I misunderstood 
you. If you can give them now and then maybe make sure you 
confirm the numbers for the record.
    Ms. Saldana. Yes, sir.
    Mr. Price. Yes. When we are talking about the--do you 
have--you said 21 percent, I thought, for both of the felony 
categories, but maybe I misunderstood.
    Ms. Saldana. Well, it is 42 percent or recent border 
entrants, 1.5 percent for gang members, 20.8 percent--I am just 
picking on specific priorities. I think you had mentioned 
recent border entrants in particular. Aggravated felons and 
felons, 20.8 percent. And----
    Mr. Price. In category A, those suspected of terrorism?
    Ms. Saldana. I don't have that percentage in front of me, 
sir.
    Mr. Price. Well, it doesn't add up to 100 percent. That is 
my point.
    Ms. Saldana. Right. And I didn't intend for it to.
    Mr. Price. Okay, so what is--what--who is not here who has 
been apprehended? Are these from priority two or----
    Ms. Saldana. I can give you----
    Mr. Price [continuing]. Or other categories----
    Ms. Saldana. I can give you that top-to-bottom if you will 
allow me to go back to the office and fill that in.
    Mr. Price. Yes. That is what I am saying. If you can give 
us the final numbers. I think it is highly relevant to our 
discussion to----
    Ms. Saldana. I will do that.
    Mr. Price [continuing]. To put numbers on this.
    And then I guess I am still left with some uncertainty 
about who is prioritized here. You know, I say that with some 
regret because I think we all want to get this right. I know 
you do. We have worked for years to get this right, to 
prioritize dangerous people, to get our immigration enforcement 
priorities where they need to be.
    And you and your department have devoted considerable time 
and effort to this, working with Secure Communities, deciding 
finally it needed to be replaced with a more focused effort. 
And now I must say there is some similar confusion creeping 
into this enforcement regime.
    And these cases I mentioned do--maybe they involve people 
who are entering for a second time. They clearly involve people 
who are in the interior of the country. Maybe didn't show up 
for a hearing--you know, the circumstance is different.
    But in any case, these are not dangerous people. They are 
not dangerous criminals. It escapes me why they should be 
prioritized.
    So I am looking, I suppose, for yet more clarity, both in 
statement and in actually the way policies are executed, as to 
where we are going with this and what it means to say that it 
is national policy to give absolute priority to dangerous 
people when it comes to deportation.
    Ms. Saldana. Two parts, Congressman: the danger, and then 
the border security part, trying to stop the bleeding at the 
border.
    That is why we chose that January 2014 date. I say we chose 
it; I wasn't here.
    But that was why that date was picked is because recent 
border entrants, we are trying to send a message that our 
borders are not open. And so that is why some of those people 
who are not--who have no criminal record but who can't show 
that they have been in the country since before January 2014 
are not otherwise in the--or apprehended at the border, for 
example, are turned back.
    Mr. Price. Well, all I can say is that if you are turning 
people away immediately at the border, that is one thing. We 
know that you have to do that, and that does send an important 
message.
    I think it is quite another matter when you are pursuing 
people in the interior of the country who have been here, who 
are parts of families, they are working, whatever, they have 
become more or less integrated into communities, and you are 
singling them out based on the date at which they entered, or 
what? I mean, it doesn't take too many cases of this sort to 
send uncertainty and fear and apprehension through the entire 
community and----
    Ms. Saldana. There should be no uncertainty. It is January 
of 2014. It is specified in the priorities.
    Those people do need to have a concern about being removed. 
That is that is what we do.
    We have settled this issue--the secretary did when he 
issued that November 20, 2014 memo. The president is behind 
this effort because we need to do something about border 
security and stopping the flow.
    I understand we disagree on that particular priority. We 
seem to agree on criminals and aggravated felons. But that is 
the policy that has been decided upon and I certainly can see 
your point of view, sir, but the enforcement is where we are 
focused on with respect to recent border entrants.
    Mr. Price. Well, there is a problem here in the way this 
policy is presented because the basic presentation, which, as I 
say, I applaud, is that we have our priorities straight; we are 
going to go after people who pose a threat, and that is what 
deportation in the first instance is all about.
    Priority one is not just about that, although I think that 
is the way it is often presented, and so understandably, when 
people in the communities, in the interior of the country, are 
being fingered for enforcement action, then it causes great 
puzzlement because these people don't seem to fit what the 
declared policy is all about.
    Ms. Saldana. Millions don't fit that priority who arrived 
here before January of 2014. Millions. We don't go after those 
millions, but we have, for example in this recent operation, 
gone after and were able to apprehend 77.
    So it is a message that the secretary is committed to, and 
we are going to continue to enforce the law that way. And, sir, 
I understand your point and that you disagree with that policy, 
but that is the policy we are guided by.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Carter. Well, thank you, Mr. Price.
    And, Mr. Cuellar, you will bat cleanup.

                       ALTERNATIVES TO DETENTION

    Mr. Cuellar. Thank you. Thank you so much.
    I want to support the chairman on the emphasis to the ATD, 
the alternatives to detention. And I certainly want to support 
the president's request for the $125 million--almost $126 
million.
    Could you just tell us what the cost is to do one of those 
alternatives compared to a cost of a detention for one 
individual compared to--what does it cost to provide the 
alternative to detention, and what does it cost to have 
somebody in the detention? I know I have seen those numbers 
before. You might not have them, but if you can get back to us, 
I would appreciate it.
    Ms. Saldana. Absolutely will, sir. I know we have those 
numbers. That is how we constructed the number we had. But I--
it escapes me at this moment.
    Mr. Cuellar. Yes. If you could just have somebody get back 
to us.
    Probably the other this is I am a big believer--again, I am 
on the border. I am one of those Democrats who believes in law 
and order and the border even though immigration reform is 
extremely important to me. But I believe in extending the 
defense from the 1-yard line.

                            OPERATION COYOTE

    Tell us how--and I assume you are still doing Operation 
Coyote?
    Ms. Saldana. Yes.
    Mr. Cuellar. Yes. And I know that was--has been successful. 
I have looked at some of the numbers.
    This is my last question: Can you just tell us how that is 
coming along and how you are working with our neighbors to the 
south, also?
    Ms. Saldana. Absolutely. I am happy to do that.
    So this is Homeland Security Investigations, and we want to 
break the backs of smuggling organizations, and that is why we 
have targeted Operation Coyote, Coyote 2.0, and it is just a 
constant part of our work.
    Those are pretty much like pretty bad people who will focus 
on vulnerable people who need--who feel like they need to come 
into our country and will do it even illegally. So we have a 
tremendous network of information, working with the government 
of Mexico in particular, and also the governments of Central 
America. Tremendous amount of information, and this is where 
our TCIUs--transnational criminal investigation units.
    And if I can just tell you, I know you probably know this, 
but this is using local law enforcement in these governments to 
assist us with finding these smuggling organizations and 
prosecuting them either in Mexico or, if they are part of an 
international operation, bringing them to the United States for 
prosecution.
    We have had good numbers. I think I mentioned overall the 
numbers with respect to the transnational criminal 
organizations that we have broken. But it is very much an 
important part of what HSI does and they do it very well.
    Fortunately, we have attaches in Mexico and all three 
Central American government countries, and they help us 
immensely in trying to do our domestic operations with respect 
to smuggling organizations.
    Mr. Cuellar. Right. And I want to thank you, because the 
more we do outside the U.S. border the better it is, because 
otherwise we will get into do we have detention centers, will 
we not have detention centers, how do we take care of folks, do 
we do this, do we deport people after this, and immigration, 
federal order there, what do we do. And again, the more we can 
do outside and work with those countries and extend our 
security, the better it is.
    Again, I want to thank the chairman and the ranking woman--
yes. And I want to thank the chairman and the ranking woman for 
their work.
    And I know as we put this budget together we want to thank 
you and the men and women that work for you.
    At this time we will yield to my good friend from 
California.

                          PRIORITY ENFORCEMENT

    Ms. Roybal-Allard. Thank you, Congressman, for yielding.
    I just wanted to just quickly respond to something that 
Congressman Culberson was asking. He had mentioned Los Angeles, 
as to whether or not Los Angeles would detain folks for you 
after the notification, and the answer is no.
    It isn't just an issue of ``just say no.'' I just wanted to 
make the point that constitutional issues are involved. There 
is some question right now about what constitutes probable 
cause. That is one reason.
    And secondly, local governments in Los Angeles, our budgets 
are already stretched, our jails are overcrowded as it is, and 
to be able to detain someone without any end to it until ICE 
gets around to it is problematic.
    Also, the fact that when they are being detained by local 
government, they do not get reimbursed by the Federal 
Government. That comes out of the local budget. And that is a 
big, big issue for local law enforcement.
    So I just wanted to throw that into the mix, in terms of 
responding to your question. Thank you.
    Mr. Cuellar. Yield back. Well I don't have any time, but I 
yield back the balance.
    Thank you, Mr. Chairman and Ranking Member.
    Mr. Carter. Under a higher court order, having to oversee 
overcrowdedness at a jail, those are valid arguments that Ms. 
Roybal-Allard makes.
    Mr. Culberson. May I?
    Mr. Carter. Yes.
    Mr. Culberson. Let me just say I understand what you are 
talking about, that that is--but that is their local decision. 
If they choose not to honor detainers, if they choose not to 
cooperate with ICE, if they choose not to share information 
with ICE, that is their local decision.
    But federal law requires them to share information. Federal 
law does require them to cooperate with ICE.
    And if they choose not to follow federal law, then that is 
their decision but don't ask for federal money. They are not 
eligible for federal grant money. That is an obligation of 
every federal agency, federal--local jurisdictions have to 
comply with federal law to be eligible for federal grant money, 
and that is my only point.
    They can keep their--if they want to keep their policy 
where they don't honor detainers they can do so, but don't ask 
for federal money.
    Ms. Roybal-Allard. L.A. is involved with the PEP program, 
so they are following----
    Mr. Culberson. Correct. I am glad they are honoring--I am 
glad they are working on the PEP program. But they are not 
cooperating with ICE; they are not honoring detainers as 
federal law requires, so therefore they are not eligible for 
federal law enforcement grant money.
    They can keep their policy. Just don't ask for federal 
money.

                         DETENTION ALTERNATIVES

    Mr. Cuellar. Mr. Chairman? I am sorry I gotta change the 
subject, but I want to follow up on what the chairman 
mentioned. I am changing the subject a little bit. I apologize.
    On this alternatives, I agree with the chairman about 
having monthly reporting. And I don't know what your logistics 
are. Maybe you are doing that.
    But if you have monthly reporting on the alternatives, at 
least we know if somebody is doing what they are supposed to be 
doing. And you could take it to another level and maybe go to 
detention if they are not reporting.
    I mean, it is a very cost-effective, but we have got to 
have some sort of performance measures on them. And I don't 
know if you do, but if we can do it at the local level, I know 
in Texas we do that--we have got to be able to report.
    And I don't know what the logistics are on a national 
basis.
    Ms. Saldana. And I will explain it to you more clearly in 
written form, Congressman, but I know that we do some 
assessment. As I say, that is why I said that it--we are very 
satisfied that it has been successful on the small scale that 
we are doing it.
    I mean, 25,000, now 53,000, is not that big. But I can get 
you more detail on that.
    Mr. Cuellar. Well, if we are going to add--and I don't want 
to speak for the chairman, but if we are going to add some 
money to alternatives, we have got to have some accountability, 
and a monthly--if it can be done across the country on the 
local basis, we can certainly do it.
    Thank you. Sorry, Mr. Chairman.
    Mr. Carter. All right.
    Well, thank you for this day. We almost got out of here at 
12 o'clock. We got a little wordy right there at the end.
    But we thank you for this, and we will be in recess.
    Ms. Saldana. Congressman, can I just----
    Mr. Carter. We will adjourn.
    Ms. Saldana. Can you reopen?
    Mr. Carter. Yes.
    Ms. Saldana. Okay. Just for me to say, I gotta tell you, I 
appreciate every viewpoint that is expressed here. I have a 
good understanding of some of the issues involved.
    I appreciate the courtesies you all extend to me. I have 
actually been in hearings where people scream and yell at me 
and it hurts my feelings tremendously, but I have always--I 
felt like this was a committee that I can deal with, and I look 
forward to continuing our relationship.
    Mr. Carter. We are all trying to meet the same goals. Thank 
you.
    Ms. Saldana. Thank you, sir.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                           W I T N E S S E S

                              ----------                              --
--------
                                                                   Page
Clancy, Joseph...................................................   257
Johnson, Hon. J. C...............................................     1
Kerlikowske, R. G................................................   113
Neffenger, Peter.................................................   173
Saldana, Sarah...................................................   303
Zukunft, Admiral P. F............................................   219


                               I N D E X

                              ----------                              --
--------
                                                                   Page
U.S. Department of Homeland Security (DHS).......................     1
    Airport Wait Times...........................................    59
    BioWatch Gen-2...............................................    41
    Budgetary Priorities.........................................    26
    Counterdrug Interdiction: Coast Guard........................    38
    Countering Violent Extremism.................................    31
    Cyber Attacks:
        Electromagnetic Pulses...................................    46
        Information-Sharing with State Governments...............    40
    H-2B Visa Process............................................    35
    Icebreaker Acquisition.......................................    52
    Immigration Enforcement:
        Cuban Adjustment Act.....................................    58
        Deportations.............................................    57
        Detention................................................    53
        Family Detention Centers.................................    60
        Interior Enforcement Efforts, Detention Beds.............    49
        Operation Phalanx........................................    33
        Policy...................................................    29
        Priority Enforcement Program.............................    50
        U.S. Immigration and Customs Enforcement Agents..........    51
    Joint Task Forces............................................    61
    National Security Cutters....................................    56
    Opening Statement: Secretary Johnson.........................     7
    Science and Technology Directorate's Budget..................    56
    Temporary Protected Status: El Salvador, Honduras, Guatemala.    39
    U.S. Government Accountability Office:
        Einstein Report..........................................    28
        High-Risk List...........................................    27
    Urban Area Security Initiative...............................    29

U.S. Customs and Border Protection (CBP).........................   113
    Opening Statement: Chairman Carter...........................   113
    Opening Statement: Ranking Member Roybal-Allard..............   117
    Opening Statement: Commissioner Kerlikowske..................   119
    CBP Staffing.................................................   141
    Border Security 


    Unaccompanied Children.......................................   144
    Drug Trafficking and Abuse 



    Visa Waiver Program 




    Social Media.................................................   151
    Integrated Fixed Towers 



    Border Security Metrics......................................   158
    Law Enforcement Cameras......................................   159
    Use of Force Policy..........................................   160
    Intelligence.................................................   161
    Cargo Screening and Preclearance.............................   162
    Forward Operating Bases......................................   164
    Export Enforcement...........................................   164
    Foreign Students.............................................   165
    CBP Staffing: Trade..........................................   166
    National Guard...............................................   166
Transportation Security Administration (TSA).....................   173
    Opening Statement: Chairman Carter...........................   173
    Opening Statement: Ranking Member Lowey......................   175
    Opening Statement: Ranking Member Roybal-Allard..............   177
    Opening Statement: Administrator Neffenger...................   179
    Checkpoint Security..........................................   194
    Checkpoint Security: Response to OIG Testing 



    Transportation Security Officers: Collective Bargaining 



    Vetting: Aviation Workers....................................   197
    Checkpoint Security: Disproportionate Focus on Efficiency....   199
    TSA Pre<check> <SUP>'</SUP>: Improved Safety.................   202
    Fee Increase Proposal: Offsets...............................   203
    Transportation Security Officers: Hours and Pay Schedule.....   207
    National Explosives Detection Canine Team Program............   207
    National Explosives Detection Canine Team Program: Private 
      Sector Canine Teams........................................   208
    Checked Baggage Screening: Preclearance Airports.............   209
    Airports Security: Non-sterile Areas.........................   210
    TSA Pre<check> <SUP>'</SUP>: Private Sector Enrollment 
      Expansion 



    TSA Pre<check> <SUP>'</SUP>: Enrollment Targets..............   211
    Secure Flight: Use for Expedited Screening...................   212
    Expedited Screening: Future Expectations.....................   212
    Checkpoint Security: Risk-Based Security.....................   213
    Federal Air Marshals Service.................................   214

United States Coast Guard (USCG).................................   219
    Opening Statement: Chairman Carter...........................   219
    Opening Statement: Congressman David Price (standing in for 
      Ranking Member Roybal-Allard)..............................   223
    Opening Statement: Commandant Zunkunft.......................   223

United States Secret Service (USSS)..............................   257
    Opening Statement: Chairman Carter...........................   257
    Cooperation with Mexico......................................   299
    Coordination with DHS Science and Technology 



    Counterfeiting: Peru.........................................   280
    Cyber-crime..................................................   283
    Hiring Process...............................................   302
    Opening Statement: Director Clancy...........................   262
    Personnel Accountability.....................................   286
    Personnel Misconduct.........................................   282
    Presidential Campaign........................................   284
    Presidential Nominating Conventions..........................   290
    Protective Mission Panel.....................................   281
    Radio System: National Capital Region........................   291
    Radio Systems: Field Offices.................................   292
    Staffing.....................................................   275
    Unmanned Aircraft Systems....................................   294
    White House Fence............................................   292
    White House Training Facility................................   288

U.S. Immigration and Customs (ICE)...............................   303
    Opening Statement: Chairman Carter...........................   303
    Opening Statement: Ranking Member Roybal-Allard..............   306
    Opening Statement: Director Saldana..........................   310
    Priority Enforcement Program.................................   329
    Release of Criminal Aliens...................................   331
    Priority Enforcement 





    Employment...................................................   333
    Family Detention.............................................   334
    Hiring.......................................................   335
    Detainers....................................................   336
    Alternative to Detention 




    Family Enforcement...........................................   340
    ICE Releases.................................................   342
    Operation Coyote.............................................   347

                                  [all]
</pre></body></html>
